<html>
<title> - THE IMPEACHMENT INQUIRY INTO PRESIDENT DONALD J. TRUMP: PRESENTATIONS FROM THE HOUSE PERMANENT SELECT COMMITTEE ON INTELLIGENCE AND HOUSE JUDICIARY COMMITTEE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




                                                                
THE IMPEACHMENT INQUIRY INTO PRESIDENT DONALD J. TRUMP: PRESENTATIONS 
  FROM THE HOUSE PERMANENT SELECT COMMITTEE ON INTELLIGENCE AND HOUSE 
                          JUDICIARY COMMITTEE

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                            DECEMBER 9, 2019

                               ----------                              

                           Serial No. 116-68

                               ----------                              

         Printed for the use of the Committee on the Judiciary


        Available: http://judiciary.house.gov or www.govinfo.gov



 THE IMPEACHMENT INQUIRY INTO PRESIDENT DONALD J. TRUMP: PRESENTATIONS 
  FROM THE HOUSE PERMANENT SELECT COMMITTEE ON INTELLIGENCE AND HOUSE 
                          JUDICIARY COMMITTEE


38-818

                                 ______

2020

 

 THE IMPEACHMENT INQUIRY INTO PRESIDENT DONALD J. TRUMP: PRESENTATIONS 
  FROM THE HOUSE PERMANENT SELECT COMMITTEE ON INTELLIGENCE AND HOUSE 
                          JUDICIARY COMMITTEE

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 9, 2019

                               __________

                           Serial No. 116-68

                               __________

         Printed for the use of the Committee on the Judiciary


        Available: http://judiciary.house.gov or www.govinfo.gov

                       COMMITTEE ON THE JUDICIARY

                   JERROLD NADLER, New York, Chairman
ZOE LOFGREN, California              DOUG COLLINS, Georgia,
SHEILA JACKSON LEE, Texas              Ranking Member
STEVE COHEN, Tennessee               F. JAMES SENSENBRENNER, Jr.,
HENRY C. ``HANK'' JOHNSON, Jr.,        Wisconsin
  Georgia                            STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida          LOUIE GOHMERT, Texas
KAREN BASS, California               JIM JORDAN, Ohio
CEDRIC L. RICHMOND, Louisiana        KEN BUCK, Colorado
HAKEEM S. JEFFRIES, New York         JOHN RATCLIFFE, Texas
DAVID N. CICILLINE, Rhode Island     MARTHA ROBY, Alabama
ERIC SWALWELL, California            MATT GAETZ, Florida
TED LIEU, California                 MIKE JOHNSON, Louisiana
JAMIE RASKIN, Maryland               ANDY BIGGS, Arizona
PRAMILA JAYAPAL, Washington          TOM McCLINTOCK, California
VAL BUTLER DEMINGS, Florida          DEBBIE LESKO, Arizona
J. LUIS CORREA, California           GUY RESCHENTHALER, Pennsylvania
MARY GAY SCANLON, Pennsylvania,      BEN CLINE, Virginia
  Vice-Chair                         KELLY ARMSTRONG, North Dakota
SYLVIA R. GARCIA, Texas              W. GREGORY STEUBE, Florida
JOE NEGUSE, Colorado
LUCY McBATH, Georgia
GREG STANTON, Arizona
MADELEINE DEAN, Pennsylvania
DEBBIE MUCARSEL-POWELL, Florida
VERONICA ESCOBAR, Texas
        Perry Apelbaum, Majority Staff Director & Chief Counsel
                Brendan Belair, Minority Staff Director


                            C O N T E N T S

                              ----------                              

                            DECEMBER 9, 2019

                           OPENING STATEMENTS

                                                                   Page
The Honorable Jerrold Nadler, Chairman, Committee on the 
  Judiciary......................................................     2
The Honorable Doug Collins, Ranking Member, Committee on the 
  Judiciary......................................................     6

                               PRESENTERS

Barry Berke, Majority Counsel, House Committee on the Judiciary
    Oral Testimony...............................................    12
Stephen Castor, Minority Counsel, House Committee on the 
  Judiciary
    Oral Testimony...............................................    23
Daniel Goldman, Majority Counsel, House Permanent Select 
  Committee on Intelligence
    Oral Testimony...............................................    35
Stephen Castor, Minority Counsel, House Permanent Select 
  Committee on Intelligence
    Oral Testimony...............................................    50

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Evidence from the House Committee on the Budget and the House 
  Committee on Appropriations for the record submitted by the 
  Honorable Cedric Richmond, a Representative in Congress from 
  Louisiana......................................................   129
A report from the Office of the Inspector General, U.S. 
  Department of Justice titled: ``Review of Four FISA 
  Applications and Other Aspects of the FBI's Crossfire Hurricane 
  Investigation'' for the record submitted by the Honorable Kelly 
  Armstrong, a Representative in Congress from North Dakota......   136
A letter from Congresswoman Lesko to Chairman Nadler for the 
  record submitted by the Honorable Andy Biggs, a Representative 
  in Congress from Arizona.......................................   644
A letter from Ranking Member Collins to Chairman Nadler for the 
  record submitted by the Honorable Andy Biggs, a Representative 
  in Congress from Arizona.......................................   647
A Politico article titled: ``Ukrainian Efforts to Sabotage Trump 
  Backfire'' for the record submitted by the Honorable Andy 
  Biggs, a Representative in Congress from Arizona...............   660
A statement from Checks and Balances on President Trump's abuse 
  of office for the record submitted by the Honorable Sheila 
  Jackson Lee, a Representative in Congress from Texas...........   683
Transcript of the July 25 call between President Trump and 
  President Zelensky submitted by the Honorable Sheila Jackson 
  Lee, a Representative in Congress from Texas...................   692
A letter from Ranking Member Collins to Chairman Nadler submitted 
  by the Honorable Jim Jordan, a Representative in Congress from 
  Ohio...........................................................   701
A letter from Ranking Member Nunese to Chairman Schiff submitted 
  by the Honorable Jim Jordan, a Representative in Congress from 
  Ohio...........................................................   707
A statement by House Committee on Oversight and Reform Chairman 
  Elijah Cummings for the record submitted by the Honorable Jamie 
  Raskin, a Representative in Congress from Maryland.............   714

 
 THE IMPEACHMENT INQUIRY INTO PRESIDENT DONALD J. TRUMP: PRESENTATIONS 
  FROM THE HOUSE PERMANENT SELECT COMMITTEE ON INTELLIGENCE AND HOUSE 
                          JUDICIARY COMMITTEE

                              ----------                              


                        MONDAY, DECEMBER 9, 2019

                        House of Representatives

                       Committee on the Judiciary

                            Washington, DC.

    The committee met, pursuant to call, at 9:06 a.m., in Room 
1100, Longworth House Office Building, Hon. Jerrold Nadler 
[chairman of the committee] presiding.
    Present: Representatives Nadler, Lofgren, Jackson Lee, 
Cohen, Johnson of Georgia, Deutch, Bass, Richmond, Jeffries, 
Cicilline, Swalwell, Lieu, Raskin, Jayapal, Demings, Correa, 
Scanlon, Garcia, Neguse, McBath, Stanton, Dean, Mucarsel-
Powell, Escobar, Collins, Sensenbrenner, Chabot, Gohmert, 
Jordan, Buck, Ratcliffe, Roby, Gaetz, Johnson of Louisiana, 
Biggs, McClintock, Lesko, Reschenthaler, Cline, Armstrong, and 
Steube.
    Staff Present: Amy Rutkin, Chief of Staff; Perry Apelbaum, 
Staff Director and Chief Counsel; Aaron Hiller, Deputy Chief 
Counsel and Chief Oversight Counsel; Barry Berke, Counsel; Norm 
Eisen, Counsel; Arya Hariharan, Deputy Chief Oversight Counsel; 
James Park, Chief Constitution Counsel; Joshua Matz, Counsel; 
Sarah Istel, Counsel; Matthew Morgan, Counsel; Kerry Tirrell, 
Counsel; Sophia Brill, Counsel; Charles Gayle, Counsel; Maggie 
Goodlander, Counsel; Matthew N. Robinson, Counsel; Ted Kalo, 
Counsel; Priyanka Mara, Professional Staff Member; William S. 
Emmons, Legislative Aide/Professional Staff Member; Madeline 
Strasser, Chief Clerk; Rachel Calanni, Legislative Aide/
Professional Staff Member; Julian Gerson, Professional Staff 
Member; Anthony Valdez, Fellow; Thomas Kaelin, Fellow; David 
Greengrass, Senior Counsel; John Doty, Senior Advisor; Moh 
Sharma, Member Services and Outreach Advisor; John Williams, 
Parliamentarian; Jordan Dashow, Professional Staff Member; 
Shadawn Reddick-Smith, Communications Director; Daniel Schwarz, 
Dirctor of Strategic Communications; Kayla Hamedi, Deputy Press 
Secretary; Kingsley Animley, Director of Administration; Janna 
Pickney, IT Director; Faisal Siddiqui, Deputy IT Manager; Kiah 
Lewis, Intern; Nick Ashley, Intern; Alex Espinoza, Intern; Alex 
Thomson, Intern; Miriam Siddiqui, Intern; Catherine Larson, 
Intern; Brendan Belair, Minority Staff Director; Bobby 
Parmiter, Minority Deputy Staff Director/Chief Counsel; Jon 
Ferro, Minority Parliamentarian/General Counsel; Erica Barker, 
Minority Deputy Parliamentarian; Paul Taylor, Minority Chief 
Counsel, Constitution Subcommittee; Ashley Callen, Minority 
Chief Oversight Counsel; Danny Johnson, Minority Oversight 
Counsel; and Jake Greenberg, Minority Oversight Counsel.
    Chairman Nadler. The House Committee on the Judiciary will 
come to order. Without objection, the chair is authorized to 
declare recesses of the committee at any time.
    Mr. Biggs. I object.
    Chairman Nadler. Objection noted.
    A quorum is present.
    We are conducting this hearing on The Impeachment Inquiry 
Into President Donald J. Trump: Presentations From the House 
Permanent Select Committee on Intelligence and the House 
Judiciary Committee pursuant to House Resolution 660 and the 
special Judiciary Committee procedures that are described in 
Section 4(a) of that resolution.
    Here is how the committee will proceed for this hearing. I 
will make an opening statement, and then I will recognize the 
ranking member for an opening statement. After that, we will 
hear two sets of presentations. We will hear 30-minute opening 
arguments from counsels for the majority and the minority of 
this committee.
    [Disturbance in hearing room.]
    Chairman Nadler. Order in the room. Order in the room. 
Order in the committee room.
    The committee will come to order.
    Obviously, I shouldn't have to remind everyone present that 
the audience is here to observe but not to demonstrate, not to 
indicate agreement or disagreement with any witness or with any 
Member of the Committee. The audience is here to observe only, 
and we will maintain decorum in the hearing room.
    And, again, I will say here is how the committee will 
proceed for this hearing. I will make an opening statement, and 
then I will recognize the ranking member for an opening 
statement. After that, we will hear two sets of presentations. 
We will hear 30-minute opening arguments from counsels for the 
majority and the minority of this committee.
    Then we will hear 45-minute presentations of evidence from 
the majority and the minority counsel from the Permanent Select 
Committee on Intelligence, followed by 45 minutes of 
questioning by the Chair and Ranking Member, who may yield to 
counsel for questioning during this period.
    Finally, all of our members will have the opportunity to 
question the presenters from the Intelligence Committee under 
the 5-minute rule.
    I would note that the President's counsel was given the 
opportunity to participate today, but the White House has 
declined the invitation.
    I will now recognize myself for an opening statement.
    No matter his party or his politics, if the President 
places his own interests above those of the country, he betrays 
his oath of office. The President of the United States, the 
Speaker of the House, the Majority Leader of the Senate, the 
Chief Justice of the Supreme Court, and the chairman and 
ranking members of the House Committee on the Judiciary all 
have one important thing in common: We have each taken an oath 
to preserve, protect, and defend the Constitution of the United 
States.
    If the President puts himself before the country, he 
violates the President's most basic responsibility: He breaks 
his oath to the American people. If he puts himself before the 
country in a manner that threatens our democracy, then our 
oath, our promise to the American people requires us to come to 
the defense of the Nation.
    That oath stands even when it is politically inconvenient, 
even when it might bring us under criticism, even when it might 
cost us our jobs as Members of Congress. And even if the 
President is unwilling to honor his oath, I am compelled to 
honor mine.
    As we heard in our last hearing, the Framers of the 
Constitution were careful students of history and clear in 
their vision for the new Nation. They knew that threats to 
democracy can take many forms, that we must protect against 
them. They warned us against the dangers of would-be monarchs, 
fake populists, and charismatic demagogues. They knew that the 
most dangerous threat to our country might come with within in 
the form of a corrupt executive who put his private interests 
above the interest of the Nation.
    They also knew that they could not anticipate every threat 
a President might someday pose, so they adopted the phrase 
``treason, bribery, and other high crimes and misdemeanors''' 
to capture the full spectrum of possible Presidential 
misconduct. George Mason, who proposed this standard, said that 
it was meant to capture all manner of great and dangerous 
offenses against the Constitution.
    The debates around the framing make clear that the most 
serious of such offenses include abuse of power, betrayal of 
the Nation through foreign entanglements, and corruption of 
public office. Any one of these violations of the public trust 
would compel the members of this committee to take action. When 
combined in a single course of action, they state the strongest 
possible case for impeachment and removal from office. 
President Trump put himself before country.
    Despite the political partisanship that seems to punctuate 
our hearings these days, I believe that there is common ground 
around some of these ideas, common ground in this hearing room, 
and common ground across the country at large.
    We agree, for example, that impeachment is a solemn, 
serious undertaking. We agree that it is meant to address 
serious threats to democratic institutions, like our free and 
fair elections. We agree that when the elections themselves are 
threatened by enemies foreign or domestic, we cannot wait until 
the next election to address the threat.
    We surely agree that no public official, including and 
especially the President of the United States, should use his 
public office for private gain. And we agree that no President 
may put himself before the country.
    The Constitution and his oath of office, his promise to 
America's citizens, require the President to put the country 
first.
    If we could drop our blinders for just one moment, I think 
we would agree on a common set of facts as well.
    On July 25, President Trump called President Zelensky of 
Ukraine and asked him for a favor. That call was part of a 
concerted effort by President Trump to compel the Government of 
Ukraine to announce an investigation, not an investigation of 
corruption writ large, but an investigation of President 
Trump's political rivals and only his political rivals. 
President Trump put himself before country.
    The record shows that President Trump withheld military 
aid, allocated by the United States Congress, from Ukraine. It 
also shows that he withheld a White House meeting from 
President Zelensky. Multiple witnesses, including respected 
diplomats, national security professionals, and decorated war 
veterans, all testified to the same basic fact: President Trump 
withheld the aid and the meeting in order to pressure a foreign 
government to do him that favor. President Trump put himself 
before country.
    And when the President got caught, when Congress discovered 
that the aid had been withheld from Ukraine, the President took 
extraordinary and unprecedented steps to conceal evidence from 
Congress and from the American people.
    These facts are not in dispute. In fact, most of the 
arguments about these facts appear to be beside the point.
    As we review the evidence today, I expect we will hear much 
about the whistleblower who brought his concerns about the July 
25 call to the Inspector General of the intelligence community.
    Let me be clear. Every fact alleged by the whistleblower 
has been substantiated by multiple witnesses again and again, 
each of whom has been questioned extensively by Democrats and 
Republicans alike. The allegations also match up with the 
President's own words, as released by the White House, words 
that he still says were perfect.
    I also expect to hear complaints about the term ``quid pro 
quo,'' as if a person needs to verbally acknowledge the name of 
a crime while he is committing it for it to be a crime at all.
    The record on this point is also clear. Multiple officials 
testified that the President's demand for an investigation into 
his rivals was a part of his personal political agenda and not 
related to the foreign policy objectives of the United States. 
Multiple officials testified that the President intended to 
withhold the aid until Ukraine announced the investigations. 
And, yes, multiple officials testified that they understood 
this arrangement to be a quid pro quo for the President's 
personal political benefit. President Trump put himself before 
country.
    The President's supporters are going to argue that this 
whole process is unfair. The record before us is clear on this 
point as well. We invited the President to participate in this 
hearing, to question witnesses, and to present evidence that 
might explain the charges against him. President Trump chose 
not to show. He may not have much to say in his own defense, 
but he cannot claim that he did not have an opportunity to be 
heard.
    Finally, as we proceed today we will hear a great deal 
about the speed with which the House is addressing the 
President's actions. To the Members of the Committee, to the 
Members of the House, and to my fellow citizens, I want to be 
absolutely clear: The integrity of our next election is at 
stake. Nothing could be more urgent. The President welcomed 
foreign interference in our elections in 2016. He demanded it 
for 2020. Then he got caught.
    If you do not believe that he will do it again, let me 
remind you that the President's personal lawyer spent last week 
back in Ukraine meeting with government officials in an 
apparent attempt to gin up the same so-called favors that 
brought us here today and forced Congress to consider the 
impeachment of a sitting President. This pattern of conduct 
represents a continuing risk to the country.
    The evidence shows that Donald J. Trump, the President of 
the United States, has put himself before his country. He has 
violated his most basic responsibilities to the people. He has 
broken his oath.
    I will honor mine. If you would honor yours, then I would 
urge you to do your duty. Let us review the record here in full 
view of the American people, and then let us move swiftly to 
defend our country. We promised that we would.
    I now recognize the Ranking Member of the Judiciary 
Committee----
    Mr. Biggs. Mr. Chairman----
    Chairman Nadler [continuing]. The gentleman from Georgia, 
Mr. Collins----
    Mr. Biggs. Mr. Chairman, I have a unanimous consent----
    Chairman Nadler [continuing]. For his opening statement.
    Mr. Biggs. Mr. Chairman, I have a unanimous consent----
    Chairman Nadler. The gentleman from Georgia is recognized. 
The gentleman from Georgia is recognized. The gentleman from 
Georgia is recognized.
    Mr. Collins. So you are not going to recognize a possible 
motion before me?
    Mr. Biggs. Unanimous consent, Mr. Chairman.
    Mr. Collins. A unanimous consent request? It is a unanimous 
consent request.
    Chairman Nadler. The gentleman from Georgia is recognized. 
We will entertain that later.
    Mr. Biggs. Point of order, Mr. Chairman.
    Chairman Nadler. The gentleman from Georgia is recognized.
    Mr. Biggs. Mr. Chairman, I have a point of order.
    Chairman Nadler. The gentleman will state his point of 
order.
    Mr. Biggs. Mr. Chairman, last week you were furnished with 
a proper demand for a minority hearing pursuant to clause 
2(j)(1) of Rule XI. In a blatant and egregious violation of the 
rules, you are refusing to schedule that hearing. Therefore, I 
insist on my point of order unless you are willing to 
immediately schedule a minority hearing day.
    Chairman Nadler. That is not a proper point of order in 
today's hearings. As I have told the Ranking Member several 
times now, I am considering the minority's request.
    Mr. Biggs. It is not to be considered, Mr. Chairman----
    Chairman Nadler. If the Ranking Member--the gentleman will 
suspend--if the Ranking Member thinks we would be violating the 
rules of the House if we considered Articles of Impeachment 
before holding a minority day hearing, his point of order would 
be timely at a meeting where we considered Articles of 
Impeachment. That is not the purpose of today's hearing, and 
the point of order is not timely.
    The gentleman from Georgia.
    Mr. Collins. Well, that got us started again, the chairman 
completely not answering a question. It is timely, and it is, 
frankly, not up to his discretion, but again and again, we have 
not really cared about that from the start to begin with. So my 
question is, is just schedule the hearing, but undoubtedly, 
that is not what they want out there.
    So let's start over now that the chairman has recognized 
and we have got that point. You know, there have been famous 
moments in impeachment. There have been famous moments in 
impeachment as we have gone forward. There are famous lines 
from Nixon, like, what did President and when did he know it? 
From the Clinton impeachment there was, I did not have sex with 
that woman.
    What would be known about this one is probably, where is 
the impeachable offense? Why are we here?
    I tell you, this may be, though, become known as the focus 
group impeachment, because we don't have a crime, we don't have 
anything we can actually pin, and nobody understands really 
what the majority is trying to do except to interfere and 
basically make sure that they believe the President can't win 
next year if he is impeached.
    The focus group impeachment takes words and then takes them 
to people and say how, can we explain this better because we 
don't have the facts to match it? A focus group impeachment 
says, you know, we really aren't working with good facts, but 
we need a good PR move.
    That is why we are here today. This is all about, as I said 
last week, a clock and a calendar. And it really became evident 
to me that this was true because last Wednesday, after we had a 
long day of hearing here, the next morning, before anything 
else could get started, the Speaker of the House walked up to 
the podium and said go write Articles of Impeachment. She just 
quit. She just stopped. Go write Articles of Impeachment.
    I appreciate that the majority practiced for 2 days this 
weekend on this hearing. I appreciate the fact that you have 
got to try and get it right to try and convince the American 
people of your problem. But your Speaker has already undercut 
you. She took the thrill out of the room. You're writing 
Articles of Impeachment. Why couldn't we just save that time 
today, and if you're going to write the Articles of 
Impeachment, go ahead and write them?
    Well, there is probably a reason for that, because as the 
chairman laid out some amazing claims, none of which I think 
after this hearing today the American people can honestly look 
at and see that there is overwhelming evidence, there is a 
proper reason he abused his power, because as the Speaker, 
another statement she said, that to do impeachment you have to 
be so compelling and overwhelming and bipartisan, all of which 
we are not.
    So why not? Why are we here? Well, I think we can do this. 
Let's look at the three things that typically are associated 
with making your case for a crime. Let's do it against what the 
majority has said. I think they have motive, they have means, 
and they have opportunity.
    What's their motive? It's November 2020. It's been said 
over and over and over again, the chairman said it again this 
morning, it's been said all along that we have to do this 
because if we don't impeach him, he'll win again next year.
    The reason is shown as clearly as last week on the jobs 
report and the economy. And as I had a man come up to me in the 
grocery store this weekend, he said, keep doing what you're 
doing. He said, I've never seen an economy this good. He said, 
people are working, people are being taken care of, and this is 
just a fatal distraction on a President that they don't like.
    Motive is easy. November 2016, they lost. January 2017, 
just a few minutes in, The Washington Post confirmed what every 
Democrat had been talking about: Now is the time for 
impeachment. We see tweet after tweet saying now let's get it. 
It's amazing that they start with impeachment, and then they 
spent 2 years trying to figure out, what do we impeach him on? 
Well, the means became what we see now.
    The means is, is to always talk about impeachment, to 
always say this President is doing something wrong, to say he 
is illegitimate, as the Chairman has said before, that he is 
not even a legitimate President. It is to constantly tear down 
at a President who is working on behalf of the American people.
    The sham impeachment. When we go through this, I think the 
chairman said something that was interesting. He said the 
President should not be above the law and should be held 
accountable for the oath of their office. I think Congress 
ought be held accountable for their oath of office as well and 
not to do what we're doing right now, and that is run a process 
that doesn't fit fairness or decorum, to run a process and a 
fact pattern that you are having to force against a President 
you don't like.
    Well, what was the opportunity? The opportunity came last 
November when they got the majority and they began their 
impeachment run. They began the process even as they were 
selecting the chairman. The chairman said that, I would be the 
best person for impeachment.
    This is November of last year, before we had any hearings, 
before we had even we were sworn into this Congress. For 
anyone, the media or watching on TV or watching in this room, 
for anyone to think that this was not a baked deal is not being 
honest with themselves.
    You see, presumption has now become the standard instead of 
proof. It should cause anyone to begin to question, because the 
entire case is built on a presumption, or as we found out last 
week from three scholars, that inference is okay. If you just 
infer that that is what they mean, then we will take that. That 
was an interesting line.
    You know, it was interesting, they made their whole case 
built on Gordon Sondland. You are going to see that a lot 
today. He testified that he presumed that the aid was connected 
to an investigation, but he said nobody ever told him that. 
When Sondland even asked the President directly, he said: What 
do you want? The President: I want nothing. I want Zelensky to 
do what he ran on. Ukraine did nothing and got the aid anyway.
    But do you know how I know that this is also a problematic 
experience? Just look over the past 3 weeks when the chairman 
of the Intelligence Committee--who, by the way, is absent 
today, I guess he can't back up his own report--but he started 
his own hearing by making up the factual call. When he made it 
up he started the fairy tale that we're having today. If you 
can't even put the transcript in the right context, just read 
it. Chairman Schiff couldn't even read the transcript. He had 
to make it up, because if he didn't make it up, it didn't sound 
as bad. It didn't sound as bad.
    He said, listen. He said, let's make up some dirt. That's 
not what was said, the transcript. The chairman misled the 
American people.
    As an attorney, as a chairman, as a Member of Congress who 
swore an oath to tell--basically to be honest with the American 
people and to uphold the Constitution, that was such a massive 
malpractice I've never seen. Because you know why? Again, they 
don't care about what actually was in the transcript. They 
don't actually care what happened. And we heard last week from 
witnesses they don't even care that the aid was released. They 
are simply looking at the facts to make it fit their narrative.
    Well, what else happened? You know, this is also the 
Chairman Schiff who also said that he has seen collusion in 
plain sight, that it was already there before the Mueller 
report ever came out, that all of this was going to happen. 
But, you know, I guess maybe I might need to just not stop 
commenting on Chairman Schiff and his comments because I may 
end up on the next phone records subpoena as we go forward.
    You see, we have taken a dangerous turn in this Congress. 
Subpoenas are fine properly done and should be done properly, 
but they should never be at the expense of a political 
vendetta.
    Professor Turley testified last week presumption is no 
substitute for proof. The current legal case for impeachment is 
not just woefully inadequate, but in some respects dangerous 
and the basis for impeachment of an American President.
    Today what we were supposed to get was--I love when my 
friends on the majority of this committee said Mueller. When we 
got the Mueller report, it didn't go real well. So we had a lot 
of hearings, didn't go real well. Then we finally got Bob 
Mueller, and they said this is going to be the movie version. 
In fact, what happened? They did--my colleagues on the majority 
had live readings from Capitol Hill. They made dramatic 
podcasts. They even wrote a comic book rendition that breathed 
life into the Mueller report.
    And it didn't work. So they brought Bob Mueller. This was 
the movie version. They told us Robert Mueller's testimony 
would be the thing that people watched and would be convinced. 
Guess what? They wasn't convinced. In fact, it fell flat.
    But, you know, today, I guess, is the movie version of the 
Schiff report. Except one thing: The star witness failed to 
show up. Mr. Nunes is here. His staff is here. The leading 
headline is there, Schiff report, but where is Mr. Schiff?
    In Mueller, Robert Mueller testified. The Ken Starr report, 
Ken Starr testified. The author of the Schiff report is not 
here. Instead, he's sending his staff to do his job for him. I 
guess that's what you get when you're making up impeachment as 
you go.
    So as we look forward here, there is going to be plenty of 
time to discuss the factual case for this and the statements 
that are not being made. What is very detrimental to me, 
though, is this: This committee is not hearing from a factual 
witness. This committee is not doing anything past hearing from 
law school professors and staff.
    We have not been given the--the chairman said something 
about the President not being able to come. Show me where he 
would actually have a proper process in this that is not 
talking to staff and not talking to law school professors, when 
we could actually have witnesses that would be called by both 
sides.
    But I want to say this in ending. I love this institution. 
I was here as a 19-year-old kid, as an intern, almost 32 years 
ago. This institution, as we see it today, is in danger. We see 
chairmen who are issuing subpoenas for personal vendettas. We 
see committees, such as the Judiciary Committee, that has held 
many, many substantive hearings, has been the very center point 
of impeachment, being used as a rubber stamp because we get not 
our marching orders from this committee and what it should be 
doing, but from the Speaker and the Intelligence Committee 
chairman. We are not able to do what we need to do because 
we're a rubber stamp.
    I love this institution, but in the last 3 days, over the 
last 3 or 4 days, I've seen stuff that just bothered me to no 
end, and it should bother everyone. The Speaker of the House, 
after hearing 1 day of testimony in the Judiciary Committee, 
said go write articles. Facts be damned.
    Al Green, another Member of the House majority, said we can 
keep impeaching him over and over and over and over again.
    Adam Schiff, when he told us he wasn't going to come, 
instead hide behind his staff, he also told us that we're going 
to keep investigating, because they know this is going nowhere 
in the Senate and they're desperate to have an impeachment vote 
on this President.
    The economy is good, job creation is up, the military is 
strong, our country is safe, and the Judiciary Committee has 
been relegated to this. Why? Because they have the means, they 
have the motive, and they have the opportunity. And at the end 
of the day, all this is about is about a clock and a calendar 
because they can't get over the fact Donald Trump is President 
of the United States, and they don't have a candidate that they 
think can beat him. It's all political.
    And as we have talked about before, this is a show. 
Unfortunately, today, the witness who is supposed to be the 
star witness chose to take a pass and let his staff answer for 
him.
    With that, I yield back.
    Mr. Biggs. Mr. Chairman, I have a point of order.
    Chairman Nadler. Thank you, Mr. Collins.
    Mr. Biggs. Mr. Chairman, I have a point of order.
    Chairman Nadler. The gentleman will state his point of 
order.
    Mr. Biggs. Mr. Chairman, clause 2(j)(1) of Rule XI requires 
you to schedule a minority hearing day, not to consider, not to 
meet to discuss it, but to schedule one, and to schedule it at 
a reasonable time, not after articles have been drawn, not 
after there has been a vote on Articles of Impeachment.
    I inquire and insist, Mr. Chairman, that you immediately 
schedule a minority hearing day or tell us why you are----
    Chairman Nadler. The gentleman----
    Mr. Biggs [continuing]. Ignoring the rules.
    Chairman Nadler. The gentleman--we've already gone through 
that. But I will repeat, that is not a proper point of order in 
today's hearing. As I've told the Ranking Minority Member 
several times, I am considering the minority's request.
    If you think we would be violating the Rules of the House 
if we consider the Articles of Impeachment before holding a 
minority day hearing, that point of order would be timely at a 
meeting where we considered such articles. It's not the purpose 
of today's hearing, and the point of order is not in order.
    Mr. Collins. Mr. Chairman, since I've been implicated in 
this, I'd like to ask for----
    Chairman Nadler. Without objection, other opening 
statements will be included in the record.
    Mr. Collins. Reserve my point of objection on that.
    Chairman Nadler. Okay. The point of objection----
    Mr. Collins. I have a question. You brought--you brought my 
name into this.
    Chairman Nadler. The gentleman----
    Mr. Collins. You have brought my name into this.
    Chairman Nadler. The gentleman will suspend.
    The gentleman is recognized.
    Mr. Collins. Okay. Thank you, Mr. Chairman.
    Telling me that you're considering you have nothing to 
consider--and you have told me that, I'll admit on record--is 
nowhere close to actually following your duty as a chairman to 
follow the rules.
    And so I think the point of order is very well taken. I 
think the issue that we have is not--I think your timing is--I 
mean, show me, please, in the rule, have your parliamentarian 
show me in the rules where you come to a time of actually being 
able to deny this up to a certain point.
    Mr. Sensenbrenner. Further reserving the right to object.
    Chairman Nadler. As I--as I've said----
    Mr. Sensenbrenner. Further reserving the right to object.
    Chairman Nadler. As I have said, the point of order would 
be in order at the meeting where we are considering articles--
--
    Mr. Sensenbrenner. Further reserving the right to object.
    Chairman Nadler. We will now hear presentations----
    Mr. Sensenbrenner. Mr. Chairman, I appeal the decision of 
the chair.
    Chairman Nadler. There is no decision to appeal. There was 
not a ruling and a motion.
    We will now hear presentations----
    Mr. Sensenbrenner. There's a ruling on the point of order.
    Mr. Gaetz. You made a ruling on the point of order, Mr. 
Chairman. You can't then not allow us to appeal the ruling of 
the chair.
    Chairman Nadler. The gentleman will suspend. It was not a 
cognizable point of order. It was not--it was not a cognizable 
point of order. It was not in order at this time to make that 
point of order. There is no ruling to appeal.
    Mr. Biggs. But, Mr. Chairman, the rule was your obligation, 
not consideration.
    Chairman Nadler. The gentleman--the gentleman----
    Mr. Biggs. You are obligated to schedule, not to consider. 
You made a ruling. It is in order to appeal.
    Chairman Nadler. The gentleman will suspend. We are doing 
what we have to do under the rules.
    We will now hear presentations of evidence----
    Mr. Gaetz. Mr. Chairman----
    Chairman Nadler. The gentleman is not recognized. We will 
now make presentations of evidence from counsel----
    Mr. Gaetz. I have a parliamentary inquiry.
    Mr. Collins. I haven't removed my objection yet.
    Chairman Nadler. I will not recognize the parliamentary 
inquiry at this time.
    We will now recognize presentations of evidence from 
counsels to the Judiciary----
    Mr. Gaetz. Is this when we just hear staff ask questions of 
other staff and the members get dealt out of this whole 
hearing?
    Chairman Nadler. The gentleman will suspend.
    Mr. Gaetz. In the next 4 hours, you're going to try to 
overturn the result of an election with unelected people 
giving----
    Chairman Nadler. The gentleman will suspend. This order--
this meeting will be--this hearing will be considered in--will 
be considered in an orderly fashion. The gentleman will not 
yell out and he will not attempt to disrupt the proceedings.
    We will now hear presentations of evidence from counsels to 
the Judiciary Committee for up to 60 minutes, equally divided.
    Mr. Collins. I have not removed my objection yet.
    Chairman Nadler. Barry Berke will present for the majority 
and Stephen Castor will present for the minority.
    Each of you will have 30 minutes to present. To help you 
stay within that time, there is a timing light on your table. 
When the light switches from green to yellow, you have 1 minute 
to conclude your testimony. When the light turns red, it 
signals your time has expired.
    Mr. Berke, you may begin.
    Mr. Collins. Mr. Chairman, you do realize I've never 
withdrawn my objection.
    Chairman Nadler. The gentleman will suspend.
    Mr. Collins. I've not withdrawn my objection. You've not 
talked to my objection. I want everybody to have an opening 
statement.
    Chairman Nadler. The gentleman will--the gentleman will 
suspend.
    Mr. Collins. I'm objecting to your opening statement 
comments, nothing else.
    Chairman Nadler. Mr. Berke is recognized.
    Mr. Collins. The steamroll continues.
    Chairman Nadler. Mr. Berke has the floor.
    Mr. Berke. Thank you, Mr. Chairman, Ranking Member Collins, 
and all the members.
    Before I had the great honor of being a counsel for this 
committee, my young son asked me a question. He said, Dad, does 
the President have to be a good person?
    Like many questions by young children, it had a certain 
clarity, but it was hard to answer. I said, Son, it is not a 
requirement that the President be a good person, but that is 
the hope.
    And it is not a requirement that the President be a good 
person. That is not why we are here today. That is not the 
issue.
    But the very document that created the awesome Presidency 
and its powers that we have made clear it is a requirement that 
the President be a person who does not abuse his power. It is a 
requirement that the President be a person who does not risk 
national security of this Nation and the integrity of our 
elections in order to further his own reelection prospects. It 
is a requirement that the President not be a person who acts as 
though he is above the law in putting his personal and 
political interests above the Nation's interest.
    That is the lesson of the Constitution. That is the lesson 
of the Founders. They were concerned that someone would be 
elected President who would use all the power of that office to 
serve his own personal interests at the expense of the people 
who elected him. They decided there needed to be a remedy 
because they had suffered the abuses of King George where they 
had no remedy.
    The remedy they imposed was that if a President commits a 
grave offense, a high crime or misdemeanor, this body has the 
power to impeach that President. They wanted to ensure that a 
President could not serve his own interests over that of the 
Nation.
    It flows from the very oath that all Members of this body 
must take, to support and defend the Constitution and bear true 
faith and allegiance to the same. That is why we are here 
today, and it is an unfortunate occasion that these proceedings 
are necessary, but the President's actions have left no choice.
    The Founders were very clear in spelling out what they saw 
to be the greatest abuses that would raise the most concerns 
for our Nation. They spelled them out as warning signals, that 
if a President violated or committed one of these, that would 
be a reason to potentially impeach that President. They were 
abuse of power, betrayal of the national interest, corruption 
of elections.
    And what is so extraordinary is the conduct we are going to 
be talking about today of President Trump didn't violate one of 
these, but all three.
    First, the evidence is overwhelming that the President 
abused his power by pressuring Ukraine and its new President to 
investigate a political opponent. The evidence is overwhelming 
that the President abused his power by ramping up that pressure 
by conditioning a wanted White House meeting and a needed 
military aid that had been approved in order to get that 
President to investigate a political rival.
    It is clear and overwhelming that in abusing that power, 
the President betrayed the national interest by putting his own 
political prospects over the national security of our country. 
It is clear that the President risked corrupting our elections 
by inviting foreign interference to knock out an adversary to 
help his prospects in reelection.
    It is why in debating the Constitution James Madison warned 
that because the Presidency was to be administered by a single 
man, his corruption might be fatal to the Republic. And the 
scheme by President Trump was so brazen, so clear, supported by 
documents, actions, sworn testimony, uncontradicted 
contemporaneous records that it is hard to imagine that anybody 
could dispute those acts, let alone argue that that conduct 
does not constitute an impeachable offense or offenses.
    This is a big deal. President Trump did what a President of 
our Nation is not allowed to do. It is why last week the 
constitutional scholar Professor Michael Gerhardt said, ``If 
what we are talking about is not impeachable, then nothing is 
impeachable.''
    President Trump's actions are impeachable offenses. They 
threaten our rule of law. They threaten our institutions. And 
as James Madison warned us, they threaten our Republic.
    Let me begin where we must, with the facts in evidence. 
First, it's important to understand why Ukraine was so 
important to our national security. Ukraine was under attack by 
its aggressive and hostile neighbor, Russia. They had already 
encroached on its territories. The Ukraine was at great risk 
that Russia would again take further territory or try. Europe 
had a stake in this, and so did we.
    I am going to turn to an expert on this, Ambassador Taylor, 
who is one of the most highly decorated diplomats and 
recognized diplomats. For over 40 years, he served our country 
honorably, and he was appointed by President Trump himself to 
be in charge of the U.S. Embassy in Ukraine.
    [Video shown.]
    Mr. Berke. That is Ambassador Taylor explaining why Ukraine 
was so important and explaining why the President's actions so 
significantly risked hurting our national security, our 
national defense policy, and our national interest.
    Now, you have already heard there is significant proof that 
President Trump himself told the new President of Ukraine, 
President Zelensky, that he wanted him to investigate a 
political rival, former Vice President Joe Biden, and you will 
hear a lot about that today.
    But that proof is only the tip of the iceberg. There are so 
many more events and meetings and contemporaneous text 
messages, emails, other documents that show this happened and 
happened exactly as it is alleged. And it is clear that in the 
scheme to pressure Ukraine to investigate a political rival, 
the person at the center of that scheme was President Donald 
Trump.
    The facts cannot be disputed. President Trump used the 
powers of government for a domestic political errand, to put 
his political interests above that of the Nation.
    I'm going to turn to another expert. I'm going to turn to 
Dr. Fiona Hill, the National Security Council Senior Director 
in the Trump administration, and she is going to explain what 
happened.
    [Video shown.]
    Mr. Berke. And that tells you what the evidence shows: The 
President put his own domestic political interests over the 
Nation's national security and foreign policy.
    A President cannot abuse his power to secure an election. 
He cannot do that at the expense of the American people. That 
is an impeachable offense.
    The President has tried to make excuses for his conduct, 
why it's not wrongful or corrupt or an abuse of power. But the 
truth holds together. It makes sense. It's consistent with the 
evidence.
    When someone is offering an excuse that is not true, it is 
not consistent with the evidence, it does not make sense, it 
cannot be squared with what the facts show, and you will see 
these excuses do not make sense. The facts are clear that 
President Trump put his own political and personal interests 
over the Nation's interest.
    I'd like to go through what you are going to see about the 
President's scheme and you're going to hear about today from 
the facts that we have.
    First, you're going to hear that President Trump's personal 
lawyer, Rudy Giuliani, pushed Ukraine to open an investigation 
of his political rival. Mr. Giuliani, prior to the July 25 
call, he made public statements that Ukraine should investigate 
the former Vice President, Joe Biden. He tweeted about it, 
putting pressure on the new President. He went to Ukraine and 
later went again with the assist and direction of U.S. 
officials who were told to aid the President's personal lawyer 
on the President's behalf.
    You will hear that President Trump told his aides that he 
was relying on for Ukraine that he wanted them to, quote, 
``talk to Rudy.'' What you are going to hear is that his close 
advisers had just gotten back, on May 23, from the inauguration 
of the new President, President Zelensky. They told President 
Trump: We were impressed. He was elected on an anticorruption 
platform, a reform platform. You should schedule a White House 
meeting. It's very important. This is very good for the United 
States.
    And the President's response was, ``talk to Rudy,'' who had 
been out there claiming what the Ukrainian President had to do 
was investigate his political rival.
    You will hear that President Trump's advisers told 
President Zelensky that President Trump would not schedule the 
wanted White House meeting unless he announced a Ukrainian 
investigation of former Vice President Biden. There are 
documents. There is sworn testimony. This happened, and there 
is no question from the evidence that the President did this. 
And President Zelensky desperately needed a White House meeting 
both to show Russia that the U.S. was still supporting Ukraine 
and for his own credibility as a new President.
    You will hear, then, to ramp up the pressure, what 
President Trump did is he told his agencies to withhold 
military and security aid that had been approved and was 
supposed to be released to Ukraine, hundreds of millions of 
dollars, in order to put more pressure on Ukraine.
    All the agencies involved--State Department, Defense 
Department, National Security Council--said it should be 
released. It had been approved. It was going to be released 
until President Trump personally stopped it. And again, 
contemporaneous evidence and documents show it and prove it.
    People said that they were shocked. Ambassador Taylor said 
he was in astonishment. A witness said that it was illogical to 
do this, and the President never offered an explanation. But 
ultimately it was discovered why he did it.
    Then, on the July 25 call, President Trump explicitly told 
him he wanted to conduct--he wanted him to do two Ukrainian 
investigations, one of a U.S. citizen and his political rival 
and the other about the origins of the--of interference in the 
2016 election, some conspiracy theory that Russia, who all the 
intelligence agencies agreed interfered with the 2016 election, 
that maybe it was Ukraine. Again, another investigation 
intended to help the President politically. That is it.
    And you know the President cared about the investigations 
that would help him politically and not Ukraine and not the 
national security interest.
    And you don't have to make my word. I'm going to play 
something from David Holmes, who had worked in the U.S. Embassy 
in Ukraine and was speaking to Ambassador Sondland, who 
President Trump appointed.
    Ambassador Sondland had just come to the Ukraine on the 
26th. He met with President Zelensky. He went to a restaurant 
with Mr. Holmes, the U.S. political affairs counsel in Ukraine, 
and he called President Trump on his cell phone, and Mr. Holmes 
could hear that call, and then he spoke to Mr. Sondland.
    Let's see what happened on July 26, the day after that 
call.
    [Video shown.]
    Mr. Berke. That is sworn testimony by David Holmes, who 
heard it from the President himself. And it was clear to 
everyone, the most experienced people in government, who Donald 
Trump himself appointed in their positions, they knew what was 
going on.
    Let's look at a text message from Ambassador Taylor around 
this time on September 9. He said, ``As I said on the phone, I 
think it's crazy to withhold security assist for help with a 
political campaign.'' Again, that is President Trump putting 
his own political and personal interests over the Nation's 
interests, to hold aid desperately needed by Ukraine in order 
to combat Russia and show the support. He did it to help his 
own campaign.
    Now, there have been excuses offered by the President. I'd 
like to briefly talk about those excuses.
    The first excuse offered by President Trump is that the aid 
was ultimately released and President Trump met with Mr. 
Zelensky. We heard it today.
    The challenge with that, though, as an excuse is the aid 
was only released after President Trump got caught doing the 
scheme. On September 9, the committees of this House started 
their investigation and announced they were investigating his 
conduct with regard to Ukraine. Two days later was when he 
released the aid.
    And he also--there also was a news article, which we will 
talk about in a moment, by The Washington Post on September 5 
exposing his scheme. And it was only after that that he met 
with Mr.--with President Zelensky, not in the White House, but 
in New York.
    Another excuse offered: The President was motivated by 
general corruption concerns. And again, the evidence shows that 
is not true that that's what caused him to withhold the aid. 
President Zelensky, in fact, was elected on an anticorruption 
platform. He was a reform candidate. His own people told him 
again and again, President Zelensky is a hope. He is doing it 
the right way. They urged him to be supportive.
    On his call with President Zelensky on July 25 President 
Trump ignored the talking points that were prepared to talk 
about corruption. He only wanted to talk about two things, the 
two investigations that helped him politically. Every 
intelligence agency unanimously supported releasing the aid to 
Ukraine. That was appropriate. They did a study, a corruption 
study. They said release it. The White House never provided an 
explanation. The aid had already been approved, and it was not 
for anticorruption issues that President Trump withheld it.
    The next is Ukraine was not pressured. And the argument 
about that is, well, today they haven't said they were 
pressured. Well, Ukraine was pressured then and still is 
pressured. They are desperately in need of the United States' 
support as they battle the threat of Russia. So, of course, 
they have to be careful what they said. But contemporaneous 
documents, emails, texts from the Ukrainian officials 
themselves show the pressure they felt, show they knew what 
President Trump was doing, showed what they had to do.
    This is one from Bill Taylor to, again, Ambassador Gordon 
Sondland and Kurt--and Ambassador Kurt Volker. ``Gordon, one 
thing Kurt and I talked about yesterday was Sasha Danyliuk's,'' 
a senior aide of President Zelensky, ``point that President 
Zelensky is sensitive about Ukraine being taken seriously, not 
merely an instrument in Washington domestic, reelection 
politics.''
    They not only felt the pressure, they got the message. They 
were not going to get a White House meeting, they were 
ultimately not going to get military aid unless they furthered 
President Trump's reelection efforts. That is a corrupt abuse 
of power.
    Another argument that's made is that Trump never said quid 
pro quo. And what you are going to hear is on a call with 
Ambassador Sondland, after a Washington Post article came out 
on September 5, which we will look at, after there was a 
Washington Post article that came out that again exposed the 
Ukrainian scheme, days after that, President Trump was on a 
phone call with Ambassador Sondland and without prompting said 
there was no quid pro quo, because he got caught, so he is 
offering his defense.
    But even Ambassador Sondland in his sworn testimony didn't 
buy it because, ultimately, then President Trump not only was 
not dissuaded, he again described what he wanted. He didn't 
want Ukraine to actually conduct these investigations, he 
wanted them to announce investigations of his political rival 
to help him politically, he continued, and you'll hear more 
about that.
    Again, none of these excuses hold any water, and they are 
refuted by testimony, contemporaneous records, and more.
    Now, some have suggested that we should wait to proceed 
with these impeachment proceedings because we have not heard 
from all of the witnesses or obtained all the documents. But 
the reason we have not heard from all the witnesses or 
documents is because President Trump himself has obstructed the 
investigation. He has directed his most senior aides who are 
involved in some of these events not to come testify, to defy 
subpoenas. He has told every one of his agencies with records 
that could be relevant not to produce those records to us, to 
try to obstruct our investigation.
    Now, this is evidence that President Trump is replaying the 
playbook used in the prior Department of Justice investigation. 
In that investigation, he directed his White House counsel to 
create a false, phony record and document and lie, denying that 
President Trump had told him to fire the special counsel.
    He did many other things to try to interfere with that 
investigation. He attacked the investigators and witnesses and 
called them horrible names, just as he has done here.
    And President Trump thought he got away with it. On July 24 
was the day that Special Counsel--the Special Counsel testified 
before this committee and the House Intelligence Committee, the 
24th.
    It was exactly the following day, the 25th, that President 
Trump spoke to President Zelensky in furtherance of his 
Ukrainian scheme. He thought he got away with it. Not only 
that, he thought he could use his powers to interfere with that 
investigation so he could do what he wanted, he could act like 
he was above the law. And if he got caught, he would again use 
his powers to try to obstruct the investigation and prevent the 
facts from coming out, and that's exactly what he did.
    But fortunately, fortunately, because of the true American 
patriots who came forward to testify despite the threats by the 
President against the people who worked in his own 
administration, they told the story. They, on their own, 
produced documents that provide uncontroverted, clear, and 
overwhelming evidence that President Trump did the scheme. He 
put his political reelection interests over the Nation's 
national security and the integrity of its elections. He did it 
intentionally. He did it corruptly. He abused his powers in 
ways that the Founders feared the most.
    No person in this country has the ability to prevent 
investigations, and neither does the President. Our 
Constitution does not allow it. No one is above the law, not 
even the President.
    And one of the concerns and requirements of finding an 
impeachable offense, is there an urgency, is there a sense that 
you have to move because it could be repeated? Well, again, 
first, all the constitutional experts who testified recognize 
that obstructing an investigation is an impeachable offense. 
But here the offense we're talking about that's being 
interfered or obstructed with is interfering with the very 
election that's coming up.
    And I submit to you, given what happened with the 
Department of Justice investigation, given what's happening 
here, if in fact President Trump can get away with what he did 
again, our imagination is the only limit to what President 
Trump may do next or what a future President may do next to try 
to abuse his or her power to serve his own personal interests 
over the Nation's interest.
    I'd like to turn back to what the Founders most cared about 
when we talk about the ABCs of potential Presidential abuses. 
It is extraordinary that the President's conduct was a 
trifecta, checking all three boxes.
    Let's begin with abuse of power. What that means, it is to 
use the power of the office to obtain an improper personal 
benefit while ignoring or injuring the national interest or 
acts in ways that are grossly inconsistent with and undermine 
the separation of powers that is the foundation of our 
democratic system.
    Now, this question of whether the President engaged in an 
abuse of power came up before when this Congress considered the 
impeachment of President Nixon. And after action was taken 
President Nixon famously said, ``if the President does it, it 
is not illegal.'' And this body rejected that because that's 
not so. That goes directly contrary to what the Founders said.
    But President Trump has said the same thing in responding 
to the prior investigation by the Department of Justice and 
defending his conduct. Here is what he said.
    [Video shown.]
    Mr. Berke. That he has the right to do whatever he wants as 
President. That is as wrong as when President Nixon said a 
similar thing. That is not what the Constitution provides. That 
is not what the country demands. He does not have the right to 
do whatever he wants.
    Turning to the second abuse of power most of concern, 
betrayal of the Nation involving foreign powers. The American 
people have suffered that foreign influence when President 
Trump treated military aid that had been approved, taxpayers' 
dollars, and decided to treat it as his own checkbook to try to 
further his own reelection chances. That reflects what the 
Founders were concerned about.
    And finally, corruption of our elections. The Framers knew 
that corrupt leaders or leaders acting corruptly concentrate 
their powers to manipulate elections and undercut adversaries. 
They talked about it frequently. That is why the Framers 
thought electoral treachery, particularly involving foreign 
powers, was a critical abuse that could support and lead to 
impeachment.
    Now, the American people learned last election how 
dangerous foreign intervention in our elections can be. Let me 
show another clip from President--from candidate Trump on the 
campaign trail.
    [Video shown.]
    Mr. Berke. And Russia was listening. Within approximately 5 
hours, 5 hours of President Trump's invitation to Russia to 
interfere in our election by trying to hack and obtain the 
emails of his political opponent, Russia in fact tried to do 
that for the first time. The very officers who were then 
indicted by the Department of Justice for that conduct, they 
took candidate Trump's invitation.
    Now, the American people learned a lesson. President Trump, 
unfortunately, apparently learned a different lesson. Let's 
look.
    [Video shown.]
    Mr. Berke. So this was President Trump answering a question 
about what did he want President Zelensky to do. So even after 
he got caught, he is saying again, this vulnerable nation, 
dependent on U.S. support, militarily and otherwise, again, he 
is telling them what to do. And unlike in 2016 when he only had 
a campaign platform which to extend the invitation to a foreign 
power, now he has the levers of government in his control to 
not only request it and invite it, but to pressure that country 
to do it. And that is exactly what he did. And you'll hear more 
about that in the presentation from the House Intelligence 
Committee.
    And what's most striking as we come back to this issue that 
the Framers were concerned about, is there a continuing risk of 
wrongdoing, the fact that President Trump did this after he was 
caught shows the risk, shows the risk of what will happen if 
this body doesn't act. He really does believe he can act as 
though he were above the law. He really does believe, as 
evidenced by this conduct, that he can put his personal and 
political interests over the Nation's interest, over the 
Nation's national security interest, over the Nation's 
integrity of its elections.
    So, of course, we do have an election coming up. That's not 
a reason to postpone this discussion, that's a reason we must 
have this discussion, to make sure it is not interfered with, 
to make sure this President doesn't do it, to make sure future 
Presidents do not do it.
    It is the hope that in these discussions we can put aside 
political rancor, disagreements, and have a fair discussion 
about the facts and misconduct, not just as it relates to 
President Trump but as to the Presidency itself and future 
Presidents.
    My son, our children, our grandchildren, they will study 
this moment in history. They will read all of your remarks. 
They will learn about all of your actions. And that is not a 
reason to vote for or against impeachment. For that, of course, 
you must vote your conscience.
    But that is a reason for us to have a fair debate about 
what the undisputed facts show, to recognize that it is wrong, 
it is very wrong, and it cannot happen again with this 
President or any President.
    It is a reason to talk about whether we want our children 
and grandchildren to live in a country where the President, 
elected by the people, can put his own personal and political 
interests over the interests of the people who elected him.
    It is a reason for these debates to again fairly focus on 
the facts and to make sure the presentations we are going to 
hear will not distort the record, focus on process points, 
raise extraneous matters that really are intended to distract 
rather than focus on what the conduct was at issue here. It is 
a reason to focus on the facts and what is in the country's 
best interest.
    History, future generations, will be the judge.
    Chairman Nadler. Thank you, Mr. Berke.
    Chairman Nadler. Thank you, Mr. Berke.
    Mr. Castor, you are----
    Mr. Johnson of Louisiana. Mr. Chairman? Mr. Chairman?
    Chairman Nadler [continuing]. You are recognized for 30 
minutes.
    Mr. Johnson of Louisiana. Mr. Chairman, point of order.
    Chairman Nadler. Mr. Castor is recognized for 30 minutes.
    Mr. Johnson of Louisiana. Mr. Chairman, point of order.
    Chairman Nadler. Mr. Castor is recognized for 30 minutes.
    Mr. Johnson of Louisiana. Mr. Chairman, the witness has 
violated rule XVII, and my point of order should be heard.
    Chairman Nadler. Point of order.
    Mr. Johnson of Louisiana. The witness has used language 
which impugns the motives of the President and suggests he's 
disloyal to his country, and those words should be stricken 
from the record and taken down.
    Chairman Nadler. The point of order is not sustained. 
Witnesses are not subject to the rules of decorum----
    Mr. Gaetz. Appeal the ruling of the chair.
    Chairman Nadler [continuing]. In the same way Members are.
    The topic of the hearing is the President's misconduct, so 
none of us should find it surprising that we are hearing 
testimony that is critical of the President. I do not find that 
the witness's comments are disorderly. I find they are 
pertinent to the subject matter of this hearing.
    The witness would be able to continue, except that his time 
has expired.
    Mr. Castor is recognized.
    Mr. Johnson of Louisiana. Mr. Chairman, it's not----
    Chairman Nadler. The gentleman will suspend.
    Mr. Johnson of Louisiana. Mr. Chairman, my point of order 
is not that his words are disorderly; they are unparliamentary. 
They violate the rules of the House and should be taken down.
    This is not about his conduct. He's talking about the 
motives----
    Chairman Nadler. The gentleman will suspend.
    Mr. Johnson of Louisiana [continuing]. And the character of 
the President of the United States.
    Chairman Nadler. The gentleman will suspend.
    The rules of decorum apply to Members of the House, not to 
witnesses.
    The gentleman may proceed.
    Mr. Johnson of Louisiana. I appeal the ruling of the chair.
    Chairman Nadler. That is not a ruling. There was no----
    Mr. Johnson of Louisiana. It is a ruling on a point of 
order. It's appealable.
    Chairman Nadler. The point of order is not sustained.
    Mr. Collins. I appeal the ruling of the chair.
    Chairman Nadler. Appeals the ruling of the chair?
    Ms. Lofgren. I move to table the----
    Chairman Nadler. The motion is made to table the appeal of 
the ruling of the chair. The motion is----
    Mr. Collins. I move the motion to table is made in writing. 
I move the motion is made in writing.
    Chairman Nadler. The motion to table is not in debate--is 
not--all in favor of the motion to--all in favor of the motion 
to table will say aye.
    Opposed, no.
    Mr. Collins. Whoa, whoa, whoa, whoa.
    Chairman Nadler. The motion to table----
    Mr. Collins. She has to put it in writing first. Then you 
can call the vote.
    Chairman Nadler. The motion to table is----
    Mr. Collins. At least you're following the rules.
    Chairman Nadler. The motion to table is sustained.
    Mr. Collins. Roll call.
    Chairman Nadler. The clerk will the roll.
    Ms. Strasser. Mr. Nadler?
    Chairman Nadler. Aye.
    Ms. Strasser. Mr. Nadler votes aye.
    Ms. Lofgren?
    Ms. Lofgren. Aye.
    Ms. Strasser. Ms. Lofgren votes aye.
    Ms. Jackson Lee?
    Ms. Jackson Lee. Aye.
    Ms. Strasser. Ms. Jackson Lee votes aye.
    Mr. Cohen?
    Mr. Cohen. Aye.
    Ms. Strasser. Mr. Cohen votes aye.
    Mr. Johnson of Georgia?
    Mr. Johnson of Georgia. Aye.
    Ms. Strasser. Mr. Johnson of Georgia votes aye.
    Mr. Deutch?
    Mr. Deutch. Aye.
    Ms. Strasser. Mr. Deutch votes aye.
    Ms. Bass?
    Ms. Bass. Aye.
    Ms. Strasser. Ms. Bass votes aye.
    Mr. Richmond?
    Mr. Richmond. Aye.
    Ms. Strasser. Mr. Richmond votes aye.
    Mr. Jeffries?
    Mr. Jeffries. Aye.
    Ms. Strasser. Mr. Jeffries votes aye.
    Mr. Cicilline?
    Mr. Cicilline. Aye.
    Ms. Strasser. Mr. Cicilline votes aye.
    Mr. Swalwell?
    Mr. Swalwell. Aye.
    Ms. Strasser. Mr. Swalwell votes aye.
    Mr. Lieu?
    Mr. Lieu. Aye.
    Ms. Strasser. Mr. Lieu votes aye.
    Mr. Raskin?
    Mr. Raskin. Aye.
    Ms. Strasser. Mr. Raskin votes aye.
    Ms. Jayapal?
    Ms. Jayapal. Aye.
    Ms. Strasser. Ms. Jayapal votes aye.
    Mrs. Demings?
    Mrs. Demings. Aye.
    Ms. Strasser. Mrs. Demings votes aye.
    Mr. Correa?
    Mr. Correa. Aye.
    Ms. Strasser. Mr. Correa votes aye.
    Ms. Scanlon?
    Ms. Scanlon. Aye.
    Ms. Strasser. Ms. Scanlon votes aye.
    Ms. Garcia?
    Ms. Garcia. Aye.
    Ms. Strasser. Ms. Garcia votes aye.
    Mr. Neguse?
    Mr. Neguse. Aye.
    Ms. Strasser. Mr. Neguse votes aye.
    Mrs. McBath?
    Mrs. McBath. Aye.
    Ms. Strasser. Mrs. McBath votes aye.
    Mr. Stanton?
    Mr. Stanton. Aye.
    Ms. Strasser. Mr. Stanton votes aye.
    Ms. Dean?
    Ms. Dean. Aye.
    Ms. Strasser. Ms. Dean votes aye.
    Ms. Mucarsel-Powell?
    Ms. Mucarsel-Powell. Aye.
    Ms. Strasser. Ms. Mucarsel-Powell votes aye.
    Ms. Escobar?
    Ms. Escobar. Aye.
    Ms. Strasser. Ms. Escobar votes aye.
    Mr. Collins?
    Mr. Collins. No.
    Ms. Strasser. Mr. Collins votes no.
    Mr. Sensenbrenner?
    Mr. Sensenbrenner. No.
    Ms. Strasser. Mr. Sensenbrenner votes no.
    Mr. Chabot?
    Mr. Chabot. No.
    Ms. Strasser. Mr. Chabot votes no.
    Mr. Gohmert?
    Mr. Gohmert. No.
    Ms. Strasser. Mr. Gohmert votes no.
    Mr. Jordan?
    Mr. Jordan. No.
    Ms. Strasser. Mr. Jordan votes no.
    Mr. Buck?
    [No response.]
    Ms. Strasser. Mr. Ratcliffe?
    Mr. Ratcliffe. No.
    Ms. Strasser. Mr. Ratcliffe votes no.
    Mrs. Roby?
    Mrs. Roby. No.
    Ms. Strasser. Mrs. Roby votes no.
    Mr. Gaetz?
    Mr. Gaetz. No.
    Ms. Strasser. Mr. Gaetz votes no.
    Mr. Johnson of Louisiana?
    Mr. Johnson of Louisiana. No.
    Ms. Strasser. Mr. Johnson of Louisiana votes no.
    Mr. Biggs?
    [No response.]
    Ms. Strasser. Mr. McClintock?
    Mr. McClintock. No.
    Ms. Strasser. Mr. McClintock votes no.
    Mrs. Lesko?
    Mrs. Lesko. No.
    Ms. Strasser. Mrs. Lesko votes no.
    Mr. Reschenthaler?
    [No response.]
    Ms. Strasser. Mr. Cline?
    Mr. Cline. No.
    Ms. Strasser. Mr. Cline votes no.
    Mr. Armstrong?
    Mr. Armstrong. No.
    Ms. Strasser. Mr. Armstrong votes no.
    Mr. Steube?
    Mr. Steube. No.
    Ms. Strasser. Mr. Steube votes no.
    Mr. Biggs. Mr. Chairman, how am I recorded?
    Ms. Strasser. Mr. Biggs, you are not recorded.
    Mr. Biggs. I said no.
    Ms. Strasser. Mr. Biggs votes no.
    Chairman Nadler. Has every member voted who wishes to vote?
    The clerk will report.
    Ms. Strasser. Mr. Chairman, there are 24 ayes and 15 noes.
    Chairman Nadler. The motion to table is carried.
    Mr. Castor----
    Mr. Biggs. Mr. Chairman, parliamentary inquiry. May I make 
a parliamentary inquiry?
    Chairman Nadler. Mr. Castor is recognized.
    I will not recognize a parliamentary inquiry at this time.
    Mr. Castor is recognized for 30 minutes.
    Mr. Castor. Good morning, Chairman Nadler, Ranking Member 
Collins, members of the committee, and members of the staff. My 
name is Steve Castor. I'm a congressional staff member. I serve 
with the Oversight Committee on the Republican staff with Mr. 
Jordan.
    I'm also--for purposes of this investigation, I'm a shared 
staffer with the Judiciary Committee and Mr. Collins and the 
House Permanent Select Committee on Intelligence and Mr. Nunes.
    It sure is atypical for a staffer to be presenting, but, 
again, thanks for having me.
    The purpose of this hearing, as we understand it, is to 
discuss whether President Donald J. Trump's conduct fits the 
definition of a high crime and misdemeanor--it does not--such 
that the committee should consider Articles of Impeachment to 
remove the President from office--and it should not.
    This case, in many respects, comes down to eight lines in a 
call transcript. Let me say clearly and unequivocally that the 
answer to that question is, no, the record in the Democrats' 
impeachment inquiry does not show that President Trump abused 
the power of his office or obstructed Congress. To impeach a 
President who 63 million people voted for over eight lines in a 
call transcript is baloney.
    Democrats seek to impeach President Trump not because they 
have evidence of high crimes or misdemeanors but because they 
disagree with his policies. This impeachment inquiry is not the 
organic outgrowth of serious misconduct. Democrats have been 
searching for a set of facts on which to impeach President 
Trump since his inauguration on January 20, 2017.
    Just 27 minutes after the President's inauguration that 
day, The Washington Post ran a story that the campaign to 
impeach the President has already begun. The article reported, 
``Democrats and liberal activists are mounting broad opposition 
to stymie Trump's agenda'' and noted that impeachment 
strategists believed the Constitution's Emoluments Clause would 
be the vehicle.
    In the first 2 years of the administration, Democrats in 
the House introduced Articles of Impeachment to remove 
President Trump from office on several very different factual 
bases.
    On January 3, the very first day of the new Congress, 
Congressman Sherman introduced Articles of Impeachment against 
the President. The same day, Representative Tlaib said, ``We're 
going to go in there, we're going to impeach the''--President.
    In May 2019, Representative Green said on MSNBC, ``If we 
don't impeach this President, he will be reelected.'' Even 
Speaker Pelosi, who has said that impeachment is a somber and 
prayerful exercise, has called President Trump an impostor and 
said it is dangerous to allow voters to judge his performance 
in 2020.
    The obsession with impeaching the President is reflected in 
how Democrats have used the power of their majority in the past 
11 months.
    In the Oversight Committee, the Democrats' first announced 
witness was Michael Cohen, a disgraced felon who pleaded guilty 
to lying to Congress. When he came before us at the Oversight 
Committee, he then lied again, as many as eight times.
    Oversight Committee Democrats demanded information about 
the President's personal finances and even subpoenaed the 
President's accounting firm, Mazars, for large swaths of 
sensitive and personal financial information about the entire 
Trump family. The subpoena was issued over the objection of 
committee Republicans and without a vote.
    In the Ways and Means Committee, Democrats demanded the 
President's personal tax return information. The reason they 
cited for wanting the President's tax returns, they said, was 
to oversee the IRS's audit process for Presidential tax 
returns. You can judge that for yourself.
    In the Financial Services Committee, Democrats demanded and 
subpoenaed the President's bank records going back 10 years. 
The Financial Services Committee staff, the Republicans, tell 
me the information demanded would cover every withdrawal, 
credit card swipe, debit card purchase of every member of the 
Trump family, including his minor child. The reason that the 
Democrats gave for why they needed such voluminous and 
intrusive personal information about the Trump family was--get 
this--financial industry compliance with banking statutes and 
regulations.
    Here in the Judiciary Committee, Democrats sent out letters 
demanding information from over 80 recipients, including the 
President's children, business partners, employees, his 
campaign, businesses, and foundation.
    Of course, the main event for the Judiciary Committee was 
the report of Special Counsel Mueller, which Democrats believed 
would serve as the evidentiary basis for impeaching the 
President. Despite interviewing 500 witnesses, issuing 2,800 
subpoenas, executing almost 500 search warrants, and spending 
$25 million, the special counsel's 19 attorneys and 40 FBI 
agents, analysts, and staff found no conspiracy or coordination 
between the Trump campaign and the Russian Government.
    After the Trump-Russia collusion allegations did not pan 
out, Democrats focused their efforts on obstruction of justice. 
They criticized Attorney General Barr for concluding that no 
crime of obstruction had occurred in the special counsel 
investigation, but, in fact, it was entirely appropriate for 
the Attorney General to make that call, because the special 
counsel declined to do so. Not surprisingly, the Democrats' 
Mueller hearing was underwhelming, to say the least. And the 
sequel with Corey Lewandowski definitely did not move the 
impeachment needle either.
    The Intelligence Committee, too, is heavily invested in the 
Russia collusion investigation. Committee Democrats hired 
former Federal prosecutors to prepare for their anticipated 
efforts to impeach the President. Now that the Russia collusion 
allegations did not work out, Democrats have settled on the 
Ukraine phone call--eight lines the President uttered on July 
25 with Ukrainian President Zelensky.
    But the Foreign Affairs Committee, the committee of 
jurisdiction, wasn't the committee leading the impeachment 
inquiry or holding the hearings. Neither was the Oversight 
Committee, the House's chief investigative entity. The 
Judiciary Committee was only recently brought back into the mix 
after fact-finding concluded. Instead, the impeachment inquiry 
was run by the House Intelligence Committee and these former 
Federal prosecutors.
    Democrats on the Intelligence Committee ran the impeachment 
inquiry in a manifestly unfair way. All the fact-finding was 
unclassified, and that was made clear at the top of every 
single deposition, but the Democrats took advantage of the 
closed-door process in the Capitol basement bunker, the SCIF, 
to control access to information. The secrecy effectively 
weaponized the investigation, allowing misleading public 
narratives to form and catch hold with careful leaks of witness 
testimony. Democrats refused to invite Republican witnesses and 
directed witnesses called by the Democrats not to answer our 
questions.
    In the public hearings, many of these unfair processes 
continued. Democrats refused to invite numerous witnesses 
requested by Republicans, interrupted Republican questioning, 
and prevented witnesses from answering Republican questions. 
Democrats voted down, by virtue of a motion to table, with no 
notice, subpoenas for documents and testimony requested by 
Republicans. I'll note that Democrats never once brought any of 
their subpoenas to a vote before the Intelligence Committee.
    This unfair process reflects the degree to which Democrats 
are obsessed with impeaching the President. The Democrats went 
searching for a set of facts on which to impeach the 
President--the Emoluments Clause, the President's business and 
financial records, the Mueller report, allegations of 
obstruction--before landing on the Ukraine phone call.
    The impeachment inquiry is clearly an orchestrated effort 
to upend our political system. According to Politico, the 
Speaker has tightly scripted every step of the impeachment 
inquiry. Democrats have reportedly convened focus groups to 
test which allegations, whether it be quid pro quo or bribery 
or extortion, were most compelling to the American public.
    Speaker Pelosi said Democrats must strike while the iron is 
hot on impeaching the President. The entire duration of the 
impeachment inquiry, from the time Speaker Pelosi announced it 
on September 24 until today, has been 76 days. As Professor 
Turley testified last Wednesday, this impeachment would stand 
out among modern impeachments as the shortest proceeding with 
the thinnest evidentiary record and the narrowest grounds ever 
used to impeach a President.
    The artificial and arbitrary political deadline, by which 
Democrats are determined to finish impeachment by Christmas, 
leads to a rushed process and missed opportunities to obtain 
relevant information. Democrats avoided the accommodations 
process required by Federal courts in disputes between Congress 
and the Executive. Democrats declined to attempt to negotiate 
with the administration for the production of documents and 
witnesses. Democrats did not exhaust all their options to 
entice witnesses or agencies to cooperate, such as allowing 
witnesses to appear with agency lawyers or initiating contempt 
proceedings. Sometimes the threat of a contempt proceeding gets 
you a different result. Sometimes the witnesses choose to 
appear when contempt is on the table.
    Democrats even withdrew a subpoena to one witness who asked 
a Federal court to resolve conflicting orders from Congress and 
the Executive, either because the Democrats did not want to 
wait for the court to rule or they didn't like the presiding 
judge, Judge Leon.
    Instead, Democrats made their demands and refused to budge. 
Democrats told witnesses at the outset that their refusal to 
cooperate in full would be used against them and the President. 
Democrats threatened Federal employees that their salaries 
could be withheld for not meeting committee demands. These 
tactics are fundamentally unfair and counterproductive for 
gathering information in any serious inquiry.
    This rushed and take-it-or-leave-it approach to 
investigating is contrary to how successful congressional 
investigations typically work. Congressional investigations 
take time. There is no ``easy'' button. In this job, you must 
take the information that's offered even if you don't like the 
terms. You should not say no to taking a witness's testimony 
because you would prefer the agency counsel was not present. If 
that's the only means of obtaining the testimony, you should 
take it. Your priority must not be on blocking information out; 
it must be on seeking information.
    In all recent major congressional investigations--for 
example, Chairmen Goodlatte and Gowdy's investigation into the 
Justice Department's decision during 2016, the IRS targeting 
investigation, the Benghazi investigation, and Fast and 
Furious--there have been give-and-take between Congress and the 
Executive.
    In the Goodlatte-Gowdy investigation, for example, it took 
2 months--2 months--of negotiations before the committees 
conducted the first witness interview with Deputy Director 
McCabe. The Justice Department only began producing documents 
to the committee after many more months of discussions.
    In none of these investigations did Congress get everything 
it wanted right at the beginning, certainly not within 76 days. 
But with persistence and patience, we eventually did receive 
enough information to do our work.
    And contrary to talking points, the Trump administration 
has, in fact, cooperated with and facilitated congressional 
oversight and investigations.
    For example, earlier this year, the Oversight Committee 
conducted an investigation into security clearances at the 
White House. The central allegation put forward was that the 
White House deviated from established procedures to grant 
clearances to certain White House staff. The Democrats sought 
to interview career staff who perform these security clearance 
reviews but declined the witness initially to appear with 
agency counsel.
    The House and the White House were at an impasse. However, 
after a little bit of time, we, the Republican staff, with the 
help of Mr. Jordan, convinced the witness to appear with agency 
counsel for our own transcribed interview, and the Democrats 
came along. The subsequent interviews in the security clearance 
investigation were conducted with agency counsel.
    The testimony allowed the committee to obtain the evidence 
to get to the bottom of what was going on, and it wasn't what 
was alleged. Nobody outside the security clearance office was 
handing out clearances, certainly not to senior White House 
staffers.
    In this impeachment inquiry, however, Democrats have turned 
away information that could be valuable to the inquiry by 
disallowing agency counsel to accompany witnesses. Democrats 
have turned away information by declining to negotiate in good 
faith with the administration about the scope of document 
requests. As a result of these failures, the evidentiary record 
in the impeachment inquiry is incomplete and, in many places, 
incoherent.
    The failure to exhaust all avenues to obtain information 
severely risks undermining the legitimacy of any Articles of 
Impeachment. As Professor Turley said to the committee last 
week, ``I am concerned about lowering impeachment standards to 
fit a paucity of evidence and an abundance of anger.'' ``I 
believe this impeachment not only fails the standard of past 
impeachments, it would create a dangerous precedent for future 
impeachments.'' Professor Turley elaborated that ``the current 
lack of proof is another reason why the abbreviated 
investigation into this matter is so damaging to the case for 
impeachment.''
    The substantive case for impeaching President Trump as a 
result of an artificial, arbitrary, and political schedule 
relies heavily on ambiguous facts, presumptions, and 
speculation. Professor Turley warned here, too, that 
impeachments have been based on proof, not presumptions. The 
Democrats do not have the proof.
    Now, my Democrat counterparts on the Intelligence Committee 
are talented attorneys. I'm sure they will tell you a riveting 
story about a shadow or irregular foreign policy apparatus and 
a smear campaign designed to extort Ukraine for the President's 
political benefit. They'll tell you about President Trump and 
how he put his own political interests ahead of national 
security by mentioning former Vice President Joe Biden by name 
and raising the allegations of Ukrainian influence in the 2016 
election on the July 25 call. They'll try to convince you that 
the Trump administration, the same administration Democrats 
regularly accuse of being incompetent, orchestrated an 
international conspiracy at the highest levels.
    None of this adds up. It may be a great screenplay, but it 
is not what the evidence shows. The Democrats' impeachment 
inquiry ignores all of the evidence that does not advance their 
story. The Democrats' impeachment narrative resolves all 
ambiguous facts and conflicting evidence in a way that is most 
unflattering to the President. The Democrats' impeachment 
narrative ignores public statements from senior Ukrainian 
officials that contradict the narrative.
    As you listen to the Democrat presentation later today, I 
urge you to keep these points in mind. What evidence that has 
been gathered in the impeachment inquiry paints a different 
picture. I won't provide a detailed presentation now, but allow 
me to highlight a few points.
    First, the summary of the July 25 phone call reflects no 
conditionality or pressure. President Zelensky never vocalized 
any discomfort or pressure on the call. Contrary to Democrat 
allegations, President Trump was not asking for a favor that 
would help his reelection. He was asking for assistance in 
helping our country move forward from the divisiveness of the 
Russia collusion investigation.
    Second, since President Trump has declassified and publicly 
released the call summary 75 days ago, President Zelensky has 
said publicly and repeatedly that he felt no pressure. He said 
it on September 25 at the United Nations General Assembly. He 
said it in an interview published on October 6. He said it 
again October 10. And, most recently, he said it just last week 
in Time magazine.
    Other senior Ukrainian officials have also said there was 
no linkage between a meeting, security assistance, and an 
investigation. If President Trump was truly orchestrating a 
pressure campaign to force Ukraine to investigate former Vice 
President Biden, one would think that Ukraine would have felt 
some pressure.
    Third, at the time of the July 25 call, senior officials in 
Kyiv did not know that the security assistance was paused. They 
did not learn it was paused until the pause was reported 
publicly in the U.S. media on August 28. As Ambassador Volker 
testified, because the highest levels of the Ukrainian 
Government did not know about the pause, there was no leverage 
implied.
    Finally, President Zelensky met with President Trump in New 
York on September 25 at the United Nations. Shortly 
thereafter--or shortly before that, the security assistance 
flowed to Ukraine. Both happened without Ukraine ever taking 
actions or investigations.
    The impeachment record also has substantial evidence going 
to the President's state of mind, undercutting the Democrats' 
assertion of some malicious intent. Witnesses testified that 
President Trump has a deeply rooted, genuine, and reasonable 
skepticism of Ukraine, stemming from its history of corruption. 
President Trump is skeptical of U.S.-taxpayer-funded foreign 
assistance and believes that our allies should share more of 
the burden of Ukraine's defense. Ukrainian politicians openly 
spoke out against President Trump during the 2016 election. 
These events bear directly on the President's state of mind. 
President Zelensky had run on an anticorruption platform, but 
he was an untried politician with a relationship to a 
controversial Ukrainian oligarch.
    When former Vice President Pence met with President 
Zelensky in Warsaw--I'm sorry. When Vice President Pence met 
with President Zelensky in Warsaw on September 1, he stressed 
to him the need for reform and reiterated the President's 
concern about burden-sharing, especially among European allies.
    In late August and early September, after his party took 
control of the Ukrainian parliament, Ukraine passed historic 
reforms to fight corruption. These reforms included removing 
parliamentary immunity, which witnesses said had been a 
historic source of corruption. Imagine if Members of our 
Congress had immunity.
    President Trump later lifted the pause on security 
assistance and met with President Zelensky 2 weeks later. The 
aid was paused for 55 days.
    Very simply, the evidence in the Democrats' impeachment 
inquiry does not support the conclusion that President Trump 
abused his power for his own personal political benefit. There 
is simply no clear evidence that President Trump acted with 
malicious intent in withholding a meeting or security 
assistance. Indeed, there are--and the Republican report 
articulates them--legitimate explanations for these actions 
that are not nefarious, as the Democrats allege.
    The evidence shows that President Trump faithfully executed 
the duties of his office by delivering on what he promised the 
American voters he would do. Democrats may disagree with the 
President's policy decisions or the manner in which he governs, 
but those disagreements are not enough to justify the 
irrevocable action of removing him from office. The Democrats' 
hyperbole and histrionics are no good reason, 11 months out 
from an election, to prevent the American people from deciding 
on their own who is going to be their next President.
    This record also does not support a conclusion that 
President Trump obstructed Congress during the impeachment 
inquiry, for many of the procedural defects I touched on 
earlier.
    Additionally, as a factual matter, the only direct 
testimony the investigation has obtained about the President's 
reaction to the inquiry is from Ambassador Sondland, who 
testified President Trump told him to cooperate and tell the 
truth.
    President Trump has also declassified and released the 
summaries of his two phone calls with the President--President 
Zelensky. President Trump has said that he would like witnesses 
to testify, but he's been forced to resist the unfair and 
abusive process.
    I believe strongly in the prerogatives of the Congress. 
It's awful to hear Professor Turley's testimony from last week, 
when he critiqued the House for proceeding on impeachment so 
rapidly and on such a thin record. Professor Turley said, ``To 
set this abbreviated schedule, demand documents, and then 
impeach because they haven't been turned over when they go to 
court I think is an abuse of power.''
    The impeachment of a duly elected President, as Chairman 
Nadler said in 1998, is the undoing of a national election. 
Now, I understand Democrats issued a report over the weekend 
arguing that, contrary to the chairman's statement in 1998, 
impeachment is not undoing an election. I would just respond by 
saying that I don't think many of the 63 million Americans from 
all around the country who voted for President Trump in 2016 
would agree. By impeaching President Trump, the House would 
essentially be nullifying the decision of those Americans. And 
the House would be doing it less than 11 months before the next 
election.
    There still is no compelling argument for why Democrats in 
the House must take this decision out of the hands of the 
voters and do it before Christmas.
    During the Clinton impeachment in 1998, the chairman said 
that ``at a bare minimum, the President's accusers must go 
beyond hearsay and innuendo and beyond demands that the 
President prove his innocence of vague and changing charges.'' 
I would submit that those words ring as true today as the 
chairman believed them to be in 1998. The impeachment record is 
heavily reliant on hearsay, innuendo, and presumptions. 
Democrats have lobbed vague and ever-changing charges for 
impeachment going as far back as the President's inauguration.
    For all these reasons, the extraordinary exercise of the 
House's impeachment authority is not warranted on the 
evidentiary record presented.
    Thank you for allowing me to present this information this 
morning, and I yield back.
    Chairman Nadler. The gentleman yields back.
    Thank you both for your presentations.
    Mr. Berke, you are now excused, and we will invite Mr. 
Goldman to take his place at the witness table.
    Mr. Buck. Mr. Chairman? Mr. Chairman?
    Chairman Nadler. For what purpose does the gentleman seek 
recognition?
    Mr. Buck. I have a parliamentary inquiry.
    Chairman Nadler. The gentleman will state his parliamentary 
inquiry.
    Mr. Buck. Thank you, Mr. Chairman.
    Pursuant to rule VII(b) of the House rules, the chairman is 
allowed to administer an oath--not mandated to, but it has been 
the practice of this committee to administer oaths to 
witnesses. I'm wondering why we have not administered the oath 
in this situation.
    Chairman Nadler. I am going to administer the oath to the 
two witnesses who are now coming before us to make 
presentations. The two gentlemen who just testified were not 
witnesses. They were staff. They were making opening statements 
for the committees.
    We will now administer an oath to Mr. Castor and Mr. 
Goldman, who are now testifying in the capacity of witnesses.
    Mr. Buck. But, typically, we administer oaths before 
opening statements.
    Chairman Nadler. For witnesses. For witnesses.
    Mr. Castor, we will now administer the oath----
    Mr. Johnson of Louisiana. Mr. Chairman, parliamentary 
inquiry.
    Chairman Nadler. The gentleman will suspend.
    Mr. Castor was here with Mr. Berke presenting the report of 
the committee--that is, the opening statement for this 
committee. They were not witnesses before this committee.
    Mr. Castor now and Mr. Goldman are witnesses before this 
committee, and I will administer the oath.
    Mr. Johnson of Georgia. Mr. Chairman, if they were making 
the presentation on behalf----
    Chairman Nadler. The gentleman is not recognized.
    Mr. Johnson of Georgia [continuing]. Of members, the rules 
should apply.
    Chairman Nadler. The gentleman is not recognized.
    We welcome----
    Mr. Reschenthaler. Mr. Chairman, I have a point of order.
    Chairman Nadler. We welcome both of our----
    Mr. Reschenthaler. Mr. Chairman, I have a point of order.
    Chairman Nadler. Who is seeking recognition?
    Mr. Reschenthaler. Right here, Mr. Chair.
    Chairman Nadler. The gentleman will state his point of 
order.
    Mr. Reschenthaler. Thank you, Mr. Chairman.
    Mr. Chairman, despite our repeated request for access to 
the evidence, we received less than 48 hours ago over 8,000 
pages of documentation. Mr. Chairman, if this were a court of 
law, you'd be facing sanctions right now by the Bar 
Association.
    Chairman Nadler. The gentleman will state his point of 
order, not make a speech.
    Mr. Reschenthaler. Mr. Chairman, how are we supposed to 
process over 8,000 pages of documents that came from various 
committees in less than 48 hours?
    Chairman Nadler. That is not a point of order. That is not 
a point of order that is recognizable.
    Mr. Reschenthaler. Mr. Chairman, can you give----
    Chairman Nadler. I will now proceed with the oath.
    Mr. Reschenthaler [continuing]. Us an explanation of why we 
received these documents----
    Chairman Nadler. The gentleman will suspend and not make a 
speech.
    Mr. Goldman and Mr. Castor, you will please rise and raise 
your right hand.
    Do you swear or affirm, under penalty of perjury, that the 
testimony you are about to give is true and correct, to the 
best of your knowledge, information, and belief, so help you 
God?
    Mr. Castor. I do.
    Mr. Goldman. I do.
    Chairman Nadler. Let the record show the presenters 
answered in the affirmative.
    Thank you, and please be seated.
    Mr. Biggs. Mr. Chairman, I have a point of order.
    Chairman Nadler. Each of you will have 45 minutes to 
present. To help you stay within that time, there is a timing 
light on your table. When the light switches from green to 
yellow, you have 1 minute to conclude your testimony. When the 
light turns red, it signals your time has expired.
    Mr. Goldman, you may begin.
    Mr. Biggs. Mr. Chairman, I have a point of order.
    Chairman Nadler. The gentleman will state his point of 
order.
    Mr. Biggs. Mr. Chairman, my point of order is this. In the 
previous point of order issued by Mr. Johnson of Louisiana, you 
ruled against his point of order because you said that Mr. 
Berke was a witness. You have just told us he was not a witness 
but he was a staffer. As such, a staffer must avoid impugning 
motivations, and if----
    Chairman Nadler. The gentleman will----
    Mr. Biggs. So----
    Chairman Nadler. The gentleman will suspend.
    Mr. Sensenbrenner. Will you let him finish his point of 
order, please?
    Chairman Nadler. He made his point of order.
    Mr. Biggs. No, Mr. Chairman, I haven't completed yet.
    The rule requires that Members and staff not impugn the 
motivations of the President. What you ruled was that he was a 
witness. You've just told us he wasn't a witness. My point of 
order is that you were out of order in your ruling.
    Chairman Nadler. The point of order is not sustained. I've 
already ruled on it. He was not a witness. These two gentlemen 
now are witnesses.
    Mr. Gaetz. I appeal the decision of the chair.
    Chairman Nadler. That is not----
    Mr. Gaetz. It most certainly is. Ms. Lofgren knows it is.
    Chairman Nadler. The ruling is not---- the point of order 
is not sustained.
    Mr. Gaetz. I appeal the decision of the chair.
    Ms. Lofgren. I move to table the----
    Chairman Nadler. The appeal to the ruling of the chair is 
tabled.
    All in favor of the motion to table, say aye.
    Opposed, nay.
    The motion to table is approved.
    Mr. Gaetz. I seek a roll call vote.
    Chairman Nadler. Roll call vote. The clerk will call the 
roll.
    Ms. Strasser. Mr. Nadler?
    Chairman Nadler. Aye.
    Ms. Strasser. Mr. Nadler votes aye.
    Ms. Lofgren?
    Ms. Lofgren. Aye.
    Ms. Strasser. Ms. Lofgren votes aye.
    Ms. Jackson Lee?
    Ms. Jackson Lee. Aye.
    Ms. Strasser. Ms. Jackson Lee votes aye.
    Mr. Cohen?
    Mr. Cohen. Aye.
    Ms. Strasser. Mr. Cohen votes aye.
    Mr. Johnson of Georgia?
    Mr. Johnson of Georgia. Aye.
    Ms. Strasser. Mr. Johnson of Georgia votes aye.
    Mr. Deutch?
    Mr. Deutch. Aye.
    Ms. Strasser. Mr. Deutch votes aye.
    Ms. Bass?
    Ms. Bass. Aye.
    Ms. Strasser. Ms. Bass votes aye.
    Mr. Richmond?
    Mr. Richmond. Aye.
    Ms. Strasser. Mr. Richmond votes aye.
    Mr. Jeffries?
    Mr. Jeffries. Aye.
    Ms. Strasser. Mr. Jeffries votes aye.
    Mr. Cicilline?
    Mr. Cicilline. Aye.
    Ms. Strasser. Mr. Cicilline votes aye.
    Mr. Swalwell?
    Mr. Swalwell. Aye.
    Ms. Strasser. Mr. Swalwell votes aye.
    Mr. Lieu?
    Mr. Lieu. Aye.
    Ms. Strasser. Mr. Lieu votes aye.
    Mr. Raskin?
    Mr. Raskin. Aye.
    Ms. Strasser. Mr. Raskin votes aye.
    Ms. Jayapal?
    Ms. Jayapal. Aye.
    Ms. Strasser. Ms. Jayapal votes aye.
    Mrs. Demings?
    Mrs. Demings. Aye.
    Ms. Strasser. Mrs. Demings votes aye.
    Mr. Correa?
    [No response.]
    Ms. Strasser. Ms. Scanlon?
    [No response.]
    Ms. Strasser. Ms. Garcia?
    Mr. Garcia. Aye.
    Ms. Strasser. Ms. Garcia votes aye.
    Mr. Neguse?
    Mr. Neguse. Aye.
    Ms. Strasser. Mr. Neguse votes aye.
    Mrs. McBath?
    Mrs. McBath. Aye.
    Ms. Strasser. Mrs. McBath votes aye.
    Mr. Stanton?
    Mr. Stanton. Aye.
    Ms. Strasser. Mr. Stanton votes aye.
    Ms. Dean?
    Ms. Dean. Aye.
    Ms. Strasser. Ms. Dean votes aye.
    Ms. Mucarsel-Powell?
    Ms. Mucarsel-Powell. Aye.
    Ms. Strasser. Ms. Mucarsel-Powell votes aye.
    Ms. Escobar?
    Ms. Escobar. Aye.
    Ms. Strasser. Ms. Escobar votes aye.
    Mr. Collins?
    Mr. Collins. No.
    Ms. Strasser. Mr. Collins votes no.
    Mr. Sensenbrenner?
    Mr. Sensenbrenner. No.
    Ms. Strasser. Mr. Sensenbrenner votes no.
    Mr. Chabot?
    Mr. Chabot. No.
    Ms. Strasser. Mr. Chabot votes no.
    Mr. Gohmert?
    Mr. Gohmert. No.
    Ms. Strasser. Mr. Gohmert votes no.
    Mr. Jordan?
    Mr. Jordan. No.
    Ms. Strasser. Mr. Jordan votes no.
    Mr. Buck?
    Mr. Buck. No.
    Ms. Strasser. Mr. Buck votes no.
    Mr. Ratcliffe?
    Mr. Ratcliffe. No.
    Ms. Strasser. Mr. Ratcliffe votes no.
    Mrs. Roby?
    Mrs. Roby. No.
    Ms. Strasser. Mrs. Roby votes no.
    Mr. Gaetz?
    Mr. Gaetz. No.
    Ms. Strasser. Mr. Gaetz votes no.
    Mr. Johnson of Louisiana?
    Mr. Johnson of Louisiana. No.
    Ms. Strasser. Mr. Johnson of Louisiana votes no.
    Mr. Biggs?
    [No response.]
    Ms. Strasser. Mr. McClintock?
    Mr. McClintock. No.
    Ms. Strasser. Mr. McClintock votes no.
    Mrs. Lesko?
    Mrs. Lesko. No.
    Ms. Strasser. Mrs. Lesko votes no.
    Mr. Reschenthaler?
    Mr. Reschenthaler. No.
    Ms. Strasser. Mr. Reschenthaler votes no.
    Mr. Cline?
    Mr. Cline. No.
    Ms. Strasser. Mr. Cline votes no.
    Mr. Armstrong?
    Mr. Armstrong. No.
    Ms. Strasser. Mr. Armstrong votes no.
    Mr. Steube?
    Mr. Steube. No.
    Ms. Strasser. Mr. Steube votes no.
    Mr. Biggs. Mr. Chairman, how am I recorded?
    Ms. Strasser. Mr. Biggs, you are not recorded.
    Mr. Biggs. No.
    Ms. Strasser. Mr. Biggs votes no.
    Chairman Nadler. Has everyone voted?
    Ms. Scanlon. No.
    Chairman Nadler. Has everyone voted who wishes to vote?
    Ms. Scanlon. How am I recorded?
    Ms. Strasser. Ms. Scanlon, you are not recorded.
    Ms. Scanlon. Aye.
    Ms. Strasser. Ms. Scanlon votes aye.
    Chairman Nadler. Mr. Correa?
    Ms. Strasser. Mr. Correa, you are not recorded.
    Mr. Correa. Aye.
    Ms. Strasser. Mr. Correa votes aye.
    Chairman Nadler. Does anyone else wish to vote who hasn't 
voted?
    The clerk will report.
    Ms. Strasser. Mr. Chairman, there are 24 ayes and 17 noes.
    Chairman Nadler. The ayes have it, and the motion to table 
is agreed to.
    Mr. Goldman, you may begin.
    Mr. Goldman. Thank you, Mr. Chairman.
    Chairman Nadler, Ranking Member Collins, members of the 
committee, we are here today because Donald J. Trump, the 45th 
President of the United States, abused the power of his office, 
the American Presidency, for his political and personal 
benefit.
    President Trump directed a months-long campaign to solicit 
foreign help in his 2020 reelection efforts, withholding 
official acts from the Government of Ukraine in order to coerce 
and secure political assistance and interference in our 
domestic affairs.
    As part of this scheme, President Trump applied increasing 
pressure on the President of Ukraine to publicly announce two 
investigations helpful to his personal reelection efforts. He 
applied this pressure himself and through his agents working 
within and outside of the U.S. Government by conditioning a 
desperately sought Oval Office meeting and $391 million in 
taxpayer-funded, congressionally appropriated security 
assistance vital to Ukraine's ability to fend off Russian 
aggression. And he conditioned that on the announcement of 
these two political investigations that were helpful to his 
personal interests.
    When the President's efforts were discovered, he released 
the military aid, though it would ultimately take congressional 
action for the money to be made fully available to Ukraine. The 
Oval Office meeting still has not happened.
    And when faced with the opening of an official impeachment 
inquiry into his conduct, President Trump launched an 
unprecedented campaign of obstruction of Congress, ordering 
executive branch agencies and government officials to defy 
subpoenas for documents and testimony. To date, the 
investigating committees have received no documents from the 
Trump administration pursuant to our subpoenas.
    Were it not for courageous public servants doing their duty 
and honoring their oath to this country and coming forward and 
testifying, the President's scheme might still be concealed 
today.
    The central moment in this scheme was a telephone call 
between President Trump and Ukrainian President Volodymyr 
Zelensky on July 25 of this year. During that call, President 
Trump asked President Zelensky for a personal favor, to 
initiate the two investigations that President Trump hoped 
could ultimately help his reelection in 2020.
    The first investigation involved former Vice President Joe 
Biden and was an effort to smear his reputation as he seeks the 
Democratic nomination in next year's Presidential election.
    The second investigation sought to elevate an entirely 
debunked conspiracy theory promoted by Russian President 
Vladimir Putin that Ukraine interfered in the last Presidential 
election to support the Democratic nominee. In truth, as has 
been made clear by irrefutable evidence from throughout the 
government, Russia interfered in the last election in order to 
help then-candidate Trump.
    The allegations about Vice President Biden and the 2016 
election are patently false, but that did not deter President 
Trump during his phone call with the Ukrainian President, and 
it does not appear to deter him today. Just 2 days ago, 
President Trump stated publicly that he hopes that his personal 
attorney, Rudy Giuliani, will report to the Department of 
Justice and to Congress the results of Mr. Giuliani's efforts 
in Ukraine last week to pursue these false allegations meant to 
tarnish Vice President Biden.
    President Trump's persistent and continuing effort to 
coerce a foreign country to help him cheat to win an election 
is a clear and present danger to our free and fair elections 
and to our national security.
    The overwhelming evidence of this scheme is described in 
detail in a nearly 300-page document entitled ``The Trump-
Ukraine Impeachment Inquiry Report,'' formally transmitted from 
the House Permanent Select Committee on Intelligence to this 
committee a few days ago. The report relies on testimony from 
numerous current and former government officials, the vast 
majority of whom are nonpartisan career professionals 
responsible for keeping our Nation safe and promoting American 
values around the globe.
    The evidence from these witnesses cannot seriously be 
disputed: The President placed his personal interests above the 
Nation's interests in order to help his own reelection efforts.
    Before I highlight the evidence and the findings of this 
report, I want to take just a moment to introduce myself and 
discuss today's testimony.
    I joined the House Intelligence Committee as senior advisor 
and director of investigations at the beginning of this year. 
Previously, I served for 10 years as a prosecutor in the 
Southern District of New York when I joined the Department of 
Justice under the George W. Bush administration. The team that 
I led on the intelligence community includes other former 
Federal prosecutors, a retired FBI agent, and investigators 
with significant national security expertise.
    The report that I am presenting today is based entirely on 
the evidence that we collected in coordination with the 
Oversight and Foreign Affairs Committees that were gathered as 
part of the impeachment inquiry into President Trump's 
actions--nothing more and nothing less.
    The three investigating committees ran a fair, 
professional, and thorough investigation. We followed the House 
rules for depositions and public hearings, including the rule 
against agency counsel being present for depositions. And 
members and staff from both parties had equal time to ask 
questions, and there were no substantive questions that were 
prevented from being asked and answered.
    This investigation moved swiftly and intensively, as all 
good investigations should.
    To the extent that other witnesses would be able to provide 
more context and detail about this scheme, their failure to 
testify is due solely to the fact that President Trump 
obstructed the inquiry and refused to make them available.
    Nevertheless, the extensive evidence that the committee has 
uncovered during this investigation led to the following 
critical findings.
    First, President Trump used the power of his office to 
pressure and induce the newly elected President of Ukraine to 
interfere in the 2020 Presidential election for President 
Trump's personal and political benefit.
    Second, in order to increase the pressure on Ukraine to 
announce the politically motivated investigations that 
President Trump wanted, President Trump withheld a coveted Oval 
Office meeting and $391 million of essential military 
assistance from Ukraine.
    Third, President Trump's conduct sought to undermine our 
free and fair elections and poses an imminent threat to our 
national security.
    And, fourth, faced with the revelation of his pressure 
campaign against Ukraine, President Trump directed an 
unprecedented effort to obstruct Congress's impeachment inquiry 
into his conduct.
    And with that context in mind, I would like to turn to the 
evidence of President Trump's conduct concerning Ukraine.
    My colleague Mr. Castor just said that it revolves around 
eight lines in one call record, but that sorely ignores the 
vast amount of evidence that we collected of a months-long 
scheme directed by the President. But I do want to start with 
that July 25 phone call, because that is critical evidence of 
the President's involvement and intent.
    It was on that day that he held his second phone call with 
the new Ukrainian President. The first in April was short and 
cordial, following the Ukrainian President's election success. 
But the second call would diverge dramatically from what those 
listening had expected.
    Now, just prior to this telephone call, President Trump 
spoke to Gordon Sondland, the U.S. Ambassador to the European 
Union, who had donated $1 million to the President's inaugural 
campaign, and who had been directed by the President himself to 
take on a leading role in Ukraine issues.
    Ambassador Sondland relayed the President's message to 
President Zelensky through Ambassador Kurt Volker, who had had 
lunch that day with President Zelensky's top aide, Andriy 
Yermak, who appears repeatedly through this scheme as President 
Zelensky's right-hand man.
    Ambassador Volker texted Mr. Yermak with President Trump's 
direction: Good lunch, thanks. Heard from White House. Assuming 
President Z convinces Trump he will investigate, get to the 
bottom of what happened in 2016, we will nail down for a visit 
to Washington. Good luck. See you tomorrow. Kurt.
    So even before the phone call with President Zelensky took 
place, President Trump had directed that Ukraine initiate the 
investigation into 2016, the debunked conspiracy theory that 
Ukraine had interfered in the election, in order for President 
Zelensky to get the White House visit that he desperately 
coveted.
    Ambassador Sondland was clear in his testimony about this 
quid pro quo.
    [Video shown.]
    Mr. Goldman. During this call with the Ukrainian leader, 
President Trump did not discuss matters of importance to the 
United States, such as Ukraine's efforts to root out 
corruption. Instead, President Trump veered quickly into the 
personal favor that he wanted President Zelensky to do: two 
investigations that would help President Trump's reelection 
effort.
    Witnesses who listened to the call described it as 
``unusual,'' ``improper,'' ``inappropriate,'' and 
``concerning.'' Two of them immediately reported their concerns 
to White House lawyers.
    Now, let me just take a few minutes walking through that 
important call step by step, because it is evidence that is 
central to the President's scheme.
    Near the beginning of the call, President Zelensky said, 
``I would also like to thank you for your great support in the 
area of defense. We are ready to continue to cooperate for the 
next steps. Specifically, we are almost ready to buy more 
Javelins from the United States for defense purposes.''
    The ``great support'' in the area of defense included the 
nearly $400 million of U.S. military assistance to Ukraine, 
which one witness testified was nearly 10 percent of Ukraine's 
defense budget. And this support comes as a result of Russia's 
invasion of Ukraine in 2014, when Russia illegally annexed 
nearly 7 percent of Ukraine's territory. Since then, the United 
States and our allies have provided support for Ukraine, an 
emerging post-Soviet democracy, to fend off Russia in the east.
    Yet, just a few weeks before this July 25 call, President 
Trump had inexplicably placed a hold on military assistance to 
Ukraine without providing any reason to his own Cabinet members 
or national security officials. The evidence the committee has 
collected showed that there was unanimous support for the aid 
from every relevant agency in the Trump administration.
    Nevertheless, during the call, President Trump complained 
that U.S. support for Ukraine was not reciprocal, that somehow 
Ukraine needed to give more to the United States. What did he 
mean? Well, it became clear, because immediately after 
President Zelensky brought up U.S. military support and 
purchasing Javelin antitank weapons, President Trump responded, 
``I would like you to do us a favor, though, because our 
country has been through a lot, and Ukraine knows a lot about 
it.''
    Now, the favor that he referenced there included two 
demands that had nothing to do with official U.S. policy or 
foreign policy.
    First, President Trump said: ``I would like you to find out 
what happened with this whole situation with Ukraine, they say 
CrowdStrike . . . I guess you have one of your wealthy 
people,'' it says. ``The server, they say Ukraine has it. There 
are a lot of things that went on, the whole situation. I think 
you're surrounding yourself with some of the same people.''
    And he went on later: ``I would like to have the Attorney 
General call you or your people, and I would like you to get to 
the bottom of it. As you saw yesterday, that whole nonsense 
ended with a very poor performance by a man named Robert 
Mueller, an incompetent performance, but they say a lot of it 
started with Ukraine. Whatever you can do, it's very important 
that you do it if that's possible.''
    Here again, President Trump was referring to the baseless 
conspiracy theory that the Ukrainian Government, not Russia, 
was behind the hack of the Democratic National Committee in 
2016. Not a single witness in our investigation testified that 
there was any factual support for this allegation.
    To the contrary, a unanimous assessment of the U.S. 
intelligence community found that Russia alone interfered in 
the 2016 U.S. election. And Special Counsel Mueller, who 
indicted 12 Russians for this conspiracy, testified before 
Congress that the Russian Government interfered in the 2016 
Presidential election in sweeping and systematic fashion.
    Dr. Fiona Hill, an expert on Russia and President Putin who 
served on the National Security Council until July, testified 
that the President was told by his own former senior advisors, 
including his homeland security advisor and his former National 
Security Advisor, that the alternative theory that Ukraine had 
interfered in the election was false.
    And although no one in the U.S. Government knew of any 
factual support for this theory, it did have one significant 
supporter: Russian President Vladimir Putin. In February of 
2017, President Putin said, ``Second, as we all know, during 
the Presidential campaign in the United States, the Ukrainian 
Government adopted a unilateral position in favor of one 
candidate. More than that, certain oligarchs, certainly with 
the approval of the political leadership, funded this 
candidate--or female candidate, to be more precise.''
    And if there was ever any doubt about who benefits from 
this unfounded theory put forward by President Trump and his 
associates, President Putin made it clear very recently when he 
said, ``Thank God no one is accusing us anymore of interfering 
in U.S. elections. Now they're accusing Ukraine.''
    In the face of clear evidence not only from intelligence 
community experts but from his own national security team that 
Russia, not Ukraine, interfered in the 2016 election for the 
benefit of Donald Trump, President Trump still pressed the 
Ukrainian Government to announce an investigation into this 
conspiracy theory. And why? Because it would help his own 
political standing.
    President Trump even sought to withhold an Oval Office 
meeting from the President of Ukraine until he fell in line 
with President Putin's lies--the leader who had actually 
invaded Ukraine.
    The second demand that President Trump made of President 
Zelensky during the July 25 call was to investigate the front-
runner for the Democratic nomination for President in 2020, 
former Vice President Joe Biden, and his son Hunter.
    President Trump stated: ``The other thing. There's a lot of 
talk about Biden's son, that Biden stopped the prosecution and 
a lot of people want to find out about that. So whatever you 
can do with the Attorney General would be great. Biden went 
around bragging that he stopped the prosecution. So if you can 
look into it. It sounds horrible to me.''
    Witnesses unanimously testified that there was no factual 
support for this claim. Rather, they noted that Vice President 
Biden was acting in support of an international consensus and 
official U.S. policy to clean up the Prosecutor-General's 
Office in Ukraine.
    Despite these facts, by the time of the July 25 call, Mr. 
Giuliani had been publicly advocating for these two 
investigations for months while also using back channels to 
press Ukrainian officials to initiate them in support of his 
client, Donald Trump. Ambassador Sondland understood Mr. 
Giuliani's role very clearly. He testified, ``Mr. Giuliani was 
expressing the desires of the President of the United States, 
and we knew these investigations were important to the 
President.''
    To others, Mr. Giuliani was working at cross-purposes with 
official policy channels toward Ukraine, even as he was working 
on behalf of President Trump. According to former National 
Security Advisor Ambassador John Bolton, Mr. Giuliani was a, 
quote, ``hand grenade who's going to blow everybody up,'' 
unquote.
    Near the end of the July 25 call, President Zelensky 
circled back to the precooked message that Ambassador Volker 
had relayed to President Zelensky's top aide before the call. 
President Zelensky said, ``I also wanted to thank you for your 
invitation to visit the United States, specifically Washington, 
D.C. On the other hand, I also wanted to assure you that we 
will be very serious about the case and we will work on the 
investigation.''
    In other words, on one hand is the White House visit, while 
on the other hand he agreed to pursue the investigations. This 
statement shows that President Zelensky fully understood at the 
time of the July 25 call the quid pro quo between these 
investigations and the White House meeting that President Trump 
required and that Ambassador Sondland had testified so clearly 
about.
    Numerous witnesses testified about the importance of a 
White House meeting with the President of the United States, 
specifically a meeting in the Oval Office, an official act by 
President Trump.
    As David Holmes, senior official in the U.S. Embassy in 
Ukraine, said, ``It is important to understand that a White 
House visit was critical to President Zelensky. President 
Zelensky needed to show U.S. support at the highest levels in 
order to demonstrate to Russian President Vladimir Putin that 
he had U.S. backing as well as to advance his ambitious 
anticorruption reform agenda at home.''
    In other words, the White House visit would help Zelensky's 
anticorruption reforms. And that support remains critical, as 
President Zelensky meets today with President Putin to try to 
resolve the conflict in the East.
    Now, the day after this phone call, President Trump sought 
to ensure that President Zelensky got the message. On July 26, 
U.S. officials met with President Zelensky and other Ukrainian 
officials in Kyiv, and President Zelensky mentioned that 
President Trump had brought up some, quote, ``very sensitive 
issues,'' unquote.
    After that meeting, Ambassador Sondland had a private, one-
on-one meeting with Andriy Yermak, President Zelensky's top 
aide, during which Ambassador Sondland said that they probably 
discussed the issue of investigations.
    At lunch right after that with Mr. Holmes and two other 
State Department officers, Ambassador Sondland pulled out his 
cell phone and called President Trump. Somewhat shocked, Mr. 
Holmes recounted the conversation that followed.
    ``I heard Ambassador Sondland greet the President and 
explain he was calling from Kyiv. I heard President Trump then 
clarify that Ambassador Sondland was in Ukraine. Ambassador 
Sondland replied, yes, he was in Ukraine, and went on to state 
that President Zelensky, quote, `loves your ass,' unquote. I 
then heard President Trump ask, `So he's going to do the 
investigation?'' Ambassador Sondland replied that he is going 
to do it, adding that `President Zelensky will do anything you 
ask him to do.'''
    Mr. Goldman. After the call, Ambassador Sondland told Mr. 
Holmes that President Trump did not give a bleep about Ukraine 
and only cares about the big stuff that benefits the President 
himself, like the Biden investigation that Mr. Giuliani was 
pushing.
    To repeat--and this is very important--Ambassador Sondland 
spoke to President Trump before the July 25 call with President 
Zelensky and relayed to Ukrainian officials President Trump's 
requirement of political investigations in exchange for a White 
House meeting.
    And during that call, President Trump asked for the favor 
of these two political investigations immediately after the 
Ukrainian President brought up U.S. military support for 
Ukraine, which President Trump had recently suspended or put on 
hold.
    And at the end of the call, President Zelensky made a point 
of acknowledging the link between the investigations that 
President Trump requested and the White House meeting that 
President Zelensky desperately wanted.
    And then the following day, Ambassador Sondland confirmed 
to President Trump on the telephone in person that the 
Ukrainians would indeed initiate the investigations discussed 
on the call, which were the only--which was the only thing 
about Ukraine that President Trump cared about. Now, it's very 
important to understand that this investigation revealed that 
the July 25 call was neither the start, nor the end of 
President Trump's efforts to use the powers of his office for 
personal political gain. And you have to look at all of the 
evidence in context as a whole.
    Prior to the call, the President had removed the former 
ambassador, Marie Yovanovitch, to clear the way for his three 
hand-picked agents to spearhead his corrupt agenda in Ukraine--
Secretary Perry, Ambassador Sondland, and Ambassador Volker, 
all of whom attended President Zelensky's inauguration on May 
20. All political appointees, they proved to be more than 
willing to engage in what Dr. Hill later described as an 
improper domestic political errand for the President.
    On April 21, President Zelensky won the Ukrainian election 
with 73 percent of the vote, and he had two primary platforms: 
to resolve the war in the east with Russia, and to root out 
corruption. That same day, President Trump called to 
congratulate him on his win.
    Even though the White House press release following the 
call stated that President Trump expressed his shared 
commitment to, quote, ``root out corruption,'' unquote, 
President Trump, in fact, did not mention corruption at all on 
this call, just like he did not mention corruption on the July 
25 call.
    Shortly after this call, President Trump asked Vice 
President Mike Pence to attend President Zelensky's 
inauguration. But on May 13, President Trump did an about-face 
and directed Vice President Pence not to attend. An adviser to 
Vice President Pence testified that the inauguration had not 
yet been scheduled and, therefore, the reason for the abrupt 
change of plans was not related to any scheduling issues.
    So what had happened in the 3 weeks between April 21 and 
May 13, when Vice President Pence was originally invited and 
then disinvited, or removed, from the delegation. A few things.
    First, on April 25, Vice President Biden formally announced 
his bid for the Democratic nomination for President.
    Then, about a week later, on May 3, President Trump spoke 
with President Putin on the telephone. One senior State 
Department official testified that the conversation between 
President Trump and President Putin included a discussion of 
Ukraine.
    Third, on May 9, Mr. Giuliani told The New York Times that 
he intended to travel to Ukraine on behalf of his client, 
President Trump, in order to, quote, ``meddle in an 
investigation,'' unquote. But after public backlash, and 
apparent pushback from the Ukrainians, Mr. Giuliani canceled 
his trip the next day, claiming that President Zelensky was 
surrounded by enemies of President Trump.
    At a critical May 23 meeting in the Oval Office, President 
Trump said that Ukraine was corrupt and tried to take him down 
in 2016, the same false narrative pushed by President Putin and 
Mr. Giuliani. And in order for the White House meeting to 
occur, President Trump told the delegation they must talk to 
Rudy to get the visit scheduled.
    These comments from President Trump were the first of many 
subsequent indications that in his mind corruption equals 
investigations. In the weeks and months following, Mr. Giuliani 
relayed to both Ukrainian officials and the government 
officials that President Trump had designated at the May 23 
meeting to take a lead on Ukraine policy.
    The directive from President Trump that a White House 
meeting would not occur until Ukraine announced the two 
political investigations that President Trump required, and 
well before the July 25 call, Ambassadors Sondland and Volker 
also relayed this quid pro quo to the Ukrainians, including to 
President Zelensky himself.
    Ambassador Volker conveyed the message directly to 
President Zelensky at the beginning of July, urging him to 
reference investigations associated with the Giuliani factor 
with President Trump. And in meetings at the White House on 
July 10, Ambassador Sondland told other U.S. officials and two 
of President Zelensky's advisers, including Mr. Yermak, that he 
had an agreement with acting Chief of Staff Mick Mulvaney that 
the White House visit would be scheduled if Ukraine announced 
the investigations.
    One witness testified that during the second of the 
meetings, Ambassador Sondland began to review what the 
deliverable would be in order to get the meeting, referring to 
an investigation of the Bidens. The witness told the committee 
that the request was explicit, there was no ambiguity, and that 
Ambassador Sondland also mentioned Burisma, a major Ukraine 
energy company that Hunter Biden sat on the board of.
    To the witnesses that testified before the committee, the 
references to Burisma was shorthand for an investigation into 
the Bidens. Ambassador Bolton, as well as his staff members, 
objected to this meeting-for-an-investigations trade, and 
Ambassador Bolton told Dr. Hill: You go and tell Eisenberg, 
John Eisenberg, the legal adviser for the National Security 
Council, that I am not part of whatever drug deal Sondland and 
Mulvaney are cooking up on this, and you go ahead and tell him 
what you've heard and what I've said.
    Yet this was not a rogue operation by Mr. Giuliani and 
Ambassadors Sondland and Volker. As Ambassador Sondland 
testified, everyone was in the loop, including Mr. Mulvaney, 
Secretary Pompeo, Secretary Perry, and their top advisers.
    On July 19, Ambassador Sondland emailed Mr. Mulvaney, 
Secretary Perry, Secretary Pompeo, and others after speaking 
with President Zelensky. The subject was: I talked to Zelensky 
just now. And Ambassador Sondland wrote: He is prepared to 
receive POTUS' call--POTUS is the President of the United 
States--will assure him that he intends to run a fully 
transparent investigation and will, quote, ``turn over every 
stone,'' unquote.
    Both Secretary Perry and Chief of Staff Mulvaney quickly 
responded to the email, noting that given that conversation, a 
date would soon be set to schedule the White House telephone 
call.
    The evidence also unambiguously shows that the Ukrainians 
understood this quid pro quo and had serious reservations, 
particularly because President Zelensky had won the election on 
an anticorruption platform.
    In fact, a few days before the July 25 call, Ambassador 
William Taylor, the acting U.S. ambassador to Ukraine and the 
former permanent ambassador to Ukraine, texted Ambassadors 
Sondland and Volker--or rather, he stated in his testimony: On 
July 20, I had a phone conversation with Mr. Danylyuk, during 
which he conveyed to me that President Zelensky did not want to 
be used as a pawn in a U.S. reelection campaign.
    But President Trump's pressure campaign on President 
Zelensky did not relent. And just 4 days later, President 
Zelensky received that message, via Kurt Volker, that he needed 
to convince President Trump that he would do the investigations 
in order to get that White House meeting. And as I have 
described, President Zelensky tried to do exactly that on the 
July 25 call with President Trump.
    In the weeks following the July 25 call, President Zelensky 
heeded President Trump's request, sending his top aide, Mr. 
Yermak, to Madrid to meet with Mr. Giuliani. In coordination 
with Mr. Giuliani and President Trump's hand-picked 
representatives, they continued this pressure campaign to 
secure a public announcement of the investigations.
    Now, according to Ambassador Sondland--and this is very 
important--President Trump did not require that Ukraine 
actually conduct the investigations as a prerequisite for the 
White House meeting. Instead the Ukrainian Government needed 
only to publicly announce the investigations.
    It is clear that the goal was not the investigations 
themselves, or not any corruption that those investigations 
might have entailed, but the political benefit that President 
Trump would enjoy from an announcement of investigations into 
his 2020 political rival and against a unanimous assessment 
that showed that he received foreign support in the 2016 
election. And for that reason, the facts didn't actually matter 
to President Trump, because he only cared about the personal 
and political benefit from the announcement of the 
investigation.
    Over the next couple of weeks, Ambassadors Sondland and 
Volker worked with President Trump's aide, Mr. Yermak, to draft 
a statement for President Zelensky to issue. When the aide 
proposed a statement that did not include specific references 
to the investigations that President Trump wanted, the Burisma 
and Biden investigation and the 2016 election investigation, 
Mr. Giuliani relayed that that would not be good enough to get 
a White House meeting.
    And here you can see a comparison on the left of the 
original statement drafted by Mr. Yermak, the top aide to 
President Zelensky, and on the right, a revised statement with 
Mr. Giuliani's requirements.
    It says: We intend to initiate and complete a transparent 
and unbiased investigation of all available facts and 
episodes--and here's the critical difference--including those 
involving Burisma and the 2016 U.S. elections, which, in turn, 
will prevent the recurrence of this problem in the future.
    The only difference in the statement that Giuliani required 
and the statement that the Ukrainians had drafted was this 
reference to the two investigations that President Trump wanted 
and told President Zelensky about on the July 25 call.
    Now, ultimately President Zelensky's administration 
temporarily shelved this announcement, though efforts to press 
Ukraine would remain ongoing. By mid-August, Ukraine did not 
make a public announcement of the investigations that President 
Trump required, and as a result, no White House meeting was 
scheduled.
    But by this time, the President was pushing on another 
pressure point to coerce Ukraine to announce the 
investigations: the hold on the vital military assistance that 
the President had put in place for more than a month, still 
without any explanation to any of the policy experts.
    Our investigation revealed that a number of Ukrainian 
officials had made quiet inquiries to various U.S. officials 
about the aid as early as July 25, the day of the phone call. 
Inquiries by Ukrainian officials continued in the weeks that 
followed until the hold was revealed at the end of August. But 
this is important: It was important for the Ukrainian officials 
to keep it quiet, because if it became public, then Russia 
would know that the U.S. support for Ukraine might be on ice.
    So by the end of that month, the evidence revealed several 
facts. One, the President demanded that Ukraine publicly 
announce two politically motivated investigations to benefit 
his reelection. Two, a coveted White House meeting was 
expressly conditioned on Ukraine announcing those 
investigations. Three, President Trump had placed a hold on 
vital military assistance to Ukraine without any explanation 
and notwithstanding the uniform support for that assistance 
from the relevant Federal agencies and Congress.
    Ambassador Taylor testified that this quid pro quo between 
the investigations President Trump wanted and the security 
assistance that President Trump needed was crazy, and he told 
Ambassador Sondland, as I said on the phone: I think it's crazy 
to withhold security assistance for help with a political 
campaign.
    Now, in an effort to move the White House meeting and the 
military aid along, Ambassador Sondland wrote an email to 
Secretary Pompeo on August 22. He wrote: Mike, should we block 
time in Warsaw for a short pull-aside for POTUS to meet 
Zelensky? I would ask Zelensky to look him in the eye and tell 
him that once Ukraine's new justice folks are in place, 
parentheses, mid-September, Z, President Zelensky, should be 
able to move forward publicly and with confidence on those 
issues of importance to POTUS and to the U.S. Hopefully that 
will break the logjam.
    Ambassador Sondland testified that this was a reference to 
the political investigations that President Trump discussed on 
the July 25 call, which Secretary Pompeo ultimately admitted 
to, that he listened to in real-time. Ambassador Sondland hoped 
that this would help lift the logjam, which he meant the hold 
on critical security assistance to Ukraine and the White House 
meeting.
    And what was Secretary Pompeo's response 3 minutes later? 
Yes.
    After the hold on military assistance became public on 
August 28, senior Ukrainian officials expressed grave concern, 
deeply worried, of course, about the practical impact on their 
efforts to fight Russian aggression, but also--and this goes 
back to why it remained confidential--also about the public 
message that it sent to the Russian Government.
    On September 1, at a prebriefing with Vice President Pence 
before he met with President Zelensky, Ambassador Sondland 
raised the issue of the hold on security assistance. He said: I 
mentioned to Vice President Pence before the meetings with the 
Ukrainians that I had concerns that the delay in aid had become 
tied to the issue of investigations. Vice President Pence 
simply nodded in response, expressing neither surprise, nor 
dismay, at the linkage between the two.
    And following Vice President Pence's meeting with President 
Zelensky, Ambassador Sondland went over to Mr. Yermak again, 
President Zelensky's top aide, and pulled him aside, to explain 
that the hold on security assistance was also now conditioned 
on the public announcement of the Burisma/Biden and the 2016 
election interference investigations.
    Ambassador Sondland then explained to Ambassador Taylor 
that he had previously made a mistake in telling Ukrainian 
officials that only the White House meeting was conditioned on 
a public announcement of the political investigations 
beneficial to President Trump. In truth, everything, the White 
House meeting and the vital security assistance to Ukraine, was 
now conditioned on the public announcement. President Trump 
wanted President Zelensky in a public box. A private commitment 
was not good enough.
    Nearly 1 week later, on September 7, the hold remained, and 
President Trump and Ambassador Sondland spoke on the phone. The 
President immediately told Ambassador Sondland that there was 
no quid pro quo, but--and this is very important--President 
Zelensky would still be required to announce the investigations 
in order for the hold on security assistance to be lifted--and 
he should want to do it. In effect, this is the equivalent of 
saying there is no quid pro quo, no this for that, before then 
demanding precisely that quid pro quo.
    And immediately after this phone call with President Trump, 
this was the precise message that Ambassador Sondland passed 
directly to President Zelensky. According to Ambassador Taylor, 
Ambassador Sondland also said that he had talked to President 
Zelensky and Mr. Yermak and had told them that although this 
was not a quid pro quo, if President Zelensky did not clear 
things up in public, we would be at a stalemate, and I 
understood a stalemate to mean that Ukraine would not receive 
the much needed military assistance.
    Needing the military assistance and hoping for the White 
House meeting, President Zelensky finally relented to President 
Trump's pressure campaign, and arrangements were soon made for 
the Ukrainian President to make a statement during an interview 
on CNN where he would make a public announcement of the two 
investigations that President Trump wanted in order for 
President Zelensky to secure the White House meeting and for 
Ukraine to get that much needed military assistance.
    And although there is no doubt that President Trump had 
ordered the military aid held up until the Ukrainians committed 
to the investigations, on October 17 acting Chief of Staff Mick 
Mulvaney confirmed in public that there was such a quid pro 
quo. Let's watch what he said.
    [Video shown.]
    Mr. Goldman. There you have it. By early September, the 
President's scheme was unraveling. On September 9, the 
Intelligence, Oversight, and Foreign Affairs Committees 
announced an investigation into President Trump and Mr. 
Giuliani's efforts in Ukraine. And later that same day, the 
Intelligence Committee learned that a whistleblower had filed a 
complaint nearly a month earlier related to some unknown issue, 
but which the President and the White House knew was related to 
Ukraine and had been circulating among them for some time.
    And then, 2 days later, on September 11, in the face of 
growing public and congressional scrutiny, President Trump 
lifted the hold on security assistance to Ukraine. As with the 
implementation of the hold, no reason was provided. Put simply, 
President Trump got caught, so he released the aid.
    But even since this investigation began, the President has 
demonstrated no contrition or acknowledgement that his demand 
for a foreign country to interfere in our election is wrong. In 
fact, he has repeatedly called on Ukraine to investigate Vice 
President Biden, his rival.
    These and other actions by the President and his associates 
demonstrate that his determination to solicit foreign 
interference in our election continues today. It did not end 
with Russia's support for Trump in 2016, which President Trump 
invited by asking for his opponent to be hacked by Russia, and 
it did not end when his Ukrainian scheme was exposed in 
September of this year.
    President Trump also engaged once this investigation began 
in an unprecedented effort to obstruct the inquiry. And I look 
forward to answering your questions about that unprecedented 
obstruction.
    But in conclusion, I want to say that the Intelligence 
Committee has produced to you a nearly 300-page report. And I 
am grateful that you have offered me the opportunity today to 
walk you through some of the evidence underlying it. 
Admittedly, it is a lot to digest.
    But let me just say this. The President's scheme is 
actually quite simple, and the facts are not seriously in 
dispute. It can be boiled down to four key takeaways.
    First, that President Trump directed a scheme to pressure 
Ukraine into opening two investigations that would benefit his 
2020 reelection campaign, and not the U.S. national interest.
    Second, President Trump used his official office and the 
official tools of U.S. foreign policy, the withholding of an 
Oval Office meeting and $391 million in security assistance, to 
pressure Ukraine into meeting his demands.
    Third, everyone was in the loop--his Chief of Staff, the 
Secretary of State, and the Vice President.
    And fourth, despite the public discovery of this scheme, 
which prompted the President to release the aid, he has not 
given up. He and his agents continue to solicit Ukrainian 
interference in our election, causing an imminent threat to our 
elections and our national security.
    Members of the committee, President Trump's----
    Mr. Gaetz. Regular order, Mr. Chairman. His time has 
elapsed. Point of order.
    Chairman Nadler. The gentleman's time has expired.
    Mr. Deutch.
    Mr. Deutch. Mr. Chairman, I have a motion.
    Chairman Nadler. The gentleman will state his motion.
    Mr. Deutch. I move the committee shall be in recess subject 
to the call of the chair.
    Mr. Gaetz. I move to table.
    Chairman Nadler. The move to recess----
    Mr. Gaetz. I move to table the motion.
    Chairman Nadler [continuing]. Is a privileged motion. It is 
not debatable.
    All those in favor of the committee recessing----
    Mr. Gaetz. I seek a recorded vote.
    Chairman Nadler [continuing]. Subject to the call of the 
chair, will say aye.
    Opposed, nay.
    The ayes have it. The committee----
    Voice. Roll call.
    Chairman Nadler. Roll call?
    The clerk will call the roll.
    Ms. Strasser. Mr. Nadler?
    Chairman Nadler. Aye.
    Ms. Strasser. Mr. Nadler votes aye.
    Ms. Lofgren?
    Ms. Lofgren. Aye.
    Ms. Strasser. Ms. Lofgren votes aye.
    Ms. Jackson Lee?
    Ms. Jackson Lee. Aye.
    Ms. Strasser. Ms. Jackson Lee votes aye.
    Mr. Cohen?
    Mr. Cohen. Aye.
    Ms. Strasser. Mr. Cohen votes aye.
    Mr. Johnson of Georgia?
    Mr. Johnson of Georgia. Aye.
    Ms. Strasser. Mr. Johnson of Georgia votes aye.
    Mr. Deutch?
    Mr. Deutch. Aye.
    Ms. Strasser. Mr. Deutch votes aye.
    Ms. Bass?
    Ms. Bass. Aye.
    Ms. Strasser. Ms. Bass votes aye.
    Mr. Richmond?
    Mr. Richmond. Aye.
    Ms. Strasser. Mr. Richmond votes aye.
    Mr. Jeffries?
    Mr. Jeffries. Aye.
    Ms. Strasser. Mr. Jeffries votes aye.
    Mr. Cicilline?
    Mr. Cicilline. Aye.
    Ms. Strasser. Mr. Cicilline votes aye.
    Mr. Swalwell?
    Mr. Swalwell. Aye.
    Ms. Strasser. Mr. Swalwell votes aye.
    Mr. Lieu?
    Mr. Lieu. Aye.
    Ms. Strasser. Mr. Lieu votes aye.
    Mr. Raskin?
    Mr. Raskin. Aye.
    Ms. Strasser. Mr. Raskin votes aye.
    Ms. Jayapal?
    Ms. Jayapal. Aye.
    Ms. Strasser. Ms. Jayapal votes aye.
    Mrs. Demings?
    Mrs. Demings. Aye.
    Ms. Strasser. Mrs. Demings votes aye.
    Mr. Correa?
    Mr. Correa. Aye.
    Ms. Strasser. Mr. Correa votes aye.
    Ms. Scanlon?
    Ms. Scanlon. Aye.
    Ms. Strasser. Ms. Scanlon votes aye.
    Ms. Garcia?
    Ms. Garcia. Aye.
    Ms. Strasser. Ms. Garcia votes aye.
    Mr. Neguse?
    Mr. Neguse. Aye.
    Ms. Strasser. Mr. Neguse votes aye.
    Mrs. McBath?
    Mrs. McBath. Aye.
    Ms. Strasser. Mrs. McBath votes aye.
    Mr. Stanton?
    Mr. Stanton. Aye.
    Ms. Strasser. Mr. Stanton votes aye.
    Ms. Dean?
    Ms. Dean. Aye.
    Ms. Strasser. Ms. Dean votes aye.
    Ms. Mucarsel-Powell?
    Ms. Mucarsel-Powell. Aye.
    Ms. Strasser. Ms. Mucarsel-Powell votes aye.
    Ms. Escobar?
    Ms. Escobar. Aye.
    Ms. Strasser. Ms. Escobar votes aye.
    Mr. Collins?
    Mr. Collins. No.
    Ms. Strasser. Mr. Collins votes no.
    Mr. Sensenbrenner?
    Mr. Sensenbrenner. No.
    Ms. Strasser. Mr. Chabot?
    Mr. Chabot. No.
    Ms. Strasser. Oh, Mr. Sensenbrenner votes no.
    Mr. Chabot?
    Mr. Chabot. No.
    Ms. Strasser. Mr. Chabot votes no.
    Mr. Gohmert?
    Mr. Gohmert. No.
    Ms. Strasser. Mr. Gohmert votes no.
    Mr. Jordan?
    Mr. Jordan. No.
    Ms. Strasser. Mr. Jordan votes no.
    Mr. Buck?
    [No response.]
    Ms. Strasser. Mr. Ratcliffe?
    Mr. Ratcliffe. No.
    Ms. Strasser. Mr. Ratcliffe votes no.
    Mrs. Roby?
    Mrs. Roby. No.
    Ms. Strasser. Mrs. Roby votes no.
    Mr. Gaetz?
    Mr. Gaetz. No. This is so they can have a press conference 
before Mr. Castor gets the chance to offer rebuttal.
    Chairman Nadler. The gentleman----
    Mr. Gaetz. Nobody asked for this break, Mr. Chairman.
    Chairman Nadler. The gentleman will suspend. The roll call 
is in progress.
    Ms. Strasser. Mr. Gaetz votes no.
    Mr. Johnson of Louisiana?
    Mr. Johnson of Louisiana. No.
    Ms. Strasser. Mr. Johnson of Louisiana votes no.
    Mr. Biggs?
    Mr. Biggs. No.
    Ms. Strasser. Mr. Biggs votes no.
    Mr. McClintock?
    Mr. McClintock. No.
    Ms. Strasser. Mr. McClintock votes no.
    Mrs. Lesko?
    Mrs. Lesko. No.
    Ms. Strasser. Mrs. Lesko votes no.
    Mr. Reschenthaler?
    Mr. Reschenthaler. No.
    Ms. Strasser. Mr. Reschenthaler votes no.
    Mr. Cline?
    Mr. Cline. No.
    Ms. Strasser. Mr. Cline votes no.
    Mr. Armstrong?
    Mr. Armstrong. No.
    Ms. Strasser. Mr. Armstrong votes no.
    Mr. Steube?
    Mr. Steube. No.
    Ms. Strasser. Mr. Steube votes no.
    Chairman Nadler. Has everyone voted who wishes to vote?
    The clerk will report.
    Ms. Strasser. Mr. Chairman, there are 24 ayes and 16 noes.
    Chairman Nadler. The motion to recess at the call of the 
chair is adopted.
    Mr. Jordan. How long do we anticipate the recess to be, Mr. 
Chairman? How long is the recess?
    Chairman Nadler. The gentleman will suspend.
    Mr. Jordan. I'd just like to know how long.
    Chairman Nadler. The gentleman will suspend.
    Mr. Gaetz. It's until they're done with their press 
conference.
    Chairman Nadler. The gentleman will suspend.
    The committee will stand in recess for 15 minutes.
    I will announce also that we've been in session about two 
and a half hours. After the conclusion of the testimony, and 
the cross-exams will be about another two and a half hours, 
we'll probably stand in recess then before the commencement of 
the 5-minute round of questioning.
    I would ask that people remain in their seats while the two 
witnesses are given an opportunity to leave. I would remind 
people in the audience that if they leave, they may not have 
their seats back when we reconvene.
    The committee will stand in recess, and we'll reconvene in 
15 minutes.
    [Recess.]
    Chairman Nadler. The committee will reconvene. When we 
recessed, we were about to hear from Mr. Castor.
    Mr. Castor, you are recognized for 45 minutes.
    Mr. Castor. Afternoon, Chairman, Ranking Member Collins, 
members of the committee, members of the staff. Thank you again 
for having me back and giving me the opportunity to testify 
about the evidence gathered during our--the impeachment 
inquiry.
    At the outset, let me say that the evidence does not 
support the allegations that my Democrat colleagues have made, 
and I don't believe the evidence leads to the conclusions they 
suggest. I'm hopeful to add some important perspective and 
context to the facts under discussion today.
    The chief allegation that the Democrats' impeachment 
inquiry has been trying to assess over the last 76 days is 
this: whether President Trump abused the power of his office, 
through a quid pro quo, bribery, extortion, or whatever, by 
withholding a meeting or security assistance as a way of 
pressuring Ukrainian President Zelensky to investigate the 
President's political rival, former VP Biden, for the 
President's political benefit in the upcoming election.
    The secondary allegation that has been levied is whether 
President Trump obstructed Congress during the inquiry.
    The evidence obtained during the inquiry does not support 
either of those allegations. The Republican report of evidence 
lays out the reasons in more detail, but I will summarize.
    I will begin with the substantive allegation about an abuse 
of power. The inquiry has returned no direct evidence that 
President Trump withheld a meeting or security assistance in 
order to pressure President Zelensky to investigate former VP 
Biden. Witnesses who testified in the inquiry have denied 
having awareness of criminal activity or even an impeachable 
offense.
    On the key question of the President's state of mind, there 
is no clear evidence that President Trump acted with malicious 
intent. Overall, at best, the impeachment inquiry record is 
riddled with hearsay, presumptions, and speculation. There are 
conflicting and ambiguous facts throughout the record, facts 
that could be interpreted in different ways.
    To paraphrase Professor Turley from last week, the 
impeachment record is heavy on presumptions and empty on proof. 
That's not me saying that. That is Professor Turley.
    So let me start with the best direct evidence of any 
potential quid pro quo or impeachable scheme. This is President 
Trump's phone call with Zelensky for which the National 
Security Council and the White House Situation Room staff 
prepared a call summary.
    According to testimony from Tim Morrison at the NSC, the 
summary was accurate and complete. NSC staff member Lieutenant 
Colonel Alexander Vindman testified that any omissions in the 
summary were not significant and that editing was not done 
maliciously.
    President Trump has declassified and released the call 
summary so the American people can review it and assess it for 
themselves.
    I'll make a few points that seem to have gone undernoticed.
    The call summary reflects absolutely no pressure or 
conditionality. President Zelensky vocalized no concerns with 
the subject matters discussed. And there is no indication of 
bribery, extortion, or other illegal conduct on the call.
    The call summary shows President Trump and President 
Zelensky engaged in pleasantries and cordialities. The call 
summary reveals laughter.
    Simply put, the call is not the sinister mob shakedown that 
some Democrats have described.
    President Trump raised his concerns about European allies 
paying their fair share in security assistance to Ukraine, a 
concern that President Trump would continue to raise, both 
publicly and privately.
    There is no discussion on the call--I repeat--no discussion 
on the call about the upcoming 2020 election or security sector 
assistance to Ukraine.
    Beyond the call summary, the next best piece of evidence 
are the statements from the two participants on the call. 
President Zelensky has said he felt no pressure on the call. On 
September 25 at the United Nations, he said: We had, I think, a 
good phone call. It was normal. Nobody pushed me.
    On October 6, President Zelensky said: I was never 
pressured, and there were no conditions being imposed.
    Four days later, on October 10, President Zelensky said 
again: There is nothing wrong with the call, no blackmail. This 
is not corruption. It was just a call.
    And just recently in Time magazine, President Zelensky 
said: I never talked to the President from a position of a quid 
pro quo.
    Because President Zelensky would be the target of any 
alleged quid pro quo scheme, his statements denying any 
pressure carry significant weight. He is, in fact, the supposed 
victim here.
    Other senior Ukrainian Government officials confirmed 
President Zelensky's statements. Foreign Minister Prystaiko 
said on September 21: I know what the conversation was about, 
and I think there was no pressure. Oleksandr Danylyuk, who was 
then Secretary of Ukraine's National Security and Defense 
Council, told Ambassador Bill Taylor on the night of the call 
that the Ukrainian Government was not disturbed by anything on 
the call.
    President Trump, of course, has also said that he did not 
pressure President Zelensky. On September 25, President Trump 
said there was no pressure. When asked if he wanted President 
Zelensky to do more to investigate the former VP, President 
Trump responded: No, I want him to do whatever he can, whatever 
he can do in terms of corruption, because corruption is 
massive, that's what he should do.
    Several witnesses attested to the President's concerns 
about Ukrainian corruption. The initial readouts of the July 25 
call from both the Ukrainian Government and the State 
Department raised no concerns.
    Although Lieutenant Colonel Vindman noted concerns, those 
concerns were not shared by National Security Council 
leadership. They were not shared by General Keith Kellogg, who 
listened on the call. Lieutenant General Kellogg said in a 
statement: I heard nothing wrong or improper on the call; I had 
and have no concerns.
    Lieutenant Colonel Vindman's superior, Tim Morrison, 
testified that he was concerned the call would leak and be 
misused in Washington's political process, but he did not 
believe that anything discussed on the call was illegal or 
improper.
    Much has also been made about President Trump's reference 
on the July 25 call to Hunter Biden's position on the board of 
Burisma, a corrupt Ukrainian energy company, and the actions of 
certain Ukrainian officials in the run-up to the 2016 election.
    Democrats dismiss these conspiracy theories to suggest that 
the President has no legitimate reason, other than his own 
political interest, to raise these issues with President 
Zelensky. The evidence, however, shows that there are 
legitimate questions about both issues.
    With respect to Burisma, Deputy Assistant Secretary George 
Kent testified that the company had a reputation for 
corruption. The company was founded by Mykola Zlochevsky, who 
served as Ukraine's Minister of Ecology and Natural Resources. 
When Zlochevsky served in that role, his company, Burisma, 
received oil exploration licenses without public auctions.
    Burisma brought Hunter Biden onto its board of direction--
board of directors--according to the New York Times, as part of 
a broad effort by Burisma to bring in well-connected Democrats 
during a period when the company was facing investigations, 
backed not just by domestic Ukrainian forces, but by officials 
in the Obama administration. George Kent testified about these 
efforts.
    Hunter Biden reportedly received between $50,000 and 
$83,000 a month as compensation for his position on Burisma's 
board. At the time that Hunter Biden joined the board, his 
father, the former VP, was the Obama administration's point 
person for Ukraine.
    Biden has no specific corporate governance expertise, and 
we don't believe he speaks Ukrainian or Russian. We don't 
believe he moved there. So he's getting this gigantic paycheck 
for what?
    The Washington Post wrote at the time of Biden's 
appointment to Burisma's board that it looked nepotistic at 
best and The Washington Post said--The Washington Post--
nefarious at worst.
    According to The Wall Street Journal, anticorruption 
activists in Ukraine also raised concerns that the former VP's 
son received money from Zlochevsky and worried that that would 
mean Zlochevsky would be protected and not prosecuted.
    Witnesses in the impeachment inquiry noted Hunter Biden's 
role on the board and how it presented, at minimum, a conflict 
of interest. Lieutenant Colonel Vindman testified that Hunter 
Biden did not appear qualified to serve on Burisma's board.
    Witnesses testified that Hunter Biden's role on the board 
was a legitimate concern to raise. In fact, George Kent 
explained that in 2015, he raised a concern to the office of 
former Vice President Biden that Hunter Biden's role on 
Burisma's board presented a potential conflict of interest.
    However, Hunter Biden's role did not change, and former 
Vice President Biden continued to lead U.S. policy in Ukraine.
    On this record, there is a legitimate basis for President 
Trump to have concern about Hunter Biden's role on Burisma's 
board.
    The prospect that some senior Ukrainian officials worked 
against President Trump in the run-up to the 2016 election 
draws an even more visceral reaction from most Democrats. Let 
me say very, very clearly that election interference is not 
binary. I'm not saying that it was Ukraine and not Russia. I'm 
saying that both countries can work to influence an election.
    A systemic, coordinated Russian interference effort does 
not mean that some Ukrainian officials--some Ukrainian 
officials--did not work to oppose President Trump's candidacy, 
did not make statements against President Trump during the 
election.
    Ambassador Volker testified in his public hearing that it 
is possible for more than one country to seek influence in U.S. 
elections. Dr. Hill testified likewise at her public hearing.
    Contemporaneous news articles in 2016 noted how President 
Trump's candidacy led Kyiv's wider political leadership to do 
something they would never have attempted before--intervene, 
however indirectly, in a U.S. election. In August 2016, the 
Ukrainian ambassador to the U.S. published an op-ed in The Hill 
criticizing candidate Trump. Other senior Ukrainian officials 
called candidate Trump a clown and other words. They alleged 
that he challenged the very values of the free world. One 
prominent Ukrainian parliamentarian explained that the majority 
of Ukraine's political figures were on Hillary Clinton's side.
    A January 2017 Politico article lays out in more detail 
efforts by the Ukrainian Government officials to oppose 
President Trump's candidacy. The article notes how Ukraine 
worked to sabotage the Trump campaign by publicly questioning 
his fitness for office.
    The article detailed how a woman named Alexandra Chalupa, a 
Ukrainian American contractor, paid by the DNC, and working 
with the DNC and the Clinton campaign, traded information and 
leads about the Trump campaign with the staff at the Ukrainian 
Embassy in Washington. Chalupa explained how the Ukrainian 
Embassy worked directly with reporters to point them in the 
right direction.
    Witnesses in the impeachment inquiry testified that the 
allegation of Ukrainian influence in the 2016 election was 
appropriate to examine. Ambassador Volker testified that he 
thought it was fine to investigate allegations about 2016 
influence. Ambassador Taylor said, for example, that the 
allegations surprised and disappointed him.
    On this record, I do not believe that one could conclude 
that President Trump had no legitimate basis to raise a concern 
about efforts by Ukrainians to influence the 2016 election.
    Let me now turn to the first assertion, that President 
Trump withheld a meeting with President Zelensky as a way of 
pressuring him to investigate the former VP.
    Here it is important to note Ukraine's long, profound 
history of endemic corruption. Several witnesses in the inquiry 
have testified about these problems. Ambassador Marie 
Yovanovitch, for example, said Ukraine's corruption is not just 
prevalent but, frankly, is the system. Witnesses testified to 
having firsthand knowledge that President Trump is deeply 
skeptical of Ukraine due to its corruption, dating back years, 
and that this skepticism contributed to President Trump's 
initial hesitancy to meet with President Zelensky.
    Ambassador Volker testified: So I know he had a very deep-
rooted, skeptical view, and my understanding at the time was 
that, even though he agreed in the meeting that we had with 
him, say, okay, I'll invite him, I'll invite him, he didn't 
really want to do it, Volker said, and that's why the meeting 
kept getting delayed.
    Another relevant set of facts here is the effort of some 
Ukrainian officials to oppose President Trump's candidacy in 
the 2016 election. Some of these Ukrainian politicians 
initially remained in government when President Zelensky took 
over. Witnesses testified that these Ukrainian efforts in 2016 
colored how President Trump viewed Ukraine.
    It's also important to note that President Zelensky was a 
relatively unknown quantity for U.S. policymakers. Ambassador 
Yovanovitch called him an untried politician. Dr. Hill 
testified that there were concerns within the National Security 
Council about Zelensky's relationship with Igor Kolomoisky, a 
controversial oligarch in Ukraine.
    Although President Zelensky ran on a reform platform, 
President Zelensky appointed Kolomoisky's lawyer, Mr. Bohdan, 
as his chief of staff. Both Ambassador Volker and Senator Ron 
Johnson noted that this appointment raised concerns.
    These facts are important in assessing the President's 
state of mind in understanding whether President Zelensky was 
truly committed to fighting corruption in Ukraine.
    The evidence shows that President Trump invited President 
Zelensky to meet at the White House on three separate 
occasions, all without any conditions. The first was on April 
21 during the initial congratulatory phone call. The second was 
via letter on May 29.
    This letter followed an Oval Office meeting on May 23 with 
the U.S. delegation to the inauguration. During this meeting, 
President Trump again expressed his skepticism about Ukraine. 
Ambassador Volker recalled the President saying: These are 
terrible people and a corrupt country.
    Ambassador Sondland similarly testified that Ukraine, in 
the President's view, tried to take him down in the 2016 
election. Senator Ron Johnson confirmed his testimony in his 
submission to the impeachment inquiry.
    Finally, the third time that President Trump invited 
Zelensky to meet, again without any preconditions, was during 
the July 25 phone call. Although some time passed between May 
2019, when the President formally invited Zelensky to meet, and 
September 25, when the Presidents met, the evidence does not 
show that the Ukrainian Government felt additional pressure due 
to this delay.
    To the contrary, Ambassador Volker testified that the 
Ukrainian regime felt pretty good about its relationship with 
the Trump administration in this period. During those 4 months, 
senior Ukrainian Government officials had at least nine 
meetings or phone calls with President Trump, Vice President 
Pence, Secretary Pompeo, National Security Advisor Bolton, and 
U.S. ambassadors.
    The evidence does not support a conclusion that President 
Trump conditioned a meeting with President Zelensky on 
investigating former Vice President Biden.
    Mr. Yermak, President Zelensky's close adviser, said that 
explicitly in an August 2019 New York Times story which was 
published before the beginning of the impeachment inquiry. In 
this article, Yermak said that he and Mayor Giuliani did not 
discuss a link between a Presidential meeting and 
investigations.
    Witness testimony confirms Yermak's statement. Ambassador 
Volker testified there was no linkage between a potential 
meeting and investigations.
    Although Ambassador Sondland testified that he believed 
there was a quid pro quo, his testimony is not as clear as it 
has been portrayed. In his deposition, Ambassador Sondland 
testified that he believed the meeting was conditioned on a 
public anticorruption statement, not on investigations 
themselves, a distinction that during his deposition he was 
keen to note. Ambassador Sondland said then that nothing about 
the request raised any red flags.
    In his public testimony, Ambassador Sondland clarified that 
he had no firsthand knowledge of any linkage coming from the 
President, and never discussed any preconditions with the 
President. He merely presumed there were preconditions.
    I'd also like to address the July 10 meeting in Ambassador 
Bolton's office with two senior Ukrainian officials. Allow me 
to submit that here, too, there is conflicting evidence about 
the facts. Both Dr. Hill and Lieutenant Colonel Vindman 
testified that Ambassador Sondland raised investigations during 
this meeting, causing Ambassador Bolton to abruptly end the 
meeting.
    Dr. Hill testified she confronted Ambassador Sondland over 
his discussion about investigations. Ambassador Sondland's 
testimony about this meeting, however, is scattered.
    In his closed-door deposition, he testified that no 
national security staff member ever once expressed concerns to 
him that he was acting improperly, and he denied that he raised 
investigations during this meeting.
    But when he came here to testify in public, he 
acknowledged, for the first time, that he raised 
investigations, but he denied that the meeting ended abruptly. 
He maintained that Dr. Hill never raised concerns to him and 
that any discussion of investigations did not mention anything 
specific, such as Biden or 2016.
    Let me lastly address the allegation that President Trump 
directed Vice President Pence not to attend President 
Zelensky's inauguration as another way of pressuring Ukraine to 
investigate former Vice President Biden.
    Jennifer Williams, a senior adviser in the office of the 
Vice President, testified that a colleague--she said it was the 
Chief of Staff's assistant--told her--the Chief of Staff's 
assistant--that President Trump had directed Vice President 
Pence not to attend the inauguration. However, Williams had no 
firsthand knowledge of any such direction or the reasons given 
for any such direction.
    If indeed such a direction was given, it's not clear from 
the evidence why it was done because the Vice President's 
office was juggling other potential trips during that time, and 
the Ukrainian Parliament scheduled the election on an extremely 
short timeframe. It was just 4 days' notice.
    Williams explained that there was a window--there was a 
window of dates, May 30 through June 1, during which the Vice 
President could attend the inauguration, and that was 
communicated, and that if it wasn't one of those dates, it 
would be difficult or impossible to attend the inauguration. 
Separately, the office of the Vice President was also planning 
an unrelated trip to Canada to promote the USMCA during this 
same window. The USMCA was, and still is, a significant 
priority for the administration. Vice President Pence has done 
a number of public events in support of it.
    President Trump was also planning foreign travel during 
this time period. And, as Dr. Hill testified, both President 
Trump and Vice President Pence cannot both be out of the 
country at the same time.
    Williams explained that these factors created a narrow 
window for the Vice President's participation in the 
inauguration. Dr. Hill testified that she had no knowledge that 
the Vice President was directed not to attend.
    On May 16th, the outgoing Ukrainian Parliament scheduled 
the inauguration for May 20, only 4 days later. May 20 was not 
one of the three dates that Vice President Pence's office had 
provided for his availability.
    Williams testified that this early date surprised the Vice 
President's office because we weren't expecting the Ukrainians 
to look at that timeframe.
    George Kent at the State Department said that this short 
notice from the Ukrainians forced the State Department to 
scramble to find a U.S. official to lead the delegation, 
finally settling on Secretary of Energy Rick Perry.
    On May 20, the date of President Zelensky's inauguration, 
Vice President Pence was in Jacksonville, Florida, for an event 
promoting USMCA.
    Finally, on September 25, President Trump and President 
Zelensky met during the United Nations General Assembly. The 
two met without Ukraine ever taking action on investigations, 
and according to Ambassador Taylor, there was no discussion of 
investigations during this meeting.
    I will now turn to the second assertion, that President 
Trump withheld taxpayer-funded security assistance to Ukraine 
as a way of pressuring Zelensky to conduct these 
investigations.
    Here, too, context is critically important. President Trump 
has been skeptical of foreign assistance in general and 
believes quite strongly that our European allies should share 
more of the burden for regional defense. That's an assertion he 
made on the campaign trail, something he's raised consistently 
since.
    It's also important to note that U.S. security assistance 
is conditioned to countries around the world and that U.S. aid, 
including aid to Ukraine, has been temporarily paused in the 
past for various reasons and even for no reason at all.
    Ambassador Volker testified the 55-day pause on security 
assistance did not strike him as uncommon and that the pause 
was not significant. Dr. Hill and State Department official 
Catherine Croft both testified that security assistance to 
Ukraine specifically had been temporarily paused in the past.
    In fact, Ambassador David Hale, the Under Secretary of 
State for Political Affairs, the third most senior person at 
the State Department, testified that the National Security 
Council had launched a review of U.S. foreign assistance across 
the world to make sure taxpayer dollars were spent in the 
national interest and to advance the principle of burden-
sharing by our allies.
    Dr. Hill testified that as she was leaving the NSC in July, 
there had been a directive for a whole-scale review of our 
foreign policy assistance. She said there had been more 
scrutiny on security assistance as a result.
    Another important data point is President Trump's 
willingness to take a stronger stance in supporting Ukraine 
against Russian aggression and compared to the previous 
administration. Several witnesses testified that President 
Trump's willingness to provide Ukraine with lethal defensive 
assistance, Javelin anti-tank missiles, was a substantial 
improvement, a stronger policy, and a significant decision.
    When we discuss Democrat allegations that President Trump 
withheld vital security assistance dollars from Ukraine, we 
should also remember that it was President Trump, and not 
President Obama, who provided Ukraine with lethal defensive 
weapons.
    I make all of these points here because there are relevant 
pieces of information that bear on how the House should view 
the evidence in question. Although the security assistance was 
paused in July, the evidence is virtually silent on the 
definitive reason for the pause.
    In fact, the only direct evidence of the reason for the 
pause comes from OMB official Mark Sandy, who testified that he 
learned in September that the pause was related to the 
President's concern about other countries contributing more to 
Ukraine. He explained how OMB received requests for information 
on what other countries were contributing to Ukraine, which OMB 
provided in the first week of September. The aid, of course, 
was released September 11.
    Several witnesses have testified that security assistance 
was not linked to Ukraine's investigations. Ambassador Volker's 
testimony is particularly relevant on this point, because he 
was a key intermediary with the Ukrainian Government and 
someone who they trusted and sought for advice.
    Ambassador Volker testified that he was aware of no quid 
pro quo and the Ukrainians never raised such concerns to him. 
When Ambassador Taylor raised the possibility of a quid pro quo 
to Ambassador Volker, Volker said he replied there's no linkage 
here. During his deposition, Chairman Schiff tried to pin him 
down on this point, but Ambassador Volker was clear, there was 
no connection.
    In his public testimony, Ambassador Volker reiterated there 
was no linkage. Similarly, George Kent at the State Department 
said he did not associate aid to investigations, and he relayed 
how Ambassador Taylor told him that Tim Morrison and Ambassador 
Sondland also believed the two were not linked.
    Ambassador Sondland's testimony, as we have seen already, 
is a bit more scattered. In his deposition he said that he was 
never aware of preconditions on security assistance or that the 
security assistance was tied to investigations. Ambassador 
Sondland then later provided a written statement supplementing 
his deposition in which he explained for the first time that in 
the absence of any clear explanation, he presumed a link 
between security assistance and an anticorruption statement 
were linked.
    Ambassador Sondland also attested in his written supplement 
that he likely voiced this concern to Mr. Yermak, a close 
adviser of President Zelensky, on September 1 in Warsaw. Mr. 
Yermak, however, in a subsequent news account published on 
November 22, disputed Ambassador Sondland's account and said he 
doesn't remember any reference to the military aid.
    In his public testimony, Ambassador Sondland reiterated 
that his testimony was based on a presumption, acknowledging to 
Congressman Turner that no one on the planet told him that 
security assistance to Ukraine was conditioned on 
investigations.
    Ambassador Taylor is the other relevant actor here. He 
testified in his deposition that he had a clear understanding 
that Ukraine would not receive the security assistance until 
President Zelensky committed to the investigations. However, in 
his public testimony, Ambassador Taylor acknowledged that his 
clear understanding came from Ambassador Sondland, who was 
merely presuming that there was a link.
    President Trump, too, rejected any linkage between security 
assistance to Ukraine and investigations. The President's 
statements in this regard ought to be persuasive, because he 
made the same statement in two separate private conversations, 
with two different U.S. officials, 10 days apart. There would 
be no reason for the President to be anything less than candid 
during these private conversations.
    On August 31, President Trump spoke by phone with Senator 
Johnson, who was travelling to Ukraine in the coming days, and 
sought the President's permission to tell President Zelensky 
that the security assistance would be forthcoming. President 
Trump responded that he was not ready to do that, citing 
Ukrainian corruption and burden-sharing among European allies.
    When Senator Johnson raised the potential linkage between 
security assistance and investigation, President Trump 
vehemently denied any connection, saying: No way. I would never 
do that. Who told you that?
    In closing the call, President Trump told Senator Johnson 
that we're reviewing it now, referring to the security 
assistance, and guess what, you'll probably like my final 
decision. He told that to Senator Johnson on August 31. This 
statement strongly suggests that President Trump was already 
leaning toward lifting the aid.
    Separately, on September 9, President Trump spoke by phone 
with Ambassador Sondland. Ambassador Sondland asked the 
President: What do you want from Ukraine? The President--
President Trump responded: I want nothing, I want no quid pro 
quo, I want Zelensky to do the right thing.
    In addition, senior Ukrainian Government officials denied 
any awareness of a linkage between U.S. security assistance and 
investigations. These denials are persuasive because if there 
was, in fact, an orchestrated scheme to pressure Ukraine by 
withholding security assistance, one would think the pause on 
security assistance would have been clearly communicated to the 
Ukrainians.
    Mr. Castor. Foreign Minister Prystaiko told the media in 
November, following news of Ambassador Sondland's written 
supplemental testimony, that Sondland never linked security 
assistance to investigations. Prystaiko said, ``I have never 
seen a direct relationship between investigations and security 
assistance.''
    Although there is some testimony that Ukrainian officials 
from the embassy in Washington made informal inquiries to the 
State Department and Defense Department about these issues with 
security assistance in July and August, the evidence does not 
show President Zelensky or his senior advisors in Kyiv were 
aware of the pause until it was publicly reported by Politico 
on August 28.
    A subsequent news article explained the conflicting 
testimony that embassy officials in Washington had made in 
formal inquiries about issues with the aid while senior 
officials in Kyiv denied awareness of the pause. The article 
explained that then-Ukrainian Ambassador Chaly, who was 
appointed by President Zelensky's predecessor, went rogue and 
did not inform President Zelensky that there was any issue with 
the aid.
    According to the news account, President Zelensky and his 
senior team only learned of a pause when it was reported on 
August 28. As Ambassador Volker testified, because senior 
Ukrainian officials were unaware of the pause, there was no 
leverage implied.
    The actions of senior Ukrainian Government officials while 
the security assistance was paused reinforces a conclusion that 
they did not know the aid was on hold. In the 55 days during 
which the security assistance was paused, President Zelensky 
had five discussions with U.S. senior officials. On July 25, he 
spoke with President Trump on the phone. On July 26, he met 
with Ambassador Volker, Ambassador Taylor, and Ambassador 
Sondland in Kyiv. On August 27, he met with Ambassador Bolton. 
September 1, he met with Vice President Pence in Warsaw. And on 
September 5, he met with Senator Ron Johnson, Senator Chris 
Murphy in Kyiv.
    In none of these meetings did President Zelensky raise any 
concern about linkage between security assistance and 
investigations. In particular, the September 5 meeting with 
Senator Johnson and Senator Murphy is notable because they're 
not part of the Trump administration and President Zelensky 
could be candid with them.
    What did occur during those 55 days were historic efforts 
by Ukraine's parliament, called the Rada, to implement 
anticorruption reform. Vice President Pence had pressed 
President Zelensky about these reforms during their September 1 
meeting. In their depositions, Ambassador Taylor lauded 
President Zelensky's rapid reforms, and National Security 
Council official Morrison testified that, during a meeting in 
Kyiv, he noted that everyone on the Ukrainian side of the table 
was exhausted because they had been up all night working on 
these reforms.
    On September 11, President Trump discussed the matter with 
Vice President Pence, Senator Portman, and Acting Chief of 
Staff Mulvaney. According to Tim Morrison's testimony, they 
discussed whether Ukraine's progress on anticorruption reform 
was enough to justify releasing the security assistance. 
Morrison testified that Vice President Pence was obviously 
armed with the conversation he had with President Zelensky, and 
they convinced the President that the aid should be disbursed 
immediately. The President then lifted the hold.
    In concluding this point, we have considerable evidence 
that President Trump was skeptical of Ukraine due to its 
corruption. We have evidence that the President was skeptical 
of foreign assistance in general and that he believes strongly 
our allies should share the burden for regional defense. We 
know the White House was reviewing foreign assistance in 
general to ensure it furthered U.S. interests and that OMB 
researched and provided information about which foreign 
countries were contributing money to Ukraine.
    President Trump told Senator Johnson on August 31, ``We're 
reviewing it now, and you'll probably like my final decision.'' 
He told Ambassador Sondland on September 9, ``I want Zelensky 
to do what he ran on.'' President Zelensky, who ran on an 
anticorruption platform, was an untried politician with ties to 
a potential controversial oligarch. Vice President Pence 
reiterated to President Zelensky that on September 1 the need 
for reform was paramount.
    After President Zelensky paused--I'm sorry. After President 
Zelensky passed historic anticorruption reforms, the pause on 
security assistance was lifted, and the Presidents met 2 weeks 
later.
    The Ukrainian Government never took any action on 
investigations at issue in the impeachment inquiry.
    Much has been made about a so-called shadow or irregular 
foreign policy apparatus that President Trump is alleged to 
have orchestrated as a mechanism to force Ukraine to initiate 
investigations. The allegation is President Trump conspired to 
recall Ambassador Yovanovitch from Ukraine so his agents could 
pursue a scheme to pressure Ukraine to conduct these 
investigations. But there are logical flaws with these 
arguments.
    First, every ambassador interviewed in the impeachment 
inquiry acknowledged the President has an absolute right to 
recall ambassadors for any reason or no reason. It's apparent 
that President Trump lost confidence in Ambassador Yovanovitch, 
and it's simply not an abuse of power for him to recall her.
    Beyond that, the Trump administration replaced Ambassador 
Yovanovitch with Ambassador Bill Taylor, who became one of the 
first State Department officials to voice concerns discussed 
during the course of our inquiry here. In fact, Ambassador 
Taylor played a prominent role in some of the hearings last 
month. If President Trump truly sought to remove Ambassador 
Yovanovitch as part of a nefarious plan, he certainly would not 
have replaced her with someone of the likes of Ambassador Bill 
Taylor.
    Second, the three U.S. officials who comprised the so-
called shadow foreign policy apparatus--Ambassador Volker, 
Sondland, and Secretary Perry--can hardly be called irregular 
and certainly not outlandish. All were senior U.S. officials 
with official interests in Ukraine policy. The three kept the 
State Department and the NSC informed of their activities.
    Finally, there is evidence that Mayor Giuliani did not 
speak on behalf of the President. According to a news story, on 
November 22, Mr. Yermak asked Ambassador Volker to connect him 
with Mayor Giuliani because the Zelensky team was surprised by 
the mayor's negative comments about Ukraine. They wanted to 
change his mind.
    Both Ambassador Volker in his deposition and Yermak in an 
August New York Times article denied that Mayor Giuliani was 
speaking on behalf of President Trump as his agent. Instead, as 
Ambassador Volker explained, the Ukrainian Government saw 
Giuliani as an conduit through which they could change the 
President's mind.
    The second allegation at issue, of course, is whether the 
President obstructed Congress by not agreeing to all the 
demands for documents and testimony. As somebody with 
experience with congressional investigations and strongly--you 
know, I strongly believe in Congress's Article I authority. But 
this impeachment inquiry has departed drastically from past 
bipartisan precedents for Presidential impeachment as well as 
the fundamental tenets of fair and effective congressional 
oversight.
    First, process matters. The bipartisan Rodino-Hyde 
precedents guaranteed fundamental fairness and due process to 
the President. It allowed substantive minority participation 
and participation from the President's counsel in the fact-
finding process. Neither aspect was present here. Democrats 
denied us witnesses. Democrats voted down subpoenas we sought 
to issue for both documents and testimony. And I'll note, 
Democrats never brought to a committee vote any of the 
subpoenas that were issued. They were all tabled. Democrats 
directed witnesses not to answer our questions. And these sorts 
of actions delegitimize the inquiry and do not give the 
witnesses or the President confidence that the inquiry is fair.
    Second, the President or any potential witness to this 
impeachment inquiry should be allowed to raise defenses without 
it being used as an adverse inference against him. Courts have 
held that the Constitution mandates an accommodations process 
between the branches. For this reason, congressional oversight 
is a time-intensive endeavor. It certainly takes long than 76 
days.
    Here, however, the initial letters from the Democrats 
instructed potential witnesses that, if they did not cooperate 
in full, it shall constitute evidence of obstruction. Democrats 
wanted all their demands honored immediately and were unwilling 
to consider the executive branch's privileges or defenses.
    Finally, there is no basis for obstruction. The one witness 
who said he spoke to President Trump about his appearance as a 
witness, Ambassador Sondland, testified the President told him 
to cooperate and tell the truth. The President has declassified 
and released the call summary of his July 25 and April 21 calls 
with President Zelensky. The White House wrote to Speaker 
Pelosi to say that it was willing to cooperate further if the 
House returned to a well-established, bipartisan, 
constitutional-based impeachment process. As we know, these 
protections were never afforded.
    In closing, I'd like to briefly address the Democrats' 
narrative as articulated in their report. The Democrat 
narrative virtually ignores any evidence that's not helpful for 
their case. It ignores, for instance, Ambassador Sondland's 
testimony that he presented, that there was a quid pro quo. And 
it ignores the many public statements made by Ukrainian 
officials. The report presents a story as if the evidence is 
clear, when in reality it's anything but.
    Democrats have gone to great lengths to gather information 
to build their case, and they've even obtained and released 
phone records relating to the communications of the President's 
personal attorney, a reporter, and a Member of Congress. There 
are additional phone records that have not yet been released, 
and our members remain concerned about the prospect of more 
phone records being released.
    There have been a lot of hyperbole, a lot of hysteria over 
the last 3 months about this inquiry and the underlying facts. 
I believe a lot of this can be traced back to the anonymous 
whistleblower complaint. I believe the whistleblower reframed a 
lot of the facts at issue and caused witnesses in the inquiry 
to recast their views. And it's unfortunate that we haven't 
been able to interview the whistleblower.
    Finally, some have likened the impeachment inquiry to a 
special prosecutor's investigation. If one accepts that 
comparison, one should also expect that, like Ken Starr and 
Robert Mueller, the chairman should testify. And our members--
all the committees believe very strongly that Chairman Schiff 
should testify and answer questions.
    With that, Mr. Chairman, the time is yours.
    Chairman Nadler. The gentleman's time has expired.
    We will now proceed to the first round of questions.
    Mr. Gohmert. Point of order.
    Chairman Nadler. Pursuant--the gentleman will state his 
point of order.
    Mr. Gohmert. We've been told that counsel for the Democrats 
was a witness and that's why he didn't have to comport with the 
rules of decorum. And now he's sitting up here----
    Chairman Nadler. The gentleman will state a point of order.
    Mr. Gohmert. I've been a judge, and I know that you don't 
get to be a witness and a judge in the same case. That's my 
point of order. He should not be up here.
    Chairman Nadler. That's not a point of order.
    Mr. Gohmert. It is.
    Chairman Nadler. Pursuant to House Resolution 660 and its 
accompanying Judiciary Committee procedures, there will be 45 
minutes of questions conducted by the Chairman or majority 
counsel, followed by 45 minutes by the Ranking Member or 
minority counsel. Only the Chair and Ranking Member and their 
respective counsels may question witnesses during this period.
    Following that, unless I specify additional equal time for 
extended questioning, we will proceed under the 5-minute rule. 
And every member will have the chance to ask questions.
    I now recognize myself for the first round of questions.
    The Republicans' expert witness last week, Professor 
Turley, wrote in an article that, quote, ``there is no question 
that the use of public office for personal gain is an 
impeachable offense, including the withholding of military aid 
in exchange for the investigation of a political opponent. You 
just have to prove it happened,'' close quote. That was Mr. 
Turley's comment.
    Now, Mr. Goldman, did the investigative committees conclude 
that the evidence proved that the President used his public 
office for personal gain?
    Mr. Goldman. Yes, Mr. Chairman.
    Chairman Nadler. And, in fact, Finding of Fact V said, 
``President Trump used the power of the Office of the President 
to apply increasing pressure on the President of Ukraine and 
the Ukrainian Government to announce the politically motivated 
investigations desired by President Trump.''
    And did the evidence also prove that President Trump 
withheld military aid in exchange for an announcement of an 
investigation of his political opponent?
    Mr. Goldman. Yes, it did.
    Chairman Nadler. And, in fact, Finding of Fact V(B) said, 
quote, ``President Trump, acting through his agents and 
subordinates, conditioned release of the vital military 
assistance he had suspended to Ukraine on the President of 
Ukraine's public announcement of the investigations that 
President Trump sought.''
    And did the evidence demonstrate that President Trump 
undermined the national security interests of the United 
States?
    Mr. Goldman. Yes, in many--in several ways.
    Chairman Nadler. And Finding of Fact VI said, ``In 
directing and orchestrating this scheme to advance his personal 
political interests, President Trump did not implement, 
promote, or advance U.S. anticorruption policies. In fact, the 
President sought to pressure and induce of Government of 
Ukraine to announce politically motivated investigations 
lacking legitimate predication that the U.S. Government 
otherwise discourages and opposes as a matter of policy in that 
country and around the world. In so doing, the President 
undermined U.S. policy supporting anticorruption reform and the 
rule of law in Ukraine and undermined U.S. national security.''
    And did the evidence also show that President Trump 
compromised the national security of the United States?
    Mr. Goldman. Yes.
    Chairman Nadler. In fact, Finding of Fact VII said, ``By 
withholding vital military assistance and diplomatic support 
from a strategic foreign partner government engaged in an 
ongoing military conflict illegally instigated by Russia, 
President Trump compromised national security to advance his 
personal political interests.''
    And did the evidence prove that President Trump engaged in 
a scheme to cover up his conduct and obstruct congressional 
investigators?
    Mr. Goldman. Yes, right from the outset.
    Chairman Nadler. And, in fact, Finding of Fact IX says, 
``Using the power of the Office of the President and exercising 
his authority over the executive branch, President Trump 
ordered and implemented a campaign to conceal his conduct from 
the public and frustrate and obstruct the House of 
Representatives' impeachment inquiry.''
    Finally, the constitutional scholars from our hearing last 
week testified that the President's conduct toward Ukraine and 
pattern of inviting foreign election interference was a 
continuing risk to our free and fair elections.
    Did the evidence prove that President Trump was a threat to 
our elections?
    Mr. Goldman. Yes, it did, Mr. Chairman.
    Chairman Nadler. And, in fact, Finding of Fact VIII says, 
``Faced with the revelation of his actions, President Trump 
publicly and repeatedly persisted in urging foreign 
governments, including Ukraine and China, to investigate his 
political opponent. This continued solicitation of foreign 
interference in a U.S. election presents a clear and present 
danger that the President will continue to use the power of his 
office for his personal political gain,'' close quote--I would 
add in the next election.
    I now yield to my counsel, Mr. Berke, for additional 
questioning.
    Mr. Berke. Thank you, Mr. Chairman.
    Mr. Castor, as an experienced investigator, would you agree 
that it's relevant to look at evidence bearing on the 
President's state of mind that may help explain the President's 
actions?
    Mr. Castor. I think the evidence that we talked about show 
the President----
    Chairman Nadler. Use your mike, please.
    Mr. Berke. Sir, my only question to you is, is that a 
relevant thing to consider?
    Mr. Castor. Right, like the call he had with Senator 
Johnson.
    Mr. Berke. It's relevant to consider.
    Sir, would you agree that Joe Biden was a leading 
Democratic contender to face President Trump in 2020?
    Mr. Castor. I wouldn't agree with that.
    Mr. Berke. You disagree with that. So, sir, it's your 
testimony----
    Mr. Castor. It's too early.
    Mr. Berke [continuing]. That President Trump did not view 
President Biden to be a legitimate contender. Is that right?
    Mr. Castor. I don't know what President Trump believed or 
didn't believe, but it's too early.
    Mr. Berke. Sir, as part of the your inquiry, did you 
determine that President Trump tweeted at all about former Vice 
President Joe Biden between January and July 25 and how many 
times?
    Mr. Castor. I didn't look at Twitter. I try to stay off 
Twitter lately.
    Mr. Berke. Did you know President Trump tweeted about 
former Vice President Joe Biden over 25 times----
    Mr. Castor. No.
    Mr. Berke [continuing]. Between January and July 25?
    Mr. Castor. No, I didn't look at those tweets.
    Mr. Berke. Did you look at how many times President Trump 
mentioned Vice President Biden in a speech or rally leading up 
to the July 25 call?
    Mr. Castor. President Trump goes to a lot of rallies. He 
does a lot of tweeting. I think it's pretty difficult to draw 
too many conclusions from his tweets or his statements at 
rallies.
    Mr. Johnson of Louisiana. Mr. Chairman----
    Mr. Berke. Well, sir----
    Mr. Johnson of Louisiana. Mr. Chairman, a parliamentary 
inquiry.
    Chairman Nadler. The gentleman is not recognized for a 
parliamentary inquiry.
    Mr. Johnson of Louisiana. Mr. Chairman, what is----
    Chairman Nadler. The gentleman is not recognized. The 
gentleman, Mr. Berke, has the time.
    Mr. Gohmert. If we're going to ignore the rules and allow 
witnesses to ask the questions, then----
    Chairman Nadler. The gentleman will----
    Mr. Gohmert [continuing]. How many other rules are you just 
going to disregard?
    Chairman Nadler. The gentleman will suspend. Parliamentary 
inquiries are not in order at this time.
    Mr. Gohmert. Well, how about a point of order? This is not 
appropriate, to have a witness----
    Chairman Nadler. The gentleman's----
    Mr. Gohmert [continuing]. Be a questioner of somebody that 
was a witness when he was.
    Chairman Nadler. The gentleman will suspend.
    Mr. Gohmert. It's just wrong.
    Mr. Biggs. Mr. Chairman----
    Chairman Nadler. The gentleman will refrain from making----
    Mr. Biggs. Mr. Chairman, a point of inquiry.
    Chairman Nadler. The gentleman will----
    Mr. Gohmert. Well, I made a point of order, and you won't 
rule on it.
    Chairman Nadler. I have not heard a point of order. If the 
gentleman has----
    Mr. Biggs. Mr. Chairman, a point of order.
    Chairman Nadler. If the gentleman has a point of order, he 
will--state your point of order.
    Mr. Biggs. Yes, Mr. Chairman.
    Mr. Gohmert. There is no rule nor precedent for anybody 
being a witness and then getting----
    Chairman Nadler. That is not a point of order.
    Mr. Gohmert [continuing]. To come up and question. And so--
--
    Chairman Nadler. I have ruled. That----
    Mr. Gohmert [continuing]. We would--the point of order is 
he's inappropriate to be up here asking questions.
    Chairman Nadler. That is not a point of order. He's here in 
accordance with rule 660--with Resolution----
    Mr. Gohmert. How much money do you have to give to get to 
do that?
    Chairman Nadler. The gentleman will not cast aspersions on 
members of the staff of the committee.
    The gentleman----
    Mr. Biggs. Mr. Chairman, a point of order.
    Chairman Nadler [continuing]. Mr. Berke has the time.
    Mr. Biggs. Mr. Chairman, a point of order.
    Mr. Gaetz. Is Mr. Berke a member of the committee?
    Chairman Nadler. Mr. Berke has the time.
    Mr. Johnson of Louisiana. Mr. Chairman, I have a legitimate 
point of order.
    Chairman Nadler. Mr. Berke has the time.
    Mr. Johnson of Louisiana. You have to recognize a point of 
order.
    Chairman Nadler. The gentleman will state a point of order.
    Mr. Johnson of Louisiana [continuing]. This gentleman is 
presenting his opinions as a witness. He's supposed to present 
the material facts in the report----
    Chairman Nadler. The gentleman will state a point of order.
    Mr. Johnson of Louisiana [continuing]. Not to appear for 
his opinions. Is that right or not?
    Chairman Nadler. The gentleman--that is not a point of 
order. It is Mr. Berke's time, pursuant to rule 660.
    Mr. Johnson of Louisiana. It's inappropriate testimony 
before the committee.
    Chairman Nadler. It is--I have ruled. The gentleman has the 
time, pursuant to rule 660.
    Mr. Biggs. Point of order, Mr. Chairman.
    Chairman Nadler. The gentleman will state a point of order.
    Mr. Gohmert. Just to help with this, not----
    Chairman Nadler. The gentleman will state a point of order, 
if he has one.
    Mr. Biggs. Yes. The point of order is this. We operate by 
rules, and if there's nothing specifically in the rule 
permitting this, we go by precedent. It is unprecedented for a 
person to come and sit who you've described as a witness to 
then return to the bench and begin questioning.
    Chairman Nadler. The gentleman has stated----
    Mr. Biggs. That is a point of order.
    Chairman Nadler. The gentleman has stated--that is not a 
point of order, but I will point out--is not a cognizable point 
of order. I will point out that the gentleman has been 
designated by me to do this questioning pursuant to rule 660--
House Resolution 660, which is part of the rules of the House.
    Mr. Biggs. It's a soliloquy.
    Chairman Nadler. It is in accordance with the rules of the 
House, and the gentleman's time will resume.
    Mr. Berke.
    Mr. Berke. Thank you, Mr. Chairman.
    Mr. Castor, you are aware that President Trump announced 
his candidacy for reelection in 2020 and he announced it the 
month before the July 25 call on June 21?
    Mr. Castor. Okay.
    Mr. Berke. Did you find that--did you look at that in your 
investigation as part of looking at President Trump's intent 
and what he intended on the July 25 call?
    Mr. Castor. The date he announced is--I mean, he's 
obviously running for reelection. What does the date he 
announced his intent to run for reelection matter?
    Mr. Berke. And, sir, you knew that President Biden had 
already announced his intent to run in April of that year, too, 
correct?
    Mr. Castor. It's been related to me. It wasn't--I don't 
know when Vice President Biden indicated he was going to run, 
as I sit here today.
    Mr. Berke. Sir, you would agree with me that if the Ukraine 
announced a corruption investigation of former Vice President 
Joe Biden, that would hurt his credibility as a candidate. 
Would you agree with that basic principle, sir?
    Mr. Castor. Well, nobody----
    Mr. Berke. Yes or no, sir, would you agree with that 
principle?
    Mr. Castor. Well, I slightly disagree with the predicate, 
with the premise of your question, because----
    Mr. Sensenbrenner. Chairman, I object to the question. That 
requests opinion----
    Chairman Nadler. The gentleman is not recognized. The 
gentleman has the floor.
    Mr. Sensenbrenner. Well, I object to the question. Rule on 
whether the question's in order or not.
    Chairman Nadler. The question is in order.
    The gentleman will continue.
    Mr. Sensenbrenner. Why?
    Chairman Nadler. The gentleman will continue. It's his 
time.
    Mr. Castor. Let's get back to the fact that we're talking 
about eight ambiguous lines in a call transcript. You know, the 
President was not asking for a personal favor. He was speaking 
on behalf of the American people.
    He said--and I'll read it--``I'd like you to find out what 
happened with the whole situation with Ukraine, they say 
CrowdStrike . . . I guess you have one of your wealthy 
people''----
    Mr. Berke. Sir, I'm not asking you to read that.
    Let me--if you want to talk about the transcript, I don't 
want to talk--I want to talk to you about some--you said it's 
eight lines. Let's look at slide 3, if we may, the reference to 
Biden.
    Sir, you see on the July 25 call on page 4, isn't it a fact 
that President Trump in his call with President Zelensky said 
that he heard that former Vice President Joe Biden had stopped 
the prosecution of his son? Is that correct, sir, yes or no?
    Mr. Castor. Yeah. It says, ``The other thing. There's a lot 
of talk about Biden's son, that Biden stopped the 
prosecution''----
    Mr. Berke. That's correct. He said he stopped the 
prosecution.
    Mr. Biggs. Point of order. He's entitled to answer the 
question fully, Mr. Chairman.
    Chairman Nadler. The gentleman is not recognized.
    Mr. Castor. Have you seen the--there's a video of the 
former VP. I think that's what the President is referring to. 
He was at the Council on Foreign Relations. And it was a little 
bit of--you know, the former VP was a little bit audacious in 
how he described, he went over to the Ukraine----
    Mr. Berke. I'm only asking you what it says on the 
transcript. Is that what it says, sir?
    Mr. Castor. It says, ``The other thing, there's a lot of 
talk about Biden's son.''
    Mr. Berke. And that Biden stopped the prosecution. It says 
that, correct?
    Mr. Castor. That's what it says here, yes.
    Mr. Berke. And then it also says--it goes on to say--
President Trump asked President Zelensky ``if you can look into 
it,'' correct? Is that the words, ``if you can look into it''? 
Correct?
    Mr. Castor. That's what it says. And then he says, ``It 
sounds horrible to me.''
    Mr. Berke. So President Trump was asking Ukrainian 
President Zelensky to have the Ukrainian officials look into 
Vice President Joe Biden, correct? Is that correct, yes or no?
    Mr. Castor. Yeah, I don't--I don't think the record 
supports that.
    Mr. Berke. It doesn't say, ``Can you look into it''? 
President Trump is not asking him to do that?
    Mr. Castor. Yeah, I don't--I don't think it supports that. 
I think it's ambiguous.
    Mr. Berke. Mr. Goldman, you're an experienced Federal 
prosecutor. I know that firsthand. Is this President Trump 
asking President Zelensky to investigate his political rival, 
Joe Biden?
    Mr. Goldman. I don't think there's any other way to read 
the words on the page than to conclude that.
    Mr. Berke.
    And, Mr. Castro--Castor, you made the point--let me ask you 
a question. As an experienced investigator, is it your 
experience that when someone has done something wrongful or 
corrupt and they're dealing with somebody who's not in the 
scheme, that they state their intentions to do something 
wrongful and corrupt? Is that your experience as an 
investigator?
    Mr. Castor. Well, I mean, are you talking about the call 
transcript?
    Mr. Berke. I'm just asking you in general.
    Mr. Castor. In general?
    Mr. Berke. In general.
    Mr. Castor. You're saying that a schemer----
    Mr. Berke. Yes.
    Mr. Castor [continuing]. Would talk about his scheme?
    Mr. Berke. Would he generally admit that he was doing 
something wrongful and corrupt to someone not in the scheme?
    Mr. Castor. No.
    Mr. Berke. And so you've made a big point, sir, in your 
presentation, that on that call President Trump did not go 
further and tell President Zelensky that he wanted the 
investigation announced to help his 2020 election.
    Mr. Castor. Oh, he definitely--he definitely did not talk 
about 2020.
    Mr. Berke. Yeah.
    And, Mr. Goldman, would you agree that if President Trump 
was acting corruptly, wrongfully, abusing his power, that it 
was unlikely he was going to confess to President Zelensky that 
he was asking for the investigation explicitly to help his 2020 
election prospects?
    Mr. Goldman. Yeah, in my experience as 10 years as a 
prosecutor, you almost never have a defendant or someone who's 
engaging in misconduct who would ever explicitly say, in this 
case, ``President Zelensky, I'm going to bribe you now,'' or, 
``I'm going to ask for a bribe,'' or, ``I am now going to 
extort you.'' That's not the way these things work.
    Mr. Berke. Thank you, Mr. Goldman.
    And, Mr. Castor, getting back to you, you said that--you 
said about Hunter Biden and talked about it. Hunter Biden had 
been on the board of Burisma going back to 2014, correct?
    Mr. Castor. Yes.
    Mr. Berke. President Trump supported Ukraine with aid and 
otherwise in both 2017 and 2018, correct?
    Mr. Castor. Yeah. President Trump has done a lot for the 
Ukraine.
    Mr. Berke. That's a yes. And, sir, but isn't it correct 
that President Trump did not raise anything about Hunter Biden 
and his father, Vice President Joe Biden, in 2017 or 2018? He 
only did it the year before his election in 2020, when both he 
and Vice President Joe Biden were leading candidates. Isn't 
that true, sir?
    Mr. Castor. I think what happened is the President saw this 
video of the former VP, and I think it coalesced in his mind.
    Mr. Berke. Sir, please answer my question. He didn't raise 
any of these issues in 2017 or 2018.
    Mr. Castor. I don't know that he did or he didn't. I mean, 
that is not something that we've looked at.
    Mr. Berke. You've no evidence that he did, are you--did 
you?
    Mr. Castor. No, but I have no evidence he did not. I mean, 
this video is pretty----
    Mr. Berke. All right.
    Mr. Castor [continuing]. Remarkable.
    Mr. Berke. Sir, let me ask you this. You talked about 
Lieutenant Colonel Vindman, who is a highly decorated Purple 
Heart recipient and worked in the Trump administration, 
correct?
    Mr. Castor. Yes, sir.
    Mr. Berke. He had a reaction to the call, didn't he?
    Mr. Castor. He did.
    Mr. Berke. He was listening to it, correct?
    Mr. Castor. He did. He was.
    Mr. Berke. Let's look at his reaction. He said, ``I 
immediately went to John Eisenberg, the lead legal counsel.'' 
He said, ``It is improper for the President of the United 
States to demand a foreign government investigate a U.S. 
citizen and a political opponent.''
    That was his testimony, correct? Yes or no? That was his 
testimony. Yes?
    Mr. Castor. Yeah, he----
    Mr. Berke. Yes.
    And let me ask you this, sir. You had said that the 
Intelligence Committee majority report that Mr. Goldman had 
talked about, you said it presents as if things are clear, but 
they're not clear. Is that what you said, sir?
    Mr. Castor. That's absolutely correct.
    Mr. Berke. And you also worked on--you worked personally, 
you said, worked on the minority report, correct?
    Mr. Castor. Yes, sir.
    Mr. Berke. Was it important to you to be accurate in the 
minority report----
    Mr. Castor. Of course.
    Mr. Berke [continuing]. That you worked on? Was it 
important to be fair to witnesses, to be accurate about what 
they said?
    Mr. Castor. Of course.
    Mr. Berke. Was it important to be fair to the American 
people----
    Mr. Castor. Of course.
    Mr. Berke [continuing]. To accurately report what people 
said?
    Mr. Castor. Of course.
    Mr. Berke. Well, let me ask you about somebody else on that 
call. Let me ask you about Jennifer Williams. Now, she was a 
special advisor to Vice President Pence on Europe and Russia 
affairs. Is that correct?
    Mr. Castor. Yes.
    Mr. Berke. She worked for Vice President Pence, correct?
    Mr. Castor. Correct.
    Mr. Berke. And you said in your opening statement that 
these accusations that President Trump was trying to do 
something for political purposes, that was made by people who 
were had predetermined motives for impeachment. Isn't that 
correct?
    Mr. Castor. Some of them might, but I also indicated that 
some of the witnesses in the impeachment inquiry, I think, have 
revised their views after the call transcript came out and the 
whistleblower complaint was released.
    Mr. Berke. Are you calling Vice President Pence's special 
advisor a liar, sir?
    Mr. Castor. No, I didn't say that.
    Mr. Berke. Are you calling--are you saying she was 
predetermined to impeach?
    Mr. Castor. Um, I didn't say that. You know, the question 
about Jennifer Williams that's interesting is----
    Mr. Berke. I didn't ask you, sir.
    Mr. Castor. She never mentioned anything to her supervisor. 
She never mentioned anything to anybody in the Vice President's 
office. En route to Warsaw when the Vice President was going to 
meet with President Zelensky, she didn't even raise it as a 
potential issue that might, you know, catch the Vice President 
off guard.
    Mr. Berke. Well, Mr. Castor----
    Mr. Castor. So her concern that she articulated during the 
course of the deposition and during the course of the hearing 
was incongruent--incongruent--with the facts and what she did 
during times of relevance.
    Mr. Berke. Mr. Castor, let's look at your report, what you 
wrote in the report about Ms. Williams.
    So if we could put up slide 6, please.
    And, sir, you made the same point that you tried to make to 
discount her testimony. You said, she testified that although 
she found the call to be unusual, she did not--she did not 
raise concerns to her supervisor.
    Mr. Castor. Right. Nobody in America knew about Jennifer 
Williams's concerns until she walked in the door for her 
deposition.
    Mr. Berke. Sir, when you said that ``although she found the 
call to be unusual,'' that wasn't accurate. That's not what she 
said about the call. She didn't say it was just unusual, did 
she?
    Mr. Castor. She said it was unusual.
    Mr. Berke. That's not all she said about it, was it?
    Mr. Castor. Okay. I mean, she was here for 9 hours in the 
bunker, so she said a lot about the call.
    Mr. Berke. Sir, that was you and the minority----
    Mr. Gaetz. Mr. Chairman, could we get a copy of the slide 
deck? We can't see--I just want to----
    Chairman Nadler. The gentleman will suspend. The gentleman 
has the time.
    Mr. Gaetz. But we can't see the stuff. Can you----
    Chairman Nadler. The gentleman has the time.
    Mr. Berke. I'm happy to read it.
    ``Jennifer Williams testified that `although she found the 
call to be unusual' she did not raise concerns to her 
supervisor.''
    Isn't it a fact, sir, that Ms. Williams said a lot more 
than that? If we can----
    Mr. Sensenbrenner. Mr. Chairman, I have a point of order.
    Chairman Nadler. The gentleman will state his point of 
order. The clock----
    Mr. Sensenbrenner. My point of order is the gentleman from 
Florida has complained that he can't see what the questioner is 
relying on and would like to see it and----
    Chairman Nadler. That is not a cognizable point of order, 
and it was read to him.
    The gentleman will proceed.
    Mr. Sensenbrenner. Only half of it was read to him.
    Chairman Nadler. Irrelevant.
    Mr. Sensenbrenner. Now, let's slow down a bit here----
    Chairman Nadler. The gentleman----
    Mr. Sensenbrenner. Let's slow down a bit here so that 
members are able to fully see what is being put in in support 
of what you're trying to do. We can't do that without being 
able to see it or read it. Mr. Gaetz has said that.
    Now, let's slow down so that we can see or hear what he is 
referring to. And you're not letting that happen. And that goes 
to the privileges of the members that you are asking----
    Chairman Nadler. The gentleman will suspend.
    Mr. Sensenbrenner [continuing]. To participate in this 
meeting and to the vote.
    Chairman Nadler. The gentleman will suspend.
    Mr. Gaetz. Mr. Chairman, I can see now. I appreciate the 
accommodation. The monitor was turned. Now we can see. Thank 
you.
    Chairman Nadler. Okay. The gentleman will resume.
    Mr. Berke. Thank you, Mr. Chairman.
    So, in here, it says that you said Ms. Williams said that 
she found it to be, quote, ``unusual'' and nothing more.
    Let's look at slide 7, if we may.
    Mr. Castor. I didn't say ``and nothing more.''
    Mr. Berke. Let's look at--it says ``unusual,'' correct?
    Mr. Castor. Right, but it doesn't say ``and nothing more.''
    Mr. Berke. No, it says ``unusual.'' Isn't it a fact, sir, 
that what Ms. Williams says is it struck her as ``unusual and 
inappropriate''. Isn't that correct, sir?
    Mr. Castor. Okay.
    Mr. Berke. That's what she said in her testimony.
    Mr. Castor. Okay.
    Mr. Berke. And in your staff report, you left out the 
``inappropriate'' part, didn't you?
    Mr. Castor. It wasn't a block quote. It was--she felt it 
was unusual. She didn't raise the concerns to Lieutenant 
General Kellogg.
    Mr. Berke. So, sir, let me ask you, were you as fair to the 
American people in describing what Ms. Williams said as you 
were in describing everything else in your report?
    Mr. Castor. I don't have an issue with the way we described 
Ms. Williams's testimony.
    Mr. Berke. Well, let's look at what else Ms. Williams said.
    Could we put up slide 8?
    This is from Ms. Williams's public testimony at 34. She 
said, quote, ``I thought that the references to specific 
individuals and investigations, such as former Vice President 
Biden and his son, struck me as political in nature, given that 
former Vice President is a political opponent of the 
President.''
    Sir, you left that out of your staff report too, didn't 
you?
    Mr. Castor. Well, you know, Ms. Williams----
    Mr. Berke. Sir, did you leave that out of your report, yes 
or no?
    Mr. Castor. I--if you're telling me I did. I mean, I don't 
know, as I sit here right now, whether that's in the report.
    Mr. Berke. I'm telling you you did.
    Mr. Castor. Okay.
    Mr. Berke. And do you have an explanation, sir, where you 
said--you said Ms. Williams said that the call was unusual, 
when, in fact, she said it was unusual and inappropriate and of 
a political nature because it raised the Vice President, who 
she recognized was a political opponent of the President.
    Mr. Castor. Her views of the call differ remarkably from 
Mr. Morrison, also from Lieutenant General Kellogg.
    Mr. Berke. That's not my question. My question is, why did 
you misquote Ms. Williams in terms of what she said?
    Mr. Castor. We didn't misquote her.
    Mr. Berke. Why did you do it?
    Mr. Castor. We certainly didn't misquote her.
    Mr. Berke. So you stand--so from the standard that you 
apply to your fact-finding in your report, you believe that it 
was entirely proper to say that Ms. Williams found the call to 
be unusual, when, in fact, she found the call to be unusual and 
inappropriate and of a political nature, given that the former 
Vice President is a political opponent of the President.
    Is that your testimony, sir?
    Mr. Castor. I mean, we described what Ms. Williams said. 
She said it was inappropriate.
    Mr. Berke. No, you didn't.
    Mr. Collins. Mr. Chairman, it's either ask--you can ask or 
you can answer.
    Chairman Nadler. The gentleman----
    Mr. Collins. Mr. Chairman, I'm not. He can either ask or 
answer. He can't do both.
    Chairman Nadler. The gentleman----
    Mr. Collins. You can ask or answer. You can't do both.
    Chairman Nadler. The gentleman is not recognized.
    Mr. Sensenbrenner. Mr. Chairman, I'm making a point of 
order.
    Chairman Nadler. The gentleman has the time.
    Mr. Sensenbrenner. He is badgering the witness.
    Chairman Nadler. He is not.
    The gentleman will continue.
    Mr. Berke. And, sir, you invoked--sir, you invoked Mr. 
Morrison----
    Mr. Sensenbrenner. Mr. Chairman, can you rule on my point 
of order that he's badgering the witness? Because he's doing 
that.
    Mr. Berke. Sir, you invoked----
    Chairman Nadler. That is not a cognizable motion. It does 
not call for a ruling. And the time belongs to the gentleman.
    Mr. Sensenbrenner. A point of order. The committee is not 
in order, and the chairman is not in order.
    Chairman Nadler. That is not a point of order. The 
committee is in order.
    Mr. Sensenbrenner. Well, would you rule on my original 
point of order?
    Chairman Nadler. The original point of order was not 
cognizable and does not necessitate a ruling.
    Mr. Sensenbrenner. That the lawyer is badgering the 
witness? We have to have some decorum in here. And you have 
your rules of decorum, which aren't comporting with everybody 
else's rules of decorum.
    Chairman Nadler. I will say that sharp cross-examination of 
a witness is not badgering the witness.
    The gentleman will continue.
    Mr. Johnson of Louisiana. Mr. Chairman----
    Chairman Nadler. The gentleman will continue.
    Mr. Gohmert. It is if it's by another witness.
    Chairman Nadler. No one--the gentleman has the time.
    Mr. Johnson of Louisiana. Mr. Chairman, point of order.
    Chairman Nadler. The gentleman will state a point of order.
    Mr. Johnson of Louisiana. Under Resolution 660, we're 
supposed to follow the Federal rules of evidence. Is that 
right?
    Chairman Nadler. No, it is not correct.
    Mr. Johnson of Louisiana. What are the rules? What are the 
objections that we're able to make?
    Chairman Nadler. That is not a point of order.
    Mr. Johnson of Louisiana. It is a point of order. There's 
no rules----
    Chairman Nadler. It is not a point of order.
    The gentleman will continue.
    Mr. Johnson of Louisiana. Where is the list of rules?
    Chairman Nadler. The gentleman will continue.
    Mr. Berke. Thank you, Mr. Chairman.
    Mr. Johnson of Louisiana [continuing]. Anything then.
    Chairman Nadler. The gentleman will continue.
    Mr. Berke. Thank you, Mr. Chairman.
    Mr. Castor, you just invoked Tim Morrison.
    Mr. Castor. Uh-huh.
    Mr. Berke. He was someone on the call too, correct?
    Mr. Castor. Yep.
    Mr. Berke. And let me put up slide 9 of Mr. Morrison's 
testimony on page 38 of his public testimony.
    And Mr. Morrison said--well, the question was: Question, by 
Mr. Goldman: ``You heard the call. You recognized that 
President Trump was not discussing the talking points that the 
NSC had prepared based on official U.S. policy and was instead 
talking about the investigations that Fiona Hill had warned you 
about. And then you reported it immediately to the NSC Legal 
Advisor. Is that the correct claim of events here?'' And Mr. 
Morrison said, ``That's correct.''
    Before I ask you, Mr. Castor, let me ask you, Mr. Goldman. 
Earlier, before your presentation, we showed the testimony of 
Ms. Hill, where she referred to what President Trump was trying 
to do as ``running a domestic political errand.'' Is that what 
you understand? Is that what you intended to ask Mr. Morrison 
about in your question to him?
    Mr. Goldman. Yes. It was about these two specific 
investigations that President Trump ultimately did discuss and 
ask President Zelensky to do. These are the same two 
investigations that were discussed and were the only two 
investigations that were at issue throughout the entirety of 
the scheme.
    And so what our evidence found was that, any time there was 
a reference to ``investigations,'' it referenced the Biden 
investigation and the 2016 election investigation. And, in 
fact, Ambassador Volker actually said that whenever he was 
using the term ``corruption,'' what he meant was those specific 
two investigations.
    Mr. Berke. And what was the significance to you that Mr. 
Morrison, who Mr. Castor himself has relied on and invoked 
twice today, where he said that he understood these were the 
investigations that Fiona Hill had warned him about--warned him 
about? What did you understand that to mean?
    Mr. Goldman. When Dr. Hill left and Tim Morrison replaced 
her, they had transition meetings. And during one of those 
transition meetings, Dr. Hill told Tim Morrison about what she 
believed to be this irregular channel that Ambassador Sondland 
was operating, where they were pushing for Ukraine to do these 
investigations.
    And Dr. Hill, in particular, was very concerned because, as 
she said, as you pointed out, that was a domestic political 
errand, and what she was working on and the National Security 
Council was working on related to national security and foreign 
policy, and those were two entirely separate things.
    Mr. Berke. And was she expressing the view that President 
Trump had chose his own personal political interest over the 
foreign policies position that Ms. Hill was trying to pursue?
    Mr. Goldman. At the time that she said that to Tim 
Morrison, she was not aware of whether President Trump had 
actually endorsed these investigations. But she did testify 
that, after she read the call transcript, which she only read 
after it was released, like the rest of us, she said that she 
put two and two together and realized that that is exactly what 
he was talking about.
    Mr. Berke. And what was two and two again?
    Mr. Goldman. It equals four.
    Mr. Berke. And what is four in this investigation, sir?
    Mr. Goldman. Well, that was used by two witnesses, 
Ambassador Sondland and David Holmes, as the only logical 
conclusion to explain why the security assistance had been 
withheld--was being withheld from Ukraine. And based on all of 
the various factors and their direct involvement in issues 
related to Ukraine, they concluded that the security assistance 
was being withheld to put pressure and as a condition on the 
initiation of the two investigations that are referenced here.
    Mr. Berke. Yeah.
    Turning to you, Mr.----
    Mr. Castor. I've got to clear a couple things up here, 
though.
    Mr. Berke. Turning----
    Mr. Castor. I've got to clear a couple things up here, if I 
may.
    First of all, Morrison was concerned--Morrison didn't think 
the call was----
    Mr. Berke. Sir, you have no--there's no question.
    Chairman Nadler. The gentleman has the time, not the 
witness.
    Mr. Castor. I mean, Morrison was concerned about leaks----
    Mr. Berke. Let me ask you, sir. Sir, you said----
    Mr. Castor. And, by the way--and Volker never meant----
    Chairman Nadler. The gentleman has the time. The clock will 
stop if he's interrupted.
    Mr. Gohmert. Will this witness be able to cross-examine Mr. 
Berke like he's being able to cross-examine the opposing 
witness?
    Chairman Nadler. The gentleman is not recognized and will 
not shout----
    Mr. Gohmert. That's a point of inquiry.
    Chairman Nadler [continuing]. Will not shout out in the 
middle of testimony.
    Mr. Collins. You need to call balls and strikes the right 
way. You don't interrupt either one of them, Mr. Chairman.
    Chairman Nadler. The gentleman----
    Mr. Collins. You're a questioner or the witness.
    Chairman Nadler. The gentleman will----
    Mr. Collins. Bang it harder. It still doesn't make their 
point----
    Chairman Nadler. The gentleman----
    Mr. Collins [continuing]. That you're not doing it right.
    Chairman Nadler. The gentleman will continue.
    Mr. Berke. Sir, I believe it was your testimony, as I wrote 
it down, ``The Democrats are about blocking info, when they 
should be seeking information.''
    Mr. Castor. Oh, my goodness, that is absolutely right.
    Mr. Berke. Okay. And then you said that the Trump 
administration has, in fact, cooperated and facilitated 
congressional oversight investigations. Is that correct, sir? 
Just yes or no, is that correct?
    Mr. Castor. Absolutely. The Trump administration has 
participated in oversight during the entire Congress until it 
got to this impeachment inquiry.
    Mr. Berke. So let me ask you about this call, sir. Robert 
Blair----
    Mr. Castor. And the terms are just not fair.
    Mr. Berke. Robert Blair, who was on this call, the Trump 
administration, the President himself directed him not to 
appear and give testimony, correct?
    Mr. Castor. Robert Blair--let's--I'm glad you brought that 
up.
    Mr. Berke. No. I'm asking you, did the President direct him 
not to appear and give testimony, yes or no?
    Mr. Castor. I think he was allowed to come if the agency 
counsel----
    Mr. Berke. He was not allowed to come under the terms set 
by the House Intelligence Committee, correct?
    Mr. Castor. I think he would've come with agency counsel.
    Mr. Berke. The Trump administration directed him not to 
come, correct?
    Mr. Castor. He would have provided testimony, I think, if 
agency counsel could have come. I mean, it's really expensive 
to hire these outside lawyers.
    Mr. Berke. John Eisenberg was directed not to come, 
correct? The lawyer.
    Mr. Castor. Eisenberg presents another set of 
complexities----
    Mr. Berke. But he was directed not to come, the lawyer who 
Lieutenant Colonel Vindman went to, correct?
    Mr. Castor. Okay, Eisenberg is a--he may have been able to 
come with agency counsel, but he presents some complexities. I 
mean, he's the chief legal advisor for Ambassador Bolton.
    Mr. Berke. So he was directed not to come, correct?
    Mr. Castor. Um, he may have been able to come with agency 
counsel, but his testimony does present complexities.
    Mr. Berke. Sir, let me ask you this. Was it U.S. policy on 
July 26 to request that Ukraine investigate former Vice 
President Joe Biden?
    Mr. Castor. You know, I think you're reading a little too 
much into, you know, some of the eight lines. I don't think the 
President was requesting an investigation into Joe Biden. He 
just mentions an offhand comment.
    Mr. Berke. Sir, is that a no? It was not U.S. policy to 
look into Joe Biden?
    Mr. Castor. Yeah, but you're presuming that it then at some 
point became U.S. policy to investigate Joe Biden, and I don't 
think that's the case.
    Mr. Berke. Sir, let me show you what slide 10--testimony 
of, again, Lieutenant Colonel Vindman.
    And he was asked, ``Are you aware of any written product 
from the National Security Council suggesting that 
investigations into the 2020 election, the Bidens, or Burisma 
are part of the official policy of the United States?''
    ``No, I'm not.''
    Now, let me go also to Tim Morrison, who you invoked.
    If we could go to slide 11.
    Mr. Morrison was asked by our own Congressman Swalwell, who 
is also on the Intelligence Committee, and said--I'm just going 
to pick up in the middle of that long question. It said, ``. . 
. The one call that you listened to between the President of 
the United States and the President of Ukraine, the President 
of the United States'' priorities were to investigate the 
Bidens. And I'm asking you, sir, why didn't you follow up on 
the President's priorities when you talked to the Ukrainians?''
    Mr. Morrison said, ``Sir, I did not understand it as a 
policy objective.''
    Mr. Goldman, let me ask you, there was a package prepared 
before that call of what President Trump was supposed to talk 
about with President Zelensky, correct?
    Mr. Goldman. Yes.
    Mr. Berke. And am I correct, sir, that one of the things 
that he was supposed to talk about and was in his prepared 
remarks was the anticorruption platform of President Zelensky 
that he ran and won on, correct?
    Mr. Goldman. Yes. The witnesses testified that that is a 
consistent and persistent policy objective for the United 
States.
    Mr. Berke. Did President Trump mention corruption once in 
his call with Mr. Zelensky?
    Mr. Goldman. No, he did not.
    Mr. Berke. Did he mention looking into anything other than 
the two investigations that were politically helpful to him, 
the 2016 election investigation and the investigation of his 
political rival, former Vice President Joe Biden?
    Mr. Goldman. No, he did not.
    Mr. Berke. Mr. Castor----
    Mr. Castor. May I add something here?
    Mr. Berke. No, you can't. Mr. Castor, let me ask you a 
question.
    Mr. Castor. President Trump did mention----
    Mr. Collins. Are you going to let him answer?
    Mr. Berke. No.
    Mr. Castor. He did mention that there's some very bad 
people there----
    Mr. Collins. Let him answer.
    Chairman Nadler. The time is the questioner's, and he can 
ask the questions however he wants. When you question, you'll 
have the same rules.
    Mr. Collins. Yeah, I'll bet.
    Mr. Berke. And, Mr. Castor, in fairness, you'll be able to 
answer questions asked by minority counsel when it's their 
turn.
    Mr. Castor. Okay, but----
    Mr. Berke. I have 45 minutes, so let me----
    Mr. Castor. But in fairness----
    Mr. Berke [continuing]. Let me ask you----
    Mr. Castor. Come on, Barry. In fairness here, President 
Trump talks about ``very bad people.'' I mean----
    Mr. Berke. Mr. Castor, if I can finish? And that was--let 
me finish, sir.
    Let me ask you this, sir. Sir, there were two lawyers 
mentioned on the call. We've heard testimony already. Mr. Trump 
said to President Zelensky--President Trump said to President 
Zelensky that he should speak to two people, his personal 
lawyer, Rudy Giuliani, and the Attorney General Barr, correct?
    Mr. Castor. Yep.
    Mr. Berke. Okay.
    Immediately after this call memorandum was released, isn't 
it the case that Attorney General Barr and the Department of 
Justice issued a statement about his role in all this?
    Mr. Castor. He did.
    Mr. Berke. Let's put up the statement--slide 13, please--
from the Department of Justice.
    ``The President has not spoken with the Attorney General 
about having Ukraine investigate anything relating to former 
Vice President Biden or his son. The President has not asked 
the Attorney General to contact Ukraine on this or any other 
matter. The Attorney General has not communicated with Ukraine 
on this or any other subject.''
    So, Mr. Goldman, is it fair to say that the Attorney 
General didn't want anything to do with these investigations 
that President Trump had raised with President Zelensky on the 
call?
    Mr. Goldman. I think it goes, actually, even a little 
further. I think whether the Attorney General wanted anything 
to do or not is in addition to the fact that the Attorney 
General said he had nothing to do with Ukraine and, in fact, 
that there were no ongoing investigations at the time of this 
call or in August. And that became a--became an issue in the 
investigation.
    There is a formal channel that the Department of Justice 
has and the United States Government has to obtain evidence 
related to an ongoing investigation, and that is generally the 
proper way to engage a foreign country through treaties to get 
information.
    But several of the witnesses testified that they looked 
into that, at the urging of the Ukrainians, and they determined 
that there was no formal ongoing investigation nor any formal 
request on these topics.
    Mr. Berke. Now, the other lawyer on the call, Rudy 
Giuliani, he, however--he was more than happy to continue to be 
involved in trying to get Ukraine to investigate President 
Trump's political rival, Joe Biden, correct?
    Mr. Goldman. Mr. Giuliani was very active and involved in 
pushing for these investigations for several months before the 
July 25 call and then for several months after, including, 
apparently, 3 days ago.
    Mr. Berke. And, sir, Mr. Castor, you would agree--you wrote 
in your report that Rudy Giuliani--that the Ukrainians 
themselves knew that Rudy Giuliani, the President's personal 
lawyer, was a conduit to convince President Trump that 
President Zelensky was a serious reformer, correct?
    Mr. Castor. Well, Ukrainians knew that----
    Mr. Berke. Sir, isn't that what you said in your report?
    Mr. Castor [continuing]. Rudy had the President's ear.
    Mr. Berke. And he was a conduit.
    Let me put up slide 14, if I may. And we actually have your 
report here.
    And it says, ``The Ukrainians knew that he,'' meaning Rudy 
Giuliani, ``was a conduit to convince President Trump that 
President Zelensky was serious about reform.''
    Isn't that what you wrote----
    Mr. Castor. Yeah.
    Mr. Berke [continuing]. In your report, sir? Okay.
    And, in fact, during the call, President Trump asked 
President Zelensky to speak directly to his personal lawyer 
about Ukrainian matters that President Trump was interested in, 
correct?
    Mr. Castor. He referred him to Rudy, yeah.
    Mr. Berke. Yes.
    And, in fact, President Zelensky said, ``Oh, we already 
knew that, and he's been in touch with my aides,'' correct?
    Mr. Castor. That's right. In fact, I mean, the Ukrainians 
are the ones that first--President Zelensky is the one who 
first brings up Mr. Giuliani on the call.
    Mr. Berke. Right. Because they knew that Mr. Giuliani was a 
conduit to the President, and if they made Mr. Giuliani happy, 
they'd make President Trump happy, correct?
    Mr. Castor. Ambassador Volker testified, though, that Mr. 
Giuliani had a negative impression of Ukraine and that he was 
possibly fueling the President's views. And so they had--there 
were some discussions about, hey, if you can convince Rudy that 
President Zelensky is a true reformer, the real deal, that that 
would be a beneficial--a beneficial link.
    Mr. Berke. Well, sir, you agree that President Giuliani, 
before the July 25 call and after, was pushing for the 
Ukrainians to investigate former Vice President Joe Biden. 
Isn't that correct?
    Mr. Castor. Um----
    Mr. Berke. Yes or no?
    Mr. Castor. Yeah, I mean, the record is somewhat spotty 
with Giuliani. I mean, I know The New York Times reported in 
May, but Ambassador Volker gave a pretty detailed account of 
his meeting on July 19, and----
    Mr. Berke. Well, let's take a look. If we can put up slide 
16, the New York Times article you referred to.
    Mr. Castor. Yeah.
    Mr. Berke. And the article says--I'll read it--``Mr. 
Giuliani''--and this is dated May 9, 2019, before the call. 
``Mr. Giuliani said he plans to travel to Kyiv, the Ukrainian 
capital, in the coming days and wants to meet with the Nation's 
President-elect to urge him to pursue inquiries''--and then it 
continues--``that allies of the White House contend could yield 
new information about two matters of intense interest to Mr. 
Trump. One is the origin of the special counsel's 
investigation.'' It goes on to describe it. New sentence: ``The 
other is the involvement of former Vice President Joe Biden's 
son.''
    Okay. And, now, that was in the New York Times article. 
And----
    Mr. Castor. Can we talk about the breakfast with Volker?
    Mr. Berke. If we could--not yet.
    If we could continue the rest of the article, to the next 
slide, which is slide 17. This is the same article.
    And Mr. Giuliani was very explicit when he was interviewed. 
He said, ``And this isn't foreign policy.'' I'm now quoting the 
words that are highlighted. It says, ``He'll be very, very 
helpful to my client. My only client is the President of the 
United States. He's the one I have an obligation to report to, 
tell him what happened,'' regarding the Ukraine.
    Now, sir, were you aware, on that same day, Mr. Giuliani 
gave an interview about what he intended to do?
    And let's go to slide 18.
    This is from RealClearPolitics. And it should be on the 
screen in front of you as well.
    And what Mr. Giuliani said about the Ukraine, he said, 
``It's a big story. It's a dramatic story. And I guarantee you, 
Joe Biden will not get to election day without this being 
investigated. Not because I want to see him investigated, this 
is collateral to what I was doing.''
    So, sir, and you agree, election day refers to the 2020 
election where President Trump will be running against--will be 
running for reelection, correct?
    Mr. Castor. I don't know what----
    Mr. Berke. You don't know?
    Mr. Castor [continuing]. Giuliani was talking about, but I 
guess you're right. The----
    Mr. Berke. Okay. Well, let me----
    Mr. Castor. The----
    Mr. Berke. Sir, that was my only question to you. You'll 
have a chance to answer questions from minority counsel.
    Now--and President Trump--let me show you slide 18.
    Mr. Castor. We're going to sidestep the Volker meeting on 
July 19?
    Mr. Berke. Sir, you'll have an opportunity to talk about 
that when minority counsel questions you.
    Let me go to slide 19, please.
    And the President says--he's being interviewed now, the 
same day, in a Politico--and he's asked about Mr. Giuliani, 
``He's leaving soon, I think in the next couple days.'' Mr. 
Trump says, ``I see. Well, I will speak to him about it before 
he leaves.''
    Now, let me go to slide 20, because President--excuse me--
Mr. Giuliani continued his pressure on President Zelensky. In 
this one, it's actually a tweet that he put out on June 21, 
2019, roughly a month before the call.
    He says, ``New President of Ukraine still silent on 
investigation of Ukrainian interference in 2016 election and 
alleged Biden bribery of the prior President.''
    And, again, sir, as you said, the Ukrainians knew that Mr. 
Giuliani had the ear of his client, President Trump. Isn't that 
correct, sir?
    Mr. Castor. Um----
    Mr. Berke. Is that correct, sir? Yes or no?
    Mr. Castor. The--you know, Giuliani was doing some things, 
you know, out here. And then he became involved with the 
official channel with Volker, with Sondland. And at that 
meeting on July 19, Volker, you know, counseled against the 
perspective Giuliani was taking.
    Mr. Berke. So my question to you, sir, is this tweet, what 
they're talking about--well, let me ask you, Mr. Goldman. You 
haven't had a chance in a while. This tweet, is that referring 
to a personal political issue of President Trump or official 
U.S. policy?
    Mr. Goldman. That's a personal political issue.
    And if you don't mind, I'll just take a moment to respond 
to Mr. Castor. Because----
    Mr. Berke. Please do.
    Mr. Goldman [continuing]. On that July 19 meeting between 
Ambassador Volker and Rudy Giuliani, Ambassador Volker told Mr. 
Giuliani that the allegations about Joe Biden were completely 
bogus and wrong. And Mr. Giuliani actually told--according to 
Ambassador Volker's testimony, Mr. Giuliani said that he knew 
that. And yet, for the next 2 months, he continued to push for 
that same investigation at the direction of President Trump, 
who had also directed President Zelensky to contact Mr. 
Giuliani.
    So that July 19 meeting that Mr. Castor brought up is 
actually quite important to this investigation.
    Mr. Berke. And, sir, you already explained that on May 23, 
when the official folks who went to the inauguration of 
President Zelensky came back to tell the President how 
impressed they were, the only thing he had to say to them was, 
``Talk to Rudy.'' He was taking his official government people 
responsible for Ukraine and handing them over to Rudy Giuliani 
so that they could work with him for the issues that he was 
focused on for the President, as evidenced in the tweet. Is 
that fair?
    Mr. Goldman. Yes. I agree with Mr. Castor. I think that's 
what the evidence shows, that at that May 23 meeting President 
Trump directed and delegated authority over Ukraine matters to 
Ambassadors Sondland, Volker, and Secretary Perry and told them 
to work with Rudy. And then over the next 3 months, that's 
exactly what happened, at the President's direction.
    Mr. Berke. Okay.
    And, in fact, let me show you what is slide 22, if I may, 
that--you understood the Ukrainians recognized how important 
Rudy Giuliani was and satisfying him in order to stay on good 
terms with President Trump?
    Mr. Goldman. Yes. They quickly realized it, I think, from 
their own internal conversations, because Mr. Giuliani had back 
channels to getting to the Ukrainian officials. And Ambassador 
Volker told the Ukrainians, as well, that there was this, 
quote, ``Giuliani factor'' that President Zelensky--he actually 
told it to President Zelensky, that there was this Giuliani 
factor that they needed to deal with with the President.
    Mr. Berke. And, in fact, this is the senior aide to 
President Zelensky saying to Ambassador Volker on August 13, 
which is obviously after the July 25 call, ``Thank you for 
meeting and your clear and very logical position. Will be great 
meet with you before my departure and discuss. I feel that the 
key for many things is Rudy, and I am ready to talk with him at 
any point. Please let me know when you can meet. Andriy.''
    And, again, that's Rudy--am I right? That's the Ukrainians 
recognizing that Rudy Giuliani, who is demanding the 
investigation of Mr. Trump's political rival, was key to 
getting anything done?
    Mr. Goldman. Yes.
    And I don't mean to be a stickler, but I believe this text 
was actually July 10. And this was a critical text, because 
what it is saying is Mr. Yermak, after having spoken to Mr. 
Volker a week before and learning about the importance of 
Giuliani, requested to Ambassador Volker to set up a meeting 
with Mr. Giuliani.
    That then proceeded to this July 19 breakfast that Mr. 
Castor said and then a July 22 phone call. And then ultimately 
they met in Madrid on August 2.
    Mr. Berke. Thank you, Mr. Goldman. Further evidence of the 
meticulous investigation that Chairman Schiff and his staff you 
have directed. We will stand corrected. Thank you. And I will 
take that and ask that the record reflect that, that that is 
the correct date.
    In either case, Rudy was key, whenever it was said, 
correct?
    Mr. Goldman. Certainly.
    Mr. Berke. And now let me ask, sir--let me put up slide 24.
    And, Mr. Goldman, am I correct that there came a point in 
time when President Trump, through his Chief of Staff, Mr. Mick 
Mulvaney, ordered that the approved military aid to Ukraine be 
withheld, as you previously indicated? Correct?
    Mr. Goldman. Yes.
    Mr. Berke. And this is the testimony of the people who were 
involved.
    Mr. Kent said when this happened, ``There was great 
confusion among the rest of us, because we didn't understand 
why that had happened, since there was unanimity that this aid 
was in our national interest. It just surprised us all.''
    Mr. Holmes: ``And then you had the additional hold of the 
security assistance with no explanation whatsoever. And we 
still don't have an explanation for why that happened or in the 
way that happened.''
    Ms. Croft: ``The only reason given was that the order came 
at the direction of the President.''
    So, sir, let me ask you a question. Did all the agencies 
involved believe that the aid should be given?
    Mr. Goldman. Yes. It was the unanimous view of all of the 
agencies--Secretary of State--Department of State, Department 
of Defense, National Security Council, literally every one of 
the interagency agencies believed that the aid was vital and 
had already been approved and should be released immediately.
    Mr. Berke. And in the minority staff report and in Mr. 
Castor's testimony earlier, he said the U.S. Government did not 
convey the pause to the Ukrainians. Well, that wasn't correct, 
was it? Didn't Mr. Sondland convey that, according to Mr. 
Sondland's affidavit and testimony?
    Mr. Goldman. Mr. Sondland ultimately conveyed that the 
release of the aid was conditioned on the public announcement 
of the investigations.
    Mr. Berke. And if we could put up slide 26 from the 
affidavit.
    Mr. Castor. He presumed that, though, is what he said.
    Mr. Goldman. Well, if I may, just in response----
    Mr. Berke. We'll put up the slide.
    Mr. Goldman. Sure.
    Mr. Berke. We can put up the actual affidavit that Mr.--
Ambassador Sondland, President Trump's Ambassador to the 
European Union, that he swore to under penalties of perjury. 
And he says, if we can read the highlighting, which is also in 
front of you: I now recall speaking individually with Mr. 
Yermak where I said that--where I said to Mr. Yermak, the 
Ukrainian aid, that--I'm going back to the quote--that 
resumption of U.S. aid would likely not occur until Ukraine 
provided the public anticorruption statement that we have been 
discussing for many weeks.
    Is that correct, sir?
    Mr. Goldman. Yes. He said that on--at a meeting on 
September 1, with Mr. Yermak in Warsaw.
    Mr. Berke. And the statement that they had been talking 
about, let me put up a slide that we put together, slide 27. 
And do you recall, sir, that in the draft statement that the 
Ukrainians were going to have President Zelensky give so they 
could--and was that statement, in their mind, so they could get 
a White House meeting and satisfy President Trump and have the 
aid released?
    Mr. Goldman. Yes. Ambassador Sondland testified to that and 
Ambassador Volker also testified to that.
    Mr. Berke. And am I correct that Mr. Yermak gave a 
statement where he did not make any reference to Vice President 
Biden, correct?
    Mr. Goldman. Correct.
    Mr. Berke. And then was that Rudy Giuliani who said in the 
second one that it had to include a reference that they were 
going to investigate Burisma and the 2016 election?
    Mr. Goldman. That's right.
    Mr. Berke. And what did Burisma stand for? Did all your 
witnesses say they had an understanding what that meant, or did 
the witnesses say that?
    Mr. Goldman. So every single witness said, after reading 
the phone call on July 25, that it was clear Burisma equaled 
Biden, that they were one and the same. There were only two 
witnesses who said that they did not know that until that time.
    And there was ample testimony, there was a lot of testimony 
from people involved in all aspects of Ukraine policy who 
indicated that it was completely unrealistic and unlikely that 
anyone who had anything to do with Ukraine did not--would not 
know that the Burisma investigation related to the Bidens.
    Mr. Berke. And is that why--and that's how Mr. Giuliani 
publicly referred to it often, as Burisma and Vice President 
Biden, correct?
    Mr. Goldman. Correct, yes.
    Mr. Berke. And did the Ukrainians complain repeatedly--we 
talked a little bit about it--that they didn't want to be a 
pawn in U.S. democratic politics by helping President Trump's 
reelection campaign by making such a statement?
    Mr. Goldman. They said that in July. And in August, 
ultimately they didn't give the statement, in large part, 
because they had reservations. Given that President Zelensky 
was an anticorruption reformer, they had reservations about 
engaging in U.S. domestic politics. That's right.
    Mr. Berke. I want to go back to you, Mr. Castor. You said 
that when President Trump said to Ambassador Sondland on 
September 17th that he had no quid pro quo, you said he had no 
reason--you said----
    Mr. Castor. September 9. September 9.
    Mr. Berke. September 9. You said he had no reason to be any 
less than candid. That's what you said. No reason to be any 
less than candid.
    Let me show you, sir, what happened, though, on September 
5. Let me show you slide 52. Days before he made that 
statement, The Washington Post printed an article that says, 
Trump tries to force Ukraine to meddle in the 2020 elections, 
and goes on to describe some of those efforts.
    And, sir, let me show you whether President Trump was aware 
of that article before he volunteered no quid pro quo as a 
defense. Let me show you a tweet by President Trump on slide 
53. Now--and, again, this is--he is putting out a tweet that is 
essentially saying the Democrats, based--following up the 
article that they are pursuing impeachment, again, showing 
awareness that this has now been reported on.
    So, Mr. Goldman, is it fair to say when Mr. Castor said 
that Mr. Trump, President Trump had no reason to be any less 
than candid about saying no quid pro quo?
    Mr. Goldman. No. I think President Trump had every reason 
to try to put out that message at that point. As Ambassador 
Sondland said, even when he--even if you credit Ambassador 
Sondland's version of the testimony, which is contradicted by 
other witnesses who took contemporaneous notes and were far 
more credible than Mr. Sondland, who had to amend his testimony 
a couple times, he said even in that comment he said no quid 
pro quo out of the blue without any question about whether or 
not there was a quid pro quo.
    Chairman Nadler. The gentleman's time is expired.
    The chair now recognizes the ranking member for his first 
round of questions. Pursuant to House Resolution 660, the 
ranking member or his counsel have 45 minutes to question the 
witnesses.
    Mr. Collins. Thank you, Mr. Chairman.
    Well, it's become very evident while this hearing is here 
and while the craziness of this hearing, especially not having 
Mr. Schiff here, but please put back up the last slide. I have 
no idea what number it is. I'm not as good a counsel as--53. 
Did we cut it off after they got through? Okay.
    Okay. Well, while we're doing this, I mean, I think it's 
just the most amazing statement that came out there, we're 
proofing the tweet that said that he thought that he was--the 
Democrats were concerned about impeachment. There is nothing 
the Democrats have not been concerned about for 2 and a half 
years since August--since November 2016.
    The President is saying nothing new in that tweet that's 
now back up. He's known that they have been after impeachment. 
That's why Mr. Goldman is here. That's why Mr. Berke is here. 
That's why we're going through this charade of staff having to 
answer staff questions. And basically, when we don't like how 
it's going we start asking staff on staff and getting into a 
staff argument.
    Where's Adam? Where's Adam? It's his report, his name. Mr. 
Goldman, you're a great attorney, but you're not Adam Schiff 
and you don't wear a pin.
    Mr. Goldman. That's true.
    Mr. Collins. We got a problem here, and the problem that's 
developing is this. You said you were an attorney, you were a 
very good prosecutor. I believe it. I've read your bio. You're 
a good attorney. You understand what quid pro quo is, correct?
    Mr. Goldman. I do.
    Mr. Collins. You understand what asking for something in 
exchange for something actually means, correct?
    Mr. Goldman. I do.
    Mr. Collins. You know about the conversation of Mr. Biden 
when he asked and he said, I'm not going to give you the 
billion dollars. You know about that conversation, correct?
    Mr. Goldman. The----
    Mr. Collins. You want me to read it to you or do you----
    Mr. Goldman. In 2000--one second. Are you talking about in 
2015?
    Mr. Collins. No, I'm talking about the one from the 
national, where you did the--I'll read it to you since you're 
having trouble.
    As I remember going over to the Ukraine, convincing our 
team, our leaders, convincing them that we should provide for 
loan guarantees. I went over I guess the twelfth or thirteenth 
time to Kyiv. I was supposed to announce that there was a 
billion dollar loan guarantee. And I had gotten a commitment 
from Poroshenko that I would take action against--that they 
would take action against the State prosecutor. They didn't.
    So they said they had. They were walking out to the press 
conference. I said, nah, I'm not going to, or we're not going 
to give you the billion dollars. They said, you have 
authority--you have no authority, you're not the President. The 
President said. I said, call him. Laughter. I said, I'm telling 
you you're not getting the billion dollars. I said you're not 
getting the billion dollars.
    I'm getting--I'm getting--getting ready to be leaving here 
in I think about 6 hours. I looked at them and said, I'm 
leaving here in 6 hours. If the prosecutor is not fired, you're 
not getting the money. Well, son of a bitch, he got fired.
    Did he ask for something, request something, and hold 
something of value?
    Mr. Goldman. He did. George Kent testified that that was--
--
    Mr. Collins. I think I'll do what you did. George Kent 
testified. I'm asking about not George Kent. I'm asking about 
this prosecutor.
    Mr. Goldman. But it's important context.
    Mr. Collins. It's not. Answer this question: Did he or did 
he not? Either Joe Biden is a liar telling a story to make 
people impressed or he actually did this. Which is it?
    Mr. Goldman. He did it, pursuant to U.S. official policy.
    Mr. Collins. So he did it in holding, withholding actual 
dollars, actual thing, holding this out there. So Joe Biden of 
everybody that we discussed is the only one that's done a quid 
pro quo. He's the only one that's used taxpayer dollars to 
actually threaten a foreign government.
    And yet we're sitting here pretending that this is not 
happening. We're sitting here pretending that a President of 
the United States now would not be concerned. Look, you look at 
it this way, Joe Biden's a terrible candidate. He can destroy 
himself on the campaign trail, but he can't get by this. And it 
doesn't matter who brings it up, it doesn't matter who does it, 
because this is what happened. And you can whitewash it all you 
want, you can go over whatever you want, but that's what it is. 
He's either a liar or he did it, and he did it.
    I want to continue on.
    The question is a question that you had earlier. You rely 
on how many--approximately how many times do you rely on Gordon 
Sondland's testimony in your report?
    Mr. Goldman. It's nearly a 300-page report. I couldn't 
possibly count.
    Mr. Collins. Would you be amazed if it was 600 times or 
better?
    Mr. Goldman. I----
    Mr. Collins. You wouldn't have any idea or not?
    Mr. Goldman. I have no idea.
    Mr. Collins. Okay. You did. It's over 600 times. Would you 
also understand if you do a simple check of your report that 
over 158 times Mr. Sondland said instances of not knowing 
something, to the best of my knowledge, or I don't know? Would 
that surprise you?
    Mr. Goldman. Are you talking about the report or his 
deposition?
    Mr. Collins. The deposition and the closed door testimony.
    Mr. Goldman. Yes. And over time, he remembered a lot more 
as he was refreshed by other people's testimony.
    Mr. Collins. Yeah, he did. The question we're having here, 
though, is Mr. Sondland also said and many times he said he 
presumed what actually happened. Let's go back to something 
else. We're going to continue this in just a moment.
    According to your report, HPSCI, and we'll classify that 
and we'll determine that to be the Intelligence Committee and 
the other investigation with the other two committees. Are we 
okay with that?
    Mr. Goldman. Certainly.
    Mr. Collins. Okay. Issued dozens of subpoenas. Is that 
right?
    Mr. Goldman. I'm not--certainly over a dozen, yes.
    Mr. Collins. Some of the subpoenas were not publicly 
reported until the HPSCI issued its majority report, correct?
    Mr. Goldman. Most of the subpoenas were not reported.
    Mr. Collins. Answer the question. As Mr. Berke had so much 
free rein, let's go at it. Either answer the question or 
elaborate, one or the other.
    Mr. Goldman. Sir, I'm trying to answer the question.
    Mr. Collins. Did you or didn't you? Did it come out or not?
    Mr. Goldman. Did what come out?
    Mr. Collins. I'll read it again. Some of the subpoenas were 
not publicly reported until the HPSCI issued its majority 
report, correct?
    Mr. Goldman. Yes. They were given to the minority, but not 
the public, yes.
    Mr. Collins. Putting aside the witnesses who have 
publically been identified, did you issue any other subpoenas 
for testimony other than the ones publicly identified?
    Mr. Goldman. I don't--I'm not sure. I don't think so, but 
I'm not sure.
    Mr. Collins. Thank you. How many subpoenas were issued for 
records?
    Mr. Goldman. Well, we issued a number of subpoenas for 
records. We did issue six subpoenas to executive branch 
agencies, and they all defied our subpoenas.
    Mr. Collins. Moving on to other issues here. The Wall 
Street Journal reported that the committee issued at least four 
subpoenas to Verizon and AT&T for call records. Is that 
correct?
    Mr. Goldman. We----
    Mr. Collins. Are we wondering?
    Mr. Goldman. Yes, we are, because there are multiple 
numbers. It's--we only issued subpoenas for call records for 
people who were involved in the investigation and who had 
already been subpoenaed by the committee for documents and 
testimony of their own.
    Mr. Collins. Absolutely wonderful stuff, but answer my 
question. Four?
    Mr. Goldman. Well, I am trying to answer your question.
    Mr. Collins. Was it at least four?
    Mr. Goldman. Yes.
    Mr. Collins. Thank you. You could have saved us a lot of 
time there. How many subpoenas were issued to AT&T?
    Mr. Goldman. I don't know off the top of my head.
    Mr. Collins. Can you check your records? This is an 
important--because we just found out about this over the 
weekend. We got a massive document dump over the weekend, 
preparing for this hearing, in which the chairman admitted and 
the staff admitted they're not going to be able to read it all 
anyway.
    So for all of you writing a report about this, all of this 
massive document dump, we're just simply going on a Schiff 
report which Schiff refuses to come testify about, but sends 
his staff. So this is important stuff. We just found out about 
this.
    So how many subpoenas were issued to AT&T?
    Mr. Goldman. I don't know. If you'd like me to find out 
during the break, I'd be happy to.
    Mr. Collins. That's fine. If you don't know, then again, 
maybe your chairman could be here to actually answer this.
    Was it targeted at a single telephone number or numbers?
    Mr. Goldman. We subpoenaed for call records. Multiple 
numbers----
    Mr. Collins. How many?
    Mr. Goldman. I don't know. None of--this is very important, 
though.
    Mr. Collins. Let's just stop here.
    Mr. Goldman. None of Members of Congress, none of staff of 
Congress.
    Mr. Collins. We're getting to that.
    Mr. Goldman. None of journalists.
    Mr. Collins. We're getting to that.
    Mr. Goldman. We only did it to the subjects who were 
involved in the investigation, which is a very routine and 
standard investigative practice, sir.
    Mr. Collins. And you're not going to hear anything from me 
about a subpoena and the legality of the subpoena. My problem 
is this: Who asked--who on the committee asked that those 
numbers that you actually did put into for a subpoena and get 
those numbers back, who was it that asked that they be cross-
checked for members of the media and Members of Congress? Who 
ordered that?
    Mr. Goldman. I don't think that's how we did it, sir.
    Mr. Collins. No, whoa, whoa, whoa. You came out with a 
report that actually showed these people, such as Chairman 
Nunes and others were actually on these calls.
    Mr. Goldman. Yes.
    Mr. Collins. Now, someone--and you and I, we're not going 
to play cute here. Somebody took the four records that you 
asked for, at least four, took those numbers and then said, 
hey, let's play match game. Who ordered the match game for 
Members of Congress and the press? Was it you?
    Mr. Goldman. I don't think anyone did, sir.
    Mr. Collins. Then how did you--okay, come on. That's the 
most ridiculous item I've ever heard. You don't just all of a 
sudden pick up numbers and which you have to match those 
numbers to actually show where they are and you don't come up 
with them. Who ordered them to actually match for Members of 
Congress and the press?
    Mr. Goldman. That's--actually, what you just described is 
exactly how it happened. You pick an event----
    Mr. Collins. Who ordered to find out if Nunes' number was 
on those calls?
    Mr. Goldman. If I could just explain, sir. You pick an 
event of significance in the investigation, and you look for 
sequencing and patterns surrounding that event. You look then 
at the numbers, and you try to identify what those numbers are. 
And then you start to build the circumstantial case.
    Mr. Collins. At this point, that's a wonderful explanation 
but not an answer to my question. Those are--you're looking for 
the four numbers you asked for and to see how they're 
connected. I understand the subpoena that you issued.
    My question directly, was it you or was it Chairman Schiff 
that said, while we're doing this let's see if this matches 
Chairman Nunes' number, let's see if this matches a member of 
the press' number? Somebody along the way just didn't all of a 
sudden have an epiphany, unless you're getting ready to throw a 
low-level staffer under the bus, that these numbers might 
match. So who did it? Was it Chairman Schiff or was it you? Be 
careful, you're under oath.
    Mr. Goldman. I know I'm under oath, sir. It doesn't matter.
    Mr. Collins. Then answer the question.
    Mr. Goldman. And I will answer the question if you give me 
a second here. It's not a simple answer.
    Mr. Collins. The same second that was not afforded to my 
witness, by the way.
    Mr. Goldman. Well, I think he was allowed to answer the 
question.
    Mr. Collins. And who decided to leak it, by the way, if 
you're not going to tell me the other story? While you're 
thinking about how you're going to answer that question, who 
decided to leak it? The information? Why did you include it in 
the report?
    Mr. Goldman. That's not a leak, sir.
    Mr. Collins. How did you include it in the report after not 
saying anything else about this, not publicly known? So two 
questions are hanging out that everybody is looking for an 
answer for, including me. Who ordered it, was it you or was it 
Chairman Schiff, and then why was it decided, except for 
nothing but smear purposes, to be included in the Schiff 
report?
    Mr. Goldman. Well, I'm not going to get into the 
deliberations of our investigation with you. And I will tell 
you the reason it was included in the report is because it--the 
calls were surrounding important evidence to our investigation.
    And I think that your question is, frankly, not--better 
directed not at me, but at the people who were having 
conversations----
    Mr. Collins. Oh, no, no. We're not going to play that game. 
No, we're not going to play that game. You're as good as Mr. 
Berke. You're not going to play that game. You're not answering 
the question.
    And every member of the media, everybody here, when you 
start going into the decorum of this House, when you start 
looking at Members' telephone numbers, you start looking at 
reporters' telephone numbers, which they ought to be scared 
about.
    You took a subpoena for four and then you decided to play 
match game. You found numbers that you thought were like--some 
of them actually didn't exist, because they claimed that they 
were for the White House Budget Office and they were not. So 
we're throwing stories out there----
    Mr. Goldman. That's not true.
    Mr. Collins [continuing]. Because nobody was out there 
asking.
    So I go back to my question: Are you going to go on record 
in front of everybody here today and say that you will not tell 
who ordered this, you or Mr. Goldman--Mr. Goldman, you or Mr. 
Schiff?
    Mr. Goldman. I am going to go on record and tell you that 
I'm not going to reveal how we conducted this investigation.
    Mr. Collins. And that's the problem we have with this 
entire thing. Mr. Schiff said behind closed doors----
    Mr. Goldman. I can tell you what the importance is of it.
    Mr. Collins. I'm done with you for right now. We're done. 
You're not answering the question. You're not being honest 
about this answer, because you know who it is. You're just not 
answering.
    Mr. Castor.
    Mr. Castor. I have some information on the subpoenas.
    Mr. Collins. Let's go.
    Mr. Castor. We did receive copies of the subpoenas and we 
tracked this. There were six, as I understand it. And let me 
just say at the outset, our Members have concerns about this 
exercise for three reasons: The subpoenas yielded information 
about Members of Congress, whether they subpoenaed the Members' 
phone records or not, it's a concern when the information 
yields Members of Congress' phone records and then the 
information is publicized.
    Second is with journalists. It's just generally a very 
tricky area to start investigating journalists' call records.
    And the third is with regard to Mr. Giuliani, who was 
serving as the President's personal attorney.
    But there's six subpoenas, as we understand it. The first 
went to AT&T for the Giuliani numbers. The second was in regard 
to Igor Fruman to a company CSC Holdings. The third related to 
Mr. Sondland. That was off to Verizon. The fourth was back to 
AT&T seeking information on a certain number. The fifth was 
back to AT&T. And the sixth was seeking subscriber information 
which impacted the veteran journalist John Solomon. And also 
involved with these are some--some of the attorneys involved--
--
    Mr. Collins. Mr. Castor, can I ask you a question?
    Mr. Castor [continuing]. Such as Ms. Toensing and DiGenova.
    Mr. Collins. Mr. Castor, you've been a veteran of the Hill 
investigation for 15 years. And this is crazy. I've never seen 
anything like this. You never have either.
    Would it be interesting to note, because Mr. Goldman 
chooses not to answer, because he doesn't want to incriminate I 
believe either himself or the chairman or somebody else. Would 
it be interesting to you to find, as you have dealt with 
committee staff for a long time, somebody to just have an 
epiphany just to do those match records on their own, or were 
they under direction by somebody to do that?
    Mr. Castor. It's obvious they were trying to figure 
something out.
    Mr. Collins. That's it.
    All right. One last--I'm getting ready--wait, I have one 
thing for Mr. Goldman. Mr. Goldman, we're used to committees 
and people and witnesses coming taking gratuitous shots at 
people they don't like. And earlier today in your testimony, 
you made a comment that really goes to an interesting thing, 
and I'll even go back to the chairman questioning motive.
    In your testimony, you said--as you were discussing Mr. 
Sondland, you made a very snide comment--actually, your facial 
expression showed--that he was a million dollar donor to the 
President, the implication being he either got his job because 
he bought it or his implication was he was loyal to the 
President, didn't say anything about it.
    Be very careful about how you throw around dollars and 
giving, because you and Mr. Berke are real heavy donors to the 
Democratic party, and I'm not going to question your motives or 
your position here today, but we need to make sure that this 
thing is already blown out of proportion.
    We're already not answering questions, and you are here 
without a pin because your chairman will not testify. That says 
all we need to hear. He don't even stand behind his own report 
and he sends you. I hope it works out for you.
    I'm done. At this point, I turn it over to Ashley.
    Mr. Goldman. Could I respond? Are you trying to say that 
I--what are you trying to say? What is the implication here? By 
the way, I didn't give anything close to a million dollars 
remotely. So I don't know----
    Mr. Gaetz. The implication is we want Schiff in that chair, 
not you. The implication is the person that wrote the report is 
the person that should come and present it. And you weren't 
elected by anybody, and you're here giving this testimony in 
place of the chairman. I hope that clears up the implication.
    Chairman Nadler. The gentleman does not have the time. The 
gentleman has been warned before. He cannot simply yell out and 
disrupt the committee.
    The gentleman Mr. Collins has the time.
    Mr. Collins. I think you understand exactly what you did, 
and I called it out for just the way you did. You thought you 
were going to get by with it and you didn't. That's all I'm 
saying.
    Ms. Callen.
    Mr. Goldman. Well, I would like to just say one other 
thing.
    Mr. Collins. I am done.
    Mr. Gaetz. Point of order. There is no question before the 
gentleman.
    Mr. Collins. Stop. Stop.
    Mr. Goldman. You're casting aspersions that are personal.
    Mr. Collins. As you did, Mr. Goldman.
    Mr. Gaetz. Point of order.
    Mr. Collins. As you did of Mr. Sondland.
    Now, according to the chairman's own ruling just a few 
minutes ago, I'm done asking questions. And I'm not asking you 
to elaborate, because I'm not asking you any more questions. 
I've asked all.
    You won't answer the question on who told the committee to 
actually check these numbers. You won't say if it's you or if 
it's Mr. Schiff. You won't answer my questions, so we're done. 
We're going to Ms. Callen. As Mr. Berke said, you'll have 
plenty of time with helpful majority counsel.
    Chairman Nadler. Does the gentleman yield his time to Ms. 
Callen?
    Mr. Collins. Yes.
    Chairman Nadler. The gentlelady is recognized.
    Ms. Callen. Thank you Mr. Chairman----
    Mr. Castor. Ms. Callen, if I may?
    Ms. Callen. Yes, certainly, Mr. Castor.
    Mr. Castor. I have a number of things I think I need to 
clear up, if I may.
    Ms. Callen. Yes, certainly.
    Mr. Castor. You'll have to bear with me, because I have a 
number of them here.
    First of all, on the call, Tim Morrison and General Kellogg 
have a totally different view of the call than Lieutenant 
Colonel Vindman and Jennifer Williams, going to the point that 
the call is ambiguous. So that's the first thing.
    Tim Morrison testified that he went to the National 
Security Council lawyers for a very different reason. He did 
not say he went to the NSC lawyers because he was concerned 
about the call. He went to the National Security Council 
lawyers for two reasons: Number one, they weren't on the call 
so he wanted to update them about it; but, number two, he was 
concerned about leaks.
    And he was concerned that if this call leaked out how it 
would play in Washington's polarized environment, which is 
exactly what we have here. He was also concerned that if the 
call leaked that it might affect bipartisan support in 
Congress. You know, issues of Ukraine have traditionally been 
one of the few issues where Republicans and Democrats share 
interest.
    And the third reason was he didn't want the Ukrainians to 
get a distorted perception of what actually happened on the 
call, because on the call we're talking about eight lines of 
concern and a lot of ambiguity.
    This Oval Office meeting on May 23, there's this question--
I guess it's ambiguous. I didn't think it was ambiguous. But 
there's a question about whether when the President referred 
the delegation--the delegation goes to the inauguration May 20.
    They come back. It's Sondland, it's Volker, and it's 
Secretary Perry and it's Senator Johnson. And they're briefing 
the President, and the President is having none of it. He says 
Ukraine is concerned--or corrupt, and he doesn't want to invite 
Zelensky to the White House.
    And the President--and Volker testifies to this pretty 
definitively. The President essentially--he doesn't order 
anybody to do anything. The President says, talk to Rudy. And 
Volker testified both at his deposition and at the public 
hearing that he didn't take it as a direction. It's just like, 
look, if you guys--if you guys think this is important and you 
want to work it, go--just go talk to Rudy.
    It's very different than a direction. It's very different 
than the President ordering a scheme, and it's very different 
from the President sort of collecting up a bunch of agents to 
go do something, because he simply, according to Ambassador 
Volker, said, go talk to Rudy.
    Now, whether the Ukrainians knew of the aid pause--the aid 
was paused for 55 days.
    Ms. Callen. Right.
    Mr. Castor. Whether the Ukrainians knew about it or not has 
been--you know, Laura Cooper from DOD and some State Department 
witnesses testified about light queries that they had received. 
There was an article on November 22nd in Bloomberg, and the 
Zelensky administration said they never knew about the hold on 
the aid until August 28 Politico article.
    And they said in the article--and Yermak is the principal 
person they're relying on here. Yermak says that they believe 
the Embassy was keeping information from them. Another 
interesting thing Mr. Yermak says in that November 22, 
Bloomberg article is that he recounts the pull-aside meeting 
with Sondland, which has become very significant apparently. 
And the pull-aside meeting, he says he doesn't recall it the 
way Ambassador Sondland recalled it.
    Now, keep in mind Ambassador--or Mr. Yermak speaks English, 
but it's not his first language. And so he does not recall the 
pull-aside meeting--which, by the way, happened on the way to 
an escalator after the meeting with the Vice President. So he 
recalls it very differently.
    So the question and the facts of what happened between 
Ambassador Sondland and Mr. Yermak on the way to the escalator 
remain in dispute.
    Now, turning attention to the Ron Johnson letter, if I may.
    Ms. Callen. Yes.
    Mr. Castor. On August 31st,--Senator Johnson is getting 
ready to travel to Ukraine on September 5th with Senator--with 
Murphy, and he wanted--Johnson wanted the aid released, so he 
calls the President and he actually sought permission to be the 
bearer of good news.
    Ms. Callen. Right.
    Mr. Castor. The President said, I'm not ready to lift the 
aid. And they had this--Senator Johnson, I mean, he writes a 
10-page letter, very detailed, and he gives him some remarkable 
detail, and I'd like to read it. It's on page 6.
    This is Senator Johnson speaking. He said: I asked him 
whether there was some kind of arrangement where Ukraine would 
take some action and the hold would be lifted. Without 
hesitation, Senator Johnson says, President Trump immediately 
denied such an arrangement existed and he started cursing. And 
he said, no way. President Trump said: No way. I would never do 
that. Who told you that?
    And Senator Johnson goes on to say that President Trump's 
reaction here was adamant, vehement and angry. Senator Johnson 
goes on to say that as of August 31st, the President told him, 
but you're going to like my decision in the end. So I think 
that's very important context on what the President's state of 
mind was, at least as of August 31.
    Ms. Callen. Right. He fully expected, do you agree, that 
the aid would eventually be released after the 55-day pause, 
right?
    Mr. Castor. Yes, absolutely.
    Ms. Callen. I want to thank you all for your presentations. 
Mr. Castor, I believe you've been talking for approximately 75 
minutes today, and I want to thank you for that.
    Mr. Castor. My wife thanks you as well. She likes it when I 
do the talking when she's not around.
    Ms. Callen. Time permitting today, I'd like to cover four 
or five areas, distinct areas. There's a lot of facts that the 
American people have not heard, and there's a lot of 
contradictions in certain people's testimony. Is that fair to 
say, Mr. Castor?
    Mr. Castor. [Nonverbal response.]
    Ms. Callen. And I'd like to talk about some of the people 
in this story that have firsthand knowledge of the facts. We 
have Ambassador Volker, Ambassador Sondland, and Secretary 
Perry. You had the opportunity to talk to two of those three 
people. Is that correct?
    Mr. Castor. Yes.
    Ms. Callen. And the Democrats' report would like us to 
believe that these three individuals were engaged in some sort 
of cabal, or some sort of nefarious venture, but that's not 
true, is it?
    Mr. Castor. No.
    Ms. Callen. In fact, these three people were at all 
relevant times and even today acting in the best interests of 
the American people. Is that true?
    Mr. Castor. That's right, and with the highest integrity.
    Ms. Callen. That's right.
    I think everyone testified that Ambassador Volker is one of 
the most experienced diplomats in our Foreign Service. Is that 
correct?
    Mr. Castor. Across the board, all the witnesses, including 
Ambassador Yovanovitch, talked about the integrity that 
Ambassador Volker brings to the table.
    Ms. Callen. But there's a lot of people with firsthand 
knowledge that we didn't talk to. Is that correct?
    Mr. Castor. Yes.
    Ms. Callen. Now, I want to talk about the President's 
skepticism of foreign aid.
    The President is very skeptical of foreign aid. Is that 
correct?
    Mr. Castor. He is deeply skeptical of sending U.S. taxpayer 
dollars into an environment that is corrupt, because it's as 
good as kissing it good-bye.
    Ms. Callen. And is that something new that he believes or 
is that something he ran on?
    Mr. Castor. This is something that he has ran on. It's 
something that he has implemented policies as soon as he became 
President. Ambassador Hale, the third-ranking State Department 
official, told us about the over, you know, overall review of 
all foreign aid programs, and he described it almost as a zero-
based evaluation.
    Ms. Callen. Right. And you had the opportunity to take the 
deposition of Mark Sandy, who is a career official at OMB. Is 
that right?
    Mr. Castor. Correct.
    Ms. Callen. And he had some information about the reason 
for the pause. Is that true? I think that he had a conversation 
with an individual named Rob Blair, and Mr. Blair provided some 
insight into the reason for the pause?
    Mr. Castor. Sandy was one of the few witnesses that we had 
that was able to give us a firsthand account inside of OMB the 
reason for the pause related to the President's concern about 
European burden-sharing in the region.
    Ms. Callen. And he--and, in fact, in his conversations, the 
President's conversations with Senator Johnson, he mentions his 
concern about burden-sharing. And I believe he referenced a 
conversation that he had with the Chancellor of Germany. And, 
in fact, the whole first part of the July 24 transcript, he's 
talking about burden-sharing and wanting the Europeans to do 
more.
    Mr. Castor. Yeah. I mean, Senator Johnson was--and 
President Trump were--they were pretty candid and, you know, 
they believed that allies like Germany were laughing at us 
because we were so willing to spend the aid.
    Ms. Callen. Right. Now I'd like--you know, there's been a 
lot of allegations that President Zelensky is not being candid 
about feeling pressure from President Trump. And isn't it true 
that he's stated over and over publicly that he felt no 
pressure from President Trump? Is that true?
    Mr. Castor. Yeah. He said it consistently. He said it in 
the United Nations September 25. He said it, you know, in three 
more news availabilities over the course of the period, 
including last week.
    Ms. Callen. I want to change subjects and talk about 
something that Professor Turley raised last week, and that is 
the partisan nature of this investigation. And you're an 
experienced congressional investigator----
    Mr. Castor. And Professor Turley, by the way, he's no Trump 
supporter.
    Ms. Callen. That's right. He is a Democrat. That's right. 
But Professor Turley cautioned that a partisan inquiry is not 
what the Founders envisioned. Is that correct?
    Mr. Castor. Correct.
    Ms. Callen. And----
    Mr. Castor. The worst thing you can have with an 
impeachment is partisan rancor, because nobody is going to 
accept the result on the other side.
    Ms. Callen. And our Democrat friends have all of a sudden 
become originalists and are citing the Founders and their 
intent routinely as part of this impeachment process.
    Mr. Castor. I think that goes to the--whether this 
constitutes bribery. You know, there's case law on bribery. And 
I'm no--I'm no Supreme Court scholar or lawyer or advocate, 
but, you know, there's new case law with the McDonnell case 
about what constitutes an official act. And that certainly 
hasn't been, you know, addressed in this space, and I think 
Professor Turley mentioned it.
    Ms. Callen. Right. And I think Professor Turley said that a 
meeting certainly does not constitute an official act.
    Mr. Castor. I think it's the McDonnell case goes to that.
    Ms. Callen. Right. And Professor Turley pointed that out 
for us last week, yes.
    Since this inquiry's unofficial and unsanctioned start in 
September, the process has been partisan, biased, unfair. 
Republicans' questioning has been curtailed routinely. I think 
we saw that in Lieutenant Colonel Vindman's deposition. There 
were some, you know----
    Mr. Castor. Yeah, we were barred from asking him questions 
about who he communicated his concerns to.
    Ms. Callen. Right. Very basic things, like who, what, when, 
where. And instead----
    Mr. Castor. And I would say, too, this rapid--you know, 
we're in day 76. And it's almost impossible to do a 
sophisticated congressional investigation that quickly, 
especially when the stakes are this high, because any 
congressional investigation of any consequence, it does take a 
little bit of time for the two sides to stake out their 
interests and how they're going to respond to them.
    Ms. Callen. Right.
    Mr. Castor. You know, we learned with the Goodlatte-Gowdy 
probe, you know, the first letter I think went in October of 
2017, and, you know, in December we finally got a witness. And 
it was the following spring in the Goodlatte-Gowdy probe, after 
a lot of pushing and pulling and a lot of tug of war, we 
reached a deal with DOJ where we went down to DOJ and they gave 
us access to documents, and they gave us access to I think 
north of 800,000 pages.
    But they made us come down there. They made us go into a 
SCIF. And these documents weren't classified. And, you know, it 
wasn't until May and June of that year that we started this 
process, when the investigation had been ongoing.
    And that is disappointing. Obviously, we all wish there was 
an easy button. But congressional investigations of consequence 
take time.
    Ms. Callen. Right. And it took, I think, 6 months before 
the first document was even produced. And, like you said, you 
had to go down there and review it in camera.
    And then going back even further, to Fast and Furious, the 
investigation of the death of a Border Patrol agent.
    Mr. Castor. In Fast and Furious, we issued subpoenas. Mr. 
Issa had sent some subpoenas, I think, in February of 2011. And 
we had a hearing in June with experts about proceeding to 
contempt. You know, what does it take to go to contempt? And 
that was the first time, in June, when we got any production. 
And the production was largely publicly available information.
    And we went--we spent most of the year trying to get 
information out of the Justice Department. At the time, we were 
also working with whistleblowers, who were providing us 
documents. And Chairman Issa at the time then in October issued 
another subpoena that was to the Justice Department.
    And so the investigation had been ongoing most of the year. 
We were talking to whistleblowers. We were doing interviews. 
And we were doing our best to get documents out of the Justice 
Department through that channel. But these things take time.
    Ms. Callen. Right.
    Mr. Castor. Certainly not 76 days.
    Ms. Callen. And if you truly want to uncover every fact--as 
you should in an impeachment, do you agree?
    Mr. Castor. [Nonverbal response.]
    Ms. Callen. You have to go to court sometimes and enforce 
your subpoenas. And here my understanding is we have a lot of 
requests for information, voluntary information, you know, will 
you please provide us with documents on XYZ? And I think that's 
great. But you have to back it up with something. Isn't that 
correct?
    Mr. Castor. There's a number of ways to enforce your 
requests. I mean, the fundamental rule of any congressional 
investigation is you rarely get what you're asking for unless 
and until the alternative is less palatable for the respondent.
    So you issue a subpoena and you're trying to get documents. 
You know, one technique you can use is try to talk to the, you 
know, a document custodian or somebody in the, you know, the 
leg affairs function about what documents exist.
    Chairman Chaffetz during his era had--he used to have these 
document production status hearings, where he'd bring in leg 
affairs officials and try to get the lay of the land. Because, 
you know, leg affairs officials, at least nominally, are 
supposed to be directly responsible, serving the interests.
    You can saber rattle. It's legal to saber rattle about 
holding somebody in contempt. Oftentimes, witnesses who are 
reluctant to cooperate and come forward, when you attach a 
contempt proceeding or a prospective contempt proceeding to 
their name, a lot of times that changes the outcome.
    And with the contempt proceedings, you've got a couple 
different steps along the way. You could raise the prospect of 
a contempt proceeding. You could schedule a contempt 
proceeding. After you schedule a contempt proceeding, you 
could, you know, hold the door open for documents or interviews 
and then you could push it off. You could go through at the 
committee level.
    And these are all sort of milestone events which 
historically are unpalatable or less palatable for the 
administration that sometimes starts to move the needle.
    And with these types of disputes, once you get the ball 
rolling--you know, with the Goodlatte-Gowdy probe, we didn't 
get a witness, and it was Deputy Director Andrew McCabe in 
for--you know, it was a couple months. But once we got Deputy 
Director McCabe in, a couple weeks later we got Director 
Comey's chief of staff, a couple weeks later--I mean, the 
witnesses start--once you get the ball rolling.
    And again, you don't always like 100 percent of the terms. 
Sometimes you got to deal with agency counsel. Sometimes you 
got to go look in camera. But once you get the ball rolling, 
usually it leads to positive results and historically has 
allowed the Congress to do its work.
    Ms. Callen. And were any of those things done here?
    Mr. Castor. No.
    Ms. Callen. In fact, they decided, we're not going to--
we're not going to subpoena certain people that are important--
is that fair to say?--and we're not going to go to court and 
enforce them. So these people, you know, these folks that are 
caught in an interbranch struggle. And that's an unfortunate 
position for any employee of the Federal Government.
    Mr. Castor. Well, one of the concerning things is Dr. 
Kupperman, who has been described by Dr. Fiona Hill and a 
number of witnesses as a solid citizen, a good witness, he 
filed a lawsuit in the face of the subpoena. And a judge was 
assigned to it, Judge Leon.
    And the issues that Kupperman raised were slightly 
different than the Don McGahn issues, because Don McGahn is the 
personal--or the White House counsel. Kupperman, of course, is 
a national security official. Kupperman, you know, filed the 
lawsuit seeking guidance.
    Kupperman wasn't asking the court to tell him not to come 
testify. To the contrary, Kupperman was seeking the court's 
guidance to facilitate his cooperation.
    And ultimately, the committee withdrew the subpoena, which 
raises questions about whether the committee is really 
interested in getting to the bottom of some of these issues.
    Ms. Callen. Right. Instead, the committee has chosen--the 
Intelligence Committee has chosen to rely on Ambassador 
Sondland and his testimony. I think they rely 600 times in 
their report.
    Mr. Castor. I tell you what I did. I--on this point. I--
yesterday, I opened the Democrat report and I did a control F, 
you know, control F.
    Ms. Callen. Yes.
    Mr. Castor. And Sondland's name shows up, I think, 611 
times. And in fairness, it's going to be double counted 
because, you know, if it's in a sentence and then it's in a 
footnote, that's two. But in relative comparison to the other 
witnesses, Sondland's relied on big time.
    Ms. Callen. Yes. And I think Dr. Hill testified that she at 
some point confronted him about his actions and----
    Mr. Castor. The record is mixed on this front. Dr. Hill 
talks about raising concerns with Sondland. And Sondland, in 
his deposition at least, doesn't--you know, he didn't share the 
same view.
    Ms. Callen. And there's a lot of instances of that, where 
Ambassador Sondland recalls one thing and other witnesses 
recall another. Is that correct?
    Mr. Castor. Sondland as a witness is a--and he's a bit of 
an enigma. Let's just say it that way. He was, you know, he was 
pretty certain in his deposition that the security assistance 
wasn't linked to anything. And then he submitted a--he 
submitted an addendum.
    Ms. Callen. Yes. I call that the pretzel sentence.
    Mr. Castor. And even in that addendum or supplement or 
whatever it's called, you know, it's talk to him and her. And 
anyway, Sondland ends with, you know, I presumed.
    Ms. Callen. Right.
    Mr. Castor. So it wasn't really any firsthand information.
    Ms. Callen. Right. We don't have a lot of firsthand 
information here. Is that correct?
    Mr. Castor. On certain facts, we don't. I mean, we have 
firsthand information on the May 23 meeting in the Oval Office. 
We've got a lot of firsthand information, although all 
conflicting, on the July 10 meeting.
    There are, you know, episodes I think during the course of 
this investigation that we have been able to at least get 
everyone's account. But the investigation hasn't been able to 
reveal, you know, firsthand evidence relating to the President 
other than the call transcript.
    Ms. Callen. And I think we've already talked about this, 
that Ambassador Sondland would presume things, assume things, 
and form opinions based on what other people told him, and then 
he would use those as firsthand. Is that correct?
    Mr. Castor. You know, it started with his role with the 
Ukraine portfolio. A lot of people at the State Department were 
wondering why the Ambassador to the EU was so engaged in issues 
relating to the Ukraine. And, you know, there are answers for 
that. Ukraine is an aspirant to join the EU. And there's a lot 
of other reasons, and Mr. Turner, I think, explored this really 
well at the open hearing.
    But we asked Ambassador Sondland. He said that he did a TV 
interview in Kyiv on the 26th of July where he said the 
President has given me, you know, a lot of assignments and the 
President has assigned me Ukraine and so forth.
    But then when we asked him in his deposition, he conceded 
that he was, in fact, spinning, that the President never 
assigned him to Ukraine, that he was just, you know, he was 
exaggerating.
    Ms. Callen. And I think at the public hearings you pointed 
out that, in contrast to other witnesses, Ambassador Sondland 
isn't a notetaker. He, in fact, he said ``I do not recall'' 
dozens of times in his deposition.
    Mr. Castor. Let's say it this way. You know, Ambassador 
Taylor walked us through his standard operating procedure for 
taking notes. He told us about having a notebook on his desk 
and a notebook in his coat pocket of his suit, and he brought 
it with us and he showed us.
    So consequently, when Ambassador Taylor recounts to us, you 
know, what happened, it's backed up by these contemporaneous 
notes.
    Ambassador Sondland, on the other hand, was very clear 
that, you know--well, on the first hand he said that he did not 
have access to his State Department records. While he said that 
at the public hearing, simultaneously the State Department 
issued a tweet, I think, or a statement at least, saying that 
wasn't true, that nobody is keeping Ambassador Sondland from 
his emails. You know, he's still a State Department employee. 
He can go--you know, he does have access to his records, but he 
stated he didn't.
    And he stated that he doesn't have any notes because he 
doesn't take notes. And he conceded that he doesn't have 
recollections of--on a lot of these issues. And, you know, we 
sort of made a list of them, and I think at the hearing I 
called it the trifecta of unreliability.
    Ms. Callen. Yes. And you're not the only person that has 
concerns about Ambassador Sondland's testimony, conduct. I 
think other witnesses took issue with his conduct. Is that 
correct?
    Mr. Castor. Yeah. Tim Morrison talked about instances 
wherein Ambassador Sondland was sort of showing up uninvited. 
Morrison didn't understand why Sondland was trying to get into 
the Warsaw meeting September 1. And Dr. Hill, Fiona Hill, told 
us about issues of that sort, and a number of witnesses, you 
are correct.
    Ms. Callen. And Ambassador Reeker and Ambassador Sondland, 
too, correct?
    Mr. Castor. Yeah, I believe Ambassador Reeker----
    Ms. Callen. Said he was a problem.
    Mr. Castor [continuing]. He was a problem, yeah.
    Ms. Callen. And Dr. Hill raised concerns about his behavior 
and said that he might be an intelligence risk. Is that 
correct?
    Mr. Castor. She did. She had issues with his tendency to 
pull out his mobile device and make telephone calls, which 
obviously can be monitored by the bad guys.
    Ms. Callen. And we talked about how he was spinning, you 
know, certain things, and he admitted that, how he was 
spinning.
    Mr. Castor. He admitted he exaggerated.
    Ms. Callen. Yes.
    Mr. Castor. He also, you know, when it comes to his 
communications with the President, we tried to get him to list 
all the communications with the President. I think he gave us 
six. And then when he was back, you know, he walked us through 
each communication with the President. And by the way, it was 
about a Christmas party. It was about when the President of 
Finland was here.
    And then Congresswoman Speier asked him the same question 
in the open hearing, and he said that he had talked to the 
President like 20 times. So the record is mixed.
    Ms. Callen. I think my time is up. Thank you both.
    Mr. Collins. Yield back.
    Ms. Callen. Yield back.
    Mr. Nadler. The gentleman yields back. Now we will engage 
in questions under the 5-minute rule.
    Mr. Biggs. Mr. Chairman, Mr. Chairman, Mr. Chairman, Mr. 
Chairman, I move to recess for 30 minutes, pursuant to clause 
1(a) of Rule XI.
    Chairman Nadler. The gentleman has moved--I'm sorry. The 
gentleman has moved to recess for how long?
    Mr. Biggs. For 30 minutes, sir.
    Chairman Nadler. For 30 minutes. That is a privileged 
motion. It was not debatable.
    All in favor, say aye.
    No, no.
    The noes have it. The motion is not agreed to.
    Mr. Biggs. I ask for a roll call vote, please.
    Chairman Nadler. A roll call is requested. The clerk will 
call the role.
    Ms. Strasser. Mr. Nadler?
    Chairman Nadler. No.
    Ms. Strasser. Mr. Nadler votes no.
    Ms. Lofgren?
    Ms. Lofgren. No.
    Ms. Strasser. Ms. Lofgren votes no.
    Ms. Jackson Lee?
    Ms. Jackson Lee. No.
    Ms. Strasser. Ms. Jackson Lee votes no.
    Mr. Cohen? [No response.]
    Ms. Strasser. Mr. Johnson of Georgia?
    Mr. Johnson of Georgia. No.
    Ms. Strasser. Mr. Johnson of Georgia votes no.
    Mr. Deutch?
    Mr. Deutch. No.
    Ms. Strasser. Mr. Deutch votes no.
    Ms. Bass?
    Ms. Bass. No.
    Ms. Strasser. Ms. Bass votes no.
    Mr. Richmond?
    Mr. Richmond. No.
    Ms. Strasser. Mr. Richmond votes no.
    Mr. Jeffries?
    Mr. Jeffries. No.
    Ms. Strasser. Mr. Jeffries votes no.
    Mr. Cicilline?
    Mr. Cicilline. No.
    Ms. Strasser. Mr. Cicilline votes no.
    Mr. Swalwell?
    Mr. Swalwell. No.
    Ms. Strasser. Mr. Swalwell votes no.
    Mr. Lieu?
    Mr. Lieu. No.
    Ms. Strasser. Mr. Lieu votes no.
    Mr. Raskin?
    Mr. Raskin. No.
    Ms. Strasser. Mr. Raskin votes no.
    Ms. Jayapal?
    Ms. Jayapal. No.
    Ms. Strasser. Ms. Jayapal votes no.
    Mrs. Demings?
    Mrs. Demings. No.
    Ms. Strasser. Mrs. Demings votes no.
    Mr. Correa?
    Mr. Correa. No.
    Ms. Strasser. Mr. Correa votes no.
    Ms. Scanlon?
    Ms. Scanlon. No.
    Ms. Strasser. Ms. Scanlon votes no.
    Ms. Garcia?
    Ms. Garcia. No.
    Ms. Strasser. Ms. Garcia votes no.
    Mr. Neguse?
    Mr. Neguse. No.
    Ms. Strasser. Mr. Neguse votes no.
    Mrs. McBath?
    Mrs. McBath. No.
    Ms. Strasser. Mrs. McBath votes no.
    Mr. Stanton?
    Mr. Stanton. No.
    Ms. Strasser. Mr. Stanton votes no.
    Ms. Dean?
    Ms. Dean. No.
    Ms. Strasser. Ms. Dean votes no.
    Ms. Mucarsel-Powell?
    Ms. Mucarsel-Powell. No.
    Ms. Strasser. Ms. Mucarsel-Powell votes no.
    Ms. Escobar?
    Ms. Escobar. No.
    Ms. Strasser. Ms. Escobar votes no.
    Mr. Collins?
    Mr. Collins. Aye.
    Ms. Strasser. Mr. Collins votes aye.
    Mr. Sensenbrenner?
    Mr. Sensenbrenner. Aye.
    Ms. Strasser. Mr. Chabot?
    Mr. Chabot. Aye.
    Ms. Strasser. Mr. Chabot votes aye.
    Mr. Gohmert?
    Mr. Gohmert. Aye.
    Ms. Strasser. Mr. Gohmert votes aye.
    Mr. Jordan?
    Mr. Jordan. Yes.
    Ms. Strasser. Mr. Jordan votes yes.
    Mr. Buck? [Aye response.]
    Ms. Strasser. Mr. Ratcliffe?
    Mr. Ratcliffe. Yes.
    Ms. Strasser. Mr. Ratcliffe votes yes.
    Mrs. Roby?
    Mrs. Roby. Aye.
    Ms. Strasser. Mrs. Roby votes aye.
    Mr. Gaetz?
    Mr. Gaetz. Aye.
    Ms. Strasser. Mr. Gaetz votes aye.
    Mr. Johnson of Louisiana?
    Mr. Johnson of Louisiana. Aye.
    Ms. Strasser. Mr. Johnson of Louisiana votes aye.
    Mr. Biggs?
    Mr. Biggs. Aye.
    Ms. Strasser. Mr. Biggs votes aye.
    Mr. McClintock?
    Mr. McClintock. Aye.
    Ms. Strasser. Mr. McClintock votes aye.
    Mrs. Lesko?
    Mrs. Lesko. Aye.
    Ms. Strasser. Mrs. Lesko votes aye.
    Mr. Reschenthaler?
    Mr. Reschenthaler. Aye.
    Ms. Strasser. Mr. Reschenthaler votes aye.
    Mr. Cline? [No response.]
    Ms. Strasser. Mr. Armstrong?
    Mr. Armstrong. Yes.
    Ms. Strasser. Mr. Armstrong votes yes.
    Mr. Steube?
    Mr. Steube. Yes.
    Ms. Strasser. Mr. Steube votes yes.
    Mr. Cohen. Mr. Chairman, how am I recorded.
    Ms. Strasser. Mr. Cohen, you are not recorded.
    Mr. Cohen. I'd like to be recorded as no.
    Ms. Strasser. Mr. Cohen votes no.
    Chairman Nadler. Are there any other members who wish to 
vote who have not voted?
    The clerk will report.
    Ms. Strasser. Mr. Chairman, there are 15 ayes and 24 noes.
    Chairman Nadler. The motion is not agreed to.
    Now we will engage in questions under the 5-minute rule.
    I yield myself 5 minutes for the purpose of questioning the 
witnesses.
    Mr. Goldman, can you please explain the difference between 
Vice President Biden's request to Ukraine a few years ago and 
President Trump's request to Ukraine earlier this year?
    Mr. Goldman. Yes. When Vice President Biden pressured the 
Ukrainian President to remove the corrupt prosecutor general, 
he was doing so with an international consensus as part of U.S. 
policy. The entire European Union supported that. The IMF 
supported that, the IMF, which also gave the loans that he was 
referring to. And so he did that as part of the entire 
international community's consensus.
    And when President Trump was asking for this investigation 
of Joe Biden, all of the witnesses, every single one, testified 
that that had nothing to do with official U.S. policy.
    Chairman Nadler. And Vice President Biden's request had no 
personal political benefit, whereas President Trump's request 
did?
    Mr. Goldman. Yes. In fact, if---- the witnesses testified 
that if that corrupt prosecutor general were actually removed, 
it would be because he was not prosecuting corruption. So the 
witnesses said that by removing that prosecutor general and 
adding a new one, that there was an increased chance that 
corruption in Ukraine would be prosecuted, including as it 
related to the Burisma company, which his son was on the board 
of.
    Chairman Nadler. Thank you.
    Now, Mr. Goldman, can you please explain exactly what 
happened with the phone records obtained by the Intelligence 
Committee.
    Mr. Goldman. Yeah, thank you. I would like to set the 
record straight on that.
    This is a very basic and usual investigative practice where 
people involved in a scheme or suspected to be involved in a 
scheme, investigators routinely seek their records.
    And just to be very clear, this is metadata. It is only 
call to, call from, and length. It is not the content of the 
calls or the text messages. So there's no content. There's no 
risk of invading any communications with lawyers or journalists 
or attorney-client. None of that exists and there are no risks 
to that.
    And so what we did is for the people that--several of the 
people that we had investigated and subpoenaed and who were 
alleged to be part of the scheme, we got call records so that 
we could corroborate some of their testimony or figure out 
maybe there's additional communications that we were unaware 
of.
    What we then did is we took the call records and we match 
it up with important events that occurred during the scheme. 
And we'd start to see if there are patterns, because call 
records can be quite powerful circumstantial evidence.
    In this case, it just so happened that people who were 
involved in President Trump's scheme were communicating with 
the President's lawyer, who was also involved in the scheme, a 
journalist, a staff member of Congress, and another Member of 
Congress.
    We, of course, did not at all seek in any way, shape, or 
form to do any investigation on anyone, a Member of Congress or 
a staff member of Congress. It just happened to be that they 
were in communication with people involved in the President's 
scheme.
    Chairman Nadler. And everything you did was basically 
standard operating procedure for a well-run investigation?
    Mr. Goldman. Every investigation in 10 years that I did 
probably we got call records for.
    Chairman Nadler. Thank you.
    Mr. Goldman, did White House counsel make his view clear 
about witnesses and evidence requested by the investigating 
committees, and what was that view?
    Mr. Goldman. We never heard from the White House counsel, 
other than the letter, which basically just said: We will not 
at all cooperate with this investigation in any way, shape or 
form. They never reached out to engage in this accommodation 
process.
    It was a complete stonewall. Not only will the White House 
not participate and not cooperate and not respond to the duly 
authorized subpoenas of Congress, but we are--the White House 
says: We are also going to direct every other executive branch 
agency to defy the subpoenas.
    Chairman Nadler. Thank you.
    Now, I have a series of questions, and please keep your 
answers brief, if you can.
    During last week's hearing, my Republican colleagues said 
that Congress has not built a sufficient record to impeach the 
President at this stage. As a former prosecutor, you have spent 
years building substantial case records. What is the strength 
of the record here?
    Mr. Goldman. I think we have moved fast, and I think that 
the evidence is really overwhelming. We have 17 witnesses with 
overlapping and consistent statements.
    Chairman Nadler. Overwhelming.
    And the committee managed to collect such a compelling 
record in the face of unprecedented obstruction by the 
President, correct?
    Mr. Goldman. Yes.
    Chairman Nadler. And was the obstruction so pervasive that 
the evidence pointed to a course of conduct or a plan to cover 
up any Presidential misconduct?
    Mr. Goldman. We did find that there was an effort to 
conceal the President's conduct, yes.
    Chairman Nadler. And I understand that on October 8 the 
White House wrote a letter explaining that President Trump had 
directed his administration not to cooperate with the White 
House's impeachment inquiry. In the letter, the White House 
counsel wrote, quote, ``President Trump cannot permit his 
administration to participate in this partisan inquiry under 
the circumstances.''
    Now, the investigative committees tried to interview dozens 
of witnesses, including current and former Trump administration 
officials, and was stymied with respect to most of them. Is 
that correct?
    Mr. Goldman. There were 12 witnesses who were directed not 
to appear, and ultimately they did not appear.
    Chairman Nadler. Thank you very much.
    My time has expired. I yield to the ranking member, Mr. 
Collins.
    Mr. Collins. Thank you, Mr. Chairman.
    Mr. Goldman, it's an interesting thing now. So now we can 
commit basically extortion or put pressure on others as long as 
we have the international community behind us. As long as we 
get enough people to think we're okay, I can then go extort 
anybody I want to as long as enough people think it's okay. 
That was, in essence, what you just said. Whether you believe 
it or not, that's what as I copied the notes.
    But I want to go to the phone records. It's a novel 
approach. The phone records issue--and I'm not--and hear me 
clearly. I have no problem with the subpoena as far as the 
subpoena power from Congress, not a problem. My problem, as you 
did not answer in the previous, though, is taking the metadata, 
the numbers--I did not say anything--it's interesting you had 
to go and say, well, there's no content or anything else.
    We've had that debate in Congress now for the last few 
years on the FISA program and other things--which, by the way, 
this committee should be hearing FISA this week. The IG report 
just came out, and we're doing this.
    It's interesting to see to me that the calls and the 
metadata and not the content. What the problem I have here is 
this, is if Rudy, Nunes--Giuliani, Nunes and Harvey were the 
only phone records returned from the subpoena, why are these 
released?
    Here's the problem. You took--the committee--and this is 
why I want to know who ordered it. The committee made a choice, 
Chairman Schiff, who I'm assuming, because he's not here, or 
you, who did get to come--at least, thank you for showing up--
made a conscious choice to put these records into the report.
    Mr. Collins. It was a drive-by. It was a gratuitous drive-
by, that you wanted to smear, the ranking member or smear these 
others, because they were in those numbers, they were connected 
to that. I'm not saying he knew the content, I'm not saying 
anything else. In fact, you just admitted just a second ago, it 
was simply they were contacting these people. The problem I 
have with that is, is you could have just as easily put, if you 
were really wanting to do a professional non-smear report, it 
said, Congressperson 1, or Congressperson 2, reporter 1, 
reporter 2, because if they did not actually contribute to your 
report, it is nothing but a drive-by. That's the problem I have 
here.
    I have no problem with you working, I have no problem with 
the report, I have no problem with the subpoena. And you can 
pretty it up all you want, that was nothing but show the 
American people that at least for a moment, the Schiff report 
became a partisan smear against other Members we don't like, 
because there was other alternatives for you to do.
    I have no problem, as I said, with you doing proper 
oversight. I've had a lot of issues with how this oversight's 
done, but don't make it up and don't not tell me or the rest of 
this committee who ordered that. That was nothing more than a 
smear campaign. And to say it's not is being disingenuous with 
this committee. The chairman gave you a chance to actually 
rehabilitate, and you made it worse.
    Because at the end of the day, those got put out--and by 
the way, it also--a fuller record got leaked to the--from 
executive session, got leaked to The Washington Post. And I 
don't understand, you know, how we can say this is okay. How do 
we say this is fine? This is how we have devolved. And the 
members on the majority now may be members of the minority at 
some point, and if we're setting the standard for this is where 
we're going with these kind of investigations, then we're in 
trouble. We're in deep trouble. Because this is another thing 
that the Founders, you and others today, Mr. Berke had said 
earlier, the Founders were deeply concerned about a lot of 
things. One of the biggest things they were concerned about as 
opposed to--I'm glad that most everybody on the dais is now an 
originalist, except this, they also were concerned about a 
partisan impeachment.
    A partisan impeachment, because you don't like his 
policies, you don't like what he said and you don't like how he 
said it. I don't like the way Joe Biden said it, but you blew 
that off as everybody has the backing of the international 
community.
    What we have become is a perpetual state of impeachment, 
and that is the problem that everyone on this dais should have, 
but don't come here and be a person who is a witness, sworn 
witness, and not answer the questions. Adam Schiff's doing that 
fine without you. But don't come here and say, I'm not going to 
say, because you know good and well sometime at some 
conference, at some committee room, in some little room, 
somebody said, Hey, this is interesting because I have Devin 
Nunes' phone number, that number matches, and we're going to 
put it in the report, not because we think Devin Nunes is a 
part of this, but because he had a phone call with somebody 
that we were investigating. That's a drive-by. And it's beneath 
you, and it's beneath this Congress. And that is why I have 
such a problem with this.
    And then you leaked further information. This is the 
problem here, and we can be righteous about trying to get this 
President or not, but when it comes to this, this is why people 
are getting so just turned off by this whole thing.
    When we understand that, that is the problem I have, 
because you could have handled this differently, you and Mr. 
Schiff. I'm going to blame the chairman because I hold the 
Member, the one with the pen, responsible. So I'm going to 
assume he ordered this, he was the one that said, put their 
names in here, and he was the one who can't come and defend 
that. Unfortunately, he sent you. And you had to take it. 
That's wrong, and this committee deserves better. With that, I 
yield back.
    Chairman Nadler. The gentleman yields back. The gentlelady 
from California is recognized.
    Ms. Lofgren. Thank you, Mr. Chairman. The gist of the 
question here is the potential of abuse of the President's 
power to benefit himself in the next election. Now, America is 
based on free and fair elections, and after Russia interfered 
in the 2016 election, the American people are rightfully 
concerned about ensuring that the next election is free of 
foreign interference. And keeping that in mind, I'd like to ask 
you, Mr. Goldman, the following question.
    Ambassador Sondland testified that, according to Rudy 
Giuliani, quote, ``President Trump wanted a public statement 
from President Zelensky committing to investigations of Burisma 
in the 2016 election.'' Isn't that correct?
    Mr. Goldman. Yes.
    Ms. Lofgren. And Ambassador Sondland testified, as the 
screen in front of you shows, that President Zelensky, quote, 
``had to announce the investigations,'' he didn't actually have 
to do them.
    Mr. Goldman. Correct.
    Ms. Lofgren. Mr. Goldman, you're an experienced former 
prosecutor. Is it common to announce an investigation but not 
actually to conduct the investigation?
    Mr. Goldman. No. Usually it works the reverse. Normally you 
don't announce the investigation because you want to develop as 
much evidence while it's not--while it's not public. Because if 
it's public, then you run into problems with people matching up 
testimony and witnesses tailoring their testimony, which is 
part of the reason why the closed depositions in our 
investigation were so important.
    Ms. Lofgren. So what did that evidence, this evidence about 
the announcement, tell you about why President Trump would only 
care about President Zelensky announcing the investigations, 
but not actually conducting them?
    Mr. Goldman. There were two things that it said. One is, 
whatever he claims--the President claims about his desire to 
root out corruption, even if you assume that these 
investigations are for that purpose, as he has stated, it 
undermines that, because he doesn't actually care if the 
investigations are done. So even if you assume, which I don't 
think the evidence supports, that it's corruption, then he's 
still not doing the corruption investigations.
    And the second is, he just wanted the public announcement. 
The private confirmation was not enough, and that's an 
indication that he wanted the political benefit from them.
    Ms. Lofgren. Yeah. It looks to me that the announcement of 
the investigation could benefit the President politically, 
because the announcement alone could be Twitter fodder between 
now and the next election to smear a political rival. That's 
consistent with the findings. You know, President Nixon 
attempted to corrupt elections, and his agents broke into 
Democratic Party headquarters to get a leg up on the election, 
and then he tried to cover it up, just as we've seen some 
obstruction here. But even more concerning in this case, 
President Trump, not only appears to have abused the power of 
his office, to help his own reelection campaign, he used a 
foreign government to do his bidding, and he used military aid 
as leverage to get the job done.
    Now, this aid was approved by Congress. It was appropriated 
on a bipartisan basis for Ukraine, to fight Russia who'd 
invaded them. And while this aid was withheld, people died 
while this aid was being withheld. And some people have argued 
since ultimately the aid was released, that there was not a 
problem.
    But, Mr. Goldman, isn't it true that the aid was released 
only after the President got caught, and only after Congress 
learned of the scheme to make this life-or-death aid 
conditional on this announcement of investigation of his 
political rival?
    Mr. Goldman. There were several things that made the 
President realize that this was coming to a head and could not 
be concealed. The whistleblower complaint was circulating 
around the White House, the congressional committees announced 
their own investigation, and then the--perhaps The Washington 
Post op-ed on September 5, linking the two, and then the 
Inspector General notified the committee that there was this 
whistleblower complaint that was being withheld by the Trump 
administration.
    Ms. Lofgren. Correct. Well, I've made it clear throughout 
this investigation that I didn't want to be part of a third 
impeachment inquiry, but the direct evidence is very damning, 
and the President hasn't offered any evidence to the contrary. 
We've asked, we've subpoenaed, we've invited the President, and 
nothing has come forward. If he had evidence of his innocence, 
why wouldn't he bring it forward? You know, this is a very 
serious matter that strikes at the heart of our Constitution. 
And it's a concern that we are here, but I've heard over and 
over again that this is too fast. Well, Ms. Jackson Lee and I 
were talking, we were both members of this committee during the 
Clinton impeachment. That took 73 days. We're here on the 76th 
day. We need to proceed and I thank you, Mr. Goldman, for your 
hard work and for your presentation. I yield back, Mr. 
Chairman.
    Ms. Scanlon [presiding]. Without objection, the hearing 
will stand in recess for 15 minutes.
    [Recess.]
    Chairman Nadler [presiding]. The committee will come back 
to order. We were--when we recessed, we were engaging in 
questioning of the witnesses under the 5-minute rule. We'll 
continue doing that. I recognize Mr. Sensenbrenner.
    Mr. Armstrong. Mr. Chairman, I have a unanimous consent 
request before we start.
    Chairman Nadler. The gentleman will state his unanimous 
consent request.
    Mr. Armstrong. I would request that we enter into the 
record the FISA applications and other aspects of the FBI's 
crossfire hurricane----
    Ms. Lofgren. I reserve a point of order.
    Mr. Armstrong. I think if we're going to----
    Chairman Nadler. Reserving--what are you----
    Mr. Armstrong. The FISA report that just came out.
    Chairman Nadler. Oh. We----
    Mr. Armstrong. The Inspector General's report--to this 
whole thing.
    Chairman Nadler. We'll take that under advisement until we 
can review it, and we'll rule on it later. I mean, we'll 
hopefully grant it later.
    Ms. Lofgren. I withdraw my reservation.
    Chairman Nadler. Mr. Sensenbrenner.
    Mr. Sensenbrenner. Thank you very much, Mr. Chairman. I 
would like to follow up on the two series of questions that the 
ranking member, Mr. Collins directed to Mr. Goldman, relative 
to the telephone company subpoenas and the inclusion of certain 
information in the majority report from the Intelligence 
Committee. Let me say that there are two issues involved. One 
that is not involved is the legality of the subpoena. I believe 
that that was a subpoena that is fully authorized under the 
law, and under congressional procedures.
    Where I do have a problem, and a really big problem, 
however, is the fact that somebody made a decision to match 
certain data, megadata--metadata that had been collected 
through the subpoena with phone numbers of journalists and 
Members of Congress. And that is the beginning of a 
surveillance state which I think is outrageous, particularly 
since with the Freedom Act in 2013, we curtailed the NSC's 
ability about that.
    Now, had Chairman Schiff decided to man up and come here 
and talk, rather than hiding behind Mr. Goldman as chief 
investigator as his surrogate, or legate, if you will, I think 
we could have gotten to the bottom of this, and we could have 
taken action to make sure that this never happens again.
    You know, I do not want to see Members of Congress, through 
their subpoena power, being able to subpoena the telephone 
records of private citizens, willy-nilly, without any kind of 
cause, or to match the numbers up with somebody else to see who 
they were talking to, and then going the next step, and 
publishing the results of that match in a report that the 
minority hadn't seen until it was released. That, I think, is 
an abuse of power.
    We're talking a lot about abuses of power here in the White 
House and in the executive branch. Here we see a clear abuse of 
power on the part of the people who are prosecuting this 
impeachment against the President of the United States. They 
should be ashamed of themselves.
    Now, I come from the State where Joe McCarthy came from. I 
met Joe McCarthy twice, when I was first getting into politics 
as a teenager. Folks, you have made Joe McCarthy look like a 
piker with what you've done with the electronic surveillance 
involved. It is something that has to be put a stop to now. It 
is something that has to be fessed up to now, whether it's you, 
Mr. Goldman, that authorized the matching and the publication, 
or whether it was Chairman Schiff. I would have loved to put 
Chairman Schiff under oath so that he could be required to 
answer the same way you have, Mr. Goldman, on how this all 
happened. But as one who has spent quite a bit of time 
curtailing the excesses of the Patriot Act, which I authored, 
with the Freedom Act, which I also authored, you know, the 
surveillance state can get out of control.
    This is a major step in the surveillance state getting out 
of control in the hands of the Congress, and in the hands of a 
majority party that wants to influence political decisions, 
relative to politicians, in this case, President Donald Trump, 
that they don't like. And they haven't liked him from the 
beginning of his term. They have tried to talk about 
impeachment since the beginning of his term. They thought that 
the Mueller report was going to be the smoking gun. It ended up 
being a cap pistol. Now they're working on this. And the steps 
that they have gone, the violation of common sense, the 
precedent that they have started in looking at the way the 
chairman has conducted this hearing today and in the previous 
hearings, not even to allow Mr. Gaetz to make a point of order, 
that he can't see what you put on the screen, I think goes 
against the entire fabric, you know, of American democracy. 
Shame on those who have done it, and if we want to get back to 
something objective, maybe it's time to push the recess button. 
I yield back.
    Mr. Goldman. Chairman Nadler, could I just respond quickly 
on the phone records----
    Chairman Nadler. The gentleman can respond.
    Mr. Goldman [continuing]. Only because it's now come up----
    Mr. Sensenbrenner. Mr. Chairman, I yielded back.
    Chairman Nadler. No, no, no.
    Mr. Sensenbrenner. I didn't ask him a question. I made a 
statement.
    Chairman Nadler. The gentleman yielded back. The gentleman 
yielded back. Ms. Jackson Lee is recognized.
    Ms. Jackson Lee. So, Mr. Goldman, let's get to the facts 
again. During the phone conversation on July 25, with President 
Zelensky, President Trump was narrowly focusing on his own 
political survival, using his public office for private and 
political gain. The truth matters.
    Then we heard counsel for the Republicans say the 
President's concerned about foreign aid, because you could kiss 
it goodbye. Assuming that's referring to anticorruption. But 
let's look at the facts of the July 25 call--I happen to have 
read it just recently--which sharply illustrates the 
President's willingness to abuse the power of his office for 
his own personal benefit. The memorandum of that call is on the 
screen in front of you. And it shows that President Trump 
says--and by the way, right after President Zelensky spoke 
about defense support and the Javelins, ``I would like you to 
do us a favor, though.'' So this is a President's own behavior 
in words. Mr. Goldman, what was that favor?
    Mr. Goldman. The favor was to investigate a debunked 
conspiracy theory related to Ukraine interference in the 2016 
election.
    Ms. Jackson Lee. Mr. Goldman, the investigative committees 
received evidence from multiple witnesses who testified that 
President Trump was provided specific talking points in 
preparation for the July 25 call, geared toward protecting the 
American people's national security. Is that correct?
    Mr. Goldman. The talking points certainly were part of the 
official U.S. policy, and they included anticorruption efforts 
and national security efforts, yes.
    Ms. Jackson Lee. And those talking points were provided to 
help the President effectively communicate official U.S. policy 
interest during calls with foreign leaders. Is that right?
    Mr. Goldman. That is correct. It's a routine process that 
the National Security Council does, but the President generally 
is able to use them or not use them. Witnesses said the 
President's not required to use them. What was so startling 
here is that he not only veered off----
    Ms. Jackson Lee. Thank you.
    Mr. Goldman [continuing]. From them, but that he went to 
his own personal interests.
    Ms. Jackson Lee. And it's fair to say that such talking 
points signal the purpose of a given call, correct?
    Mr. Goldman. Yes.
    Ms. Jackson Lee. Witnesses testified that the talking 
points for the July 25 call included recommendations to 
encourage President Zelensky to continue to promote 
anticorruption reforms in Ukraine, which has a focus of 
American foreign policy in Eastern Europe. Is that correct?
    Mr. Goldman. Yes.
    Ms. Jackson Lee. So to be clear, the talking points created 
for the President or the principals to discuss specific matters 
that really protect the American people. Is that accurate?
    Mr. Goldman. Yes, generally.
    Ms. Jackson Lee. But witnesses such as Tim Morrison, the 
deputy assistant to the President, and senior director for 
Europe, testified about what was not in those talking points.
    [Video shown.]
    Ms. Jackson Lee. Are you aware of any witness who testified 
that investigating the Bidens was an objective of official U.S. 
policy?
    Mr. Goldman. No, it was not before, and it was not after 
this call.
    Ms. Jackson Lee. And anything ever found in those 
investigations that might have occurred?
    Mr. Goldman. I'm sorry, can you repeat the question?
    Ms. Jackson Lee. Anything ever found of those 
investigations that may have occurred with respect to the 
former Vice President?
    Mr. Goldman. Every single witness said there's no factual 
basis for either of the investigations.
    Ms. Jackson Lee. So Mr. Trump did not use official talking 
points?
    Mr. Goldman. Correct.
    Ms. Jackson Lee. And there were fact witnesses who 
confirmed that?
    Mr. Goldman. That's right.
    [Video shown.]
    Ms. Jackson Lee. So Mr. Goldman----
    [Video shown.]
    Ms. Jackson Lee. So, Mr. Goldman, did the evidence prove 
that Mr. Trump utilized his position of public trust in order 
to accomplish these goals--his goals--in order to hurt his 
domestic political opponent?
    Mr. Goldman. Yes, that's what the evidence showed.
    Ms. Jackson Lee. I've come to understand that America's 
values of democracy and justice must have the vital pillars of 
truth, factual truth, and trust. As a former judge and one who 
sat on this committee during impeachment in 1998, the truth 
matters. It's clear that the President really cared about--did 
not really care about fighting corruption in Ukraine but wanted 
his own personal interests to be considered. That kind of puts 
into perspective Ambassador Sondland, that they didn't care 
whether Ukraine actually investigated, but really whether they 
just announced it.
    It is certainly well-known that it is our duty, as the 
President poses a continuing threat to, under the Constitution, 
pursue the truth. That is our duty. We are now proceeding to do 
our duty to find the truth. Thank you, Mr. Chairman.
    Chairman Nadler. The gentlelady yields back. The gentleman 
from Ohio.
    Mr. Chabot. Thank you, Mr. Chairman. This is the second 
hearing on impeachment that this committee has held in the last 
week. Well, I would submit that you're investigating the wrong 
guy. Let's look at the facts. Mr. Castor, Ukraine, that's been 
at the center of attention in this impeachment hearing, has 
historically been one of the world's most corrupt nations. Is 
that correct?
    Mr. Castor. That's correct.
    Mr. Chabot. And under legislation that Congress passed, the 
National Defense Authorization Act, it was President Trump's 
responsibility, his duty, to see that U.S. tax dollars did not 
go to Ukraine, unless they were making progress in reducing 
corruption. Is that also right?
    Mr. Castor. Yes, that's right.
    Mr. Chabot. And isn't it true that Joe Biden's son, Hunter, 
had placed himself right smack dab in the middle of that 
corruption?
    Mr. Castor. Yes, he did. Burisma was one of the most 
corrupt companies in Ukraine.
    Mr. Chabot. And contrary to what House Democrats and many 
in the media would have you believe, the concerns about Hunter 
Biden's involvement in Ukrainian corruption, they're not some 
sort of vast, right-wing conspiracy concocted by supporters of 
the President, are they? In fact, the concerns about Hunter 
Biden were first raised by the Obama administration. Is that 
right?
    Mr. Castor. That's right. And also Washington Post, a lot 
of publications, and the State Department.
    Mr. Chabot. And the Obama administration's concerns about 
Biden didn't end there, did they? The former ambassador to 
Ukraine, Marie Yovanovitch, said she was coached by the Obama 
administration on how to answer pesky questions related to 
Hunter Biden and Burisma, that might arise during her Senate 
confirmation process. Is that right?
    Mr. Castor. The State Department was so concerned about 
this, they gave her a mock Q&A on this question.
    Mr. Chabot. And nearly every single witness who testified 
at the Intelligence Committee impeachment inquiry agreed that 
Hunter Biden's Burisma deal created, at the very least, the 
appearance of conflict of interest. Is that correct?
    Mr. Castor. That's correct. And, you know, Deputy Assistant 
Secretary George Kent testified that there was an investigation 
into Burisma, into their head, Zlochevsky, and they were trying 
to track down 23 million that he had taken out of the country. 
They were working with the United Kingdom. They were working--
United States, United Kingdom. Ukraine was working on tracking 
this money down. And there was an investigation, an active 
investigation going on, and a bribe was paid. And that bribe 
was paid. It allowed Zlochevsky to get off scot-free. Right 
around that time is when Burisma went about sprucing up their 
board, shall we say.
    Mr. Chabot. And yet with all that evidence, the Democrats 
on the Intelligence Committee, under Chairman Schiff, and now 
the Democrats here, are determined to sweep the Biden 
corruption under the rug, ignore it, not let us call witnesses 
on it, and instead, rush to impeach the President, all to 
satisfy, I would argue, their radical left-wing base. What a 
disservice to the country.
    Imagine this. You've got the Vice President, Joe Biden, in 
charge of overseeing our Ukrainian policy, and his son, Hunter 
Biden receiving 50 grand a month with no identifiable expertise 
in either energy or Ukraine. Yet the Democrats won't let us 
present witnesses on that. So let's do the next best thing, 
since we can't bring the witnesses here, let's watch a couple 
of videos.
    [Video shown.]
    Mr. Chabot. You know, Joe Biden got a little testy with a 
voter at one of his events in Iowa last week, calling the man a 
liar, challenging him to a push-up contest among other things, 
and falsely stating, once again, that nobody said there was 
anything wrong with his son's deal in Ukraine. Well, you know 
what, that's a lot of malarkey. A lot of people have been 
saying that for quite a while now, and they're right.
    And what's worse is that first the Intelligence Committee, 
and now this committee, are conducting an impeachment 
investigation against President Trump based on, as Professor 
Turley put it last week, wafer-thin evidence and ignoring 
evidence of a high-level U.S. official who actually did engage 
in a quid pro quo with the Ukrainian government, in fact, 
confessed to it in this video.
    [Video shown.]
    Mr. Chabot. You're investigating the wrong guy, Mr. 
Chairman.
    Chairman Nadler. The gentleman's time is expired. Mr. 
Cohen.
    Mr. Cohen. Thank you, sir. Mr. Goldman, I'd like to bring 
us back to the next President, not--to this President, not the 
next President, and stay focused on the July 25 call, and the 
President's abuse of office for his benefit and no one else's.
    Now, as my colleague, Ms. Jackson Lee, confirmed, the 
President's request for these investigations was not an 
objective of U.S. foreign policy, correct?
    Mr. Goldman. That's right.
    Mr. Cohen. Is there any evidence the National Security 
Council wanted investigation into the Bidens, Burisma, or any 
alleged Ukrainian interference in 2016?
    Mr. Goldman. No.
    Mr. Cohen. Any evidence about the State Department wanting 
them?
    Mr. Goldman. No.
    Mr. Cohen. How about the DOD, did the DOD want those 
investigations?
    Mr. Goldman. No evidence of that.
    Mr. Cohen. Did any witness tell you that they wanted 
Ukraine to investigate the Bidens or the 2016 election?
    Mr. Goldman. No.
    Mr. Cohen. And we certainly know now that the Ukrainians 
did not want it either. In fact, they made it very clear, they 
did not want to be an instrument--this is a quote--``an 
instrument in Washington domestic reelection politics.''
    So the only person who was a beneficiary from that 
investigation is President Trump. And that's why everyone on 
the July 25 call knew it was wrong. They knew it was wrong. The 
investigative committee heard testimony from three witnesses 
who participated in that call. Is that correct?
    Mr. Goldman. Yes. Well, listened to that call.
    Mr. Cohen. Right. Mr. Goldman, even in real time, the 
witness who listened on that call, testified they were 
concerned by the call. Is that correct?
    Mr. Goldman. Yes.
    Mr. Cohen. And in fact, both Lieutenant Colonel Vindman and 
Mr. Morrison immediately reported the call to legal counsel. Is 
that right?
    Mr. Goldman. That's right.
    Mr. Cohen. And why did they do so?
    Mr. Goldman. They did it for separate reasons. Lieutenant 
Colonel Vindman was concerned about the substance of the call, 
that it was improper. Mr. Morrison was concerned about the 
potential political ramifications if the call was released 
because of the substance of the call and the political nature 
of the call.
    Mr. Cohen. And they reported the call--that they actually 
reported that to the internal legal channels. Mr. Goldman, I 
have placed Lieutenant Colonel Vindman's testimony about why he 
reported the call on the screen. Am I correct, his concern was 
based on the fact that the President was asking a foreign power 
to investigate a U.S. citizen?
    Mr. Goldman. Yes. And he was not the only witness to 
express that concern.
    Mr. Cohen. Am I also correct that he reported this concern 
because he thought it was a sense of duty, a duty that he felt 
something was wrong?
    Mr. Goldman. Yes. As you probably know, Lieutenant Colonel 
Vindman is a Purple Heart Award winner from--or medal winner 
from Iraq, and he has been in the Department of Defense for 20 
years, and has a great sense of duty and a great patriotism to 
this country and felt compelled to follow that sense of duty 
and report it.
    Mr. Cohen. And Ms. Williams, Vice President Pence's aide, 
was present for the call, and she testified as you brought 
out--or was brought out earlier, that it was unusual and 
inappropriate. Is that correct?
    Mr. Goldman. That's right.
    Mr. Cohen. Now, when Mr.--Vice President Biden got involved 
with the European Union and the IMF, then Germany and France 
and said, you've got to do something about corruption, that was 
okay, because they were doing something for the common good of 
a bunch of people, as distinguished from what's going on here, 
where somebody's doing it for their personal good. Is that not 
correct?
    Mr. Goldman. Right. There's a distinction between doing an 
official act for an official purpose and doing an official act 
for a personal purpose. And if I could just respond to 
something Mr. Castor said, when he said that the--there were 
problems because Zlochevsky paid a bribe, the head of Burisma, 
in order to get out from under the prosecution, that was 
exactly the type of conduct that Vice President Biden wanted to 
shut down in Ukraine. That was exactly the type of--non-
anticorruption policies that Vice President Biden was objecting 
to, using the official policy. So that's one of the reasons 
that he--I mean, I don't know if that was one, but that's the 
type of thing that he based--he and the Americans and the 
Europeans based----
    Mr. Cohen. That's the issue we've got to get in this 
committee--to understand the difference between doing something 
for the national good, for the international good, for the 
common good, and for your own good. That's the difference. Got 
to get that across. And those witnesses, many career 
nonpartisan officials were clear they thought it was wrong to 
ask a foreign government to investigate a political rival. 
Video.
    [Video shown.]
    Mr. Cohen. And we are going to check that type of conduct, 
we are the people's House, and I yield back the balance of my 
time.
    Chairman Nadler. The gentleman yields back. Mr. Gohmert?
    Mr. Gohmert. Well, I had some questions for the witness, 
Mr. Berke, but he has absconded, so I'm going to use my 5 
minutes but not to ask questions. It is interesting, though, to 
have heard Mr. Goldman refuse to answer questions about the 
investigation, yet, he comes in here and the very reason that 
he wants to see the President for the first time any 
President's ever been removed from office, while he's been 
obstructing, he didn't answer our questions.
    So, perhaps if we're going to apply his sense of justice to 
him, it would be time to have him removed from his position. 
But that's only if we apply his own standards and as his client 
said, if it weren't for double standards, some of these folks 
wouldn't have standards at all.
    But we were told also at the beginning that we would hear 
lawyers present evidence, lawyers who are going to come in 
here--now, what normally happens--and I've been in some 
kangaroo hearings in courts, not my own when I was there, but I 
have been mistreated in hearings before, but I have never seen 
anything like this where we don't allow the fact witnesses to 
come in here, we have the lawyers come in and tell us what 
we're supposed to know about those witnesses and about their 
testimony and about their impression and what the law is. This 
is outrageous. My friend, Jim Sensenbrenner, said in 41 years, 
he's never seen anything like what we have going on here to try 
to oust a sitting President.
    And it's also outrageous to hear people say, Well, this man 
thought he was a king because he said he could do anything he 
wanted, when they know that that statement was in the context 
of whether or not he could fire Mueller. And of course he could 
fire Mueller. He could fire or not fire Mueller. He could 
appoint a special prosecutor to invest Mueller and Weissmann. I 
think he should have, but that's his prerogative, and he could 
have done anything about that he wanted. To take that out of 
context, say, he thinks he's a king, let me tell you what a 
king is. A king is someone who says over 20 times, I can't do 
that, Congress has to change the law on immigration, and then 
he decides, you know what, I got a pen and I got a phone, I'll 
do whatever I want, and, by golly, he does. He makes new law 
with a pen and a phone. Now that is more like a monarchy, not 
somebody saying they can fire a special prosecutor if they want 
to.
    And regarding treason, the Constitution itself says you got 
to have two witnesses--and that's not hearsay witnesses. None 
of this stuff that wouldn't be admissible in any decent court. 
No, that's two direct evidence witnesses that can come in and 
positively identify themselves, not something they overheard or 
some--but actually be witnesses to treason.
    And yet this group comes in here, they toss treason out in 
a report like it's no big deal. We can bring in a bunch of 
hearsay witnesses, and then we'll have the lawyers testify and 
then throw a President out of office. This is so absurd. It's 
so absurd.Now, we have witness come in, and we're told he's 
going to be a witness, that's why he doesn't have to follow under the 
rules of decorum, and then--I've never seen this--he gets to come up 
and grill his opposing adversary witness. I feel like to be fair, if we 
were going to make this thing fair, Mr. Castor would be able to come up 
and grill Mr. Berke. But this isn't about being fair. It's not about 
due process. This is about a kangaroo system.
    And let me tell you, those that think you've done something 
special here, you have set the bar so low, I'm afraid it's 
irreparable. I mean, just think--we've had people already 
mention, you know, the next President, Joe Biden. We're told, 
you know, gee, he may be the next President. Well, we've 
already got the forms. All we have to do is eliminate Donald 
Trump's name and put Joe Biden's name in there, because he's on 
video, he and his son. He basically has admitted to the crime 
that's being hoisted on the President improperly.
    So I'm scared for my country. Because I've never seen 
anything like this. This is supposed to be the Congress. I came 
up here from a court where we had order and we had rules, and 
I've seen nothing of the kind in here today, and it's 
outrageous that we're trying to remove a President with a 
kangaroo court like this. I yield back.
    Mr. Goldman. Chairman, if I could just clarify, treason is 
not in our report. I just want to----
    Chairman Nadler. The gentleman yielded back.
    Mr. Gohmert. Yeah, and it is mentioned in the report we 
got, thank you very much.
    Chairman Nadler. The gentleman yielded back. Mr. Johnson?
    Mr. Johnson of Georgia. Thank you, Mr. Chairman. I'd like 
to get us back to the undisputed facts of the President's abuse 
of power. Mr. Goldman, as a prosecutor in the Southern District 
of New York, when you prosecuted drug conspiracy cases, was it 
standard practice for drug kingpins to try to beat the case by 
distancing themselves from the conspiracy theory and blaming 
their accomplices for the crime?
    Mr. Goldman. All the time. Conspiracies have different 
layers, and the top layers make the bottom layers do the work, 
so that they're further removed from the actual conduct.
    Mr. Johnson of Georgia. Okay. I'd like to ask some 
questions about the President's role in what Ambassador Bolton 
referred to as a drug deal. Did the testimony and evidence 
compiled by the Intelligence Committee establish the fact that, 
with respect to Ukraine, Rudy Giuliani was, at all times, 
working on behalf of President Trump?
    Mr. Goldman. Yes. Mr. Giuliani said that. President Trump 
said that to a number of other individuals. And then those 
individuals, Ambassador Sondland, Ambassador Volker also said 
that.
    Mr. Johnson of Georgia. Thank you. And on May 9, 2019, Rudy 
Giuliani, on behalf of his client, President Trump, spoke with 
a New York Times reporter about his planned trip to Ukraine, 
and on that trip, he planned to meet with President Zelensky, 
he said, and urge him to pursue investigations relating to the 
Bidens and to the debunked theory that Ukraine, and not Russia, 
interfered in the 2016 election. Isn't that correct?
    Mr. Goldman. That's right.
    Mr. Johnson of Georgia. And Mr. Giuliani told the reporter 
that his trip was not about official U.S. foreign policy, and 
that the information he sought would be very, very helpful to 
his client, meaning it would be helpful to President Trump. Is 
that correct?
    Mr. Goldman. Yes. And if it's not official foreign policy, 
it would be helpful to President Trump's personal interests.
    Mr. Johnson of Georgia. That's correct. Then there is no 
doubt, Mr. Goldman, that investigations of the Bidens and the 
2016 election meddling were, in fact, not about U.S. policy, 
but were about benefiting Trump's reelection, correct?
    Mr. Goldman. Yes. And even the Ukrainians realized that.
    Mr. Johnson of Georgia. And on July 25, President Trump 
placed that fateful phone call to President Zelensky, and he 
asked President Zelensky to investigate Bidens, correct?
    Mr. Goldman. Yes.
    Mr. Johnson of Georgia. And on that call, President Trump 
told Zelensky, quote, ``I will have Mr. Giuliani to give you a 
call,'' correct?
    Mr. Goldman. That's right.
    Mr. Johnson of Georgia. And on October 2 and October 3, 
President Trump once again made explicit that he and Mr. 
Giuliani were intent on making these investigations happen, 
correct?
    Mr. Goldman. Correct.
    [Video shown.]
    Mr. Johnson of Georgia. Mr. Goldman, the evidence shows a 
course of conduct by President Trump and his agents, does it 
not?
    Mr. Goldman. It does. And clearly it continued long after 
our investigation began.
    Mr. Johnson of Georgia. It shows a common plan, correct?
    Mr. Goldman. That's right, yes.
    Mr. Johnson of Georgia. It shows a common goal?
    Mr. Goldman. Correct.
    Mr. Johnson of Georgia. And the goal was to get foreign 
help for the 2020 election, correct?
    Mr. Goldman. That is--that's what all the witnesses said.
    Mr. Johnson of Georgia. And, Mr. Goldman, who was the 
kingpin of that plan?
    Mr. Goldman. President Trump.
    Mr. Johnson of Georgia. Thank you, Mr. Goldman. Ambassador 
Bolton called it a drug deal. As a kingpin, President Trump 
tried to force a foreign government to interfere in the 
upcoming Presidential election. The evidence is undisputed and 
overwhelming, that Rudy Giuliani acted as part of a conspiracy 
with President Trump to obtain Ukrainian help for President 
Trump in the 2020 election.
    This was not just a hurtful drug deal. This was an attempt 
to undermine the very fabric of our democracy. The Framers 
feared most how foreign influence could turn a President into a 
despot, so they adopted impeachment as a backstop to protect 
our democracy. The facts, ladies and gentlemen, demand that we 
use that remedy today, and with that, I yield back.
    Chairman Nadler. The gentleman yields back. Mr. Jordan?
    Mr. Jordan. Thank you, Mr. Chairman. Mr. Castor, I want to 
go to the document that started it all, the August 12 
whistleblower complaint. Bullet point one on page 1 of the 
whistleblower's complaint, he says this: Over the past 4 
months, more than half a dozen U.S. officials have informed me 
of the various facts related to this effort. Mr. Castor, who 
are these half a dozen U.S. officials?
    Mr. Castor. We don't know.
    Mr. Jordan. We don't know, do we? And we had no chance to 
know for sure who these people were, because we never got to 
talk to the whistleblower. Is that right, Mr. Castor?
    Mr. Castor. That's right.
    Mr. Jordan. We needed to talk to the guy who started it 
all, we needed to talk to him to figure out who these more than 
half a dozen people were who formed the basis of his complaint, 
and we never got to. Adam Schiff's staff got to. Adam Schiff 
knows who he is, but we don't get to know, and therefore, we 
don't get to know the original people, the six people who 
formed the basis of this entire thing we've been going through 
now for 3 months. But we did talk to 17 people, right, Mr. 
Castor?
    Mr. Castor. That's right.
    Mr. Jordan. Seventeen depositions and you were in every 
single one. You were the lawyer doing the work for the 
Republicans in every single one. Is that right?
    Mr. Castor. Yes, sir.
    Mr. Jordan. And there's one witness who they relied on and 
built their report around. One witness. Who would that witness 
be? As I read their report, it's obviously one witness. Who's 
that witness, Mr. Castor?
    Mr. Castor. Ambassador Sondland.
    Mr. Jordan. Ambassador Sondland. I think you said earlier 
his name was mentioned, I don't know, what'd you say?
    Mr. Castor. 611 times.
    Mr. Jordan. 611 times. More than Lieutenant Colonel 
Vindman, the guy who was on the call, more than Ambassador 
Taylor, their first witness, their star witness, the very first 
hearing in the Intelligence Committee. They relied on Sondland, 
not the whistleblower, not the more than half a dozen people 
who informed the whistleblower. They relied on Ambassador 
Sondland. Why did they pick Sondland, Mr. Castor?
    Mr. Castor. That's probably the best they got.
    Mr. Jordan. Because that's the best they got? The guy who 
had to file an addendum to his testimony, the guy that had to 
file the clarification, the guy who said 2 weeks ago sitting in 
the same chair you're sitting in, Mr. Castor, in his 23-page 
opening statement, he said this: Unless President Zelensky 
announces an investigation into Burisma and the Bidens, there 
would be no call with President Trump, there would be no 
meeting with President Trump, there would be no security 
assistance money going to Ukraine. That's what Ambassador 
Sondland said. Mr. Castor, was there an announcement by 
President Zelensky about investigating the Bidens or Burisma?
    Mr. Castor. No.
    Mr. Jordan. No announcement?
    Mr. Castor. No.
    Mr. Jordan. Did President Zelensky get a call from 
President Trump?
    Mr. Castor. Yes.
    Mr. Jordan. Did President Zelensky get a meeting with 
President Trump?
    Mr. Castor. Yes.
    Mr. Jordan. Did President Zelensky get the money from the 
United States?
    Mr. Castor. Yes.
    Mr. Jordan. They got the call on July 25, they got the 
money on September 11, they got the meeting on September 25. Is 
that right?
    Mr. Castor. Yes.
    Mr. Jordan. But the guy who said none of that was going to 
happen is the guy they build their case around----
    Mr. Castor. Yes.
    Mr. Jordan [continuing]. Is that right--Mr. Sondland?
    Mr. Castor. Yep.
    Mr. Jordan. Let me go to one other thing they built their 
case around. They built their case around a lot of hearsay, 
didn't they?
    Mr. Castor. Yes.
    Mr. Jordan. And the best example of the hearsay, 
surprisingly enough, is Ambassador Sondland. It is amazing, 
they built their case around this ambassador, and they built 
their case around hearsay, and the best example of both is Mr. 
Sondland, Ambassador Sondland, because he filed his addendum, 
his clarification, where he says this. We read this a couple 
weeks ago, pointed this out a couple weeks ago. He says this in 
bullet point number 2, in his clarification, he says, 
Ambassador Taylor recalls that Mr. Morrison told Ambassador 
Taylor that I told Mr. Morrison that I conveyed this message to 
Mr. Yermak on a September 1, 2019, in connection with Vice 
President Pence's visit to Warsaw and a meeting with President 
Zelensky. That's his clarification. Amazing. Six people, as I 
said before, having four conversations in one sentence.
    Ambassador Taylor recalled that Mr. Morrison told 
Ambassador Taylor that I told Mr. Morrison that I conveyed this 
message to Mr. Yermak on September 1, 2019, in connection with 
Vice President Pence's visit to Warsaw and a meeting with 
President Zelensky. That's the clarification. That's their star 
witness who they built their case around. So-and-so tells so-
and-so what somebody said to someone else, and there you have 
it. That's their case.
    They forget the four key facts. They forget the fact that 
we have the call transcript and there was no quid pro quo. They 
forget the fact that two guys on the call--President Trump and 
President Zelensky--have said repeatedly there was no pressure, 
no linkage, no pushing. They forget the fact that Ukraine 
didn't even know aid was held at the time of the call, and they 
forget the fact, most important, they did nothing to get the 
aid released, no announcement of any type of investigation 
whatsoever.
    They forget all that, those key facts, and they build their 
case around the guy who had to clarify his testimony with that 
amazing sentence. Mr. Goldman, Mr. Goldman, the Democrats--did 
the Democrats publish phone records of the President's 
attorney?
    Mr. Goldman. Mr. Giuliani, yes.
    Mr. Jordan. Did the Democrats publish phone records of a 
member of the press?
    Mr. Goldman. Yes, who was also involved in the----
    Mr. Jordan. Did the Democrats publish phone records of a 
Member of Congress?
    Mr. Goldman. Yes, who was talking to people involved.
    Mr. Jordan. Did the Democrats--and did that Member of 
Congress also happens to be your boss' political opponent that 
those foreign records were published of. So the Democrats they 
run this kind of investigation, ignoring the facts, not letting 
the whistleblower come in, and, therefore, not letting us know 
if we've talked to the more than half a dozen original sources 
for the whistleblower's complaint in the first place, the guy 
has to file an addendum with that clarification sentence.
    But one thing they did do, one thing they did do in their 
report, is, they published the phone records of the President's 
personal lawyer, the phone records of a member of the press, 
and the phone records of the chairman of the Intelligence 
Committee's political opponent, Representative Nunes. That's 
what these guys did. And that's their effort to impeach the 
President of the United States 11 months before an election.
    Chairman Nadler. The gentleman's time is expired. Mr. 
Deutch is recognized.
    Mr. Gohmert. Mr. Chairman, I have a unanimous consent----
    Mr. Deutch. Thank you, Mr. Chairman. Mr. Chairman, I'd like 
to focus on the facts surrounding the President's abuse of 
power.
    Chairman Nadler. The gentleman--the gentleman will state 
his unanimous consent request.
    Mr. Gohmert. I'd ask unanimous consent that the report by 
the majority staff of the House Committee on the Judiciary 
constitutional grounds for Presidential impeachment that talks 
about treason and bribery be admitted for the record.
    Chairman Nadler. Be what?
    Mr. Gohmert. Be made part of our record.
    Chairman Nadler. Majority put. Without objection.
    Mr. Deutch.
    Mr. Deutch. Thank you. Getting back to the facts 
surrounding the President's abuse of power using the White 
House meeting as leverage for helping his political campaign. 
Mr. Goldman, President Trump offered Ukrainian President 
Zelensky a meeting in the White House, but first he wanted 
investigations into the Bidens and a conspiracy theory about 
meddling in the 2016 election. You testified that the 
committees found evidence that President Trump worked to 
exchange official actions for personal benefit, and I want to 
talk about that.
    On May 23rd, 2019, a delegation of officials return from 
Zelensky's inauguration, and they briefed the President. In 
that briefing, President Trump directed government officials to 
work with his personal lawyer, Rudy Giuliani. Isn't that 
correct?
    Mr. Goldman. Yes.
    Mr. Deutch. And Trump's hand-picked Ukraine operator, 
Gordon Sondland, testified that they faced a choice: either 
work with Giuliani or abandon the goal of a White House 
meeting. What choice did they make, Mr. Goldman?
    Mr. Goldman. They decided to work with Mr. Giuliani.
    Mr. Deutch. Right. And 6 days later, on May 29th, President 
Trump sent the new Ukrainian president a letter that said 
America stood with Ukraine and invited President Zelensky to 
visit the White House. Isn't that correct?
    Mr. Goldman. Yes. That was the second time that he invited 
him to the White House.
    Mr. Deutch. So at this point, the Ukrainian President 
expected that meeting.
    Mr. Goldman. Correct.
    Mr. Deutch. But then they learn that they have got to do 
something more for the President. Sondland testified that there 
was a prerequisite of investigations. Isn't that right?
    Mr. Goldman. Yes.
    Mr. Deutch. And NSC staffer Lieutenant Colonel Vindman 
testified that Sondland told the Ukrainians in a July 10 
meeting that investigation of the Bidens was a deliverable, 
necessary to get that meeting. Isn't that right?
    Mr. Goldman. Yes. And if I could just take a second to 
correct what Mr. Castor said about that meeting, there really 
is no inconsistent statements about whether or not Ambassador 
Sondland raised the issue of investigations in connection to 
the White House. Even Ambassador Volker, in his public 
testimony, was forced to admit that he did hear that and he 
said it was inappropriate.
    Mr. Deutch. And, in fact, on July 19, Sondland told 
President Zelensky directly that President Trump wanted to hear 
a commitment to the investigations on the July 25 call, 
correct?
    Mr. Goldman. That's right.
    Mr. Deutch. That same day, Sondland updated senior--
multiple Trump administration officials that Zelensky was, 
quote, ``prepared to receive POTUS' call and would offer 
assurances about the investigations.'' Isn't that right?
    Mr. Goldman. Yes.
    Mr. Deutch. And on that same day, State Department official 
Volker had breakfast with Rudy Giuliani, and he reported to 
Sondland by text message, most important is for Zelensky to say 
he will help investigations, right?
    Mr. Goldman. Yes. And address any specific personnel 
issues.
    Mr. Deutch. Right. And later that day, after Giuliani spoke 
with Yermak, evidence suggested Giuliani gave a green light to 
that July 25 call. Then on the morning of the call, Volker 
texted Zelensky aide Yermak, and that text to his aide said, 
and I quote, ``heard from White House, assuming President Z 
convinces Trump he will investigate, get to the bottom of what 
happened in 2016, we will nail down a visit''--``a date for 
visit to Washington.'' And the transcript released by President 
Trump shows Trump requested investigations and Zelensky agrees. 
Isn't that correct?
    Mr. Goldman. Yes. And that text message was actually a 
direction, a message relayed from President Trump himself.
    Mr. Deutch. And then after the July 25 call, members of the 
administration continued to follow up with the Ukrainian 
counterparts to prepare for the announcement of investigations. 
Sondland texted Volker about efforts to schedule a White House 
visit, noting that POTUS really wants the deliverable. And that 
was just one of many messages during a flurry of follow-up 
activity. There were meetings and calls and texts on July 26 
and July 27 and August 2, 4, 5, 7, 8, and 9, August 10, 11, 12, 
13, 15, Mr. Goldman, August 16, 17, and August 19. Isn't that 
correct?
    Mr. Goldman. Yes, including to Secretary Pompeo as well.
    Mr. Deutch. Here's the point. These are our government 
officials who work for us. Instead, they were working hard to 
help the President advance his personal political interests. 
Isn't that what you found, Mr. Goldman?
    Mr. Goldman. That's right.
    Mr. Deutch. This isn't a close call. We have a Ukrainian 
President at war with Russia, desperate for a White House 
meeting. The President promised a White House meeting, but then 
he blocked the Oval Office. He blocked it and said I need a 
favor. Not a favor to help America; a favor to help me get re-
elected.
    Our Framers feared one day we would face a moment like 
this. They gave us an impeachment--they gave us impeachment as 
a safety valve not to punish the President, but to defend our 
elections and our Constitution, and that's what we must do.
    I yield back.
    Chairman Nadler. The gentleman yields back.
    Mr. Buck.
    Mr. Buck. Thank you, Mr. Chairman. Mr. Castor, I want to 
direct your attention to page 3 of the telephone call dated 
July 25 between President Trump and President Zelensky.
    On page 3, President Trump states, I would like you to do 
us a favor, though, because our country has been through a lot 
and Ukraine knows a lot about it. I would like you to find out 
what happened with this whole situation with Ukraine. Later he 
said, I would like to have the Attorney General call you or 
your people, and I would like you to get to the bottom of it.
    The majority report on page 13 says, the U.S. intelligence 
community had unanimously determined that Russia, not Ukraine, 
interfered in the 2016 election to help the candidacy of 
President Trump.
    Mr. Castor, there appears to be a conflict there. President 
Trump is asking the Ukraine to investigate something. The 
majority has decided that it's an illegitimate request, because 
there was no interference in an election by the Ukraine.
    Is that how you read this?
    Mr. Castor. Yes.
    Mr. Buck. And the press release from the majority on their 
report says, as part of this scheme, President Trump acting in 
his official capacity and using his position of public trust, 
personally and directly requested that the President of 
Ukraine--that the government of Ukraine publicly announce 
investigations into subsection 2, a baseless theory promoted by 
Russia, alleging that Ukraine, rather than Russia, interfered 
in the 2016 U.S. election. Is that true?
    Mr. Castor. Yes.
    Mr. Buck. And Mr. Castor, I want to ask you something. Have 
you seen this article from Politico, dated January 11, 2017?
    Mr. Castor. Yes, I have.
    Mr. Buck. And the title of that article is Ukrainian 
``Efforts to Sabotage Trump Backfire.'' Is that correct?
    Mr. Castor. Yes.
    Mr. Buck. I want to read you the second paragraph.
    Ukrainian government officials tried to help Hillary 
Clinton and undermine Trump by publicly questioning his fitness 
for office. They also disseminated documents implicating a top 
Trump aide in corruption and suggested they were investigating 
the matter, only to back away after the election, and they 
helped Clinton's allies research damaging information on Trump 
and his advisers, a Politico investigation found.
    Isn't it true that President Trump had a legitimate reason 
to request help from the Ukraine about the 2016 election? And 
I'm not suggesting for a minute that Russia didn't interfere. 
Of course they interfered. But the Ukraine officials tried to 
influence the election?
    Mr. Castor. Yes.
    Mr. Buck. Let's move on to Ambassador Sondland.
    I only have 10 fingers and 10 toes, so I can't count above 
20, Mr. Castor. But do you know how many times Ambassador 
Sondland said that he did not know, did not recall, had no 
recollection, had limited memory, or failed to remember 
something in his October 17 testimony? Do you know how many 
times? 325. Does that surprise you? 325.
    Mr. Castor. It's a big number.
    Mr. Buck. And then he files a clarifying statement and he 
clarifies a few things, I guess.
    But did you have any--did you have any contact with 
Ambassador Sondland between the time of his deposition and the 
time of his clarifying statement?
    Mr. Castor. No.
    Mr. Buck. Did the majority?
    Mr. Castor. I have no idea.
    Mr. Buck. You have no idea? So they may have had influence 
on his testimony?
    Mr. Castor. No idea.
    Mr. Buck. And that would be evidence of bias; that would be 
evidence of credibility; that would be evidence that we should 
take into account before. But we'll never know, will we? 
Because the majority counsel has a right to assert a privilege 
as to information that's relevant to this committee's decision. 
The majority counsel has a right to assert a privilege in any 
communications he has with the Chairman Adam Schiff, doesn't 
he?
    Mr. Castor. Um----
    Mr. Buck. As does minority counsel. That's a privilege that 
we've reserved here in Congress, isn't it?
    Mr. Castor. Yeah.
    Mr. Buck. And the same thing is true of FOIA. The Freedom 
of Information Act does not apply to memos the majority counsel 
writes. Isn't that true?
    Mr. Castor. Correct.
    Mr. Buck. So we've demanded that that of the executive 
branch, but we've allowed ourselves not to be part of FOIA, 
correct?
    Mr. Castor. Correct.
    Mr. Buck. Okay. So the majority has a privilege, the 
President also has a privilege. It's called executive 
privilege. He can meet with the Secretary of State, and that's 
a privileged conversation. He can meet with the Secretary of 
Defense; that's privileged conversation. He could meet with the 
Secretary of Energy; that's a privileged conversation.
    Now, when the majority has subpoenaed those witnesses, and 
the President has refused to produce those witnesses or 
relevant documents, or what they consider relevant documents, 
they are charging him with an article of impeachment for 
obstruction. In fact, their report says, the President 
obstructed the impeachment inquiry by instructing witnesses to 
ignore subpoenas.
    Why?
    Chairman Nadler. The gentleman's time has expired.
    Ms. Bass.
    Ms. Bass. Mr. Goldman, I want to pick up on the President 
using the powers of his office, in this case in a meeting at 
the White House, to pressure a foreign country to investigate 
his political rival.
    Now that you've had time to step back from the 
investigation, is there any doubt that the President did, in 
fact, use a White House visit to pressure President Zelensky to 
announce investigations of his political rival to benefit his 
reelection campaign?
    Mr. Goldman. I will answer that question in a minute, but I 
would like just to comment to Mr. Buck that the majority staff, 
no one had any contact with Ambassador Sondland after his 
deposition.
    But the answer to your question is yes, Ms. Bass.
    Ms. Bass. My colleague Mr. Deutch mostly focused on the 
period prior to the July 25 call. I'd like to focus on the 
period after.
    Following the call, did President Zelensky come to the 
White House for a meeting?
    Mr. Goldman. No. He's never come to the White House. And 
several witnesses, multiple witnesses, said that there's a huge 
distinction between a White House meeting and a meeting on the 
sidelines of the U.N. General Assembly where they did meet on 
September 25.
    Ms. Bass. So has a White House meeting been scheduled?
    Mr. Goldman. No.
    Ms. Bass. So did the President and his associates 
essentially continue to withhold the White House meeting? And 
if so, why did they do that?
    Mr. Goldman. Well, the evidence found that the White House 
meeting was conditioned on the announcement of these 
investigations. And so once in mid-August when the Ukrainians, 
Mr. Yermak and President Zelensky, decided that they were not 
going to issue that statement that Rudy Giuliani wanted to 
include Burisma in the 2016 elections, there was no White House 
meeting.
    It soon became clear to them that the security assistance 
was also at risk, and that took on a renewed importance for 
them.
    Ms. Bass. Well, following the 25th call, the July 25 call, 
Ambassadors Sondland and Volker worked closely with Mr. 
Giuliani and the Ukrainians to help draft a statement that the 
President could meet President Zelensky. Wasn't that right?
    Mr. Goldman. Yes, and the report states that they worked 
closely, and then there were also phone calls with the White 
House around the same time that they were working closely.
    Ms. Bass. Do you know what that statement was supposed to 
say, according to Mr. Giuliani and the U.S. officials?
    Mr. Goldman. Well, the key difference is that it had to 
include that Ukraine would do the investigations of Burisma, 
which equaled Biden investigation and the 2016 Ukraine 
interference.
    Ms. Bass. But was there concern about doing the 
investigations or what? Were they just supposed to make a 
statement about it, what?
    Mr. Goldman. Ambassador Sondland very clearly testified 
that all he ever heard Mr. Giuliani or anyone say is that they 
only needed the public announcement of the investigations.
    Ms. Bass. And so did the committee find that without that 
public statement that there would be no White House meeting?
    Mr. Goldman. Yes.
    Ms. Bass. So I was struck by how clear the evidence seems 
to be on this point, and I'd like to play another example.
    [Video shown.]
    Ms. Bass. Mr. Goldman, did the investigative committees 
find that Mr. Giuliani played a role in the White House visit 
being conditioned on investigations?
    Mr. Goldman. The evidence showed that Mr. Giuliani not only 
played a role, but that he was essentially the President's 
agent. He was acting on behalf of the President, expressing the 
President's wishes, desires, and----
    Ms. Bass. So what evidence did the committee find that 
corroborated the quote ``everyone was in the loop''?
    Mr. Goldman. Well, Ambassador Sondland produced for his 
public testimony--and I think it's very important in light of 
the testimony from Mr. Castor a minute ago with Mr. Buck as to 
how many times that Mr. Sondland did not remember in his 
deposition, because we agree, it was egregious.
    But the advantage of doing closed depositions is that Mr. 
Sondland could not match up his testimony. So as other 
witnesses came in, then he realized that he had to actually 
admit to more and more stuff. So he did admit to an email that 
included Secretary Pompeo, Mulvaney----
    Ms. Bass. I do want to make a point before my time goes 
out.
    We have to think about what is going on today. So President 
Zelensky is meeting with Putin today. And because of President 
Trump's actions, Zelensky is in a weakened position to 
negotiate with the leader of the Nation that invaded his 
country.
    If our military assistance had been provided as Congress 
ordered it and the White House meeting, President Zelensky 
would be meeting with Putin from a position of strength.
    If you want the support that--what we have to realize, that 
the message that this sends to our allies and to our standing 
in the world--if you want the support of the United States, be 
prepared to help with President Trump's reelection. President 
Trump's abuse of power has injured our Nation.
    Chairman Nadler. The gentlelady yields back.
    Mr. Ratcliffe.
    Mr. Ratcliffe. Thank the Chairman.
    The 299-page Democratic majority report mentions the 
intelligence community Inspector General Michael Atkinson on 
pages 26, 33, 138, 140, and 143.
    Mr. Goldman. you were present for the October 4, 2019, 
transcribed interview of the Inspector General Michael 
Atkinson, correct?
    Mr. Goldman. Yes.
    Mr. Ratcliffe. On pages 53 to 73 of that transcribed 
interview, the Inspector General's testimony confirms the 
following: That the whistleblower made statements to the 
Inspector General under penalty of perjury that were not true 
and correct; that the whistleblower first made statements in 
writing under penalty of perjury that were not true and 
correct. The whistleblower then made statements under penalty 
of perjury that were not true and correct in his or her verbal 
responses to the Inspector General's investigative team.
    Because of the whistleblower's statements in writing and 
verbally to the Inspector General that were neither true, 
correct, or accurate, pages 53 to 73 of that sworn testimony 
revealed that the Inspector General was not able to answer any 
questions, none, from me about the whistleblower's contact or 
communication with Chairman Schiff's staff of which Mr. Goldman 
is a member.
    Mr. Castor. do you remember anywhere in this 299-page 
report that makes reference to the fact that when the 
whistleblower started this inquiry, he or she did so by making 
statements under penalty of perjury that were neither true or 
correct in writing and then did so again verbally?
    Mr. Castor. I don't remember that.
    Mr. Ratcliffe. After the Inspector General testified on 
October 4, and after media reports revealed that the 
whistleblower and Chairman Schiff did not disclose their prior 
contacts or communications with one another, the whistleblower 
contacted the Inspector General to explain why he or she made 
statements under penalty of perjury in writing and verbally 
that were not true, correct, and accurate.
    Mr. Castor. is that communication from the whistleblower--
from the whistleblower to the Inspector General to explain 
prior inconsistent statements reflected anywhere in the 299-
page report?
    Mr. Castor. No.
    Mr. Ratcliffe. On October 2, Chairman Schiff's spokesman, 
Patrick Boland, acknowledged publicly that the outlines of the 
whistleblower's accusations against the President had been 
disclosed to the House Intelligence staff and shared with 
Chairman Schiff.
    Mr. Castor. is that disclosure and Mr. Boland's admission 
of that disclosure anywhere in this report?
    Mr. Castor. I don't remember seeing it.
    Mr. Ratcliffe. It's not.
    I think all Members of Congress should be held accountable 
during this impeachment process, and to that end, if I have 
made any false statements about the whistleblower or the 
Inspector General's testimony today, then I should be held 
accountable. The way to do that would be to release the 
Inspector General's testimony or even just pages 53 to 73.
    I would add that there's nothing in those pages that would 
in any way identify or place at risk the whistleblower's 
identity, nor would it reveal any information that in any way 
relates to, much less jeopardizes, national security.
    Look, maybe there's a believable explanation for why the 
whistleblower made statements that weren't true or accurate 
about his contact or her contact with Chairman Schiff in 
writing and then again verbally.
    Maybe there's a good explanation for why the words Congress 
or congressional committee was confusing or not clear to the 
whistleblower.
    Maybe there's a good explanation for why the whistleblower 
also misled the Inspector General in writing on August 12 by 
stating, I reserve the option to exercise my legal right to 
contact the committee directly, when the whistleblower had, in 
fact, already contacted Chairman Schiff's committee 2 weeks 
before he or she wrote that.
    Maybe there's a believable reason why Chairman Schiff was 
not initially truthful about his staff's communications with 
the whistleblower.
    Maybe there's a good reason that explains all of these 
statements in writing and verbally that just weren't true and 
correct. Maybe there is.
    But there is no good reason for voting to impeach and 
remove from office an American President without allowing a 
single question to be asked of a single witness to get an 
explanation for why the Inspector General was not told the 
truth about contacts between the whistleblower and Chairman 
Schiff.
    The bottom line is we should all be held accountable, and 
next November, every Member of the House will be asked this 
question: Did you vote to impeach the President without 
allowing any investigation into why the whistleblower that 
started it all did so by making statements in writing and 
verbally under penalty of perjury that were not true? Democrats 
may not care if that question ever gets answered, but the 
voters will.
    I yield back.
    Chairman Nadler. The gentleman yields back.
    Mr. Richmond.
    Mr. Richmond. Thank you, Mr. Chairman.
    Mr. Goldman. I want to start off with facts that you all 
uncovered through the course of your investigation. I want to 
pick up where my colleagues, Mr. Deutch and Ms. Bass, left off.
    They walked us through how the President used the White 
House visit to apply pressure on Ukraine to do his personal 
bidding. I want to talk about how the President did the same 
thing with almost 400 million taxpayer dollars to pressure 
Ukraine to do his personal bidding.
    So I'd like to start with turning back to the July 25 call. 
It's a fact that in the President's own words in the transcript 
submitted by him reveals that after Ukraine asked for military 
aid, Trump says: I would like you to do us a favor, though.
    Mr. Goldman. Right after President Zelensky thanks 
President Trump for the military assistance, then President 
Trump asks for a favor. And of course, by this point, President 
Trump had already placed the hold on the security assistance.
    Mr. Richmond. Now, my Republican colleagues have suggested 
that the Ukrainians did not even know about the military aid 
being withheld. Is that true?
    Mr. Goldman. No. There was significant evidence that even 
as early as July 25, at the time of this call, that Ukrainian 
officials had suspected that the aid was being withheld. And 
there was a New York Times article actually last week that 
wasn't included in our report, but from the former foreign--or 
deputy foreign minister who said that they--that Ukraine, 
President Zelensky's office received a diplomatic cable from 
the embassy here the week of July 25 saying that the aid had 
been held.
    Mr. Richmond. Correct. And what I also show you on the 
screen is that it was on July 25 also, the same day of the 
call, that the State Department emailed the Department of 
Defense noting that the Ukrainian Embassy was asking about the 
withheld military aid.
    Mr. Goldman. Yes. That's what I was referring to.
    Mr. Richmond. I'd like then to--let's go back. There was 
also discussion earlier during the minority questioning that 
Mr. Sandy from OMB said that the reason for the security 
assistance hold was related to the President's concerns about 
burden sharing with Europe. Is that consistent with the 
evidence that you all uncovered?
    Mr. Goldman. So it's a good question because Mr. Sandy did 
say that. But, notably, Mr. Sandy said that he only heard that 
in early September, that that reason was never provided to him 
or anybody else before early September for the first 2 months 
of the hold. And of course, it was given at that point as this 
the gig was up, so to speak.
    Mr. Richmond. So that was after everything came out to 
light?
    Mr. Goldman. It was--he wasn't sure of the timing, but he 
was ultimately told that the reason for the hold after it was 
lifted was for that reason, but that's, you know, I think an 
after-the-fact excuse, based on our evidence, because no other 
witnesses were ever told of that reason during the entire time 
that it was held.
    Mr. Richmond. Mr. Chairman, I'd like to enter into the 
record evidence uncovered by the committee from the House 
Budget and Appropriations Committees that documents OMB placing 
a hold on the Ukrainian security assistance on July 25.
    Chairman Nadler. Without objection.
    [The information follows:]

      


                  MR. RICHMOND FOR THE OFFICIAL RECORD

=======================================================================

      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Richmond. So let's review. On July 18, OMB announced to 
all relevant agencies that the military aid would be withheld 
from Ukraine. On a call with Ukraine on July 25, President 
Trump says: Do us a favor, though, and asks Ukraine to 
investigate his political rival.
    Also on July 25, in the hours following that call, both the 
Ukrainians and the Americans took action specifically related 
to that military aid. The Ukrainians began asking about the 
status of their military aid, and OMB took its first official 
action to withhold that aid.
    Mr. Goldman, I'm placing on the screen in front of you an 
email from Ambassador Sondland to members of the White House 
administration in which Ambassador Sondland says: I would ask 
Zelensky to look him in the eye and tell him that once 
Ukraine's new justice folks are in place, Zelensky should be 
able to move forward publicly and with confidence on those 
issues of importance to the President and the United States. 
Hopefully that will break the logjam.
    Did the investigative committees uncover any evidence on 
what Ambassador Sondland meant when he suggested that President 
Zelensky would have to move forward publicly on, quote, 
``issues of importance to the President,'' to receive military 
aid?
    Mr. Goldman. Ambassador Sondland said those were the two 
investigations that President Trump mentioned on the July 25 
call, which Secretary Pompeo, who received that email, listened 
into.
    Mr. Richmond. So the President was concerned about the two 
investigations, and note that was the predicate for releasing 
military aid to our ally?
    Mr. Goldman. At the time of that email, yes.
    Mr. Richmond. Thank you, and I yield back.
    Chairman Nadler. The gentleman yields back.
    A little earlier Mr. Armstrong had asked a unanimous 
consent request to insert into the record the IG report 
released today about FISA, and I had said we would take it 
under advisement. We have reviewed it, and without objection, 
it will be entered into the record.
    [The information follows:]
      


                 MR. ARMSTRONG FOR THE OFFICIAL RECORD


=======================================================================

      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Nadler. Mrs. Roby.
    Mrs. Roby. I'm actually stunned by the process, or lack 
thereof, that is taking place in this institution. I have many 
Democratic friends that I know to be thoughtful, deliberative 
Members of Congress, even though we may disagree vehemently on 
policy.
    But these proceedings being led by the majority, like I 
said, it's stunning. I cannot for the life of me figure out why 
the majority would approach this in such a way that will 
forever cast doubt on why and how they chose to affect history 
with the impeachment of a President of the United States.
    And now to what has taken place here today. This is just 
bizarre. As a Member of Congress serving on the House Judiciary 
Committee, I'm asking questions to staff as witnesses before us 
in an impeachment evidentiary hearing? I mean no disrespect to 
staff. We have the most dedicated, hardworking staff, and 
without these individuals, we most certainly couldn't do our 
jobs effectively. But we have not and we will not hear from any 
fact witnesses.
    Whether you identify as a Republican, a Democrat, or an 
independent, whether you agree or disagree with the President, 
whether you like or dislike a President, the American people 
should be cheated--should feel cheated by the way this is all 
taking place. This process is more than incomplete, and the 
American people deserve better.
    Today, history is being made, and I, too, believe it is a 
dangerous precedent for the future of our Republic. It is worth 
a deeper explanation of the issue of a minority hearing. The 
minority members of this committee have frequently asked the 
chairman for a minority day hearing, and all members on this 
side have signed onto a letter to the chairman asking for a 
minority day hearing.
    I'd like to quote House Rule XI, clause 2: Whenever a 
hearing is conducted by a committee on a measure or a matter, 
the minority members of the committee shall be entitled upon 
the request to the chair by a majority of them before the 
completion of the hearing to call witnesses selected by the 
minority to testify with respect to that measure or matter 
during at least 1 day of hearing thereon.
    The wording here is that the minority shall be entitled, 
not if the chairman deems the minority worthy, but shall be 
entitled.
    Mr. Castor, with all of your experience in investigations 
here in the Congress, is it your belief, based on that 
experience, that ignoring the minority's stated rights for a 
hearing under the Rules of the House severely undermines the 
future of this institution?
    Mr. Castor. Yes.
    Mrs. Roby. I'd like to quote what we heard from the 
Democratic staff, Mr. Berke, in his opening comments: It is the 
hope that in these discussions, we can put aside political 
rancor, disagreements, and have a fair discussion.
    That is far from what has happened here today or the days 
leading up to this. The American people deserve better than 
this.
    And I yield the remainder of my time to Mr. Collins.
    Mr. Collins. Thank you.
    Mr. Castor, we've heard a lot, this is always a good time, 
I think, to go back and remind people that there are four 
things that really haven't changed. Would you like to at least 
remind us of everything that's been discussed?
    Mr. Castor. Well, there's four things that will never 
change, and that is that the transcript is complete and 
accurate. It shows no quid pro quo, no conditionality. That's 
number one.
    Number two, there was no pressure. Both Zelensky and Trump 
have said that repeatedly. President Zelensky said that at the 
United Nations on September 25. He said it in subsequent news 
articles on October 6, October 10, and December 1.
    Number three, the Ukrainians and Zelensky did not know 
about the pause in aid, at the very least, at the time of the 
call.
    And number four, no investigations were announced, the aid 
was released, and the White House, you know, afforded a 
meeting, and then President Trump met with Zelensky in New 
York.
    Mr. Collins. Do you find it amazing that the majority, one 
of their key prongs of this whole thing is that they're making 
the elected leader of the Ukraine out to be a liar? Because if 
he says that there's no pressure, he's done it on many, many 
occasions since then, that undoubtedly they believe him not to 
be truthful. So isn't it, doesn't that strike you as a little 
strange, especially in this circumstance?
    Mr. Castor. It's unfortunate.
    Mr. Collins. It is. It's just sad that we're calling an 
elected leader who is actually working on corruption and other 
things like that, we're calling a liar simply because they 
don't agree with the Democrats' theory of a partisan 
impeachment.
    With that, I yield back.
    Chairman Nadler. The gentleman yields back.
    Mr. Jeffries.
    Mr. Jeffries. Let's focus on the aid to Ukraine.
    Mr. Goldman, Congress allocated on a bipartisan basis $391 
million in military aid to the Ukraine. Is that correct?
    Mr. Goldman. Yes, and it was signed by President Trump into 
law.
    Mr. Jeffries. Does the record establish that the military 
aid to Ukraine is in the national security interests of the 
United States?
    Mr. Goldman. Absolutely.
    Mr. Jeffries. The investigation concluded that President 
Trump compromised U.S. national security by withholding vital 
military assistance and diplomatic support. Is that true?
    Mr. Goldman. Yes.
    Mr. Jeffries. President Trump and his defenders claim that 
he withheld military aid out of alleged concern with corruption 
in Ukraine. Let's explore this phony justification.
    Donald Trump first spoke to the President of Ukraine on an 
April 21 call, correct?
    Mr. Goldman. That's right.
    Mr. Jeffries. President Trump never used the word 
``corruption'' on that April 21 call, true?
    Mr. Goldman. That is true, and the readout from the White 
House after the call did say that President Trump talked about 
corruption.
    Mr. Jeffries. That readout was inaccurate.
    In a May 23 letter, Trump's Department of Defense concluded 
that Ukraine met the anticorruption benchmarks required to 
receive military aid from the United States, true?
    Mr. Goldman. Yes. And if I could just take a second to talk 
about that, because that's very important, and this goes back 
to what Mr. Collins was talking about with Vice President 
Biden.
    There is absolutely conditionality on aid routinely in all 
sorts of different ways, but it's done through official policy. 
And these anticorruption benchmarks that you're referencing 
here was a condition of Ukraine getting the aid. But in May, 
the Department of Defense, in conjunction with the other 
interagencies, certified that Ukraine was making the necessary 
progress on anticorruption efforts to merit the aid.
    Mr. Jeffries. And yet the aid was not released, correct?
    Mr. Goldman. The aid was subsequently held. It was supposed 
to be released. DOD announced the release, and then President 
Trump held the aid without explanation.
    Mr. Jeffries. Mr. Goldman, based on the evidence and 
testimony that you have reviewed, is there any reason to 
believe that the President cared about corruption in Ukraine?
    Mr. Goldman. No. The evidence really supports the fact that 
President Trump views corruption in Ukraine to be synonymous 
with the two investigations that he wants.
    Mr. Jeffries. What the President did care about was a 
political favor from the Ukrainian Government, and that is why 
he withheld the military aid, true?
    Mr. Goldman. He told Ambassador Sondland himself that that 
is the only thing that he cares about.
    Mr. Jeffries. Now, several witnesses testified as to the 
real motivation connected to the withheld military aid, 
including Ambassador Bill Taylor. Here is what he said in his 
testimony.
    [Video shown.]
    Mr. Jeffries. Illogical, unexplainable, crazy.
    Mr. Goldman, according to the testimony from Ambassador 
Taylor, the only explanation for the withheld aid that made 
sense is that the President was seeking help with a political 
campaign, correct?
    Mr. Goldman. That is the only logical explanation, as 
multiple witnesses said.
    Mr. Jeffries. Ambassador Sondland is a Trump appointee who 
gave a million dollars to the President's inauguration, and he 
testified that he came to believe that the resumption of 
security aid would not occur until there was a public statement 
from Ukraine committing to the investigations, correct?
    Mr. Goldman. Yes, and that was subsequently confirmed in a 
conversation with President Trump himself.
    Mr. Jeffries. Lieutenant Colonel Vindman is a decorated 
Iraq war veteran, Purple Heart recipient, and member of the 
White House National Security Council, and he testified that it 
is improper for the President of the United States to demand a 
foreign government investigate a U.S. citizen and a political 
opponent, correct?
    Mr. Goldman. Yeah. That was pretty much the unanimous view 
of all 17 witnesses that came in to testify before the 
Intelligence Committee.
    Mr. Jeffries. The evidence shows that President Trump 
withheld military aid from Ukraine as part of a scheme to 
extract a political favor and solicit foreign interference in 
the 2020 election, true?
    Mr. Goldman. Yes, and the scheme part is very important 
because the minority wants to focus on these four very narrow 
facts that ignore the vast majority of the evidence. And so the 
fact that he used scheme is actually critical to the whole case 
here.
    Mr. Jeffries. The President abused his power. The President 
must be held accountable. No one is above the law.
    I yield back.
    Chairman Nadler. The gentleman yields back.
    Mr. Gaetz.
    Mr. Gaetz. The last public opinion poll I saw showed 
Congress had an approval rating at about 9 percent. By 
contrast, Muammar Qadhafi had an approval rating at 13 percent, 
and his own people dragged him in the streets and killed him.
    This impeachment process demonstrates the worst in us, and 
it is depriving us the opportunity to raise our gaze and meet 
the needs of the American people.
    Unless you have bipartisan consensus, impeachment is a 
divisive issue in the country. Many people would think it's 
being done for political reasons. Nancy Pelosi, May 2018.
    And here we are in the most partisan Presidential 
impeachment in American history. Matter of fact, when we opened 
the inquiry, no Republicans voted with the Democrats, and you 
even had Democrats voting with us in the only bipartisan vote 
to shut down this impeachment.
    And that brings us to your role, Mr. Goldman. Are you here 
as a partisan advocate for the Democrat position, or are you 
here as a nonpartisan investigator of the facts?
    Mr. Goldman. I'm here to present the report that we did on 
our investigation which was totally and completely reliant on 
the actual evidence that we uncovered, the witness testimony, 
and the documents.
    Mr. Gaetz. Are you a partisan?
    Mr. Goldman. I am not a partisan.
    Mr. Gaetz. Mr. Castor, how long have you worked for the 
House?
    Mr. Castor. Since 2005.
    Mr. Gaetz. And the same question, Mr. Goldman.
    Mr. Goldman. For the House? Since earlier this year.
    Mr. Gaetz. Mr. Castor, do you make political donations?
    Mr. Castor. I don't remember any.
    Mr. Gaetz. Mr. Goldman, same question. Do you make 
political donations?
    Mr. Goldman. I do, sir. I think it's very important for----
    Mr. Gaetz. Matter of fact, you've given tens of thousands 
of dollars to Democrats, right?
    Mr. Goldman. Sir, I think it's very important to support 
candidates for office. I think our----
    Mr. Gaetz. Have you given over a hundred thousand?
    Mr. Goldman. Do you mind if I----
    Mr. Gaetz. I just want to know the number. I don't really 
care the basis. Have you given more than $100,000 to the 
Democrats?
    Mr. Goldman. You don't care about it?
    Mr. Gaetz. The basis. I just want the number. So it's tens 
of thousands. I think Mr. Berke----
    Mr. Goldman. I don't know the number.
    Mr. Gaetz. Do you know how much money Mr. Berke has given 
Democrats?
    Mr. Goldman. I don't know, and I don't think it's relevant.
    Mr. Gaetz. Would it surprise you if it's more than 
$100,000?
    Mr. Goldman. Mr. Gaetz, I'm here to talk about this report.
    Mr. Gaetz. So you gave tens of thousands----
    Mr. Goldman. I'm happy to talk to you about the report.
    Mr. Gaetz [continuing]. And Mr. Berke gave hundreds of--or 
more than $100,000. Do you think if you had given more money, 
you might have been able to ask questions and answer them like 
Mr. Berke did?
    I guess it's something you're still pondering.
    Mr. Castor, have you ever tweeted anything at the 
President?
    Mr. Castor. No.
    Mr. Gaetz. Mr. Goldman, same question.
    Mr. Goldman. I have made a number of tweets in my private 
capacity before I came to this job when I was working in the 
media, yes.
    Mr. Gaetz. Matter of fact, this is one of those tweets, 
right? And you said: Nothing in the dossier has proven false.
    But in fact, the dossier said that there was a Russian 
consulate in Miami, when there isn't. The dossier said that 
Michael Cohen had a meeting in Prague, when he didn't. The 
dossier said that Michael Cohen's wife was Russian. She's, in 
fact, Ukrainian.
    And so as we sit here today where you, I guess, got a tweet 
mentioning a pee tape presenting yourself not as a partisan, 
hired by the Democrats to pursue the President, do you regret 
this tweet?
    Mr. Goldman. Sir, I would be happy to put my--this 
investigation up with any of the nonpartisan investigations I 
did----
    Mr. Gaetz. I just want to know if you regret the tweet, Mr. 
Goldman.
    Mr. Goldman [continuing]. During my 10 years as a Federal 
prosecutor.
    Mr. Gaetz. Do you regret it?
    Mr. Goldman. I hope you'll read the evidence, and I think 
you can judge for yourself whether it's partisan or not.
    Mr. Gaetz. You either regret or you don't regret it, Mr. 
Goldman. I guess you don't want to answer the question.
    You know what, Mr. Chairman, earlier in this hearing you 
said in your opening statement that there is nothing more 
urgent than impeachment right now. This is the most urgent 
thing we could possibly do.
    Well, you know what, if you're a senior right now and you 
can't afford your prescription drugs, that's more urgent than 
this.
    If you're a manufacturer wanting to dominate the Western 
Hemisphere with the passage of the USMCA, that is more urgent.
    If you're a farmer who wants to open markets so that your 
family can survive and thrive, that is a lot more urgent than 
this partisan process.
    If you're a desperate family member watching someone 
succumb to addiction, solving the opioid problem, probably more 
urgent than this partisan impeachment.
    If you're a member of the next generation dealing with the 
challenges of extinction and climate change, a budget that's 
out of control, driving up the credit card of young people in 
this country and what they'll have to pay back as a consequence 
of our poor decisions, likely more urgent.
    But House Democrats have failed at all of these things. 
Matter of fact, I'd say the only thing under the Christmas tree 
for most Americans would be a lump of coal, but I think they're 
against coal, too. The only thing under the Christmas tree for 
Americans would be impeachment and investigations.
    I've heard over and over Democrats say that this is all 
about the President's personal interest and that he abandoned 
the national interest, and it begs an analysis of how the 
Nation is doing.
    In November, 266,000 jobs created, 80,000 over the average. 
Half a million more manufacturing jobs in the Trump Presidency; 
700,000 construction jobs.
    We are doing better than ever before. The American people 
are thriving. Why won't you help us move along the critical 
issues that are far more important than your partisan 
impeachment?
    Chairman Nadler. The gentleman's time has expired.
    Mr. Cicilline.
    Mr. Cicilline. Let me begin by dispelling the claim that 
Mr. Gaetz just made. This has been one of the most productive 
Congresses in modern history. We've passed nearly 400 pieces of 
legislation that respond to the urgent priorities of the 
American people, driving down healthcare costs, raising wages 
for the American worker, responding to gun violence, providing 
equal pay for equal work, responding to the climate crisis. Two 
hundred and seventy-five of those bills are fully bipartisan, 
and 80 percent of those bills are sitting on the Senate 
majority leader's desk awaiting action.
    So we will continue to deliver on the important priorities 
of the American people. But we were also elected to hold this 
President accountable, and we took an oath of office that said 
to protect and defend the Constitution, and that's what we're 
engaged in today.
    So I want to return, Mr. Goldman, to the military aid. Did 
the investigating committees receive evidence about why the 
United States military aid to Ukrainian was necessary? What was 
it advancing? Because a lot of American who are watching don't 
know a lot about Ukraine, don't know about the geopolitical 
significance. Why does it matter?
    Mr. Goldman. The witnesses were quite clear about this, and 
they say it mattered for multiple reasons.
    The first is that Russia invaded Ukraine to take over part 
of their country and that this was the first military incursion 
in Europe since World War II. And this is Russia, who's an 
adversary, actually trying to encroach on another democracy.
    So just from a broad democratic viewpoint, it was essential 
not only to Ukraine's national security but to America's 
national security to make sure that democracy remains 
worldwide.
    Mr. Cicilline. And when that--prior to the call on July 25, 
Congress had approved the aid, correct?
    Mr. Goldman. Congress had approved the aid, and then the 
President had held the aid.
    Mr. Cicilline. And the Defense Department had even publicly 
announced its intention to deliver the aid, correct?
    Mr. Goldman. That's right.
    Mr. Cicilline. The Trump administration had already 
certified that Ukraine had taken substantial steps to combat 
corruption, correct?
    Mr. Goldman. Correct.
    Mr. Cicilline. And that normally leads to the release of 
the aid, the certification.
    Mr. Goldman. They announced the release of the aid, yes.
    Mr. Cicilline. And the investigative committee questioned 
witnesses from the Defense Department, the State Department, 
OMB, the White House, and the National Security Council about 
the President's decision to withhold aid, correct?
    Mr. Goldman. Correct.
    Mr. Cicilline. And I'd like to play a clip of some of that 
evidence.
    [Video shown.]
    Mr. Cicilline. Am I correct that the witnesses that 
appeared before your committee confirmed that there was no 
credible explanation for withholding the military aid and that 
it was, in fact, against our national security interest to do 
so?
    Mr. Goldman. Everyone agreed it was against our national 
security interest to do so. The only explanation that any 
witness provided was Mr. Sandy, who said that he had heard from 
Rob Blair, I believe, the assistant to Mick Mulvaney, that the 
reason was because of other countries' donations or 
contributions to Ukraine. But that was only in September, and 
of course there were no further commitments from any other 
countries.
    Mr. Cicilline. And as we heard from Bill Taylor, who is a 
graduate of West Point and a decorated combat veteran who 
served in Vietnam, Ukraine then and now is in an active war 
with the Russians. Russia stole part of their country in Crimea 
and has killed more than 10,000 Ukrainians, and weakening 
Ukraine would only benefit Russia. Here is what Ambassador 
Taylor said.
    [Video shown.]
    Mr. Cicilline. Against the consensus of his own agencies 
and national security experts, the President used 
congressionally appropriated funds to advance his own political 
interests at the expense of our national security.
    This action is a threat to the integrity of our elections 
and the sanctity of our democracy. President Trump must not get 
away with this. No one in this country, no one, including the 
President of the United States, is above the law.
    And with that, I yield back.
    Chairman Nadler. The gentleman yields back.
    Mr. Johnson.
    Mr. Johnson of Louisiana. Thank you, Mr. Chairman.
    This has been a truly extraordinary and historically 
unprecedented hearing. It has, frankly, been an outrageous 
violation of due process, a series of violations of due 
process, in fact.
    Let me review the past seven and a half hours. In the 
beginning of our proceedings today, I asked Chairman Nadler if 
Mr. Berke was appearing here as a staff member or as a witness, 
but the chairman gave strangely conflicting answers to that 
important question.
    When I objected under House Rule XVII that Mr. Berke was 
repeatedly and brazenly steamrolling over House decorum rules 
and using language that impugned the motives of the President 
of the United States and suggested he is disloyal to his 
country, Chairman Nadler insisted that those words could not be 
taken down and stricken from the record, saying, quote, ``The 
rules don't apply here because Mr. Berke is merely appearing as 
a staffer.''
    But later, Chairman Nadler stated the opposite and declared 
that Mr. Berke was appearing to present the Democrat members' 
report as their representative, which would, of course, mean 
that the member rule should apply.
    Then Mr. Berke was allowed to switch places and turn from 
witness to questioner. That's extraordinarily bizarre, of 
course, but it's entirely consistent with this whole 
impeachment circus.
    As everybody knows, Intel Chairman Adam Schiff was allowed 
in the opening act of this circus to serve as the judge, jury, 
prosecutor, witness coach, and case strategy chief all in one. 
So much for due process.
    Under the Democrats' haphazardly drawn special parameters 
for these special hearings, House Resolution 660, Mr. Berke was 
then allowed to join the elected Members of Congress on this 
dais and ask 45 minutes of questions of his fellow witness, Mr. 
Castor.
    When he was argumentative, assumed critical facts not in 
evidence, engaged in speculation, and committed countless other 
violations of regular House rules and the Federal Rules of 
Civil Procedure, I objected, but was then ruled out of order by 
Chairman Nadler, who informed all of us that while House 
Resolution 660 specifically provides for objections, it lists 
none of them, and the Democrats have ignored every request of 
ours to obtain a list of what rules and objections would be in 
force and applicable today. Again, so much for due process and 
fairness.
    A month ago--listen--a month ago the Republican mechanics 
of this committee formally requested all documents related to 
the impeachment investigation, but Chairmen Nadler and Schiff 
withheld everything until you know when? Saturday afternoon. 
That's right. Less than 48 hours before this hearing, they 
dumped approximately 8,000 pages of documentation on us while 
we were back home in our districts. They intentionally made it 
literally impossible for us to review all material in any 
meaningful way mere hours before this fateful hearing.
    What's worse is that the documents they decided to dump on 
us are not all of the underlying records we need to review, but 
rather only a partial, redacted, and biased subset of 
information that they think will advance their false narrative. 
And as has been mentioned here, we're being allowed no minority 
day hearing, which is required by regular House rules.
    Now, I'd love to cross-examine Mr. Berke himself, but 
Chairman Nadler's special and still mysterious rules for this 
hearing won't allow it. I notice he's disappeared from the 
hearing room.
    I would love to ask him under oath about his own biases 
because, you know, he hammered here over and over today the 
importance of fairness and objectivity and accuracy, and he 
insisted that everything here has to be unbiased. But if he was 
under oath here, he would be forced to admit that FEC records 
show that he has personally donated approximately $99,000 to 
Democrat candidates over the years, including sizable donations 
to Hillary Clinton for President, and also donated to past 
Trump opponents, including Elizabeth Warren, Cory Booker, and 
Kirsten Gillibrand.
    He appeared here as a fact witness and a finder of fact, 
but in our system, a finder of fact is supposed to be fair and 
impartial. He's supposed to be an umpire.
    The problem with all this, and the problem that everybody 
at home can see with their own eyes is that the umpires in this 
high stakes game are parading around the field in the majority 
team's jerseys. The report of evidence released by Republican 
committee staff on December 2 carefully documents that in the 
hearings that led us to this point today, Chairman Schiff 
directed witnesses called by the Democrats not to answer 
Republican questions. He rejected witnesses identified by 
Republicans who would have injected some semblance of fairness 
and objectivity. And he denied Republican subpoenas for 
testimony and documents, violating the Democrats' own rules to 
vote down those subpoenas with no notice to Republicans.
    Chairman Schiff also publicly fabricated evidence about 
President Trump's July 25 phone call, and he misled the 
American public about his interactions with the anonymous 
whistleblower to selectively seek information to paint 
misleading public narratives.
    The anonymous whistleblower reportedly acknowledged having 
a professional relationship with Vice President Biden, and 
obviously his motives, biases, and credibility are essential to 
this case, but we can't question him.
    This is not due process, this is not the rule of law, and 
this is not how to impeach an American President, and this is 
not how we're supposed to run a country. It can't be.
    Seventeen out of 24 of our colleagues over there already 
voted to proceed with impeachment before we started all this. 
They've already made up their minds. They were prejudiced 
before they walked in. But the American people are not. 
Fairness still matters, truth matters, and the people can see 
clearly that this is a sham.
    I yield back.
    Chairman Nadler. The gentleman yields back.
    Mr. Swalwell.
    Mr. Swalwell. Mr. Goldman, would you welcome the problem of 
having 8,000 documents given to you from the White House?
    Mr. Goldman. It would be a wonderful problem to have.
    Mr. Swalwell. How many have they given you?
    Mr. Goldman. Zero.
    Mr. Swalwell. Mr. Castor, you said earlier that they got 
the aid, they got the aid, no harm, no foul, they got the aid. 
But you would agree that, although Mr. Sandy said that the 
Presidential concern was European contributions, nothing 
changed from when that concern was expressed to when they 
actually got the aid, right? You agree on that? Europe didn't 
kick in a bunch of new money.
    Mr. Castor. No, but they did a study. I mean, they----
    Mr. Swalwell. Oh, a study. Okay. But they didn't kick in 
new money. Do you agree on that?
    Mr. Castor. Ambassador Taylor discussed that they----
    Mr. Swalwell. Okay. You talked a lot about the 
anticorruption President that we have in Donald Trump, the 
person who had a fraud settlement relating to Trump University, 
the person who just recently with his own charity had a 
settlement related to fraud. Let's talk about that 
anticorruption President of ours.
    Take a wild guess, Mr. Castor. How many times has President 
Trump met with Vladimir Putin or talked to him?
    Mr. Castor. I don't know the number.
    Mr. Swalwell. It's 16.
    Mr. Castor. Okay.
    Mr. Swalwell. How many times has President Trump met at the 
White House with President Zelensky? It's zero. And who is 
President Trump meeting with at the White House tomorrow, do 
you know?
    Mr. Castor. I'm not--I'm not----
    Mr. Swalwell. It's Russian Foreign Minister Lavrov.
    Mr. Castor. Okay.
    Mr. Swalwell. Now, Mr. Goldman, withholding aid from 
Ukraine obviously hurts Ukraine. It hurts the United States. 
Does it help any country?
    Mr. Goldman. The witnesses said that that would help 
Russia.
    Mr. Swalwell. Did you also hear testimony that these acts 
by the President, while being wrong and an abuse of power, also 
harmed U.S. national security?
    Mr. Goldman. Yes.
    Mr. Swalwell. Did you hear anything about how it would harm 
our credibility? And I would turn you to a conversation 
Ambassador Volker had on September 14 of this year with a 
senior Ukrainian official where Ambassador Volker is impressing 
upon that official that President Zelensky should not 
investigate his own political opponents. What was thrown back 
in the face of Ambassador Volker?
    Mr. Goldman. After Ambassador Volker suggested to Mr. 
Yermak again who is here that they should not investigate the 
prior President of Ukraine, Mr. Yermak sent back: Oh--said back 
to him: Oh, like you're encouraging us to investigate Bidens 
and Clintons.
    Mr. Swalwell. During Watergate, the famous phrase from 
Senator Howard Baker was asked, what did the President know, 
and when did he know it?
    There's a reason that no one here has repeated those 
questions during these hearings. We know what the President 
did, and we know when he knew it.
    Mr. Goldman, who sent Rudy Giuliani to Ukraine to smear Joe 
Biden?
    Mr. Goldman. President Trump.
    Mr. Swalwell. Who fired the anticorruption ambassador in 
Ukraine, Marie Yovanovitch?
    Mr. Goldman. President Trump.
    Mr. Swalwell. Who told Ambassador Sondland and Ambassador 
Volker to work with Rudy Giuliani on Ukraine?
    Mr. Goldman. President Trump.
    Mr. Swalwell. Who told Vice President Pence to not go to 
President Zelensky's inauguration?
    Mr. Goldman. President Trump.
    Mr. Swalwell. Who ordered his own Chief of Staff, Mick 
Mulvaney, to withhold critical military assistance for Ukraine?
    Mr. Goldman. President Trump.
    Mr. Swalwell. Who refused to meet with President Zelensky 
in the Oval Office?
    Mr. Goldman. President Trump.
    Mr. Swalwell. Who ignored on July 25 his own National 
Security Council's anticorruption talking points?
    Mr. Goldman. President Trump.
    Mr. Swalwell. Who asked President Zelensky for a favor?
    Mr. Goldman. President Trump.
    Mr. Swalwell. Who personally asked President Zelensky to 
investigate his political rival, Joe Biden?
    Mr. Goldman. President Trump.
    Mr. Swalwell. Who stood on the White House lawn and 
confirmed that he wanted Ukraine to investigate Vice President 
Biden?
    Mr. Goldman. President Trump.
    Mr. Swalwell. Who stood on that same lawn and said that 
China should also investigate Vice President Biden?
    Mr. Goldman. President Trump.
    Mr. Swalwell. As to anything that we do not know in this 
investigation, who has blocked us from knowing it?
    Mr. Goldman. President Trump and the White House.
    Mr. Swalwell. So as it relates to President Trump, is he an 
incidental player or a central player in this scheme?
    Mr. Goldman. President Trump is the central player in this 
scheme.
    Mr. Swalwell. There is a reason that no one has said, what 
did the President know, and when did he know it? From the 
evidence that you have presented, Mr. Goldman, and the 
Intelligence Committee's findings, we know one thing, and one 
thing is clear: As it related to this scheme, the President of 
the United States, Donald J. Trump, knew everything.
    And I yield back.
    Chairman Nadler. The gentleman yields back.
    Mr. Biggs.
    Mr. Biggs. Mr. Castor, what's direct evidence?
    Mr. Castor. When a witness personally observes a fact and 
testifies to it.
    Mr. Biggs. And what's hearsay evidence?
    Mr. Castor. Well, an out-of-court statement offered for the 
truth of the matter asserted is something that you learn in law 
school.
    Mr. Biggs. Right. And under the Federal rules of evidence 
adopted by most States, hearsay is inadmissible unless the 
testimony falls under a defined exception. Is that right?
    Mr. Castor. That's right. There's about 23, plus the 
residual exception.
    Mr. Biggs. And I believe you were present when every 
witness testified, including Mr. Sondland, right?
    Mr. Castor. Uh-huh.
    Mr. Biggs. And much of--and that's a yes?
    Mr. Castor. Yes.
    Mr. Biggs. And much of the Democrats' report on the 
impeachment narrative is based on the Sondland testimony. Is 
that a fair characterization?
    Mr. Castor. A lot of it is, yes.
    Mr. Biggs. How many times is Mr. Sondland mentioned in the 
Intel Committee's report?
    Mr. Castor. Like I said, I did a search, just a control F, 
and the name Sondland shows up 611 times.
    Mr. Biggs. Yeah. And just to refresh your mind, Sondland 
himself told the world that basically nobody else on the planet 
told him that Donald Trump was trying to tie aid to 
investigations. In fact, he also said everything that he had 
been testifying to is simply his presumption. Is that right?
    Mr. Castor. That is correct.
    Mr. Biggs. And so when we consider what a presumption is, 
it's not direct, it's not circumstantial, it's not even 
hearsay. In fact, we typically, when we're trying a case, we 
consider it as speculation. Is that right?
    Mr. Castor. That's right.
    Mr. Biggs. Do the courts allow speculation in?
    Mr. Castor. No.
    Mr. Biggs. Why not?
    Mr. Castor. Because it's not reliable.
    Mr. Biggs. It's inherently unreliable.
    So can you name any Democrat witness who asserted that he 
or she had direct evidence of those 17 that we've been 
hearing--that we heard from.
    Mr. Castor. We had some direct evidence on certain things, 
and we had some direct evidence on the May 23 meeting. And 
Sondland gave some direct evidence. But a lot of what we 
obtained has been circumstantial.
    Mr. Biggs. How about with regard to personal knowledge of 
the quid pro quo allegation?
    Mr. Castor. Well, we have not gotten to the bottom of that 
from a direct evidence standpoint.
    Mr. Biggs. How about tying aid to investigations?
    Mr. Castor. That's correct, too.
    Mr. Biggs. How about political motives in asking for 
investigations?
    Mr. Castor. The facts surrounding that are ambiguous.
    Mr. Biggs. In the nonlegalistic world, when we talk going 
speculation, we typically think--use words like gossip, rumor, 
innuendo. Is that right?
    Mr. Castor. Yep.
    Mr. Biggs. And isn't it true that the only direct evidence 
that we have is that Ukraine received the aid without giving 
anything in return, President Zelensky has repeatedly stated no 
pressure, no problem with the phone call and the relationship 
with Mr. Trump, and that the President had a legitimate concern 
about Ukraine corruption?
    Mr. Castor. He did, and the burden sharing of European 
allies.
    Mr. Biggs. So much has been made about the alleged desire 
for an announcement of an investigation. But again, there is no 
direct evidence that supports the allegation that President 
Trump wanted merely the announcement of an investigation.
    Mr. Castor. Like I said, there's eight lines in the call 
transcript that go to what President Trump said about the 
investigations. Eight lines.
    Mr. Biggs. And everything else is hearsay, innuendo, rumor, 
gossip, right?
    Mr. Castor. It's inconclusive, certainly.
    Mr. Biggs. Yeah. So when we get into this event today and 
the process, and we started talking about the process, were you 
surprised to see Mr. Berke get out of his chair and move to the 
seat and sit down next to the chairman and start asking you 
questions?
    Mr. Castor. I don't know if I was surprised or not.
    Mr. Biggs. Yeah. Well, I'll tell you, I was, and it looks 
like Mr. Berke has been disappeared.
    And so that's one of the outrageous things about this 
process, and it's been outrageous from start to finish. We've 
seen prejudice and bias against the President from start to 
finish.
    We have the lion's share, almost two-thirds of the Members 
of the Democrats have already voted to impeach at least once, 
and that's before anything with regard to this July 25 
telephone conversation ever took place.
    And we're left with a constant view that as on November 9, 
2016, Representative Green from Texas wanted to begin 
impeachment proceedings at that point. Is that correct?
    Mr. Goldman. Yes.
    Mr. Biggs. January 20, 2017, Washington Post headline: Let 
the impeachment begin. Is that correct?
    Mr. Castor. Yes.
    Mr. Biggs. Ten days later, Mr. Zaid, who is the attorney 
for the whistleblower, tweeted out: Let the impeachment begin, 
let the coup begin, and victory to the lawyers. Is that right?
    Mr. Castor. Yes, I've seen that.
    Mr. Biggs. Yeah. We had people who on this committee came 
out today and said that they had meant--they went on TV and 
said: We wanted to start impeachment earlier, but the Speaker 
held us back. Did you see that?
    Mr. Castor. I haven't seen that, no. I haven't seen any 
news reports today.
    Mr. Biggs. Yeah. You wouldn't be surprised about that, 
though, would you?
    Mr. Castor. No.
    Mr. Biggs. No. Nobody should be surprised about that, 
because this is a sham hearing. Three years that they've been 
trying to remove this President, and this is the culmination of 
a predetermined outcome. That's where we are today.
    And so, with that, we bring it back to the same points: No 
pressure, no conditionality, and all of the aid, meetings, 
calls were received by the Ukrainians.
    With that, I yield back.
    Chairman Nadler. The gentleman yields back.
    Mr. Lieu.
    Mr. Lieu. Thank you, Chairman Nadler.
    Let's just cut through all the Republican arguments today 
and make things very simple. No one else in America could do 
what Donald Trump did and get away with it. No American elected 
official can call up a foreign government official and ask for 
an investigation of a political opponent. No one sitting on 
this Judiciary Committee can call up a foreign government 
official and ask for help in a reelection campaign. If we did 
that and got caught, we would likely be indicted.
    Now, let's focus on the President's abuse of power in this 
case, because it's actually worse than the examples I just 
gave. And I know that I first swore an oath to the Constitution 
when I joined the United States Air Force on Active Duty, and 
the three core values I learned were integrity first, service 
before self, excellence in all we do.
    I'd like to focus on the first two, integrity first and 
service before self, because it's ingrained in all military 
members that we cannot mix official duties with personal 
private gain.
    So, Mr. Goldman, in this case the $391 million at issue, 
that wasn't Donald Trump's money. That was U.S. taxpayer funds. 
Is that right?
    Mr. Goldman. Yes.
    Mr. Lieu. And certainly the President should not use our 
taxpayer money for his own personal benefit and especially not 
to leverage it for his own reelection campaign. Isn't that 
right?
    Mr. Goldman. That's correct.
    Mr. Lieu. The President's abuse of power is even worse in 
this case than just using official duties for private gain. 
It's also just flat-out illegal. You cannot solicit foreign 
assistance for a reelection campaign. That is a violation of 
the Federal Election Campaign Act. Multiple people have gone to 
prison for violating various sections of that act.
    A reasonable person could also conclude that the President 
violated the Impoundment Control Act of 1974, which Congress 
passed as a response to President Nixon's abuse of power. So 
I'd like to explore that a little further with you, Mr. 
Goldman.
    In this case, Congress, with bipartisan support, had 
appropriated taxpayer funds for the specific purpose of aiding 
Ukraine in its war against Russia. Is that right?
    Mr. Goldman. Yes.
    Mr. Lieu. And not only had that money been appropriated, 
the money had actually been released through the Department of 
Defense. Is that right?
    Mr. Goldman. They were about to release it, yes.
    Mr. Lieu. And then suddenly, without explanation, the 
President demanded that those taxpayer funds be withheld from 
an ally who desperately needed the aid.
    Mr. Goldman, did the President notify Congress about his 
decision to withhold the aid?
    Mr. Goldman. No, he did not.
    Mr. Lieu. So the Impoundment Control Act was designed to 
prevent the President from secretly taking congressionally 
appropriated funds and doing whatever he wants with them.
    So is it true that in your Intelligence report, you found 
the following in your findings of fact? President Trump ordered 
the suspension of $391 million in vital military assistance 
urgently needed by Ukraine, and the President did so despite 
his obligations under the Impoundment Control Act. Did you find 
that?
    Mr. Goldman. Yes.
    Mr. Lieu. All right. So not only did the President abuse 
his powers for personal gain and not only was it illegal, his 
actions also harmed U.S. national security. So it's a 
fundamental tenet of U.S. national security to push back 
against Russian aggression. Ukraine's at the tip of the spear 
in pushing back against Russian aggression.
    Is it true, Mr. Goldman, that harming the Ukrainian 
military also harms U.S. national security?
    Mr. Goldman. That's what pretty much every witness said.
    Mr. Lieu. Last week, Professor Karlan confirmed that it is 
an impeachable offense to sacrifice the national interest for 
his own private ends. A slide shows what she said.
    Mr. Goldman, based on the evidence that you found in your 
report, is it fair to conclude that the President's actions 
both leveraged taxpayer funds for his own private gain and 
sacrificed the national interest for his own private ends?
    Mr. Goldman. That is what we found.
    Mr. Lieu. I was also perfectly struck by Mr. Holmes' 
testimony, because it makes it clear that the President did not 
care about our foreign policy or U.S. national security. He 
only cared about investigating his political opponent. Here's 
what Mr. Holmes said.
    [Video shown.]
    Mr. Lieu. Look, here's the thing. If any military member 
used official acts for personal gain, that member would no 
longer be part of the military. And, in fact, last year a Navy 
commander was convicted for taking things of value in exchange 
for official acts. The U.S. attorney who prosecuted the case 
said the commander, quote, ``put his own selfish interests 
ahead of the Navy and of our Nation,'' unquote.
    We should not hold the Commander in Chief to a lower 
standard than regular military members. We should not hold the 
President to a different standard than any other elected 
official. No one is above the law.
    I yield back.
    Chairman Nadler. The gentleman yields back.
    Mr. McClintock.
    Mr. McClintock. Thank you, Mr. Chairman.
    You know, in every election one side wins and the other 
loses. Democracy only works because the losing side always 
respects the will of the voters. The moment that social compact 
breaks down, democracy collapses into chaos.
    Now, that's only happened twice in our Nation's history. It 
happened in 1860, when the Democrats refused to accept the 
legitimate election of Abraham Lincoln; and it happened again 
in 2016, when the Democrats refused to accept the legitimate 
election of Donald Trump.
    The issues before us today do, indeed, strike at the heart 
of our democracy. The first calls for impeachment began just 
days after the 2016 election, and ever since, the Democrats 
have been searching for a pretext. When the Mueller 
investigation found no evidence to support the monstrous lie 
that the President acted in collusion with Russia, the 
Democrats realized they were running out of time and suddenly 
the Ukrainian phone call replaced collusion, Stormy Daniels, 
tax returns, emoluments, and even tweets as the reason to 
nullify the election just a year before the next one is to be 
held.
    Impeachment is one of the most serious powers with which 
Congress is entrusted. It requires an overwhelming case of high 
crimes supported by clear evidence that a vast majority of the 
Nation deems compelling.
    Our Constitution vests the executive authority, including 
the enforcement of our laws, with the President, and it gives 
him sole authority to conduct our foreign affairs. Clearly, 
this includes requesting a foreign government to cooperate in 
resolving potentially corrupt and illegal interactions between 
that government's officials and ours.
    Now, the sum total of the Democrats' case comes down to 
this. Not one of their hand-picked witnesses provided any 
firsthand knowledge of the President ordering a quid pro quo, 
and two witnesses, Sondland by testimony and Senator Johnson by 
letter, provided firsthand testimony that the President 
specifically ordered no quid pro quo.
    No testimony was provided that the Ukrainian Government 
believed that there was any quid pro quo, but there are ample 
public statements that its officials did not believe there was 
such a linkage.
    In fact, the testimony of their witnesses crumbled under 
questioning, and we were left with career bureaucrats who 
admitted that the only evidence they offered was presumption, 
speculation, and what they'd read in The New York Times.
    It's upon this flimsy evidence that the Democrats justify 
nullifying the 2016 Presidential election. And it's so flimsy 
the Democrats have had to turn our Bill of Rights on its head 
in order to make it.
    They've argued that hearsay evidence, better known as 
gossip, is better than direct testimony. They've argued that 
the burden of proof rests with the accused to prove his 
innocence while at the same time denying the defense witnesses 
permission to testify. They've argued that the right to 
confront your accuser is an invasion of the accuser's privacy. 
They've argued that appealing to the courts to defend your 
constitutional rights, as the President has done, is ipso facto 
obstruction of justice and evidence of guilt.
    They've asserted the power to determine what witnesses the 
defense is allowed to call. And they've argued that a crime is 
not necessary to impeach, only impure motives in performing 
otherwise lawful acts, motives, of course, to be divined 
entirely by the accusers.
    These are the legal doctrines of despots, but they're the 
only ones that can accommodate the case before us today. This 
is a stunning abuse of power and a shameless travesty of 
justice that will stain the reputations of those responsible 
for generations to come. And God help our country if they 
should ever be given the power to replace our Bill of Rights 
with the doctrines that they have imposed in this process.
    The Democrats are fond of saying no one is above the law, 
but they have one unspoken caveat: except for themselves.
    Now, the Speaker has already short-circuited what should be 
a solemn, painstaking, thorough, and, above all, fair process 
by ordering her foot soldiers on this committee to draw up 
Articles of Impeachment without this committee hearing from a 
single fact witness. Despite the fact that Mr. Schiff doesn't 
dare to appear before this committee to defend his work, we're 
supposed to accept his report at face value and obediently 
follow the Speaker's orders. As the Red Queen declared: 
Sentence first, verdict afterwards.
    We can only pray the Senate still adheres to the judicial 
principles of our Founders, and if they do, perhaps then we can 
begin repairing the damage that this travesty has done to our 
democracy, our institutions, our principles of justice, our 
Constitution, and our country.
    Chairman Nadler. The gentleman yields back.
    Mr. Raskin.
    Mr. Raskin. Thank you.
    Why is impeachment in the Constitution? Well, the Framers 
feared a President might corrupt our elections by dragging 
foreign powers into our politics in order to promote the 
personal political ambitions of the President above the rule of 
law and above the national security. The Framers set against a 
potential tyrant's boundless thirst for power the people's 
Representatives here in Congress and the people's own 
democratic ambitions, our self-respect, our love of freedom and 
the rule of law, our fierce constitutional patriotism.
    Now, it looked like President Trump might get away with his 
Ukraine shakedown. After all, most Americans didn't know 
anything about it and the few who learned of it would be too 
afraid, too intimidated to cross the most powerful man on 
Earth. President Trump could rest easy.
    But if Donald Trump misjudged the American character, the 
Framers of our Constitution did not. I count 17 honorable 
public servants who came forward to testify over the 
intimidation and disparagement of the President.
    Is that right, Mr. Goldman?
    Mr. Goldman. Yes, there were 17.
    Mr. Raskin. And I count a dozen career State Department and 
national security officials who served Republican and 
Democratic Presidents alike over decades who came to testify. 
In fact, four of President Trump's own National Security 
Council staffers, Hill, Vindman, Morrison and Maguire, came 
forward to report Trump's scheme to NSC lawyers as soon as they 
learned of it. Didn't they, Mr. Goldman?
    Mr. Goldman. Morrison and Vindman went to the lawyers as 
soon as they learned of it, yes.
    Mr. Raskin. They went to the lawyers. And that moved me a 
lot, because my father was a staffer on the National Security 
Council under President Kennedy, and he said the most important 
thing you can bring to work with you every day is your 
conscience. And he devoted his career to the idea that people 
must speak truth to power when power becomes a clear and 
present danger to democracy and to the people.
    So I want to talk about two of the many honorable 
government witnesses who went under oath and stood up for the 
truth.
    Mr. Goldman, who is Dr. Fiona Hill?
    Mr. Goldman. Dr. Fiona Hill was the senior director for the 
Europe and Russia Directorate at the National Security Council 
until July of this year.
    Mr. Raskin. And she was President Trump's senior adviser on 
Russia?
    Mr. Goldman. Correct.
    Mr. Raskin. Her family had fled both Nazi Germany and 
Soviet Russia?
    Mr. Goldman. I think her family actually came from England. 
It was Marie Yovanovitch who had----
    Mr. Raskin. Oh, that was Ambassador Yovanovitch.
    Mr. Goldman. Yes.
    Mr. Raskin. Dr. Hill voiced her concerns to the NSC's 
lawyers on July 10 and July 11, long before anyone on this 
committee knew about it. Why was she--why did she go to report 
what she had learned, what motivated her?
    Mr. Goldman. She was concerned that Ambassador Sondland and 
Mick Mulvaney were entering into essentially a transaction 
whereby the Ukrainians would open up these investigations for 
President Trump's political interests in return for getting the 
White House meeting that President Trump had offered.
    Mr. Raskin. And I want to talk about Deputy Assistant 
Secretary George Kent, who served as a career Foreign Service 
officer for more than 27 years under five different Presidents, 
Democrats and Republicans alike. And he wrote or updated notes 
to file on four different occasions to record his grave 
contemporaneous concerns about the President's conduct.
    Mr. Goldman, what were the events that led Mr. Kent to 
draft these notes to his file?
    Mr. Goldman. There were several. There was a conversation 
at the end of June where several American officials had 
indicated to President Zelensky that he needed to go forward 
with these investigations. There was one on August 16, I 
recall, that he talked about.
    But you bring up a very important point, which is all of 
these State Department witnesses in particular, and, frankly, 
almost all of the witnesses other than Ambassador Sondland, 
took unbelievable meticulous notes. I would have dreamed for a 
witness like that as a prosecutor. And it makes for a very 
clear and compelling record and clear and compelling evidence 
that's based on contemporaneous notes.
    Mr. Raskin. So do we have Mr. Kent's notes in this process?
    Mr. Goldman. We have no State Department records, including 
these memos to file, the notes, Ambassador Taylor's first-
person cable and his emails. There are so many documents that 
the few that we have gotten have been so helpful to the 
investigation.
    Mr. Raskin. Why do we not have them?
    Mr. Goldman. The State Department refused to provide them, 
notwithstanding our subpoena, under the President's direction.
    Mr. Raskin. You know, in authoritarian societies like 
Putin's Russia or the Kingdom of Saudi Arabia, people are 
terrified to speak out about the crimes of their political 
leaders. But in the United States a lot of people are not 
afraid, even though President Trump has tried to intimidate or 
silence them. And he is trying to make our country more like 
Russia. And we could be thankful that you found a lot of heroes 
who stood up for the truth and our Constitution.
    I yield back.
    Chairman Nadler. The gentleman yields back.
    Mrs. Lesko.
    Mrs. Lesko. Thank you, Mr. Chairman.
    My first two questions are for the American people.
    America, are you sick and tired yet of this impeachment 
sham? And, America, would you like Congress to get back to work 
and actually get something done? Because I sure would.
    Mr. Castor, the rest of the questions are for you, and I 
would like yes-or-no answers, if possible.
    Mr. Castor, my first question is important. Did any of the 
Democrats' fact witnesses establish that the President had 
committed bribery, extortion, or a high crime or misdemeanor?
    Mr. Castor. Good heavens, no.
    Mrs. Lesko. Mr. Castor, the Deputy Assistant to the 
President of the National Security, Mr. Morrison, listened in 
on the phone call. He testified that he was not concerned that 
anything discussed on the phone call was illegal or improper. 
Is that correct?
    Mr. Castor. Yeah, he was worried about leaks.
    Mrs. Lesko. Several Democrat witnesses testified that it is 
fairly common for foreign aid to be paused for various reasons, 
including concerns that the country is corrupt and taxpayer 
dollars may be misspent.
    Ambassador Volker testified that this hold on security 
assistance to Ukraine was not significant. Is that correct?
    Mr. Castor. Yes. A number of witnesses also said the same 
thing.
    Mrs. Lesko. Former U.S. Ambassador to Ukraine Marie 
Yovanovitch testified that in Ukraine, and I quote, 
``corruption is not just prevalent, but, frankly, is the 
system.'' Is that correct?
    Mr. Castor. Yes. All the witnesses confirmed the 
environment is very corrupt.
    Mrs. Lesko. Mr. Castor, Ukraine energy company Burisma 
Holdings had a reputation in Ukraine as a corrupt company. Is 
that correct?
    Mr. Castor. Big time.
    Mrs. Lesko. According to The New York Times, Hunter Biden 
was part of a broad effort by Burisma to bring in well-
connected Democrats during a period when the company was facing 
investigations. Is that correct?
    Mr. Castor. Yes. The New Yorker also had a pretty extensive 
report on that as well.
    Mrs. Lesko. Obama's Deputy Assistant Secretary of State 
George Kent testified that he raised concerns directly to Vice 
President Biden's office about Hunter Biden's services on 
Burisma's board. Is that correct, yes or no?
    Mr. Castor. Yes.
    Mrs. Lesko. Mr. Castor, in the July 25 call President Trump 
referenced Joe Biden bragging about how he stopped the 
prosecution. We all saw that video earlier today where Joe 
Biden bragged about how he told Ukraine: If the prosecutor is 
not fired, you're not getting the money.
    Mr. Castor, is this the same prosecutor that looked into 
Burisma?
    Mr. Castor. It is.
    Mrs. Lesko. In a similar scheme, Obama Assistant Attorney 
General said, and I quote, ``Awarding prestigious employment 
opportunities to unqualified individuals in order to influence 
government officials is corruption, plain and simple.''
    Mr. Castor, here is another key question. Given that, one, 
Burisma had a reputation of being a corrupt company; two, 
Obama's own State Department was concerned about Hunter Biden 
serving on Burisma's board at the same time that Vice President 
Biden was acting as the point person to Ukraine; and, three, 
Obama's Assistant Attorney General said in a similar scheme 
that corruption--that there was corruption plain and simple, do 
you think then it is understandable, reasonable, and acceptable 
for President Trump to ask the Ukrainian President to look into 
the Hunter Biden-Burisma potential corruption scheme?
    Mr. Castor. Yes.
    Mrs. Lesko. Mr. Castor, there are four undisputable facts 
that will never change that prove there is no impeachable 
offense. There was no quid pro quo on the July 25 call. Ukraine 
leadership did not know the aid was held up at the time of the 
July 25 telephone call. Ukraine received the White House 
meeting, phone call, and aid even though, four, Ukraine didn't 
initiate any investigations. Do you agree?
    Mr. Castor. Ukraine received a meeting with Vice President 
Pence in Warsaw and a meeting not at the White House but at 
the--in New York at the United Nations.
    Mrs. Lesko. Mr. Castor, did Mr. Turley testify in the past 
hearing that this impeachment inquiry has not passed Chairman 
Nadler's three-prong test?
    Mr. Castor. He did.
    Mrs. Lesko. Thank you.
    And I yield back.
    Ms. Scanlon [presiding]. Thank you.
    The gentlewoman from Washington is recognized.
    Ms. Jayapal. Thank you.
    Mr. Goldman, let's focus on the Republican claim that 
President Trump withheld military aid to Ukraine because he was 
supposedly concerned about corruption rather than the fact that 
he abused his office for personal gain.
    And let me be clear. We actually do not have to read the 
President's mind on this. As your report notes on page 10 and 
as we will see on television, he told us himself exactly what 
his intent was.
    [Video shown.]
    Ms. Jayapal. So the first and best witness about the 
President's corrupt intent was Donald Trump.
    There is also plenty of corroborating evidence, so let's 
just review some of the basic facts that we've already 
established.
    First, President Trump does not even mention the word 
``corruption'' during either of his calls with President 
Zelensky, and he disregards all of the talking points that were 
prepared for him on corruption by the National Security 
Council.
    Second, investigations of the Bidens and a debunked 
conspiracy theory about the 2016 election were not supported by 
official U.S. policy.
    And third, Congress authorized military aid to Ukraine, 
Ukraine passed all the checks that the United States 
established to ensure that it was taking appropriate actions to 
fight corruption, and there was unanimous consensus among the 
State Department, Department of Defense, and National Security 
Council that the President should release the military aid that 
Ukraine critically needed to fight Russian aggression.
    So, Mr. Goldman, between the time that President Trump put 
a hold on military aid to Ukraine and then released the aid, 
the President never conducted an actual review or corruption 
assessment on Ukraine, did he?
    Mr. Goldman. That is correct. There was--no witness 
testified that there was any review or any investigation of any 
sort related to the Ukraine aid.
    Ms. Jayapal. And isn't it also true that the Defense 
Department actually determined not to conduct a review on 
Ukraine after the President froze the military aid because 
Ukraine had already met all of the corruption benchmarks in May 
of 2019?
    Mr. Goldman. Yes. And everyone involved in Ukraine policy 
believed that they were on the right path, and President 
Zelensky in particular.
    Ms. Jayapal. And in addition to Ukraine having satisfied 
all the relevant corruption assessments prior to U.S. military 
aid being withheld, there is significant witness testimony that 
both the State Department and the Ukrainian Embassy actually 
advised that a White House meeting with President Zelensky 
would help further an anticorruption agenda, correct?
    Mr. Goldman. Both the anticorruption agenda and the 
aggression, fighting the aggression from Russia.
    Ms. Jayapal. And, in fact, President Trump's budget 
actually cut funding for fighting corruption in Ukraine.
    Now, Mr. Castor argues that President Trump withheld 
military aid to Ukraine because he was skeptical of foreign 
assistance in general. But in both 2017 and 2018, didn't 
President Trump release military aid for Ukraine without any 
complaints about corruption?
    Mr. Goldman. That's correct.
    Ms. Jayapal. So, Mr. Goldman, the President was perfectly 
fine giving military aid to Ukraine in 2017 and 2018, but 
somehow not in 2019. So what changed?
    Mr. Goldman. Joe Biden started running for President.
    Ms. Jayapal. Vice President Biden started running. So the 
sequence----
    Mr. Goldman. And I would add the Mueller report came out, 
which did not--even though it did not charge the President, it 
indicated--it implicated the President and his campaign in 
welcoming the assistance from Russia and utilizing it.
    Ms. Jayapal. And the sequence of events and all the 
corroborating evidence makes it crystal clear that President 
Trump didn't care about corruption at all. In fact, as he told 
us himself on national television, he simply cared about his 
own politically motivated investigations into his political 
rival.
    And you saw the clip where Ambassador Sondland picked up 
the phone, called President Trump, and then Mr. Holmes asked 
him what the President thought about Ukraine. And, quickly, 
what was Mr. Sondland's answer?
    Mr. Goldman. Mr. Sondland said the President does not give 
a bleep about Ukraine, he only cares about the big stuff, 
meaning the Biden investigation that Mr. Giuliani was pushing.
    And by the way, just to add, that is a direct evidence 
conversation between President Trump and Ambassador Sondland on 
that day, and there are many that we have not talked about on 
the minority side.
    Ms. Jayapal. So what we know what President Trump was 
interested in, based on his words, his actions, and witness 
testimony. The President of the United States wanted Ukraine to 
announce an investigation into a political rival for his own 
personal political benefit to interfere in our election, and he 
was willing to use U.S. military aid, which is taxpayer 
dollars, and an essential White House meeting as his leverage. 
That is unacceptable and a grave abuse of power.
    I yield back.
    Ms. Scanlon. The gentleman from Pennsylvania is recognized 
for 5 minutes.
    Mr. Reschenthaler. Thank you, Madam Chairwoman.
    You know, in the Navy we had a saying, BLUF, which is 
bottom line up front. Let me give everybody the bottom line. We 
are here because Democrats are terrified that President Trump 
is going to win reelection. That's really what this all comes 
down to.
    Let me get into the specifics. We are here dealing with 
impeachment because Democrats don't want to talk about the red 
hot Trump economy. They don't want to talk about the fact that 
we have the lowest unemployment rates in 50 years.
    We are dealing with impeachment because Democrats don't 
want to talk about how the President has worked to protect 
American companies from Chinese aggression, how he's 
renegotiated trade deals to benefit American workers, how he's 
eliminated burdensome regulations that hurt the economy and 
that help job creators.
    Congressional Democrats don't want to be reminding the 
American people that the Democrat agenda includes such 
laughable ideas like banning airplanes, giving illegal 
immigrants taxpayer-funded healthcare, and taking private 
health insurance away from the American people.
    That's really why we're here. This whole process is just a 
distraction. It's an attempt to hide the far left radical 
agenda.
    So let's talk about the facts. Schiff's report claims the 
administration froze military aid for Ukraine without 
explanation. Yet the facts are that President Trump gave more 
military aid to Ukraine than President Obama. President Obama 
gave Ukraine well wishes and blankets. President Trump gave the 
Ukrainians Javelin missiles. That's the difference and those 
are the facts.
    Let's go over some more facts. House Democrats want to 
claim it's a conspiracy that Ukrainian officials attempted to 
interfere with the 2016 election, yet Ukrainian attempts to 
interfere with the 2016 election are well documented by 
Politico, by The Financial Times, and The Hill. There was an 
attempt to influence our elections, and that's troubling, and 
that's why President Trump brought it to the attention of 
President Zelensky. Again, those are the facts.
    But at the end of the day, those facts don't seem to matter 
to my Democrat colleagues. House Democrats don't care that 
President Zelensky has repeatedly said there was no pressure. 
It's not important that the call transcript was the best 
evidence we have--it is the best evidence we have; it's the 
actual primary document. And that transcript shows there was no 
quid pro quo, no bribery.
    I've got to remember we're calling it bribery after an old 
Latin phrase didn't poll well or test well in a Democrat focus 
group. My Democratic colleagues seem to really care about focus 
groups and polling. Unfortunately, again, they don't care about 
the facts, because the fact is that Democrats were calling for 
impeachment before this investigation even began.
    Representative Tlaib said in January--I don't even think we 
were sworn in yet--she said in January: Impeach the mother. 
Representative Green said in May, and I quote: ``I'm concerned 
if we don't impeach this President, he will get reelected.''
    These proceedings, this entire process, is nothing more 
than a political hit job.
    Well, unlike my Democrat colleagues, I actually do care 
about the facts, which is why I'm troubled that our committee 
did not hear from a single fact witness this entire time.
    We should be here hearing from Hunter Biden. We should be 
hearing from Schiff's staff. We know that Schiff's staff 
coordinated with the whistleblower. And, again, we need to hear 
from the whistleblower.
    Last week, I offered a motion to subpoena the whistleblower 
to testify in executive session, meaning that he or she could 
testify behind closed doors. My Democrat colleagues voted my 
motion down in a partisan fashion.
    Mr. Castor, can you walk us through the inaccuracies in the 
whistleblower's complaint?
    Mr. Castor. Well, the first thing about the complaint that 
troubles us is that it's clearly from an outsider who received 
information secondhand. The information presented in the 
complaint is clearly distorted, and it's from a person who is, 
it seems to be, making a case, like an advocate, about what 
happened on the call.
    The whistleblower references a number of individuals inside 
the White House and at the State Department that he or she has 
spoken to to form the basis of a complaint. We have not been 
able to piece together all those people, and talking to all 
those people is important.
    And there's a lot of--I'm running out of time here--but, 
there's, you know, there's a reference to Lutsenko in the 
whistleblower complaint where witnesses have told us it's 
likely Shokin. Vindman and Morrison's testimony about why they 
went to talk to the lawyers, very different reasons. Mr. 
Brechbuhl----
    Ms. Scanlon. The gentleman's time has expired.
    Mr. Castor. I don't believe he was on the call.
    Ms. Scanlon. I recognize the gentlewoman from Florida for 5 
minutes.
    Mrs. Demings. Mr. Goldman, as a member of the Intelligence 
Committee, I saw significant firsthand evidence that President 
Trump conditioned our military aid on Ukraine announcing 
investigations into the 2016 election and the Bidens and 
betrayed our national security interests in the process.
    For example, Ambassador Sondland told us that once the 
Ukrainians found out about the aid being withheld, it was made, 
and I quote, ``abundantly clear to them that if they wanted the 
aid,'' and I quote, ``they were going to have to make these 
statements.''
    Mr. Goldman, beginning on and around the 25th of July call 
through September, would you agree that, consistent with the 
testimony we just reviewed, Ukraine was made aware that to 
receive our military aid and the White House visit that they 
were going to have to make a statement announcing the 
investigations?
    Mr. Goldman. Not only were they made aware, but they were 
made aware either by President Trump's proxy, Rudy Giuliani, or 
from President Trump himself through Ambassador Sondland, who 
spoke to President Zelensky and Andriy Yermak on September 7 
and told them what President Trump had confirmed to him, that 
the aid was conditioned on the investigations.
    Mrs. Demings. And by the end of August, President Zelensky 
did, in fact, commit to making that statement on CNN. Is that 
correct?
    Mr. Goldman. That's right. Finally President Zelensky 
relented, after months of trying to not get involved in what he 
called the domestic U.S. political process, and ultimately 
recognizing that he had no choice to break the stalemate, as 
Ambassador Sondland told them, that he ultimately agreed to go 
on television before the--before President Trump got caught and 
released the aid.
    Mrs. Demings. I'd like to direct your attention to the 
screen in front of you which displays, again, a Washington Post 
article from September 5. The headline says: Trump tries to 
force Ukraine to meddle in the 2020 elections. And the article 
reports that President Trump is, and I quote, ``attempting to 
force Zelensky to intervene in the 2020 U.S. Presidential 
election by launching an investigation of the leading 
Democratic candidate, Joe Biden. Mr. Trump is not just 
soliciting Ukraine's help with his Presidential campaign; he is 
using United States military aid the country desperately needs 
in an attempt to extort it.''
    So am I correct, Mr. Goldman, that by September 25 
allegations that President Trump was using military aid to 
pressure Ukraine to announce investigations was being widely 
reported?
    Mr. Goldman. I'm sorry, by what date?
    Mrs. Demings. September 5.
    Mr. Goldman. Yes. Well, widely reported. Certainly the aid 
being withheld was widely reported.
    Mrs. Demings. And by September 9, our investigative 
committees formally announced a congressional investigation 
into the President of these issues--into the President about 
these issues.
    And, Mr. Goldman, what day did President Trump release the 
military aid?
    Mr. Goldman. Two days after the investigations were 
announced and 2 days after the IG, the Inspector General, told 
the Intelligence Committee that there was a complaint that was 
being withheld.
    Mrs. Demings. So then am I correct that, as the timeline on 
the screen in front of you shows, it wasn't until after the 
whistleblower complaint, after the Washington Post report, and 
after Congress launched the investigation that President Trump 
finally released the aid?
    Mr. Goldman. That's right. And I would just add one thing 
briefly to the Congressman's point, that it is true that 
President Trump has given more military assistance than 
President Obama. And so one would wonder, if he does support 
military assistance so much, why then is he holding it up for 
more than 2 months?
    Mrs. Demings. And matter of fact, Lieutenant Colonel 
Vindman testified that people at the NSC, in fact, discussed 
that Congress' investigation, quote, ``might have the effect of 
releasing the hold on Ukraine's military aid, because it would 
be potentially politically challenging to justify the aid.'' Is 
that correct, Mr. Goldman?
    Mr. Goldman. That was the testimony, yes.
    Mrs. Demings. In other words, the aid was released after 
the President got caught.
    And what makes me angry is that this President, President 
Trump, thinks he can get away with it. But he got caught and he 
tried to cover it up. But we won't let him do that.
    And we thank God, Mr. Goldman, for the true courageous 
public servants who came forward in spite of intimidation and 
obstruction from the White House.
    You see, everybody counts, but everybody is accountable, up 
to and including the President of the United States.
    Thank you. And I yield back.
    Ms. Scanlon. Thank you.
    The chair recognizes the gentleman from Texas, Mr. Correa. 
I'm sorry, California.
    Mr. Correa. Thank you, Madam Chair.
    Mr. Goldman, my colleagues keep talking about the fact that 
the President apparently said, and I quote, ``no quid pro quo'' 
on September 7 in a call with Ambassador Sondland.
    Mr. Goldman, did you receive testimony about the September 
7 call?
    Mr. Goldman. Yes, we received testimony from three 
witnesses about it. And it gets a little complicated, but that 
was a consistent refrain through all of the witnesses, is that 
the President did say no quid pro quo.
    Mr. Correa. Let's try to clarify it a little bit.
    Ambassador Sondland described that call to Mr. Morrison 
that same day, correct?
    Mr. Goldman. That's right.
    Mr. Correa. And Mr. Morrison then reported it to Ambassador 
Taylor, correct?
    Mr. Goldman. That's correct, yes.
    Mr. Correa. And both Mr. Morrison and Ambassador Taylor 
took notes of those discussions.
    Mr. Goldman. They did.
    Mr. Correa. Were those notes produced to the committee?
    Mr. Goldman. They were not produced to us, but the 
witnesses said that they relied on their notes to provide their 
testimony.
    Mr. Correa. That set of notes was blocked consistent with 
the President's direction?
    Mr. Goldman. Correct.
    Mr. Correa. And in his recitation to Mr. Morrison, 
Ambassador Sondland said that President Trump himself brought 
up the words ``quid pro quo.''
    Mr. Goldman. That's right. Ambassador Sondland also said 
that, too, yes.
    Mr. Correa. And, Mr. Goldman, what did the committee make 
of this fact?
    Mr. Goldman. Well, it was quite odd that the President 
would volunteer in response to nothing about a quid pro quo 
that there was no quid pro quo. But----
    Mr. Correa. I--go ahead.
    Mr. Goldman. Well, I was just going to say, what's even 
more important is that what he said immediately after that, 
which is effectively conduct that amounts to a quid pro quo. He 
said, there's no quid pro quo, but you have to go to the 
microphone and make this announcement----
    Mr. Correa. Well, let's talk about that. What did the 
committee make of the fact that, according to Ambassador Taylor 
and Mr. Morrison, right after President Trump said no quid pro 
quo, President Trump then told Ambassador Sondland that 
Ukrainian President Zelensky would have to go to the microphone 
and announce the investigations of Biden and the 2016 election 
interference and that President Zelensky should want to do that 
himself?
    Mr. Goldman. That's right. We had a number of different 
accounts of this, and I think this is----
    Mr. Correa. They're up on the boards here.
    Mr. Goldman. Right. I see that, yes. Ambassador Taylor said 
that. Ambassador--or Mr. Morrison said something similar. Their 
understandings of that conversation is that there was a clear 
directive that there was a quid pro quo factually from the 
conduct, from the actions.
    And we've talked a lot today about the words and that 
Zelensky said no pressure and Trump said no pressure and no 
quid pro quo. But as an investigator, as a prosecutor, you need 
to look at the actions to understand what those words mean. And 
that's why this call in particular is so important.
    Mr. Correa. So let's go further. As we've discussed, 
multiple individuals reacted with concern to President Trump's 
call with Ambassador Sondland. Do you recall Mr. Morrison's 
reaction?
    Mr. Goldman. Mr. Morrison said that he was shocked, I 
think, and that he----
    Mr. Correa. Sinking feeling?
    Mr. Goldman. Sinking feeling, correct, and that he went in 
and talked to the lawyers at the direction of Ambassador 
Bolton.
    Mr. Correa. Correct. And, Mr. Goldman, Ambassador Taylor 
also testified that he concluded that the military aid was 
conditioned on Zelensky announcing the investigations, and he 
testified that this was illogical, crazy, and wrong. Is that 
right?
    Mr. Goldman. That was what Ambassador Taylor testified to, 
yes.
    Mr. Correa. Now, my colleagues have also pointed out that 
on September 9 a text message from Sondland reflecting the 
President has been crystal clear that there is no quid pro quo.
    Mr. Goldman, am I correct that Ambassador Sondland has now 
testified that prior to sending his text, he himself came to 
believe that the aid was conditioned on the announcement of 
investigations?
    Mr. Goldman. Yes. Ambassador Sondland's subsequent public 
testimony revealed at least two things that were precisely 
false, that were not true in that text message, including that 
there was no quid pro quo of any kind when he testified. And we 
saw the video earlier that there absolutely assuredly was as it 
related to the White House meeting.
    Mr. Correa. And this September 7 call and the September 9 
text occurred after the press reports, that is, after the press 
reports that President Trump was conditioning military aid on 
investigations of his political rival. Is that correct?
    Mr. Goldman. Yes. And also, this text occurred after 
Ambassador Sondland relayed President Trump's message to 
President Zelensky.
    Mr. Correa. Mr. Goldman, did the investigative committees 
receive any other evidence relevant to the credibility of the 
President's assertion that there was no quid pro quo?
    Mr. Goldman. We received a lot of evidence, and all of the 
evidence points to the fact that there was a quid pro quo.
    Mr. Correa. Thank you.
    I yield.
    Mr. Biggs. Mr. Chairman, I have a unanimous consent 
request--or Madam Chairwoman.
    Ms. Scanlon. Can you please hold it until after I do my 
questions? Thank you.
    Mr. Biggs. Just--it's just--it'll be very brief. It's just 
a unanimous consent.
    Ms. Scanlon. I recognize myself for 5 minutes.
    Mr. Goldman, you talked about actions speaking louder than 
words. So I want to focus on why it was an abuse of power for 
President Trump to use the American Government to pressure the 
Ukraine President to benefit his reelection campaign.
    Let's look at what the President said in his July 25 call 
to the President of Ukraine. Lieutenant Colonel Vindman 
listened to the President's call and testified that when 
President Trump asked Ukraine for a favor it wasn't a friendly 
request, it was really a demand.
    I'm going to direct your attention to the slide about 
Lieutenant Colonel Vindman's testimony. Why did he say the 
President's favor was a demand?
    Mr. Goldman. He said because the power disparity between 
the United States, as the greatest power in the world, and 
Ukraine, which is so dependent on the United States, not just 
for the military assistance but for all of its support, made 
such a request effectively a demand, because President Zelensky 
could not, in reality, say no.
    Ms. Scanlon. Am I correct that this vast power disparity 
exists in part because Ukraine has been at war with Russia 
since Russia invaded 5 years ago and over 13,000 of the Ukraine 
people have died. Is that correct?
    Mr. Goldman. Yes. And not only does the U.S. provide 10 
percent of their military budget, but the United States is a 
critical ally in rallying other countries to support Ukraine. 
Europe actually gives four or five--the European Union gives I 
think four times as much money as the United States overall to 
Ukraine.
    Ms. Scanlon. So President Trump knew that the Ukrainian 
President's back was against the wall and President Zelensky 
needed U.S. validation and support. Is that right?
    Mr. Goldman. Yes.
    Ms. Scanlon. Now, according to the U.S. Ambassador to the 
Ukraine--and we have Ambassador Taylor's testimony up there--it 
wasn't until after Ambassador Sondland told the Ukrainians that 
there would be a, quote, ``stalemate,'' end quote, on the aid 
that Zelensky agreed to announce the investigations that 
President Trump was demanding, correct?
    Mr. Goldman. That's right, yes.
    Ms. Scanlon. And furthermore, the committee heard testimony 
that the Ukrainians felt they had, quote, ``no choice'' but to 
comply with President Trump's demands, correct?
    Mr. Goldman. That's right, yes, even after the aid was 
released.
    Ms. Scanlon. In fact, when asked in front of President 
Trump in September whether he felt pressured, President 
Zelensky said, quote: ``I'm sorry, but I don't want to be 
involved to democratic, open elections--elections of the USA,'' 
end quote. Is that right?
    Mr. Goldman. That sounds right if you're reading the quote, 
yes.
    Ms. Scanlon. Okay. Now, the President and some of his 
defenders here have tried to excuse his misconduct by pointing 
to statements from the Ukraine President that he was not under 
pressure to give into President Trump's demand. Did your 
investigative committees consider those statements by President 
Zelensky?
    Mr. Goldman. We did, and we found that the statements of 
what is effectively an extortion victim are not particularly 
relevant to the actual truth of the matter, because President 
Zelensky cannot, in reality, for the same reasons that he 
interpreted the request to be a demand, he can't go out and say 
that he did feel pressure, because that would potentially upset 
President Trump, and they're so dependent on the relationship 
with President Trump and the United States.
    Ms. Scanlon. One could almost say it's similar to a hostage 
testifying under duress?
    Mr. Goldman. It is certainly a--duress would be a good 
word.
    Ms. Scanlon. So when the President made these statements 
and up to and including today, his country was still under 
attack by Russia, still hadn't gotten a meeting at the White 
House, and still needed aid from the United States, correct?
    Mr. Goldman. That's right. And David Holmes testified very, 
I think, persuasively about the importance of the White House 
meeting and of the relationship to Ukraine even after the aid 
was lifted, including pointing to today, when President Putin 
and President Zelensky met to discuss the war in the east.
    Ms. Scanlon. So the evidence is clear that President Trump 
knew he had the power to force Ukraine's hand and took 
advantage of that desperation and abused the powers of his 
office by using our taxpayer dollars, basically, to get what he 
wanted, right?
    Mr. Goldman. Yes. And what's really important here, and I 
think it has to be clarified, is that the President--the 
evidence showed that the President directly said to Ambassador 
Sondland that there was a quid pro quo with the security 
assistance.
    And there's been some debate and some discussion about 
that. But that is one thing that the evidence shows, based on 
the Morrison testimony, the Taylor testimony, the Sondland 
testimony and the texts. So that's very important to 
understand, that whatever we want to say about hearsay or 
whatever, that is direct evidence.
    Ms. Scanlon. And that is precisely the kind of betrayal 
that our Founders sought to prevent.
    I yield back to myself, and I'll recognize the gentleman 
from Virginia, Mr. Cline.
    Mr. Biggs. Madam Chair, you indicated to me that you would 
allow me to make my uniform consent after you had asked your 
questions. So I'd ask for unanimous consent--or, excuse me, 
unanimous consent to introduce two letters----
    Chairman Nadler [presiding]. The gentleman will suspend. 
The gentleman--who is seeking unanimous consent? For what are 
you seeking unanimous consent?
    Mr. Biggs. Mr. Chairman, I have two letters addressed to 
you, one December 4, 2019, and one December 5, 2019.
    Chairman Nadler. Without objection.
    [The information follows:]
      


                   MR. BIGGS FOR THE OFFICIAL RECORD


=======================================================================

      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Biggs. Thank you.
    Mr. Johnson of Louisiana. Mr. Chairman?
    Chairman Nadler. The gentleman from Virginia, Mr. Cline.
    Mr. Johnson of Louisiana. Mr. Chairman, I have a brief 
parliamentary inquiry regarding scheduling.
    Chairman Nadler. The gentleman from Virginia is recognized.
    Mr. Cline. Thank you, Mr. Chairman.
    Last week, I expressed concern regarding the deeply flawed 
and partisan process the Democrat majority has been undertaking 
during this impeachment inquiry. Mr. Chairman, I am 
particularly reminded of your quote: ``There must never be a 
narrowly voted impeachment or an impeachment substantially 
supported by one of our major political parties and largely 
opposed by the other. Such an impeachment would lack 
legitimacy, would produce divisiveness and bitterness in our 
politics for years to come, and will call into question the 
very legitimacy of our political institutions.'' You made that 
statement back in 1998.
    Now I'm glad we're moving on to presenting the, quote/
unquote, evidence gathered in this report, not to hear from 
direct fact witnesses, but a 300-page report that's built 
largely on hearsay, opinion, and speculation. And I'm 
especially outraged that the purported author of it, Chairman 
Schiff, is not here to answer our questions today.
    Now that we have the report and can discuss the facts 
within, or the lack thereof, there are four facts that will 
never change. Both President Trump and President Zelensky say 
there was no pressure. Second, the call transcript shows no 
conditionality between aid and an investigation. Three, the 
Ukrainians were not aware that aid was withheld when the 
Presidents spoke. And fourth, Ukraine didn't open an 
investigation, but still received the aid and a meeting with 
President Trump.
    I want to move on to the idea of hearsay and the fact that 
this report contains so much of it and relies on so much of it.
    Mr. Castor, did the Democrats' impeachment report rely on 
hearsay to support their assertions?
    Mr. Castor. Yes, it did.
    Mr. Cline. How many times were you able to find assertions 
based on hearsay?
    Mr. Castor. We went through and counted over 50 instances 
of key facts that were based on hearsay.
    Mr. Cline. Can you give us some of the examples of the 
hearsay being relied on by the majority to make their case?
    Mr. Castor. You know, one of the--a lot of the information, 
for example, that Ambassador Taylor was communicating, you 
know, he very diligently recorded notes about what some of the 
various officials told him, but it was about--you know, it was 
one and two steps removed from the actual facts.
    And that's the problem with hearsay, is that it's a 
whisper-down-the-lane situation. And if some of the people that 
are doing the whispering have--are predisposed to not like 
President Trump, then what they're whispering down the lane 
becomes even more distorted.
    Mr. Cline. Did you also find instances where the Democrats' 
report used witnesses' speculations and presumptions?
    Mr. Castor. And the biggest one, of course--and this has 
sort of become the big daddy of the hearing--is Sondland 
presuming that the aid was tied to the investigations, because 
as he engaged in a back-and-forth with Mr. Turner, nobody on 
the planet, nobody on the planet told him that that was the 
case.
    Mr. Cline. Mr. Castor, I want to move on to foreign policy 
and the idea that somehow the President was abusing foreign 
policy.
    Repeatedly, witnesses came before the Intelligence 
Committee and talked about how the President was operating 
outside the bounds of the process for using norms.
    The President sets foreign policy, correct?
    Mr. Castor. Absolutely.
    Mr. Cline. And from where does he derive that power?
    Mr. Castor. The Constitution.
    Mr. Cline. Article II, section 2, in fact.
    Mr. Castor. The people, yeah.
    Mr. Cline. Can you give us examples of these members of the 
foreign policy establishment who took issue with the 
President's foreign policy direction and choices?
    Mr. Castor. Well, for example, Lieutenant Colonel Vindman 
testified that when he was listening to the call he had 
prepared talking points and the call package, and he was 
visibly just completely deflated when he realized that his call 
notes weren't being referenced by the President. And a lot of 
the interagency officials I think became very sad that the 
President didn't revere their policymaking apparatus.
    Mr. Cline. Is it safe to say there's another reason the 
President is skeptical of relying on some of these individuals 
to carry out his foreign policy goals, like rooting out 
corruption in Ukraine?
    Mr. Castor. I think the President is skeptical of the 
interagency bureaucracy.
    Mr. Cline. Is that maybe why he instead relied on Secretary 
Perry, Ambassador Volker, Ambassador Sondland, and others?
    Mr. Castor. Correct. And by the way, all three of those 
officials are not that far outside of the chain of the U.S. 
Government.
    Mr. Cline. Would it be appropriate in any investigation of 
corruption in Ukraine to exempt or remove, say, a political 
supporter?
    Mr. Castor. It certainly would be.
    Mr. Cline. Would it be inappropriate to remove a political 
opponent?
    Mr. Castor. That's correct, yes.
    Mr. Cline. Would it be inappropriate to remove the son of a 
political opponent from any investigation involving Ukrainian 
corruption?
    Mr. Castor. Absolutely. I mean, this all goes to the heart 
of bias.
    Mr. Cline. Thank you for those answers.
    Mr. Chairman, I go back to what you said this morning about 
the facts being undisputed. I would argue that the facts, in 
fact, are disputed. And what you contend are facts are, in 
fact, not. They are witness presumptions, hearsay, and 
speculation.
    And the facts here are, in fact, that this is the shortest 
impeachment in U.S. history, based on the thinnest of 
evidentiary records, and on the narrowest grounds. Mr. 
Chairman, this impeachment process is a farce and a stain on 
the committee and on the House of Representatives.
    And I yield back.
    Chairman Nadler. The gentleman yields back.
    Ms. Garcia.
    Ms. Garcia. Thank you, Mr. Chairman.
    As we just heard, the President and his supporters have 
claimed that the investigating committees are relying on 
hearsay and that they have failed to obtain firsthand accounts 
of the President's conduct.
    Now, I'm a former judge and you, Mr. Goldman, a former 
prosecutor. We know what direct evidence is.
    Mr. Goldman, my Republican colleagues have suggested there 
is no direct evidence. Is that true?
    Mr. Goldman. No, there's a lot of direct evidence, and a 
lot of the evidence that they say is hearsay is actually not 
hearsay.
    Ms. Garcia. Indeed, it is not true.
    Now, I don't want to relive a law school evidence class. 
Instead, I'd like to go over some examples with you, and please 
tell me if they are direct or indirect evidence.
    Ambassador Sondland and Mr. Volker both testified that on 
May 23, 2019, President Trump told him to, quote, ``talk to 
Rudy about Ukraine.'' Is that direct evidence?
    Mr. Goldman. Yes, technically. Well, not technically, but 
yes.
    Ms. Garcia. Thank you.
    And then we have the memorandum of the July 25 call between 
President Trump and President Zelensky. Is that direct 
evidence?
    Mr. Goldman. Yes, that is.
    Ms. Garcia. So there is direct evidence that President 
Trump asked President Zelensky to look into these 
investigations and directed both President Zelensky and U.S. 
officials to talk to his personal attorney about those 
investigations, correct?
    Mr. Goldman. Yes. And if I could just jump in here on the 
July 25 call, because these four facts that we keep hearing 
about that are not in dispute are--three of them are completely 
wrong.
    So one of them happens to be that there's no quid pro quo 
mentioned in the July 25 call. There is absolutely a quid pro 
quo when President Zelensky says: I also wanted to thank you 
for your invitation to visit the United States, specifically 
Washington, D.C.; and then he says: On the other hand, I also 
want to assure you that we will be very serious about the case 
and will work on the investigation.
    That is the quid pro quo that President Trump was informed 
of before the call. So that's wrong.
    It's also wrong that no Ukrainians knew about the aid being 
withheld at the time of the call, even though that doesn't even 
matter.
    And then finally, there was no White House meeting ever 
provided, so the third or fourth fact.
    So I do think that that just needs to be clarified, 
particularly as we're focusing on what direct evidence is.
    Ms. Garcia. Well, let's give some more examples. We also 
heard the testimony of three of the individuals who 
participated in the July 25 call. Is their testimony direct 
evidence of what happened during that call?
    Mr. Goldman. Yes, although I would say the call record is 
better evidence than their----
    Ms. Garcia. And the day after that call, David Holmes 
testified that on July 26 he overheard the President ask 
Ambassador Sondland whether President Zelensky was, quote, 
``going to do the investigation.'' Is that direct evidence?
    Mr. Goldman. That is direct evidence.
    Ms. Garcia. And after the July 25 call record was released, 
the President got on the White House lawn and again declared 
that Ukraine should investigate a potential political 
opponent's family, the Bidens. Is that direct evidence?
    Mr. Goldman. Yes, it is.
    Ms. Garcia. His own words.
    Now, that seems to me like that's a lot of direct evidence. 
Mr. Goldman, was there other direct evidence that the committee 
relied on in addition to these?
    Mr. Goldman. Well, there's a lot of evidence that I would 
call direct evidence, because it's not hearsay. If any of the 
people involved in the scheme are talking to each other and 
they relay what someone else said, that is not hearsay. That 
would be in court a co-conspirator's statement, and that would 
be admissible. So let's not get too far afield on talking about 
direct evidence and----
    Ms. Garcia. Right. We don't want to relive that evidence 
class.
    Mr. Goldman. I understand, but it is very important, 
because anything Mr. Giuliani says, anything Ambassador 
Sondland says, anything any of these people say is not hearsay 
and would be permitted under the Federal Rules of Evidence. Of 
course, we don't follow the Federal Rules of Evidence here, 
which is even more lenient, but that's an important point.
    Ms. Garcia. Right. Well, is there anything wrong, Mr. 
Goldman, with drawing inferences from circumstances?
    Mr. Goldman. Courts tell juries to draw inferences every 
single day in every single courtroom. That is how you determine 
what the evidence shows.
    So when Ambassador Sondland draws inferences from the fact 
that there is no explanation for the aid, the fact that the 
White House meeting has already been held up because of the 
investigations, and determines that that's the reason why the 
security assistance is also held up, that is a natural logical 
inference that every jury draws across the country.
    Ms. Garcia. Well, I agree with you. I'm just disappointed 
that rather than to respond to the serious factual direct and 
undisputed evidence before us, my colleagues continue to make 
unfounded arguments about the process.
    What President Trump did here was wrong. It's 
unconstitutional. If anyone else did this, they would be held 
accountable.
    I urge all my colleagues to face this evidence and uphold 
the oaths each of us have taken to protect our Constitution. 
Our democracy depends on ensuring that no one, not even the 
President, is above the law.
    I yield back.
    Chairman Nadler. The gentlelady yields back.
    Mr. Neguse.
    Mr. Neguse. Thank you, Mr. Chairman.
    And as we approach the ninth hour of this hearing, I want 
to thank both Mr. Goldman and Mr. Castor for being here today 
and for your testimony.
    There's been a lot of discussion about whether or not the 
facts in this matter are contested. I believe they are not 
contested. And so I'd like to level set here and give you both 
an opportunity to address some of the facts that I believe are 
not in dispute. And I want to begin by addressing something 
that I think we all know for certain, and that's that Russia 
interfered in our 2016 election.
    So, Mr. Goldman, after 2 years of investigation, the 
special counsel concluded that Russia interfered in our 
elections in, quote, ``sweeping and systemic fashion.'' Is that 
right?
    Mr. Goldman. Yes.
    Mr. Neguse. Mr. Castor, is that right?
    Mr. Castor. Yes.
    Mr. Neguse. And, Mr. Goldman, am I correct that zero 
intelligence agencies have publicly stated that Ukraine 
attacked our elections in 2016? Is that right?
    Mr. Goldman. That's right. I don't even think that the 
minority is alleging that the Ukrainian Government 
systematically in any meaningful way interfered. I think this 
is just based on a couple of news articles.
    Mr. Neguse. Mr. Castor, correct?
    Mr. Castor. The President had a good faith belief there 
were some significant Ukrainian officials----
    Mr. Neguse. I hear you, and you've said that previously. I 
guess I'm asking you----
    Mr. Castor. We haven't said that the Ukrainian Government--
--
    Mr. Neguse. And there are no intelligence agencies in the 
United States that have publicly stated that Ukraine has 
attacked our elections, right? You're not testifying that 
that's the case?
    Mr. Castor. I'm not, right. Correct.
    Mr. Neguse. And, in fact, President Trump's former Homeland 
Security Advisor, Tom Bossert, said that the idea of Ukraine, 
for example, hacking the DNC server was, quote, ``not only a 
conspiracy theory, it is completely debunked.'' That's 
President Trump's Homeland Security Advisor that said those 
words that you see on the screen to my right.
    Is that right, Mr. Goldman?
    Mr. Goldman. Yes, I saw that interview.
    Mr. Neguse. Mr. Castor, you saw that interview?
    Mr. Castor. I'm aware of it.
    Mr. Neguse. In fact, isn't it true that none of the 
witnesses that appeared before your committee testified in 
support of the theory that Ukraine somehow interfered in our 
elections. Is that right, Mr. Goldman?
    Mr. Goldman. That is absolutely correct.
    Mr. Neguse. Mr. Castor?
    Mr. Castor. That's correct. But again----
    Mr. Neguse. Thank you. No witnesses testified in support--
I'll reclaim my time--no witnesses testified in support of that 
theory before your committee.
    Mr. Goldman, isn't it also true that your committee, in 
fact, received testimony indicating that there is evidence that 
Russia is, in part, perpetrating this false theory that Ukraine 
interfered in the 2016 elections, because Russia wants to 
deflect blame for its own involvement?
    Mr. Goldman. That is correct. We had evidence of that. And 
I think that it's very important to emphasize what is evidence 
and what is pure media reports or speculation, because there is 
no evidence in our investigation that Ukraine interfered in the 
2016 election.
    Mr. Neguse. And, in fact, I'd like to put some of the 
testimony that I believe you might be referencing, Mr. Goldman, 
on the screen in front of you, both from Mr. Holmes as well as 
Dr. Fiona Hill, and I will quote from her testimony.
    ``I am very confident, based on all the analysis that has 
been done--and, again, I don't want to start getting into 
intelligence matters--that the Ukraine Government did not 
interfere in our election in 2016. This is a fictional 
narrative that is being perpetrated and propagated by the 
Russian Security Services themselves.''
    You recall that testimony, Mr. Goldman?
    Mr. Goldman. I do. I also recall her testifying that in 
addition to the Ukrainian officials who made a couple of 
disparaging comments about President Trump, there are officials 
from countries all around the world who also made disparaging 
comments about President Trump, and, as Dr. Hill said, their 
military assistance was not put on hold.
    Mr. Neguse. So given your testimony--and given yours as 
well, Mr. Castor--it strikes me that there are, in fact, four 
uncontested facts.
    First, Russia attacked our 2016 elections. Several 
intelligence agencies have independently confirmed that this is 
true.
    Second, Ukraine did not attack our 2016 elections. There is 
absolutely no evidence that this baseless--of this baseless 
conspiracy theory.
    Third, there is evidence that Russia perpetrated the 
allegation that Ukraine interfered in our 2016 elections.
    And finally, that Russia benefits from the U.S. 
investigating Ukraine, which was made clear through public 
testimony before your committee.
    So, Mr. Goldman, is it fair to say that the intelligence 
community agrees with these four conclusions?
    Mr. Goldman. The intelligence community definitely agrees 
with one and two. Dr. Hill testified to three, as well as 
there's a public statement from Mr. Putin. And yes, certainly 
the witnesses emphasized, four, that Russia benefits from this. 
And we saw in my opening statement President Putin's comment 
that it's good now that Ukraine is all the talk.
    Mr. Neguse. And if that is the case, it begs the question: 
Why would President Trump perpetrate this conspiracy theory 
already disproven by the entirety of the intelligence community 
that actually helps our adversary, a country that is attacking 
our elections in real time?
    With that, I yield.
    Chairman Nadler. The gentleman yields back.
    Mr. Steube.
    Mr. Johnson of Louisiana. Mr. Chairman, a brief 
parliamentary inquiry about the schedule.
    Chairman Nadler. The gentleman, Mr. Steube, has already 
been recognized. He has the time.
    Mr. Steube. So are you going to recognize him after for his 
parliamentary inquiry, after my question?
    Chairman Nadler. I'll make an announcement about the 
schedule shortly.
    Mr. Steube. Thank you, Mr. Chairman.
    I've never seen a more partisan spectacle than what I've 
witnessed here today. Democrats want the rules to apply when it 
benefits them and not to apply when Republicans invoke them.
    Nine hours ago now, Mr. Berke, a hired gun for the 
Democrats, got 30 minutes to spread his partisan rhetoric and 
then 45 minutes to cross-examine witnesses. That's 70 minutes 
more than most of the members of this committee, who have been 
elected by their districts to serve in the United States 
Congress.
    And Mr. Berke is an unelected New York lawyer specifically 
brought in by the Democrats to give his opinion, a politically 
biased consultant who has given hundreds of thousands of 
dollars in Federal elections to the likes of ActBlue, Hillary 
Clinton, Obama, and Biden. Mr. Berke gave over $5,000 alone to 
Hillary Clinton for her Presidential race. I wonder why he has 
an ax to grind.
    Mr. Berke is a white collar criminal defense lawyer who 
brags on his website of getting New York financial brokers 
deferred prosecution for tax fraud and fund managers off for 
insider trading charges.
    And Mr. Berke was able to say whatever he wanted to say 
without swearing an oath to his testimony that it would be 
truthful, so he can sit before this committee not as a fact 
witness and directly lie to the American people without any 
threat of criminal prosecution. Makes sense, he's a white 
collar criminal defense lawyer. I'm sure he didn't want to 
incriminate himself.
    This is the same Mr. Berke who authored a series of reports 
as early as October 2017, 2 years ago, on his opinion as to 
whether President Trump obstructed justice and colluded with 
Russia. He also represented Mayor Bill de Blasio in a Federal 
investigation of de Blasio's fundraising activities.
    For my fellow Americans and Floridians watching this 
charade, this is who was sitting at the top of the dais next to 
the chairman acting like a member of this committee, a partisan 
New York lawyer with a written bias against President Trump who 
gave thousands to Hillary Clinton's Presidential campaign.
    In all of this spectacle, all of it, not a single fact 
witness has appeared in front of this committee. We have been 
denied a minority hearing day, which I asked for at the last 
hearing. All we have had testify are partisan lawyers giving 
their opinion.
    So let's talk about the facts that we do have before us. We 
heard from Mueller: No evidence that the Trump campaign 
colluded or conspired with Russia to influence the 2016 
election. No obstruction of justice.
    After denying the President to call witnesses in closed 
door secret proceedings and denying Republicans from calling 
all their witnesses in closed door proceedings, denying the 
President's counsel to cross-examine witnesses in Intel 
hearings, the facts are this.
    Sondland stated when questioned: Did the President tell you 
about any preconditions for anything? His answer: No. For the 
aid to be refused? No. For a White House meeting? No. 
Ambassador Sondland also testified that President Trump wanted 
nothing from Ukraine.
    Tim Morrison when questioned, and there was no quid pro 
quo, answered: Correct. The aid was released.
    Four facts never change. Both President Trump and President 
Zelensky stated there was no pressure. The call transcript 
shows no conditionality between aid and an investigation, no 
quid pro quo. Ukrainians were not aware that aid was withheld 
when the President spoke. Ukraine didn't open an investigation, 
but still received aid and a meeting with President Trump.
    Mr. Castor, has any committee heard from the whistleblower, 
either in closed door hearings or in open hearings?
    Mr. Castor. No.
    Mr. Steube. Did Chairman Schiff state that he would call 
the whistleblower to testify?
    Mr. Castor. He did.
    Mr. Steube. Has that happened?
    Mr. Castor. It has not.
    Mr. Steube. Is it going to occur?
    Mr. Castor. I hope so.
    Mr. Steube. Have other countries' aid also been held up?
    Mr. Castor. Yes.
    Mr. Steube. Mr. Goldman, on October 2, The New York Times 
reported that the whistleblower, quote, ``approached a House 
Intelligence Committee aide with his concerns about Mr. 
Trump.'' Is that accurate?
    Mr. Goldman. Sorry? Say that again.
    Mr. Steube. On October 2, The New York Times reported that 
the whistleblower approached a House Intelligence Committee 
aide with his concern about Mr. Trump. Is that accurate?
    Mr. Goldman. I think the whistleblower's concerns about 
President Trump are from the threats that----
    Mr. Steube. No, that's not what I'm asking. What I'm 
asking----
    Mr. Goldman [continuing]. Which is why----
    Mr. Steube. Did the whistleblower approach a House 
Intelligence--let me ask it a different way. Have you had any 
communications with the whistleblower?
    Mr. Goldman. As I said earlier in response to questions 
from your colleagues, I'm not going to get into any----
    Mr. Steube. So you're refusing to answer whether you've 
communicated with the whistleblower.
    Mr. Goldman. The whistleblower is not relevant to this 
report, in the sense----
    Mr. Steube. He's the whole basis of the beginning of this 
investigation. He's absolutely relevant----
    Mr. Goldman. Well, he's not relied upon----
    Mr. Steube [continuing]. To this committee and to the 
American people.
    Mr. Goldman. The whistleblower's complaints, for the 
reasons that Mr. Castor said, are not included--his allegations 
are not included in our report because the evidence has been 
outstripped and surpassed by the 17 witnesses that we have had 
come in to testify directly about the conduct that the 
whistleblower blew the whistle about.
    Mr. Steube. So, as you sit here today, do you know the 
identity of the whistleblower?
    Mr. Goldman. Sir, I'm not going to talk to you about the 
identity of the whistleblower----
    Mr. Steube. Because you're also refusing to answer whether 
you've had communications----
    Mr. Goldman. No. This was what the Intelligence----
    Mr. Steube. It's my time, not yours.
    You're refusing to answer whether you had communications 
with the whistleblower. Has any other staff in the Intel 
Committee had communications with the whistleblower?
    Mr. Goldman. Sir, in the Intelligence Committee----
    Mr. Steube. And you're refusing to answer that question. 
And, unfortunately, the American people want to know those 
answers. And, unfortunately, my time has expired.
    Mr. Goldman. Congress has a right----
    Mr. Biggs. Mr. Chairman?
    Chairman Nadler. The time of the----
    Mr. Goldman [continuing]. To maintain the anonymity of 
the----
    Mr. Biggs. Mr. Chairman? Mr. Chairman?
    Mr. Deutch. Point of order, Mr. Chairman.
    Mr. Biggs. Mr. Chairman, I have a unanimous consent--I have 
a unanimous consent----
    Chairman Nadler. The gentleman will suspend.
    The time of the gentleman has expired.
    Mr. Biggs. Mr. Chairman, I have a unanimous consent----
    Chairman Nadler. The gentleman will state his unanimous 
consent request.
    Mr. Biggs. Yes. Mr. Chairman, I ask for admission of the 
document entitled ``Ukrainian Efforts to Sabotage Trump 
Backfire'' dated January 11, 2017.
    Mr. Collins. It's a Politico article.
    Chairman Nadler. If you give it to our staff, we'll take a 
look at it, and we'll make----
    Mr. Biggs. Should I make a motion to insert instead, Mr. 
Chairman?
    Chairman Nadler. Before I recognize Mrs. McBath, I want to 
announce that, with respect to scheduling, this hearing will 
proceed until the votes are called. It may end before votes are 
called, which would be nice. If it does not end before votes 
are called, then we will recess for the votes, and we'll 
reconvene here as soon as the votes on the floor are over. It's 
going to be a close call. We'll see.
    I will further announce that I'm not prepared to say 
anything further about the schedule of the committee beyond 
today's hearing.
    Mr. Deutch. Point of order, Mr. Chairman.
    Mr. Johnson of Louisiana. Mr. Chairman, point of order.
    Chairman Nadler. Who seeks recognition for a point of 
order?
    Mr. Deutch. I do, Mr. Chairman.
    Chairman Nadler. Who's ``I''?
    Mr. Deutch. To your right, Mr. Chairman.
    Mr. Collins. It's one of yours.
    Chairman Nadler. For what purpose does Mr. Deutch seek 
recognition?
    Mr. Deutch. To ask--I wanted to confirm--my point of order 
is there are rules of decorum, and I don't believe that the 
gentleman from Florida meant to violate them, and I want to 
give him the benefit of the doubt, but more than once he 
referred to a New York lawyer. And if he could just explain 
what he meant, then I'm prepared to withdraw my point of order.
    Chairman Nadler. That's not a point of--that's not a 
cognizable point of order.
    Mr. Johnson of Louisiana. Mr. Chairman, point of order 
regarding the schedule.
    Chairman Nadler. Point of order regarding the schedule?
    Mr. Johnson of Louisiana. Yes.
    Chairman Nadler. There's no point of order regarding the 
schedule.
    Mr. Johnson of Louisiana. Well, on this case there is, 
because----
    Chairman Nadler. There's no point of order regarding the 
schedule.
    Mr. Johnson of Louisiana [continuing]. Violated----
    Chairman Nadler. There's no--there's no----
    Mr. Johnson of Louisiana. Will you answer my question? It's 
a simple----
    Chairman Nadler. The gentleman will suspend. There is no 
cognizable point of order regarding the future schedule.
    Mr. Johnson of Louisiana. Okay.
    Chairman Nadler. Mrs. McBath----
    Mr. Johnson of Louisiana. A parliamentary inquiry, will you 
recognize that?
    Chairman Nadler. No.
    Mrs. McBath is recognized.
    Mrs. McBath. Thank you, Mr. Chairman.
    Mr. Goldman, I want to follow up on just one part of 
President Trump's conduct that I asked our constitutional 
scholars about last week.
    The investigative committees found evidence that President 
Trump intimidated, threatened, and tampered with prospective 
and actual witnesses in the impeachment inquiry, correct?
    Mr. Goldman. Yes.
    Mrs. McBath. And, Mr. Goldman, it is a Federal crime to 
intimidate or to seek to intimidate any witness appearing 
before Congress. Is that right?
    Mr. Goldman. Yes. There's a little bit more to it, but 
that's the gist of it, yes.
    Mrs. McBath. Mr. Goldman, am I correct that President Trump 
publicly attacked witnesses before, after, and even during 
their testimony?
    Mr. Goldman. That is correct.
    Mrs. McBath. I'd like to quickly go through some examples.
    On Twitter, the President tried to smear Ambassador Bill 
Taylor, a former military officer who graduated at the top of 
his class at West Point, served as an infantry commander in 
Vietnam, and earned a Bronze Star and an Air Medal with a ``V'' 
device for valor.
    He was attacked for doing his duty to tell the truth to the 
American people, correct?
    Mr. Goldman. He did his duty by testifying, yes.
    Mrs. McBath. President Trump also attacked other Trump 
administration officials who testified before the Intelligence 
Committee, including Lieutenant Colonel Alexander S. Vindman, 
who is the Director for Ukraine on the National Security 
Council, and Jennifer Williams, the Special Advisor on Europe 
and Russia with the Office of the Vice President. Am I right?
    Mr. Goldman. That is right, yes.
    Mrs. McBath. Mr. Goldman, I think another troubling example 
of this is the President's treatment of Ambassador Yovanovitch.
    When you questioned Ambassador Yovanovitch, you asked her 
about the President's remark that she would, and I quote, ``go 
through some things.'' She told you that that remark sounded 
like a threat. Is that right?
    Mr. Goldman. Yes. In the July 25 call, that's when 
President Trump said that.
    Mrs. McBath. Ambassador Yovanovitch is a career 
professional who served in Republican and Democratic 
administrations. She was once caught in live crossfire during a 
coup attempt, and here's how she described that experience in 
her very own words.
    [Video played.]
    Mrs. McBath. ``It was our duty.'' Even under such duress, 
this is a public servant who did her duty.
    And as she testified before you and the Intelligence 
Committee, the President tweeted yet another attack against 
her. Is that correct?
    Mr. Goldman. During the testimony, yes.
    Mrs. McBath. At a rally, the President further attacked 
Ambassador Taylor and Deputy Assistant Secretary of State 
George Kent, a foreign affairs official with decades of 
bipartisan service.
    I just have to say, I am so deeply saddened that our 
President has attacked our brave public servants. These attacks 
are an abuse of his power, and they betray our national 
interest.
    My Republican colleagues, until now, have agreed with me 
that this behavior is not okay, that in America we protect 
witnesses and people who tell the truth. We want people to come 
forward. We protect witnesses in our community. I, myself, am 
no stranger to these kinds of attacks. They are not okay.
    I want to read a partial statement by Lieutenant Colonel 
Vindman, who is a military officer and a public servant. In his 
opening statement to the Intelligence Committee, Mr. Vindman 
said, and I quote, ``I want to say that the character attacks 
on these distinguished and honorable public servants is 
reprehensible.''
    I ran for Congress because I care urgently about 
healthcare, gun violence prevention, and our veterans. Those 
are the urgent policies for me and many of my colleagues. But 
these witnesses, these public servants, stood up and 
courageously told the truth, and I must be courageous and stand 
up for them as well.
    And I yield back the balance of my time.
    Chairman Nadler. The gentlelady yields back the balance of 
her time.
    A few minutes ago, Mr. Biggs asked unanimous consent to 
admit an article from Politico into the record. Without 
objection.
    [The information follows:]
      


                   MR. BIGGS FOR THE OFFICIAL RECORD


=======================================================================

      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Nadler. Mr. Stanton.
    Mr. Stanton. Thank you, Mr. Chairman.
    We've heard today from some suggesting that this process 
has somehow been unfair. Mr. Goldman, let's clear up that 
record.
    Minority members on the investigative committees had access 
to all witness depositions. Is that correct?
    Mr. Goldman. Yes, and all the documents.
    Mr. Stanton. And were they allowed to ask questions of 
every witness?
    Mr. Goldman. The minority was given equal time to the 
majority for every single interview, deposition, or hearing 
that we did.
    Mr. Stanton. And the minority were allowed to call their 
own witnesses to the live hearings. Is that correct?
    Mr. Goldman. They were also--yes. And they did, and they 
got three witnesses.
    They were also allowed to call their own witnesses for the 
depositions. They chose not to do that. The only witness they 
requested for the deposition was Chairman Schiff, who is not a 
fact witness to this investigation.
    Mr. Stanton. Mr. Goldman, why did the investigative 
committees decide to conduct initial depositions behind closed 
doors?
    Mr. Goldman. Best investigative practice when you're doing 
a fact-finding mission is to keep the information closed. And 
the reason is exactly what I described earlier with Ambassador 
Sondland, who, first of all, the day before his deposition, he 
spoke with Secretary Perry about his testimony. That is the 
type of tailoring that can happen when people are engaged in 
misconduct and they try to line up their stories. So if you 
keep the information closed, they can't line up their stories.
    And I think, frankly, part of the reason why Ambassador 
Volker and Ambassador Sondland's public hearing testimony was 
so different from their deposition testimony is because the 
initial depositions were in closed session before we then 
released all the transcripts to the public.
    Mr. Stanton. And this isn't unprecedented, because in both 
the Nixon and Clinton impeachment inquiries there were either 
closed-door depositions or grand jury proceedings at the 
beginning of the inquiries.
    Mr. Goldman. That's correct. Nor it is unprecedented in 
Congress. This is actually a rule in the House rules that was 
passed by Republican Congresses. It was used in Benghazi; it 
was used by a number of committees for the past decade or so.
    Mr. Stanton. And, for clarity, President Trump has received 
all procedural protections afforded to other Presidents facing 
impeachment. Is that correct?
    Mr. Goldman. That is right. In the Judiciary Committee, 
he's had all of the options. Our inquiry was not the Judiciary 
Committee's investigation. That is where the President has the 
ability to present evidence. Of course, if the President wanted 
to present evidence in the Intelligence Committee, he could 
have provided documents, he could have provided the witnesses 
that we asked for him. But he obstructed rather than 
cooperated.
    Mr. Stanton. And the President has been invited to 
participate in the House's impeachment inquiry, correct?
    Mr. Goldman. Yes.
    Mr. Stanton. But the President declined the invitation?
    Mr. Goldman. That's my understanding, yes.
    Mr. Stanton. Twice?
    Mr. Goldman. Twice thus far, yes.
    Mr. Stanton. In fact, the President not only refused to 
participate but he has also tried to stop Congress from 
obtaining evidence. Isn't it true that the President has 
refused to produce any documents in response to the impeachment 
inquiry's subpoena to the White House?
    Mr. Goldman. Yes.
    Mr. Stanton. Not a single one?
    Mr. Goldman. Not a single document.
    Mr. Stanton. The President also directed all of his 
agencies to refuse to produce documents. Is that right?
    Mr. Goldman. That is also true.
    Mr. Stanton. Based on the President's order, Federal 
agencies have ignored more than 70 specific requests or demands 
for records from the investigative committees. Is that correct?
    Mr. Goldman. Yes. And if I could just add, this would----
    Mr. Stanton. Quickly, please.
    Mr. Goldman. This would ordinarily be a document case. If 
you were prosecuting this case, you'd be basing it on the 
documents. So the fact that those documents are being withheld 
is quite significant, and it's quite remarkable that we've 
built the record we have on the witnesses.
    Mr. Stanton. The President's order to obstruct Congress 
didn't just extend to documents. At the President's direction, 
witnesses also refused to testify. Is that right?
    Mr. Goldman. That's correct.
    Mr. Stanton. And, in total, more than a dozen members of 
the administration defied lawful subpoenas or requests for 
testimony or documents, as we see on the slide.
    Mr. Goldman. Right. Between testimony and documents, that's 
correct.
    Mr. Stanton. And isn't it also true that, when witnesses 
chose to follow the laws and testify, the President denied 
those witnesses access to the documents they needed to properly 
prepare for their testimony?
    Mr. Goldman. For some of them, that's correct.
    [Video played.]
    Mr. Stanton. The President was not denied the right to 
participate. Quite the opposite, the President has chosen not 
to participate. And he has consistently tried to obstruct the 
impeachment investigation to ensure no one testifies against 
him, that no one produces a document that may incriminate him, 
and to engage in a cover-up to prevent the American people from 
learning the truth.
    I yield back.
    Mr. Castor. Mr. Chairman, may I just say something for 5 
seconds?
    Chairman Nadler. The gentleman yields back.
    Mr. Castor. Mr. Chairman, please?
    Chairman Nadler. For what purpose does the gentleman seek--
--
    Mr. Castor. No, this is the witness. Can I just say 
something for 5 seconds?
    Chairman Nadler. No.
    The gentlelady, Ms. Dean, is recognized.
    Ms. Dean. Thank you, Mr. Chairman.
    Mr. Goldman, some have argued that we should wait, that 
we're moving too fast, that we should try to get more evidence. 
Let's examine why these arguments are without merit.
    President Nixon stated during the Senate Watergate 
investigation, quote, ``All members of the White House staff 
will appear voluntarily when requested by the committee. They 
will testify under oath, and they will answer fully all proper 
questions,'' end quote.
    During the investigation of President Clinton, Ken Starr 
interviewed White House staff. President Clinton also provided 
written responses to 81 interrogatories from the House 
Judiciary Committee.
    Unlike his predecessors, President Trump has categorically 
stonewalled Congress's investigation at every turn. Indeed, as 
far back as April, the President expressed his intent to 
stonewall.
    [Video played.]
    Ms. Dean. More recently, on October the 8th, White House 
counsel Pat Cipollone echoed this sentiment in a letter 
reflecting the President's instruction that all executive 
branch officials not testify in this impeachment inquiry.
    Are you aware of that letter, Mr. Goldman?
    Mr. Goldman. Yes, I am.
    Ms. Dean. And, Mr. Goldman, is it fair to say that 
President Trump is the only President in the history of our 
country to seek to completely obstruct an impeachment inquiry 
undertaken by this House?
    Mr. Goldman. That is correct. It is unprecedented.
    Ms. Dean. And, in fact, pursuant to President Trump's 
order, 12 executive branch officials refused to testify as part 
of the House impeachment inquiry, 10 of whom defied 
congressional subpoenas. Am I right?
    Mr. Goldman. Yes.
    Ms. Dean. Given the President's sweeping directive not to 
cooperate with Congress, did the investigative committees 
believe that there was any chance that other administration 
officials would come forward if subpoenaed?
    Mr. Goldman. No. It became clear that the President was 
trying to block everything and block everyone. And, eventually, 
they came up with an alternative reason to write an opinion to 
prevent people from coming, which is quite an aggressive view 
that they took. But it was quite clear that they were trying to 
block every single witness.
    Ms. Dean. Some have said that the investigative committees 
should have gone to court. Did you decide not to go to court?
    Mr. Goldman. We thought about it a lot because, obviously, 
there are additional witnesses and we want this to be as 
thorough an investigation. But, as you can see from the 
Deutsche Bank case or the McGahn case, it takes months and 
months to go through the appeals court. And that's effectively 
what the President wants, is just to delay this as long as 
possible into the next election.
    Ms. Dean. Let's take a look at that exact case, the McGahn 
case, because we're all intimately aware of it.
    On April 22, this Judiciary Committee served a subpoena for 
testimony to White House counsel Don McGahn. And after McGahn 
refused to testify on May 21, the committee filed a lawsuit on 
August the 7th to compel his testimony.
    And even though we did request expedited ruling, it was 
another 3-1/2 months before Judge Jackson found the 
Constitution does not allow a President to kneecap 
congressional investigations because, as the judge wrote and I 
put up on this screen, quote, ``Presidents are not kings.''
    As you know, McGahn has appealed, and a hearing is set for 
January the 3rd, now, of next year.
    As we sit here today, 8 months since we issued that 
subpoena, would you agree it's likely we will not have an 
appeals court ruling for many months to come?
    Mr. Goldman. It's quite possible that it could be several 
more months. And then there may be the Supreme Court.
    Ms. Dean. Exactly. McGahn may appeal to the Supreme Court. 
And, conceivably, that could take another many months? Year? 
More?
    Mr. Goldman. It depends on whether it's this term or it 
gets pushed over to the next term, but yes.
    Ms. Dean. And given this delay illustrated by the McGahn 
example specifically, would you agree that if we go to court to 
enforce the investigative committees' subpoenas we could face 
another months- or years-long delay to hear testimony?
    Mr. Goldman. Absolutely. And there's an ongoing threat, 
because the President is trying to cheat to win the next 
election. It's not a--it's not something that happened in the 
past; it's continuing in the future.
    So we cannot delay and just wait for the courts to resolve 
this when the reason why we would have to go to the courts is 
because the President is obstructing an investigation into 
himself.
    Ms. Dean. And the urgency is not just about our elections 
but also our national security. Am I right?
    Mr. Goldman. That is a critical component to it.
    Ms. Dean. Let me end with this. What is plain is that we 
cannot wait. What is plain is that ``wait'' means ``never.'' We 
must not let this President disregard, defy, and delay justice. 
This President has shown that he repeatedly abuses the power 
entrusted to him by the people. Every moment we wait is another 
opportunity to chip away at the foundation of our Constitution, 
so carefully crafted by our Founders.
    I thank you, Mr. Chairman, and yield back.
    Chairman Nadler. The gentlelady yields back.
    I yield to Ms. Jackson Lee for a unanimous consent request.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman.
    Thank you, Mr. Goldman and Mr. Castor.
    I'd like to submit--or ask unanimous consent to insert in 
the record, referred in my questioning, statement of 
administration policy, Department of Defense appropriations----
    Chairman Nadler. Without objection.
    Ms. Jackson Lee [continuing]. August 5----
    Chairman Nadler. Without objection.
    Ms. Jackson Lee [continuing]. And the call dated July 25.
    Chairman Nadler. Without objection.
    [The information follows:]
      


                MS. JACKSON LEE FOR THE OFFICIAL RECORD


=======================================================================

      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Nadler. Mr. Armstrong.
    Mr. Armstrong. Thank you, Mr. Chairman.
    And, Mr. Castor, it's been a long day. It's been a long 
couple months. You've been in the middle of this, and I know 
previously you wanted to say something, so.
    Mr. Castor. Thank you. I've resisted my willingness to be 
athletic here in the afternoon, but I want to say a few things.
    First of all, the Republicans on the Intelligence Committee 
submitted a number of subpoenas, and we never got a vote. There 
was a motion to table that disposed of them. Ranking Member 
Nunes sent a letter on November 8 asking for witnesses. Ranking 
Member Collins sent a letter on December 6 asking for 
witnesses.
    Some of these witnesses would've touched at the heart of 
the issue that our members are concerned about, and that is, 
you know, were Ukrainians trying to interfere with our 
elections? I mean, this is a fact that is meritorious of 
investigation. The Ukrainians ought to investigate it, and, to 
the extent it happened here in the U.S., we ought to be 
investigating it.
    And so, to the extent, you know, that hasn't happened, 
Republicans have attempted to do that during this process. So 
I'd like to say that.
    And I have a couple other things, Mr. Armstrong----
    Mr. Armstrong. Go ahead.
    Mr. Castor [continuing]. If I may.
    You know, Ambassador Sondland is, you know, relied on, and 
he went from a witness that was not very favorable to very 
favorable at his hearing.
    And one of the remarkable statements at his hearing was 
that everyone was in the loop. You know, he types up this email 
to Pompeo, to the Secretary, and the emails that he used to 
demonstrate that everyone was in the loop are not conclusive at 
all.
    You know, he talks about this statement that was going back 
and forth during the early part of August. First of all, Volker 
said all along that he didn't think the statement was a good 
idea. Volker and Yermak toyed around with the statement, and 
ultimately both sides decided that it wasn't a good plan, so 
they didn't do it.
    And so the fact that Sondland is emailing the Secretary, 
talking about this statement and so forth, it's just--this 
doesn't show that everyone's in the loop.
    Ambassador Hale testified to us that people at the State 
Department, they don't just email the Secretary. I mean, the 
Secretary gets email, of course, but it's not like this. You 
know, there's a whole secretariat that filters his email. And 
so it's not--emailing the Secretary of State is not quite as 
simple as I think Ambassador Sondland made it seem here. And so 
I just wanted to address that.
    We talked a couple times about the reliability of George 
Kent's notes. One of Ambassador Volker's assistants, Catherine 
Croft, testified--and it was a rather startling piece of 
testimony. She was asked whether Kent's notes would be 
reliable. It was sort of a typical question, and everyone 
expecting the answer to be yes--except she said, no, I don't 
think Kent's notes would be reliable.
    So I think that's important to put on the record, you know, 
that there is evidence that, you know, perhaps Mr. Kent, you 
know, felt some emotions about some of these issues, and his 
notes, at least according to one State Department official, 
might not, in fact, be reliable.
    The CNN interview that there's been discussion about. Okay, 
there was discussion about possibly doing a statement, which 
was canned. You know, maybe there was discussion of a CNN 
interview, but we did not really get to the bottom of that. 
That was sort of this amorphous fact that was out there. 
Ambassador Taylor testified that he was worried it would 
happen, but we didn't really talk to anyone that could tell us 
precisely what was going to occur, you know, in the CNN 
interview and whether President Zelensky was actually going to 
do it.
    If you look back at the statement that Yermak and Volker 
were talking about, Yermak wasn't comfortable doing it. And so, 
when it comes to the CNN interview, it's possible that Yermak 
would've advised President Zelensky not to say what people 
thought he was going to say.
    So, anyway, I'm sorry, Mr. Armstrong, for----
    Mr. Armstrong. No. You've----
    Mr. Castor [continuing]. Taking so much time.
    Mr. Armstrong [continuing]. Worked hard, and you deserve 
it.
    I just want to end and summarize with this, that because 
you cannot prove a crime--and the chairman went on TV yesterday 
and said they'd get a conviction in 3 minutes, but my question 
is, for what crime?
    The Mueller conspiracy fell flat. The obstruction charge 
was abandoned when the public hearing was over. Campaign 
finance is a nonstarter. The victim of conspiracy--or the 
victim of bribery and extortion says he's not a victim.
    Because you can't prove any of it does not mean you can use 
all of it. And that's no way to prosecute a case, and it is no 
way to proceed with impeachment.
    Thank you.
    Chairman Nadler. The gentleman yields back.
    Mr. Jordan. Mr. Chairman? Mr. Chairman?
    Chairman Nadler. Ms. Mucarsel-Powell.
    Mr. Jordan. Mr. Chairman?
    Chairman Nadler. Ms. Mucarsel-Powell is recognized.
    Mr. Jordan. Mr. Chairman?
    Chairman Nadler. Ms. Mucarsel-Powell is recognized.
    Ms. Mucarsel-Powell. Thank you, Mr. Chairman.
    And, Mr. Goldman, I want to come back and highlight what I 
think is the biggest national security threat, and that's 
foreign interference into our elections.
    And I can tell you that in Florida we're extremely 
concerned about the security of our elections and the potential 
for election interference by foreign governments, especially 
Russia, because Florida, my home State, was a victim of Russian 
hacking in 2016, and there's every indication that they're 
trying to do the same thing right now.
    Our country was founded on the premise that our elected 
officials are elected by the people. But President Trump 
doesn't share these ideas. He has and continues to demand 
foreign interference into our elections. He doesn't want the 
American people to decide. He's inviting foreign interference, 
allowing foreign governments to decide that for us.
    Mr. Goldman, it's been confirmed that President Trump's 
campaign actively sought Russia's interference in our 2016 
elections, correct?
    Mr. Goldman. What Special Counsel Mueller said is that 
President Trump did invite them and solicit them to hack 
Hillary Clinton's emails. Ultimately, the Trump campaign, I 
think, was--knew about the interference, welcomed it, and 
utilized it.
    Ms. Mucarsel-Powell. Right. And, in 2016, Trump said, 
``Russia, if you're listening,'' and within 5 hours Russian 
intelligence targeted the emails of Trump's opponent.
    On October 3, 2019, when asked what he hoped President 
Zelensky would do about the Bidens, this is what President 
Trump said.
    [Video played.]
    Ms. Mucarsel-Powell. And let me just point out, the 
President doesn't mention corruption, does he, Mr. Goldman?
    Mr. Goldman. No, he doesn't. As I said, it became quite 
clear in all of his comments and all of the other witnesses 
that any mention of corruption or anticorruption was really 
meant--and the evidence showed this--was really a euphemism for 
the investigations.
    Ms. Mucarsel-Powell. Correct.
    And Trump is not only asking--President Trump--excuse me--
is not only asking Ukraine, but he also says China should start 
investigating his political opponents.
    The President's pattern of behavior is incredibly 
disturbing. Russia, Ukraine, China--he's inviting three 
countries to help him in his reelection campaign. And, Mr. 
Goldman, I don't see any reason to believe he wouldn't ask any 
other governments--for example, Venezuela. Correct?
    Mr. Goldman. He could--I mean, at this point, he has shown 
not only a willingness to do it multiple times but, I think, 
more importantly, for all of the members' consideration, he's 
also shown a lack of contrition, a lack of acknowledgement that 
what he is doing is wrong and that it is wrong. And if you 
don't recognize that it is wrong, then there is no reason why 
you won't do it again if you've already done it.
    Ms. Mucarsel-Powell. Exactly. I mean, we saw Giuliani in 
Ukraine just 3 days ago. And, last night, I want to point out 
that The Washington Post actually released an article saying 
that Rudy Giuliani has been, now, advising on how to open a 
back channel between President Trump and Maduro. So I'm very 
worried about that.
    Now, I don't think we have any time to wait to see if any 
countries are now going to take him up on the offer to help him 
in his reelection campaign.
    Mr. Goldman, did the investigative committees reach any 
conclusions about the ongoing threats, the continuing risk that 
the President poses?
    Mr. Goldman. Yes, for the same reasons that we just 
discussed. And I think the June television interview with 
George Stephanopoulos this year, where the President indicated 
that he would once again welcome foreign interference, is 
another data point to understand where it is.
    And I would just say to Mr. Reschenthaler, who was 
questioning--was saying that he's got such a great record and 
that the Democrats just don't want him to win, the question is, 
if that is the case--and that very well may be the case--then 
why does he need to cheat to win the election? Why can't he 
just----
    Ms. Mucarsel-Powell. Exactly.
    Mr. Goldman [continuing]. Go on his own platform?
    Ms. Mucarsel-Powell. I think the Constitution demands that 
the President follow the rule of law and fight to keep our 
elections fair, free of corruption, and free of Russian 
interference--excuse me--foreign interference.
    Now, I know that I was elected by the people of Florida and 
I work only for the people of this country. I'm not going to 
let, while I'm in office, anyone interfere in our elections or 
threaten our democracy.
    The continuing pattern of behavior we've seen from this 
President should be a warning to the American people that it is 
a beginning of a dictatorship, which I have seen in Latin 
America. I've witnessed men in office abuse the power, inviting 
foreign interference and also obstructing any checks on their 
power.
    The Constitution--the Constitution--has no partisan 
allegiance. We cannot allow this behavior from this President 
or any future President. Our democracy depends on it.
    Chairman Nadler. The gentlelady yields back.
    I recognize Mr. Jordan for----
    Mr. Jordan. Thank you.
    Chairman Nadler [continuing]. The purpose of a unanimous 
consent request.
    Ms. Escobar. Mr. Chairman?
    Chairman Nadler. I recognize Mr. Jordan for the purpose of 
a unanimous consent request.
    Mr. Jordan. Thank you, Mr. Chairman.
    The majority's witness was wrong when he said that we were 
able to subpoena people and get our witnesses here.
    Chairman Nadler. Your unanimous consent request?
    Mr. Jordan. We were not. So I ask unanimous consent to 
enter into the record the two letters sent to Chairman Nadler 
and the other one to----
    Chairman Nadler. Without objection, the material will be 
entered into the record.
    [The information follows:]
      


                   MR. JORDAN FOR THE OFFICIAL RECORD


=======================================================================

      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Nadler. Ms. Escobar is recognized.
    Ms. Escobar. Thank you, Mr. Chairman.
    And many thanks to our witnesses who've spent the entire 
day with us. We're very grateful.
    Despite what our Republican colleagues have stated over and 
over again, their own witness, Mr. Castor, has agreed that 
these investigations have indeed produced direct evidence--
direct evidence which any objective observer, in my opinion, 
would regard as overwhelming.
    That evidence proves that the President solicited foreign 
interference in the 2020 election; pressured Ukrainian 
President Zelensky to publicly announce unfounded 
investigations; conditioned a White House meeting--the 
President conditioned a White House meeting and $391 million on 
the announcement of the investigations; and then the President 
covered up his conduct and obstructed the investigation.
    Those findings reflect a serious abuse of power by the 
President. Yet we are being asked to ignore what we've seen 
with our own eyes and what we've heard with our own ears.
    So, Mr. Goldman, I'd like your help in responding to some 
of the claims that my Republican colleagues have made today.
    Mr. Goldman. Happily.
    Ms. Escobar. The President and his allies say that there 
was no quid pro quo. In other words, they claim that the 
President wasn't withholding the aid in exchange for the 
manufactured political investigation.
    Isn't it true that the aid was withheld and that there has 
been no logical explanation for the withholding of that aid?
    Mr. Goldman. There is common sense that leads one to 
conclude that the aid was withheld for the investigations, and 
then there's always direct evidence, in that the President's 
own words to Ambassador Sondland on September 7 said the same 
thing.
    Ms. Escobar. Thank you.
    President Trump knew he had leverage over President 
Zelensky. And, in fact, David Holmes testified that Ambassador 
Sondland told President Trump that President Zelensky will, 
quote, ``do anything you ask him.'' Is that correct?
    Mr. Goldman. That is what Ambassador Sondland said--or, 
actually, that's what President Trump--Ambassador Sondland said 
to President Trump. Apologies.
    Ms. Escobar. You testified earlier that evidence shows that 
the Ukrainians, in fact, did know that the aid was being 
withheld. My colleagues continue to say and their witness 
continues to say that there couldn't be leverage because they 
had no idea that the aid was being withheld. Yet there has been 
evidence that shows that they knew. Is that correct?
    Mr. Goldman. Well, I think it's important, just for a 
second here, to take a step back. It doesn't matter when they 
knew, as long as they knew at some point. Then they realized at 
that point that the investigations were dependent on the aid.
    But, in addition, there is a lot of evidence that they knew 
before it became public on August 28.
    Ms. Escobar. And you're right, it doesn't matter. If you're 
about to be held up at gunpoint by a burglar, it doesn't matter 
whether you know or not, the intent is still there by the 
criminal about to commit the act. My Republican colleagues also 
make much about the fact that the aid was finally released. But 
isn't it true that it wasn't released until the President got 
caught?
    Mr. Goldman. It wasn't released until the President got 
caught, and all of the money didn't actually get to Ukraine in 
this--in that fiscal year. And you all in Congress had to pass 
another law to allow for the money to get to Ukraine.
    Ms. Escobar. Thank you.
    Earlier today Mr. Castor attempted to explain away the 
President's request for foreign interference in our election by 
claiming that the President had three concerns. That, number 
one, the President was concerned about Ukraine corruption; 
that, number two, he was concerned about burden-sharing with 
Europe; and number three, he brought up the debunked conspiracy 
theory about Ukraine election interference--which, by the way, 
that last point we know is a Russian talking point.
    Mr. Goldman, did the investigative committees consider 
those three explanations? And if so, what did the evidence show 
about whether President Trump's request was actually motivated 
by those concerns?
    Mr. Goldman. That's a very good question. There are two 
things that were discussed here today. One is evidence, and one 
is assertions and opinions.
    Based on the evidence, there is no evidence to support any 
of those three things that you just mentioned. There's no 
evidence to think that the President acted towards Ukraine 
because of his concerns about corruption. Even if he held those 
concerns, that was not the motivating factor.
    There's no evidence that his concern about other European 
countries giving enough money motivated him. And there's 
certainly not a reasonable belief, given all of the evidence, 
that he believed that Ukraine interfered in our 2016 elections.
    Ms. Escobar. Thank you.
    I'd like to close with what our scholars explained to us 
last week about why all of this is so important.
    [Video shown.]
    Ms. Escobar. Thank you, Mr. Chairman. I yield back.
    Chairman Nadler. The gentlelady yields back.
    Mr. Castor. May I respond to that?
    Chairman Nadler. This concludes the 5-minute round of 
questioning.
    I now recognize Mr. Raskin for the purpose of a unanimous 
consent request.
    Mr. Raskin. Mr. Chairman, I'm seeking unanimous consent to 
introduce a statement by the late Chairman Elijah Cummings of 
the Oversight Committee in his first hearing in the new 
Congress, which was on examining prescription drug prices. His 
first hearing was not about Michael Cohen, as was asserted 
earlier.
    Chairman Nadler. Without objection.
    [The information follows:]
      


                   MR. RASKIN FOR THE OFFICIAL RECORD


=======================================================================

      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Nadler. I now recognize the ranking member for any 
concluding remarks he may have.
    Mr. Collins. Thank you, Mr. Chairman.
    One quick thing before we end. It does matter when they 
knew and didn't know. Because after they supposedly found out, 
it does matter, because after the two meetings with officials 
from the United States, it was never talked about and no 
linkage was made. So it does matter.
    And the reason it matters is because if there is no 
understanding that it was being withheld, there is no threat, 
there is no quid pro quo. And it also goes to the state of mind 
of Mr. Zelensky, who said: I'm not being pressured, I'm not 
being--there's nothing here.
    And again it goes back to the amazing thought of this 
majority who keeps calling the Ukrainian leader a liar. It's 
just amazing that we continue to propagate that myth here 
tonight.
    But what did we learn today? Here are some things we did 
learn today. It's an unprecedented hearing that Mr. 
Sensenbrenner and others talked about in which staff basically, 
not members, gave testimony and questioned each other and got 
into very heated debates with each other. This is not what the 
Judiciary Committee should be doing. It's not the way this 
should be held.
    Again, the reason it is, Mr. Goldman, who handled himself 
very well, but he's not Adam Schiff, he doesn't wear a Member 
pin. This is ridiculous, we shouldn't be doing this.
    The Intel Committee, also what we did find out today, took 
phone records and went on a political endeavor against the 
ranking member and others, but no one will take responsibility 
for telling the staff to use Mr. Nunes' numbers or others, or 
who decided to put the smear job in the report. We'll just 
assume that's Mr. Schiff, since I do hold the Member 
accountable.
    You know, also we found out today, which is really 
interesting, that staff can determine what's relevant or not, 
not Members of Congress. It's interesting to me that staff told 
Members of Congress that that wasn't relevant or that wasn't 
relevant. Again it goes back to the problem of you don't have 
Members here to actually talk about this.
    Also, it just is another thing we've learned today that the 
chairman continues to just disregard House rules, just 
completely, blatantly disregarding House rules on not 
addressing the minority hearing day. And I if hear basically 
one more time, ``I'll address that when we're marking up 
impeachment articles,'' what is the use of a minority hearing 
day if you're going to have evidence about the markup, if you 
get the confirmation at the markup itself?
    Even your most heated debate on getting rid of this 
President does not show any way that can be fair. And in the 
end, both parties are in the minority. If you destroy the 
institutional integrity, which again the staff have talked 
about today, if we destroy the institutional integrity, there's 
nothing else for us to do.
    But while we were here there was something that did happen. 
And as we were sitting here discussing whether to impeach the 
President over a call he had with the Ukrainian President and 
President Zelensky, which took place on how--there was a look 
at how it happened in 2016. Democrats are seeking to impeach 
the President over that, and we're seeing the problems with the 
Russia investigation play out again in front of our eyes.
    The fuss over the Ukraine is the same thing, using the same 
playbook, a select group of individuals colluding against 
President Trump to ensure they get him, and they are blowing 
out--blowing through every procedure and principle of fairness 
and honesty to ensure they get him in time.
    So what happened today? While we were stuck here, the 
Inspector General report, the review of four FISA applications 
and other aspects of the FBI Crossfire Hurricane investigation.
    Here are some of the top findings. The FBI included 
inaccurate information in the Carter Page FISA application. The 
FBI failed to include exculpatory information in the FISA, that 
the FBI did not corroborate a huge amount of the information in 
the Page FISA. The FBI chose to defensively brief candidate 
Clinton, not candidate Trump.
    The FBI failed to disclose Bruce Ohr's information that 
Steele reporting was going directly to the Clinton campaign. An 
FBI attorney altered another agency's email to mislead about 
whether Carter Page had actually been a U.S. intelligent 
source.
    The bottom line, the report shows the Page FISA should have 
never been obtained. If you don't have the Page FISA, you don't 
have a Russia investigation. If you don't have a Russia 
investigation, you can't knock out the President as a candidate 
at the time of the 2016 election and you can't hamstring the 
President's first 2 years with a special counsel investigation.
    I go could on, but Mr. Durham, who has already weighed in, 
has the next batch of this, and we will see where it goes.
    But I do want to take one last thing from our side, because 
this undoubtedly will be the last hearing because we have no 
desire to hear anything from our side, minority hearing or 
otherwise.
    I want to take the time to thank Mr. Castor and Ms. Callen. 
They're the top investigators in the Intelligence and Judiciary 
Committee, and they combined have 15 to 20 years' experience in 
the House conducting investigations to protect American 
interests and taxpayer dollars.
    What these public servants don't usually do as a part of 
their work is field questions from others who come before them, 
from Democrat donors and pundits. Mr. Castor and Ms. Callen 
usually work for and alongside Members of Congress and fellow 
public servants.
    I'm sorry today that the majority chose to highlight their 
investigators and also the ones that have been brought in over 
these public servants. I'm sorry to choose that this is where 
we're at.
    By I would like to thank them for their work today. I'd 
like to thank them for their work on our behalf. But also I 
think really for all the ones listening here, if you look 
around the room, this is what's happening to the American 
people. By the end of the day, most in the back left, most of 
the members of the media are begging to go somewhere else, 
because at the end of the day your case isn't made.
    And one thing that just keeps amazingly said, from Mr. 
Goldman to the chairman to others, the facts--these facts are 
undisputed. The very nature of the fact that I say I disagree 
and you say you don't is a disputed fact. These are disputed 
facts. It'll be the first impeachment that is partisan, on 
facts that are not agreed to.
    That is the state in which the Judiciary has become. We 
have become a rubber stamp, just as the chairman predicted 
almost 20 years ago, when we willingly accept from someone else 
a project or a report that we don't investigate ourselves.
    And with that, that is the problem we have, and that is the 
farce called the Judiciary Committee impeachment scam today.
    I yield back.
    Chairman Nadler. I now recognize myself for concluding 
remarks.
    After hearing the reports and the evidence today, we now 
know several things with certainty. We know that the President 
was at the center of a scheme to pressure Ukraine to announce 
an investigation of the President's political rivals. He 
applied that pressure by withholding both a White House meeting 
and vital military aid. He made that demand directly to 
President Zelensky and confirmed his personal involvement on 
the White House lawn.
    We know that there are no excuses for this conduct. It is 
no excuse that President Trump eventually released the aid 
after his scheme was revealed to the public. And it is no 
excuse that he insisted that there was no quid pro quo only 
after his scheme was revealed to the public.
    We know that his actions endangered our national security, 
putting our alliances, our reputation, and our safety at risk.
    We know that the President also compromised the integrity 
of our elections for a corrupt private political purpose.
    We know that President Trump, in an unprecedented act of 
obstruction, ordered everybody in the executive branch to defy 
all congressional subpoenas for documents and subpoenas related 
to the impeachment inquiry.
    And we know that his attempts to solicit a political favor 
from the Government of Ukraine fit a pattern of conduct that 
the President established in 2016 when he solicited political 
assistance from the Government of Russia. That pattern of 
misconduct undermines our national security and undermines free 
and fair elections.
    In abusing his office in this manner, and in obstructing 
the investigation that followed, we know that President Trump 
has put himself before his country.
    I am struck by the fact that my Republican colleagues have 
offered no serious scrutiny of the evidence at hand. They have 
talked about everything else, but they have offered not one 
substantive word in the President's defense. I suspect that is 
because there is, at base, no real defense for the President's 
actions. President Trump put himself before his country.
    There is a constitutional remedy for a President who 
undermines our national security and our elections, who puts 
his own interests before those of the country. That remedy is 
impeachment.
    The facts are clear, the danger to our democracy is clear, 
and our duty is clear. President Trump violated his oath to the 
American people. He placed his own private interests ahead of 
our national security and the integrity of our elections and 
constitutes a continuing threat to the integrity of our 
elections and to our democratic system of government. Such 
conduct is clearly impeachable. This committee will proceed 
accordingly.
    This concludes today's hearing. We thank all the 
representatives for participating.
    Without objection, all members will have 5 legislative days 
to submit additional written questions for the presenters or 
additional materials for the record.
    Chairman Nadler. Without objection, the hearing is 
adjourned.
    [Whereupon, at 6:43 p.m., the committee was adjourned.]
</pre></body></html>
